Department of the Navy
ANNUAL FINANCIAL REPORT




                                     FISCAL YEAR 2006
                         Global Access, Global Responsibility
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                  Department of the Navy
      ANNUAL
2006 Annual FinancialFINANCIAL       REPORT
                      Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                  FISCAL YEAR 2006
2006 Annual Financial Report 2006 Annual Financial Report
             Global Access, Global Responsibility
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2005 Gold Vision Award
   Department of the Navy
     Fiscal Year 2005 Annual Financial Report
2006 Annual Financial Report




        Table of Contents
        Message from the Secretary of the Navy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

        Message from the Assistant Secretary of the Navy (Financial Management & Comptroller) . .5

        Management’s Discussion and Analysis. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

        Department of the Navy General Fund
              Principal Statements . . . . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 63
              Notes to the Principal Statements . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 75
              Supporting Consolidating/Combining Statements .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   133
              Required Supplementary Stewardship Information                .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   145
              Required Supplementary Information . . . . . . . .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   151
              Other Accompanying Information . . . . . . . . . .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   165

        Navy Working Capital Fund
              Principal Statements . . . . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   169
              Notes to the Principal Statements . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   179
              Supporting Consolidating/Combining Statements .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   221
              Required Supplementary Information . . . . . . . .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   241
              Other Accompanying Information . . . . . . . . . .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   247

        Subsidiary Financial Statements

                 United States Marine Corps General Fund
                 Principal Statements . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   249
                 Notes to the Principal Statements . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   261
                 Supporting Consolidating/Combining Statements .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   307
                 Required Supplementary Stewardship Information             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   309
                 Required Supplementary Information . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   313
                 Other Accompanying Information . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   319

                 Navy Working Capital Fund -- Marine Corps
                 Principal Statements . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   321
                 Notes to the Principal Statements . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   331
                 Supporting Consolidating/Combining Statements .            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   373
                 Required Supplementary Information . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   375
                 Other Accompanying Information . . . . . . . . . .         .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   377

        Audit Opinions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 379

        Photo Cover Credits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 396




                                                                                                                                                                   1
                                     Department of the Navy




    The Honorable Donald C. Winter
           Secretary of the Navy




2
2006 Annual Financial Report




                               3
                                                Department of the Navy




    The Honorable Richard Greco, Jr.
       The Assistant Secretary of the Navy
       (Financial Management and Comptroller)




4
2006 Annual Financial Report




                               5
    Department of the Navy




6
                                            Department of the Navy

                   Management’s Discussion and Analysis


                              2006


                                                                         Management’s Discussion and Analysis
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                     7
2006 Annual Financial Report 2006 Annual Financial Report
    Fiscal Year 2006 In Review               Department of the Navy



                The Military SealiĞ
           Command hospital ship
             USNS Comfort (T-AH
          20) moored in the Port of
         Pascagoula, Mississippi to
          provide medical support
              and humanitarian aid
            to victims of Hurricane
                           Katrina.




       OCTOBER 2005
                                           The 31st Marine
                                           Expeditionary Unit’s Fox
                                           Company participated in
                                           PHILBEX 06, an annual
                                           bilateral exercise designed
                                           to improve interoperability,
                                           increase readiness, and
                                           continue professional
                                           relationships between the
                                           United States and Philippine
                                           Armed Forces.




                                       NOVEMBER 2005
       The amphibious assault ship
             USS Nassau (LHA 4), in
         foreground, sailed through
       the Suez Canal in November
               2005. Nassau was the
          ﬂagship for Expeditionary
          Strike Group Eight, which
        was deployed in support of
           the Global War on Terror.




8
2006 Annual Financial Report



     An F/A-18F Super Hornet launched from the
   aircraĞ carrier USS KiĴy Hawk (CV 63) during
      the bilateral Annual Exercise (ANNUALEX)
       conducted in November 2005. The purpose
            of ANNUALEX is to improve bilateral
  interoperability, defend Japan against maritime
     threats, and to improve capability for surface
        warfare, air defense and undersea warfare.




                                                       USS Ohio (SSGN 726) returned to Puget Sound
                                                       Naval Shipyard and Intermediate Facility
                                                       in Bremerton, Washington aĞer completing
                                                       sea trials. Ohio was the ﬁrst ballistic missile
                                                       submarine to complete conversion to the new
                                                       class of guided missile submarines.




                                                       DECEMBER 2005

     The Nimitz-class aircraĞ carrier USS George
 Washington (CVN 73) returned to her homeport
  in Norfolk, Virginia aĞer completing sea trials.
       Carrier sea trials help determine the ship’s
material readiness and ability to rejoin the ﬂeet as
                           a fully operational unit.




                                                       On January 3, 2006, the Honorable Dr. Donald
                                                       C. Winter, accompanied by his wife, Linda, took
                                                       the oath of oﬃce as the 74th Secretary of the
                                                       Navy. The Honorable Gordon England, Deputy
                                                       Secretary of Defense administered the oath.




                                                                   JANUARY 2006

                                                                                                         9
                                        Department of the Navy



       Chief of Naval Operations
        Admiral Michael Mullen
     met with Sailors assigned to
     the 30th Naval Construction
     Regiment at Camp Fallujah,
                            Iraq.




     FEBRUARY 2006
                                      Marine Combat Engineers
                                      boarded a CH-53
                                      helicopter to support
                                      humanitarian relief eﬀorts
                                      in the Philippines, where
                                      a landslide occurred on
                                      February 17, 2006.




                                     MARCH 2006
     Helicopter Anti-Submarine
             Squadron Two (HS-2)
         reviews ﬂight details on
        an operational map prior
             to an evening combat
       search and rescue training
     evolution during Operation
      Foal Eagle, a joint land and
     maritime training operation
        utilizing forces from both
        the United States and the
                Republic of Korea.




10
2006 Annual Financial Report



A Boatswain’s Mate 1st Class hugged his daughter
   goodbye as the amphibious transport dock USS
Trenton (LPD 14), part of the Global War on Terror
   Surface Strike Group, prepared to depart Naval
                                  Station Norfolk.




APRIL 2006


                                                        Nine hundred eighty Midshipmen graduated
                                                        from the U.S. Naval Academy in Annapolis,
                                                        Maryland on May 26, 2006.




                                                        MAY 2006



The guided-missile cruiser USS Cowpens (CG 63),
     in foreground, followed by the guided-missile
    destroyers USS Lassen (DDG 82) and USS John
    S. McCain (DDG 56), the guided-missile frigate
 USS VandegriĞ (FFG 48), and the Military SealiĞ
  Command underway replenishment oiler USNS
Tippecanoe (T-AO 199) sailed in formation during
        Exercise Valiant Shield 2006. Valiant Shield
   focused on integrated joint training among U.S.
military forces, enabling real-world proﬁciency in
  sustaining joint forces and in detecting, locating,
  tracking, and engaging units at sea, undersea, in
                                the air, and on land.


JUNE 2006
                                                        Commandant of the Marine Corps General
                                                        Michael Hagee delivered the ﬁrst in a series of
                                                        speeches at Camp Pendleton, California on the
                                                        value and signiﬁcance of the Marine Corps and
                                                        proper decision-making.




                                                                                                          11
                                           Department of the Navy



        Master Chief PeĴy Oﬃcer
       of the Navy (MCPON) Joe
         R. Campa Jr. received the
          ceremonial cutlass from
           MCPON Terry D. ScoĴ
        during a change of charge
     ceremony at the Washington
      Navy Yard on July 10, 2006.




     JULY 2006


                                         The guided-missile
                                         destroyers USS Pinckney
                                         (DDG 91) and USS
                                         Shoup (DDG 86) sailed
                                         in formation during the
                                         Rim of the Paciﬁc exercise
                                         (RIMPAC), which concluded
                                         July 28, 2006 aĞer a month
                                         of intensive warfare training
                                         conducted oﬀ the coast
                                         of the Hawaiian Islands.
                                         RIMPAC, the world’s largest
                                         biennial maritime exercise,
                                         brings together military
                                         forces from Australia,
                                         Canada, Chile, Peru, Japan,
                                         the Republic of Korea, the
                                         United Kingdom, and the
                                         United States.


                                       AUGUST 2006
           A Seaman stands watch
       on the quarter deck of the
        amphibious dock landing
            ship USS Tortuga (LSD
        46) as Philippine Marines
          arrive to take part in the
         amphibious landing and
        training phase of exercise
                Cooperation Aﬂoat
           Readiness and Training
          (CARAT). CARAT is an
         annual series of bilateral
      maritime training exercises
       between the United States
             and six Southeast Asia
        nations designed to build
       relationships and enhance
     the operational readiness of
           the participating forces.




12
2006 Annual Financial Report



At the request of the U.S. Ambassador to Lebanon
  and at the direction of the Secretary of Defense,
       the U.S. Central Command and elements of
 Task Force 59 assisted with the departure of U.S.
                     citizens from Beirut, Lebanon.




SEPTEMBER 2006


                                                      Secretary of the Navy, Dr. Donald C. Winter
                                                      presented the Navy Cross to the wife of Sonar
                                                      Technician 2nd Class (SEAL) MaĴhew G. Axelson
                                                      during a ceremony at the Navy Memorial in
                                                      Washington, DC.




The F-14 Tomcat was oﬃcially retired at Naval Air
 Station Oceana aĞer 36 years of honorable service
                                 in the U. S. Navy.




                                                      The nation’s ﬁrst LiĴoral Combat Ship, Freedom
                                                      (LCS 1) was christened and launched on
                                                      September 24, 2006 at the MarineĴe Marine
                                                      shipyard in Wisconsin. The 377-foot Freedom
                                                      will help the U.S. Navy defeat growing threats
                                                      from the liĴorals (i.e., close-to-shore areas) and
                                                      provide access and dominance in coastal water
                                                      baĴle-space.




                                                                                                           13
                                                                                                                    Department of the Navy




     The oﬃcial seal of the Department of the Navy is engraved on the Navy and Marine Corps Memorial. The Navy and Marine Corps
     Memorial is dedicated to the thousands of Americans who have perished in the sea and to those whose destiny still is linked with our
     naval and maritime services.




14
2006 Annual Financial Report



Introduction
The men and women of the U.S. Navy and the U.S. Marine Corps are deployed around the
globe at sea and ashore. Operating from the sea, our Sailors and Marines use revolutionary
information and dispersed,
networked force capabilities to deliver
unprecedented oﬀensive power,
                                             The Department of the Navy
                                             Founded 30 April 1798
defensive assurance, and operational
independence to Joint Forces                 Our Mission: Maintain, train and equip
Commanders. Shore installations at           combat-ready Naval forces capable of winning
key forward locations provide logistics      wars, deterring aggression and maintaining
                                             freedom of the seas.
support beneﬁts and facilitate rapid
response to threats and contingencies.
When our ships, aircraĞ, Sailors, and Marines deploy around the globe, they carry with them
what they need to accomplish the mission at hand—with or without host-nation support.

With global access comes global responsibility. Our Sailors and Marines must sustain combat
readiness to ﬁght and win the long war on terror and other armed conﬂicts, deter aggression,
and promote peace and security. They must keep the global sea-lanes open for the peaceful
movement of international commerce, forge constructive relationships with navies and coast
guards around the globe, and provide humanitarian and crisis response to natural disasters.

This global perspective begins at home with the Department of the Navy’s commitment to
its overall mission and the Congress’ investment that makes accomplishing this mission a
ﬁscal reality. The Fiscal Year 2006 Management’s Discussion and Analysis (MD&A) provides
perspective on the breadth and depth of the Department of the Navy’s mission and the
resources appropriated to it by Congress. Speciﬁcally, the MD&A provides an overview of the
Department of the Navy’s ﬁnancial and performance results for the 12-month period ending
September 30, 2006 and is comprised of the following sections:

      •    Organization and Mission

      •    Strategic Management

      •    Management Integrity

      •    Financial Reporting Results

      •    Looking Forward: Fiscal Year 2007 and Beyond


Organization and Mission
The Department of the Navy is organized under the Secretary of the Navy, a civilian appointed
by the President, who conducts all Department aﬀairs under the authority, direction, and
control of the Secretary of Defense (Sections 5011 and 5013, Title 10 U.S. Code).



                                                                                                15
                                                                                                                                              Department of the Navy



     Under the purview of the Secretary of the Navy are key military leaders—the Chief of Naval
     Operations, a four-star Admiral, and the Commandant of the Marine Corps, a four-star
     General. The Chief of Naval Operations is responsible to the Secretary of the Navy for the
     command and operating eﬃciency of the U.S. Navy and Navy shore establishment as well as
     their utilization of resources (Section 5033, Title 10 U.S. Code). The Commandant of the Marine
     Corps is responsible to the Secretary of the Navy for the performance of the U.S. Marine Corps,
     including the administration, discipline, internal organization, training, eﬃciency, and readiness
     of the service and for meeting all of its resource requirements (Section 5043, Title 10 U.S. Code).

     The U.S. Navy and the U.S. Marine Corps together comprise the Department of the Navy’s
     joint war-ﬁghting team. Both services have numerous major commands that operate under the
     authority and responsibility of a commander or other designated oﬃcial and typically support
     a network of subordinate commands. Each major command has a clearly deﬁned mission that
     supports the overall Department mission.

     The chart below provides a simpliﬁed illustration of the Department of the Navy organizational
     structure. The full structure is shown online at hĴp://www.navy.mil under “Navy Organization.”


                                                                 SECRETARY OF THE NAVY
                                                                   UNDER SECRETARY OF THE NAVY


      Assistant Secretary of the Navy                Assistant Secretary of the Navy       Assistant Secretary of the Navy             Assistant Secretary of the Navy
       (Research, Development & Acquisition)               (Manpower & Reserve Aﬀairs)     (Financial Management & Comptroller)               (Installations & Environment)




                                         CHIEF OF NAVAL                                                              COMMANDANT OF THE
                                          OPERATIONS                                                                    MARINE CORPS



               U.S. Navy                       U.S. Navy                  U.S. Navy           U.S. Marine Corps           U.S. Marine Corps             U.S. Marine Corps
           Shore Establishment                 Reserves                 Operating Forces      Operating Forces                 Reserves              Supporting Establishment



     * Dashed line signiﬁes collaboration of the U.S. Navy and the U.S. Marine Corps operating forces.



           United States Navy                                                                 United States Marine Corps
           The Navy shall be organized, trained,                                              The Marine Corps shall be organized,
           and equipped primarily for prompt and                                              trained, and equipped to provide ﬂeet
           sustained combat incident to operations at                                         marine forces of combined arms, together
           sea. It is responsible for the preparation                                         with supporting air components, for service
           of naval forces necessary for the eﬀective                                         with the ﬂeet in the seizure or defense of
           prosecution of war except as otherwise                                             advanced naval bases and for the conduct
           assigned and, in accordance with integrated                                        of such land operations as may be essential
           joint mobilization plans, for the peacetime                                        to the prosecution of a naval campaign.
           components of the Navy to meet the needs                                           (Section 5063, Title 10 U.S. Code)
           of war. (Section 5062, Title 10 U.S. Code)
           Founded 13 October 1775                                                            Founded 10 November 1775
           hĴp://www.navy.mil                                                                 hĴp://www.usmc.mil



16
2006 Annual Financial Report



Navy Organization
The Navy continued its organizational transformation eﬀorts in Fiscal Year 2006. A brief
discussion of the Navy Enterprise Model and Navy organizational changes follows.

      Navy Enterprise Model
      The Navy Enterprise Model is an evolving, behavioral concept designed to maximize
      the operational eﬃciency and eﬀectiveness of the Navy. Over the next four ﬁscal years,
      the Navy will undergo a management transformation that uses existing organizations
      and resource allocation mechanisms but applies a diﬀerent construct. This management
      transformation also includes corporate governance, lines of business, and supporting
      functional units (see illustration below). This change will create incentives and produce
      behavior that should result in a beĴer aligned, more eﬀective infrastructure.

      Below is a brief description of each Navy Enterprise component and the Navy Enterprise’s
      primary customer—the Naval Components of each of the Uniﬁed Commands.

      Enterprise Governance. The Navy Enterprise governance structure is comprised of senior
      Navy civilian and military leaders who are responsible for the strategic guidance and
      ﬁscal direction of the overall Navy Enterprise.



                                            The Emerging Navy Enterprise Model – a behavioral construct


     Providers/Enablers                                                                       Warfare Enterprises
     (Supporting Warfare Enterprises)                                                         (Delivering Combat Capability)



             Resources at Each
                                   People
                                                                         ain                    in                 in                 in
                                                                                           ma                    ma                 ma
         Enterprise Intersection
                                                                                                                                                               in
                                   Dollars
                                                                    Dom                  Do                    Do                 Do                o   ma
                                   Capability                                        e                     e                  e                  eD
                                                                are              far                   far                far                 ar
                                                            arf            W
                                                                               ar
                                                                                                 W
                                                                                                     ar
                                                                                                                    W
                                                                                                                        ar                 arf
                                                           W                                                                           W
     Providers and Enablers
                                                 NAE            SWE                 USE                   NNFE               NECE                                                               Output =
      Manpower                                                                                                                                                 p      le                        Readiness at cost
                                                                                                                                                        P   eo
                                                                                                                                                                rs
      Logistics                                                                                                                                             lla          s
                                                                                                                                                        Do           ice
                                                                                                                                                                  rv
                                                                                                                                                               Se
      Installations
                                                                                                                                                           l&
                                                                                                                                                   te  ria
      Health Care                                                                                                                           Ma                                    xt
                                                                                                                                                                                       +
                                                                                                                                                                            Ne               re
                                                                                                                                                                                           tu
                                                                                                                                                                  t                  Fu
                                                                                                                                                               x
      Science/Tech                                                                                                                                          Ne                     s
                                                                                                                                                                                es
                                                                                                                                                   P                         in
                                                                                                                                               D             nt            ad
                                                                                                                                            FY           rre           Re
                                                Aviation       Surface         Undersea              Networks            Combat                        Cu
                                                                                                                         Support




                                                                                                                                                                                                                    17
                                                                                                                 Department of the Navy




     Chief of Naval Operations (CNO) Admiral Michael Mullen answers questions during an all-hands call in the auditorium at the Pentagon.




18
2006 Annual Financial Report



Warfare Enterprises and Supporting Organizations. The Navy Enterprise includes ﬁve
Warfare Enterprises that function as lines of business to deliver war-ﬁghting capabilities to their
customers, the Naval Components of each of the Uniﬁed Commands.

      •    Naval Aviation Enterprise – Responsibility of Commander, Naval Air Forces (CNAF)

      •    Naval Surface Warfare Enterprise – Responsibility of Commander, Naval Surface
           Forces (CNSF)

      •    Naval Undersea Enterprise – Responsibility of Commander, Naval Submarine Forces
           (CSF)

      •    Naval Expeditionary Combat Enterprise – Responsibility of Naval Expeditionary
           Combat Command (NECC)

      •    Naval NETWAR/FORCEnet Enterprise – Responsibility of Naval Network Warfare
           Command (NETWARCOM)

Additionally, ﬁve Navy program elements will support the Warfare Enterprises in meeting their
warfare requirements.


      •    Manpower, Personnel, Training and Education (MPT&E) – Led by the Chief of Naval
           Operations’ Director of Naval Education and Training, and the Deputy Chief of Naval
           Operations for Manpower and Personnel

      •    Acquisition, Technical Authority and Logistics (AT&L) – Led by the Senior
           Commander of the Systems Commands

      •    Installations Management – Led by Commander, Navy Installations Command

      •    Health Care – Led by the Navy Surgeon General

      •    Science and Technology – Led by the Oﬃce of Naval Research

Warfare Enterprises’ Primary Customer. The Naval Components of each of the nine Uniﬁed
Commands are the Warfare Enterprises’ primary customer. The nine Uniﬁed Commands are
comprised of ﬁve Geographic Commands and four Functional Commands (see illustrations on
the next page).




                                                                                                      19
                                                                                Department of the Navy




     Geographic Commands
     1.   U.S. Paciﬁc Command (USPACOM): U.S. Paciﬁc Fleet, 3rd and 7th Fleets
          (www.cpf.navy.mil); U.S. Marine Corps Forces, Paciﬁc and Fleet Marine Force,
          Paciﬁc (www.mfp.usmc.mil)

     2.   U.S. Central Command (USCENTCOM): U.S. Naval Forces Central Command
          and 5th Fleet (www.cusnc.navy.mil); U.S. Marine Corps Forces Central Command
          (www.marcent.usmc.mil)

     3.   U.S. European Command (USEUCOM): U.S. Naval Forces Europe and 6th Fleet
          (www.naveur.navy.mil); U.S. Marine Corps Forces, Europe (www.mfe.usmc.mil)

     4.   U.S. Southern Command (USSOUTHCOM): U.S. Naval Forces Southern Com-
          mand (www.cusns.navy.mil); U.S. Marine Corps Forces, South (www.mfs.usmc.mil)

     5.   U.S. Northern Command (USNORTHCOM): USNORTHCOM has few
          permanently assigned forces. However, naval personnel (civilians and uniformed
          services) are among the civil service employees and uniformed service members at
          USNORTHCOM headquarters (Peterson Air Force Base, Colorado)
          (www.northcom.mil)




20
2006 Annual Financial Report




 Functional Commands
 U.S. Joint Forces Command                                        U.S. Strategic Command
 U.S. Fleet Forces Command                                        U.S. Fleet Forces Command
 (www.cﬀc.navy.mil)                                               (www.cﬀc.navy.mil)

 U.S. Marine Corps Forces Command                                 U.S. Marine Corps Forces, Strategic Command
 (www.jfcom.mil/about/com_marfor.htm)                             (www.marforstrat.usmc.mil)

                                                                  Ballistic Missile Submarines
                                                                  (www.chinfo.navy.mil)

 U.S. Special Operations Command                                  U.S. Transportation Command
 U.S. Naval Special Warfare Command                               Military SealiĞ Command
 (www.navsoc.navy.mil)                                            (www.msc.navy.mil)

 U.S. Marine Corps Forces, Special Operations
 Command
 (www.marsoc.usmc.mil)




An Airman salutes the ﬂag during morning colors aboard the amphibious assault ship USS Tarawa (LHA 1).




                                                                                                                21
                                                                               Department of the Navy



     Navy Organizational Changes
     Our organizations are dynamic, adapting to a changing operational and business
     environment. Below are representative examples of signiﬁcant Navy organizational
     changes that occurred during Fiscal Year 2006 or that are anticipated in Fiscal Year 2007.
     The examples are part of a broader list of Navy organizational changes.

     •   On January 13, 2006, the Navy Expeditionary Combat Command (NECC) was
         established, bringing together Explosive Ordnance Disposal, Naval Coastal Warfare,
         Navy Expeditionary Logistics Support functions, and the Seabees under one
         organization. NECC integrates all war-ﬁghting requirements for expeditionary
         combat and combat support elements for naval anti-terrorism and force protection
         missions.

     •   U.S. Naval Special Warfare Command (hĴp://www.navsoc.navy.mil) established U.S.
         coastal support activities in response to the Department of the Navy’s expanding role
         in the Global War on Terror.

     •   Oﬃce of Naval Research (hĴp://www.onr.navy.mil) established the Expeditionary
         Maneuver Warfare and Combating Terrorism Department to lead the Department
         of the Navy’s Science and Technology eﬀort in developing future naval combat
         capabilities and combating terrorism.

     •   Oﬃce of Naval Intelligence (hĴp://www.nmic.navy.mil), in collaboration with the U.S.
         Coast Guard Intelligence Coordination Center, expanded its organization to include
         a Maritime Homeland Threat Analysis Division to support the Department of the
         Navy’s role in Homeland Security.

     •   Bureau of Medicine and Surgery (hĴp://navymedicine.med.navy.mil) established four
         regional commands to increase eﬃciency of Navy medical and health care services.

     •   Naval Facilities Engineering Command (hĴp://www.navfac.navy.mil) reached the ﬁnal
         milestone of its transformation structural realignment, consolidating 25 component
         commands to 16 and aligning with Commander, Navy Installations Command (hĴp://
         www.cni.navy.mil) regions.

     •   Eﬀective October 1, 2006, the Navy Personnel Command (hĴp://www.npc.navy.mil) and
         the Naval Education and Training Command (hĴps://www.cnet.navy.mil) merged to
         become part of the Manpower, Personnel, Training and Education (MPT&E) domain,
         established in July 2005.

     •   Space and Naval Warfare Command (hĴp://www.spawar.navy.mil) Program Executive
         Oﬃce for Information Technology (PEO (IT)) was renamed “PEO for Enterprise
         Information Systems (EIS)” with leadership and oversight responsibilities for the
         Navy Marine Corps Intranet (NMCI), Navy Enterprise Resource Planning (ERP), Base
         Level Information Infrastructure/One NET (BLII/One NET) and the Global Combat
         Support System – Marine Corps (GCSS-MC).

     •   All Naval Reserve Centers were renamed “Navy Operational Support Centers” to
         more accurately describe the integrated role of the Navy Reserve (hĴp://navyreserve.
         navy.mil) in the daily planning and operations of the U.S. Navy Operating Forces.

22
2006 Annual Financial Report




The Navy’s Flight Demonstration team, the Blue Angels, performs the Fleur De Lis, a maneuver performed as an aerial salute to the men
and women of the Armed Forces at Marine Corps Air Station Miramar.




                                                                                                                                        23
                                                                                   Department of the Navy



     Marine Corps Organization
     The Marine Corps continued its organizational transformation eﬀorts in Fiscal Year 2006.
     A brief discussion of Marine Corps Business Enterprise and Marine Corps organizational
     changes follows.

                           Marine Corps Business Enterprise
                            The Marine Corps Business Enterprise crosses all organizational
                            boundaries and includes all resources, processes, and products
                            and services that support the war-ﬁghter. Sustained by the skills
                            and knowledge of the Marine Corps workforce, the Business
                            Enterprise drives innovation and change through end-to-end
          business process improvements that deliver value with fewer resources. Among the
          business transformation tools employed by the Business Enterprise are lean thinking,
          regionalization, competitive sourcing, process reengineering, divestiture, and elimination
          of non-core functions. Through a common business information system, the Business
          Enterprise will provide timely and accurate cost and performance data required for
          eﬀective decision-making and command and control of business operations.

          The Business Enterprise is instrumental to achieving the objectives of the President’s
          Management Agenda, the Department of Defense Business Transformation Agency,
          the National Security Personnel System, the Sea Enterprise vision, and a series of
          congressional measures that challenge the military services to transform business practices
          as well as military capabilities.

          Marine Corps Organizational Changes
          Below are representative examples of signiﬁcant Marine Corps organizational changes
          that occurred during Fiscal Year 2006. The examples are part of a broader list of Marine
          Corps organizational changes.

          •    The Marine Corps established a Special Operations Command, known as MARSOC,
               to provide direct support to current and future Special Operations Forces missions
               under the purview of the U.S. Special Operations Command (USSOCOM). MARSOC
               will train Marines to perform key tasks, such as special reconnaissance, foreign
               internal defense, and counterterrorism. MARSOC is expected to be fully operational
               by 2010.

          •    Marine Corps Depot Maintenance and Supply Management Activity Groups
               expanded their organizations to increase eﬃciency and improve customer support.




24
2006 Annual Financial Report




A Marine assigned to India Company 3rd BaĴalion 3rd Marines (3/3) patrols enemy positions aĞer taking ﬁre in a palm grove.




                                                                                                                             25
                                                                                      Department of the Navy



     Strategic Management
     Changes in the global security environment and the challenges that have emerged since the
     events of September 11, 2001 and the subsequent engagement in Afghanistan and Iraq have
     compelled the Department of the Navy to balance the requirements of traditional naval
     capabilities with those needed to confront and inﬂuence our changing world. Non-traditional
     missions, such as counter-terrorism, humanitarian aﬀairs, disaster relief, and counter-piracy,
     have become integral to the overall Department of the Navy mission. These new missions
     require the Department of the Navy to change rapidly and become a more agile, eﬀective, and
     eﬃcient enterprise in support of the war-ﬁghter.

     The Department of the Navy’s keystone vision document, Naval Power 21, focuses on the near-
     term development of the Navy and Marine Corps team to meet the emerging global threats and
     challenges of this new era. The Navy and Marine Corps have deﬁned their respective Service
     strategies for achieving the Naval Power 21 vision in Sea Power 21 and Marine Corps Strategy 21.
     Each strategy reinforces and expands operational concepts that will enhance America’s ability to
     project oﬀensive power, defensive assurance, and operational independence around the globe.

     The emerging Navy Enterprise model, described under “Organization and Mission,” will
     support Sea Power 21 by aligning, organizing, integrating, and transforming the Navy to
     meet 21st century challenges, especially the demands of unrestricted, irregular warfare. In
     particular, the Navy Enterprise strategic management process will include an integrated model
     that cascades to the Warfare Enterprises and supporting organizations and informs decision-
     making and resource allocation. Additionally, customer-driven business processes, a common
     set of linked metrics, integrated capabilities, transparency of information, and other factors will
     enable the Navy Enterprise to maximize readiness while minimizing cost.

     The Department of the Navy Financial Management Strategic Plan, Transforming Today to
     Win Tomorrow, issued by the Assistant Secretary of the Navy (Financial Management and
     Comptroller) in April 2005, will support the Navy’s transition to the Enterprise Model. The
     Navy and Marine Corps ﬁnancial management community has sustained progress in human
     capital development, business practices improvement, and customer communications. These
     are three areas described in the strategic plan as critical to eﬀective and eﬃcient ﬁnancial
     management—a key enabler for the success of the Navy Enterprise Model implementation.

     Balanced Scorecard for Risk Management
     The Department of the Navy uses the Balanced Scorecard for Risk Management to measure,
     evaluate, and improve strategic performance consistent with the goals of defense policy
     and the President’s Management Agenda—a government-wide initiative to improve federal
     performance and management (hĴp://www.whitehouse.gov/omb/). The scorecard is comprised
     of the Department of Defense’s four risk dimensions, as delineated in the 2006 Quadrennial
     Defense Review—Force Management Risk, Operational Risk, Future Challenges Risk, and
     Institutional Risk—and includes corresponding performance goals and measures. The guiding



26
2006 Annual Financial Report



principle for risk management is to balance strategic and operational decisions among and
within the four risk dimensions.

                       Balanced Scorecard for Risk Management
Strategic Goal 1:                                Strategic Goal 2:
Balancing Force Management Risk                  Balancing Operational Risk

Performance Goals:                               Performance Goals:
1.1 Maintain a Quality Force                     2.1 Ensure Force Availability
1.2 Ensure Sustainable Military Tempo &          2.2 Maintain Force Readiness
    Workforce Satisfaction                       2.3 Shape Force Posture
1.3 Maintain Reasonable Force Costs              2.4 Link Contingency Planning to
1.4 Shape the Force of the Future                    Capabilities & Resources




Strategic Goal 3:                                Strategic Goal 4:
Balancing Future Challenges Risk                 Balancing Institutional Risk

Performance Goals:                               Performance Goals:
3.1 Drive Innovative Joint Operations            4.1 Institutionalizing Capabilities-Based
3.2 Deﬁne Human Capital Skills &                     Planning, Improving Financial
    Competencies                                     Management & Driving Acquisition
3.3 Develop More Eﬀective Organizations              Excellence
3.4 Deﬁne & Develop Transformational             4.2 Improve the Readiness & Quality of Key
    Capabilities                                     Facilities
                                                 4.3 Manage Overhead / Indirect Cost
                                                 4.4 Realign Support to the War-ﬁghter

Following is a discussion of Department of the Navy strategic performance in terms of the
Balanced Scorecard for Risk Management. Included in the discussion are representative
examples of performance for each strategic goal. Other examples are available in Highlights of
the Department of the Navy FY 2007 Budget, found on the Oﬃce of the Assistant Secretary of the
Navy (Financial Management and Comptroller) website, hĴp://www.ﬁnance.hq.navy.mil.




                                                                                                 27
                                                                               Department of the Navy



     Strategic Goal 1: Balancing Force Management Risk




     “W        e remain focused on providing adequate
               pay, health care, housing, proper work
     environments, and career-long learning for our
     Sailors.”

                           – Admiral Michael G. Mullen, Chief of Naval Operations, March 2006




     “T      hough the mission must always come ﬁrst,
             we continue to search for opportunities to
     improve the experience of serving as a Marine both
     during and aĞer their active service….”

                     – General Michael W. Hagee, Commandant of the Marine Corps, March 2006



     The Department of the Navy continued its transformation of the military and civilian
     workforce in Fiscal Year 2006. Military tempo and force costs, which are discussed below,
     are representative areas of Navy and Marine Corps force management. Note that military
     tempo corresponds to performance goal 1.2 and force costs correspond to performance
     goal 1.3 of the Balanced Scorecard for Risk Management.

     Military Tempo
     Sustainment of Military Tempo. Aggressive transformation of naval forces contributed
     to smaller operating forces in Fiscal Year 2006, continuing a downward trend in naval end
     strength. Changes in force structure and workforce composition, increased eﬃciencies
     through use of technology, and new manning practices enabled the Department to sustain
     a force structure capable of meeting the deployment requirements of the Global War on
     Terror, Homeland Security, and stability operations. Sustainment of military tempo will
     be a critical requirement of the Navy Enterprise.




28
2006 Annual Financial Report



                                               U.S. Navy, Military Personnel
                   390,000                                                                                           100,000
                   385,000                                                                                           90,000
                   380,000                                                                                           80,000
                   375,000                                                                                           70,000




                                                                                                                               Reserve
                   370,000
                                                                                                                     60,000
          Active




                   365,000
                                                                                                                     50,000
                   360,000
                                                                                                                     40,000
                   355,000
                   350,000                                                                                           30,000

                   345,000                                                                                           20,000
                   340,000                                                                                           10,000
                   335,000                                                                                           0
                               2002              2003              2004              2005             2006

                                                  Fiscal Year Ending September 30                               Active
                                                                                                                Reserve


                             Active = Oﬃcers, Enlisted, and Midshipmen
                             Reserve = Selected Reserve and Full-Time Support




The Brigade of Midshipmen stand at aĴention during their pass-in-review ceremony at the parade grounds of the U.S. Naval Academy.
Chief of Naval Operations Admiral Mike Mullen and Commandant of the Marine Corps General Michael W. Hagee reviewed the 30
companies that made up the Brigade. Besides instruction and practice in military drill, all midshipmen receive thousands of hours of
education and training.




                                                                                                                                         29
                                                                                                             Department of the Navy



                                                U.S. Marine Corps, Military Personnel

                                             177,779              177,480            180,029             178,923
                       173,733




                            39,905                 41,046             39,658              39,858              39,436


                          2002                   2003               2004                 2005                2006

                                                        Fiscal Year Ending September 30                      Active
                                                                                                             Reserve

                                   Active = Oﬃcers and Enlisted      Reserve = Selected Reserve and Full-Time Support




     Marines stack rockets, mortars, and bags of propellant.


             Force Costs
             Maintaining Reasonable Force Costs. The Department of the Navy strives to achieve
             the most eﬀective and eﬃcient workload balance among its military, civilian, and support
             contractors. As part of the Strategic Sourcing program, the Department of the Navy will
             continue to study military and civilian positions and to identify military billets that are not
             “military essential” for conversion to civilian employees or support contractors.

30
2006 Annual Financial Report



        Full-Time Equivalents                                Civilian Personnel



                                178,354        179,899           177,642                        173,863
                                                                                  172,509




                                 16,644         18,054            17,033           17,794        18,371

                                  2002          2003               2004             2005          2006

                                                       Fiscal Year Ending September 30            Navy
                                                                                                  Marine Corps



      Strategic Goal 2: Balancing Operational Risk




      “T       he world has entered a ‘new era’ in which
               our military is confronting a highly dynamic
      security environment far more complex, uncertain,
      and potentially threatening than any we have faced
      before.”

                                                – Admiral Michael G. Mullen, Chief of Naval Operations, March 2006




      “I                             n an uncertain world, readiness is
                                     the coin of the realm.”

                                          – General Michael W. Hagee, Commandant of the Marine Corps, March 2006




                                                                                                                     31
                                                                                                Department of the Navy



     The Department of the Navy continued to ensure that the U.S. Navy and U.S. Marine
     Corps are available and ready at all times to respond to the full spectrum of joint military
     operations. Force availability and readiness, which are discussed below, are representative
     areas of naval operating performance. Note that force availability corresponds to
     performance goal 2.1 and readiness corresponds to performance goal 2.2 of the Balanced
     Scorecard for Risk Management.

     Force Availability
     Fleet Response Plan Will Increase Ship Availability. The Department augmented its
     ﬂeet of deployable baĴle force ships in Fiscal Year 2006, bringing the total number of baĴle
     force ships to 282. The Department’s goal is to sustain a ﬂeet of 313 ships. BaĴle force
     ships include aircraĞ carriers, nuclear aĴack submarines, and amphibious warfare ships.
     While the overall inventory of warships is smaller than in recent decades, the Navy’s
     Fleet Response Plan (FRP) seeks to oﬀset this slight decline by increasing the availability
     of warships. The FRP calls for the capability to deploy up to six Carrier Strike Groups
     (CSGs) within 30 days and one additional CSG within 90 days in response to a national
     emergency. For a complete list and description of U.S. Navy ships, see “Fact File” at
     hĴp://www.navy.mil.




                      A tug assists the guided-missile destroyer USS Donald Cook (DDG
                      75) pier-side at Naval Station Norfolk. Donald Cook is returning to its
                      homeport aĞer a six-month deployment in support of the Global War
                      on Terror.
32
2006 Annual Financial Report



                                                                      Deployable BaĴle Force Ships
                                          320

                                          310

                                          300

                                          290

                                          280

                                          270

                                          260
                                                2002                     2003                    2004                   2005                   2006

                                                                         Fiscal Year Ending September 30                                       Actual


                                                  A greater emphasis on research and development for next generation warships and investment
                                                  in the future ﬂeet aĴributed to the rise in ships from FY 2005 to FY 2006.


      Realignment of Marine Corps Land Forces. The Department realigned Marine Corps
      land forces in Fiscal Year 2006 as part of overall naval force transformation. Land forces
      aﬀected by the realignment were expeditionary brigades and total baĴalions. Speciﬁcally,
      the 4th Marine Expeditionary Brigade (Anti-Terrorism) was oﬃcially deactivated on
      February 24, 2006 and its major subordinate units were reassigned to other commands.
      This realignment enabled the Marine Corps to concentrate its resources more eﬀectively
      while at the same time preserving the unique capabilities of the 4th Marine Expeditionary
      Brigade. Similarly, the establishment of the Marine Corps Special Operations Command
      (MARSOC) in FY 2006 contributed in part to the realignment of expeditionary brigades
      and total baĴalions.

                                                                         Marine Corps Land Forces
                                          10                                                                                                            75
        Expeditionary Forces / Brigades




                                                                                                                                                             BaĴalions, Active & Reserve

                                                                                                                                                        60


                                                                                                                                                        45
                                           5
                                                                                                                                                        30


                                                                                                                                                        15


                                           0                                                                                                            0
                                                2002                  2003                    2004                   2005                  2006*

                                                                         Fiscal Year Ending September 30                            Expeditionary Forces
                                                                                                                                    Expeditionary Brigades
                                                                                                                                    BaĴalions, Active & Reserve

                                                  * As of June 30 (third quarter-end, FY 2006)


                                                                                                                                                                                           33
                                                                                    Department of the Navy



     A brief description of Marine Corps Air-Ground Task Forces is presented below.

     Marine Expeditionary Force: the largest Marine air-ground task force, with as many as
     45,000 war-ﬁghters, comprising ground forces, an air wing, and a service support group.

     Marine Expeditionary Brigade: a Marine air-ground task force that is larger than a Marine
     Expeditionary Unit, but smaller than a Marine Expeditionary Force. It comprises a
     ground regiment, an air group, and support personnel.

     Marine Expeditionary Unit: the smallest air-ground task force, built around an infantry
     baĴalion, a helicopter squadron, and a support group.

     For more information on U.S. Marine Corps forces, see “Units” at hĴp://www.usmc.mil.

     Readiness
     Ship Operational Tempo. Fiscal Year 2006 marked the ﬁĞh consecutive year that the
     Department has exceeded ship operational tempo (OPTEMPO) goals for deployed and
     non-deployed naval forces. The Navy-Marine Corps team fully supported the Global War
     on Terror and quickly responded to other global challenges. As a result, the Navy steamed
     at a higher OPTEMPO than the Global Naval Force Presence Policy goal of 51 deployed
     days and 24 non-deployed days. Non-deployed naval forces are ﬂeet units that participate
     in various training exercises. Ship OPTEMPO is the number of days that deployed and
     non-deployed naval forces are away from their homeport.

                                    Ship Operational Tempo
              80
              70
              60
              50
       Days




              40
              30
              20
              10
               0
                    2002           2003           2004             2005               2006

                                    Fiscal Year Ending September 30

                                                          Deployed Naval Forces, Goal: 51 Days
                                                          Non-Deployed Naval Forces, Goal: 24 Days




34
2006 Annual Financial Report



       AircraĞ Operational Tempo. AircraĞ operational tempo (OPTEMPO) is the number of
       monthly ﬂying hours recorded by Navy and Marine Corps active and reserve air crews.
       In Fiscal Year 2006, aircraĞ OPTEMPO for Navy and Marine Corps active and reserve air
       crews was 22.6 and 13.2 hours, respectively.

                                                   AircraĞ Operational Tempo

                   25

                   20

                   15
           Hours




                   10

                    5

                    0
                             2002                      2003          2004                2005    2006*

                                                       Fiscal Year Ending September 30               Active
                                                                                                     Reserve
                             * As of August 31, 2006




Two F/A-18E Super Hornets conduct a ﬂy-by of Mount Rushmore during a recent training exercise.




                                                                                                               35
                                                                                Department of the Navy



     Strategic Goal 3: Balancing Future Challenges Risk




     “I     nvesting in the ships, aircraĞ, submarines,
            and Marine Corps war-ﬁghting equipment
     and people to preserve this Nation’s historic naval
     power…remains an enduring fundamental strategic
     requirement.”

                           – The Honorable Donald C. Winter, Secretary of the Navy, March 2006



     The Department of the Navy remained focused on human capital strategic initiatives
     and research and development to prepare for the challenges of an uncertain future.
     Progress made in human capital and research and development, which is discussed
     below, represents a broader list of Department accomplishments in Fiscal Year 2006. Note
     that human capital corresponds to performance goal 3.2 and research and development
     corresponds to performance goal 3.4 of the Balanced Scorecard for Risk Management.

     Human Capital
     Workforce Trends. Below are representative examples of Department of the Navy
     workforce trends.

     •   Maturing Workforce. The Department of the Navy, like many other federal
         departments and agencies, continues to face a workforce eligible to retire in the next
         ﬁve years. To counter this trend, the Department is aggressively pursuing retention
         and recruitment eﬀorts.

     •   War-time Expansion. The Department of the Navy’s expanding role in the Global
         War on Terror has created the need for additional personnel. Examples include the
         U.S. Naval Special Warfare Command, the Naval Criminal Investigative Service,
         Oﬃce of Naval Intelligence, and the Marine Corps Depot Maintenance Activity
         Group.

     •   BRAC Reductions. The Department of the Navy anticipates personnel reductions in
         response to Base Realignment and Closure (BRAC) Act of 2005.

     Integration of Navy Active and Reserve Forces. Essential to force readiness have been
     the Department’s continued eﬀorts toward Active Reserve Integration, an initiative
     directed by the Chief of Naval Operations to fully integrate the Navy’s Reserve
     Component with the active force. Increased integration provides the Navy’s Reserves with



36
2006 Annual Financial Report



      a path to current equipment, concepts and tactics, maximizing combat readiness and war-
      ﬁghting capability in support of the full spectrum of joint military operations.

      ShiĞ Toward Increased Military Capabilities. The Department is increasing the
      capabilities of the U.S. Navy and U.S. Marine Corps to maximize future combat
      eﬀectiveness, pursuant to the goals and objectives of the 2006 Quadrennial Defense Review
      Report and the Department of the Navy’s Strategy for Our People. The Navy, in particular,
      is expanding its Foreign Area Oﬃcer program to include additional oﬃcers who have
      foreign language skills and cultural expertise in support of Fleet Commanders, Combatant
      Commanders, and Joint staﬀs.

      Focus on Workforce Models for Financial Management Community. Following the
      human capital initiative outlined in the Department of the Navy Financial Management
      (FM) Strategic Plan, Transforming Today to Win Tomorrow, the Department is creating a
      PC-based interactive workforce model that will facilitate the development of workforce
      strategies for the FM community now and a decade into the future. The models will be
      used to predict workforce age, size and grade structure based on numerous variables, and
      will enable the Department to make staﬃng decisions nationwide. The models should be
      fully operational by the end of the ﬁrst quarter in FY 2007.

      National Security Personnel System. The Department of the Navy, in collaboration with
      the Department of Defense (DoD), is participating in the ﬁrst group of conversions to the
      National Security Personnel System (NSPS). Authorized by Congress, NSPS provides
      DoD leaders the right tools to manage the civilian workforce, facilitate competition for
      high quality talent, oﬀer compensation competitive with the private sector, and reward
      outstanding service.

      Research and Development
      Development of Next Generation Warships and AircraĞ. The Department of the Navy
      continued to fund development of next generation warships and aircraĞ. Representative
      examples of these war-ﬁghting platforms include the DD(X), V-22, LiĴoral Combat Ship,
      and Joint Strike Fighter, as described below. All platform development is funded in the
      Research, Development, Test and Evaluation, Navy (RDT&E,N) appropriation.

      •    DD(X) – a family of advanced multi-mission warships capable of long-range
           ﬁrepower. The design and construction of the DDG 1000 begins in FY 2007.

      •    V-22 – a joint aircraĞ program designed to meet the varied needs of the Navy and
           Marine Corps team and to supplement the U.S. Special Operations Command special
           mission aircraĞ.

      •    LiĴoral Combat Ship – a family of ships, optimized for war-ﬁghting in the liĴorals
           (close-to-shore areas) that employs a unique modular architecture enabling mission-
           tailored tactical capabilities. Construction of the second Flight 0 design ship
           commenced in FY 2006.


                                                                                                  37
                                                                                                                       Department of the Navy



            •        Joint Strike Fighter – a joint aircraĞ program designed to meet the needs of the Navy
                     and Marine Corps team, the Air Force, and allied forces. The Joint Strike Fighter
                     program is in the systems development and demonstration stage.




     The EA-18G Growler, the Navy’s next-generation electronic aĴack aircraĞ, is being developed to replace the ﬂeet’s current carrier-based
     EA-6B Prowler. The EA-18G is expected to enter initial operational capability in 2009.


             Development Funding of Representative Next Generation Warships and AircraĞ Programs
                                                                                               $0.5                    $0.6
                                                                       $0.16
                                                                                               $0.3                    $0.2
                                                                        $0.4
                                                                                               $1.2                    $1.1
                                                 $0.4                   $1.0

                                                 $0.7
                  $ in Billions




                                  $0.4
                                  $0.6

                                  $0.7           $1.7                   $2.1                   $2.2                    $2.2
                                  2002           2003                   2004                   2005                     2006

                                                 Fiscal Year Ending September 30                      Joint Strike Fighter     V-22
                                                                                                      DDG 1000                 LCS
38
2006 Annual Financial Report



      Development of Free-electron Laser for Shipboard Defense. The Oﬃce of Naval
      Research continued to oversee development of the free-electron laser (FEL) under its
      Directed Energy Program. The FEL is more powerful than a conventional laser and
      could be placed on next generation baĴle force ships, such as the DD(X) and CVN-21, for
      shipboard defense. The FEL is expected to be operational by 2020.

      Use of Robotics for Force Protection. The Department continued to aggressively research,
      develop and ﬁeld technologies to counter the evolving problem of improvised explosive
      devices (IEDs), a major hazard to military forces and civilians in Iraq and Afghanistan. In
      particular, the Unmanned Systems Branch of the Space and Naval Warfare Systems Center
      (SSC) San Diego demonstrated the robust capabilities of the Multi-Robot Operator Control
      Unit (MOCU) command and control soĞware by simultaneously controlling multiple
      unmanned surface, ground, and aerial vehicles in a force-protection scenario.

      In addition, the Marine Corps Forces Paciﬁc Experimentation Center, in collaboration
      with the Naval Facilities Engineering Service Center, established the Western Area
      Robotics Test and Evaluation Center (WARTEC) at the Marine Corps Air/Ground Combat
      Center in Twenty-nine Palms, California. WARTEC is a National Unmanned Systems
      Experimentation Environment site and encompasses an all-purpose test center supporting
      year-round test, evaluation, and assessment of technology prototypes.

      Strategic Goal 4: Balancing Institutional Risk




      “P        roviding Sailors, Marines, and Department
                of the Navy civilians with high quality
      facilities, information technology, and an
      environment to achieve goals…will demand a
      revolution in management, technology and business
      practices to reduce redundancies and ensure the
      eﬃcient ﬂow of business processes.”

                               – The Honorable Donald C. Winter, Secretary of the Navy, March 2006



      The Department of the Navy made signiﬁcant advances in business transformation,
      information technology, and family housing during Fiscal Year 2006. These areas
      of progress, which are discussed below, are part of a broader list of Departmental

                                                                                                     39
                                                                               Department of the Navy



     accomplishments in institutional management. Note that progress made in business
     transformation and information technology corresponds to performance goal 4.1 of the
     Balanced Scorecard for Risk Management; and progress in family housing corresponds to
     performance goal 4.2 of the scorecard.

     Business Transformation
     Implementation of Navy and Marine Corps Financial Improvement Plans. All major
     commands, including the Marine Corps, have implemented their ﬁnancial improvement
     plans under the Department of the Navy Financial Improvement Program (DON FIP).
     The DON FIP is the integrating plan of DON’s business transformation strategy and a
     key initiative under the DON Financial Management Strategic Plan, Transforming Today
     to Win Tomorrow. As part of their ﬁnancial improvement plans, all organizational levels
     are addressing deﬁciencies in business processes, internal control, and systems with
     the primary goal of improving the quality and timeliness of ﬁnancial management
     information. Accomplishing this goal will enable the Department’s ﬁnancial management
     community to take the steps necessary for preparing auditable Department-wide ﬁnancial
     statements.

     Additionally, the Marine Corps is on its way to becoming the ﬁrst Military Service to
     produce auditable ﬁnancial statements. The Marine Corps began preparing subsidiary
     ﬁnancial statements for the ﬁrst time in Fiscal Year 2006.

     Development of Navy Enterprise Resource Planning (ERP) System Template. Under the
     Navy ERP Program, the Navy has developed an ERP system template that will integrate
     and improve Navy processes for logistics, acquisition, and ﬁnancial operations. The
     Navy ERP Program is a cornerstone of the DON business transformation strategy and key
     enabler of the Navy’s Sea Enterprise vision to transform business processes and generate
     eﬃciencies to improve combat capabilities. The ﬁrst implementation of the Navy ERP is
     scheduled for October 1, 2007 at the Naval Air Systems Command.

     Implementation of Wide Area Workﬂow. The Department of the Navy realized
     substantial savings in Fiscal Year 2006 from implementation of Wide Area Workﬂow
     (WAWF), the Department of Defense’s web-based application for generating, capturing,
     and processing invoices and payments. WAWF-related savings, including lower
     Defense Finance and Accounting Service processing fees and reduced Prompt Payment
     interest charges, will increase as the Department of the Navy’s user base and transaction
     volume increase. The Oﬃce of Naval Intelligence is among the Department of the Navy
     commands that implemented WAWF in Fiscal Year 2006. The Naval Surface Warfare
     Centers, a subordinate of the Naval Sea Systems Command, plans to implement WAWF in
     Fiscal Year 2007.

     Planned Integration of Lean/Six Sigma. During Fiscal Year 2006, the Department
     initiated plans for broad integration of Lean/Six Sigma, one of the Secretary of the Navy’s
     priority initiatives for improving the Department’s overall eﬀectiveness and eﬃciency.


40
2006 Annual Financial Report



      Lean/Six Sigma is an industry-proven methodology for harvesting improvements in
      business processes. Many of the Department’s major commands and related program
      oﬃces and business activities have successfully implemented Lean/Six Sigma techniques
      in various segments of their business operations. These business segments include: Naval
      Air Systems Command; Supply Management, Navy under the purview of Naval Supply
      Systems Command; Naval Shipyards under the purview of Naval Sea Systems Command;
      and the Program Executive Oﬃce for Command, Control, Communications, Computers,
      Intelligence and Space under the Space and Naval Warfare Enterprise. Lean/Six Sigma
      integration will complement business process improvement initiatives under the DON FIP
      and Navy ERP Program.

      Information Technology
      Increased Connectivity to Navy Marine Corps Intranet (NMCI). The Department has
      signiﬁcantly increased connectivity to NMCI from Fiscal Year 2002 to Fiscal Year 2006
      (see chart). NMCI is integral to the Department’s plans for global knowledge management
      and the next generation of combat, combat support, and business operations. It has
      replaced numerous independent and disparate networks ashore and is vital to the
      Department of Defense Global Information Grid (hĴp://www.dod.mil/dbt/). By Fiscal Year-
      end 2007, the Department expects to complete deployment of NMCI seats, transition
      legacy systems and servers to NMCI, and integrate sea and shore networks.

                                    Connectivity to Navy Marine Corps Intranet

                                                                                  309,480

                                                                        259,984
         Number of Seats




                                                       216,959




                                     109,604

                           65,613

                           2002       2003              2004             2005      2006

                                             Fiscal Year Ending September 30


      Family Housing
      Planned Elimination of Inadequate Housing. The Department expects to achieve
      the Department of Defense (DoD) goal of eliminating inadequate housing for Sailors,
      Marines, and their families by Fiscal Year-end 2007. Inadequate housing is any unit that
      requires a major repair, component upgrade, component replacement, or total upgrade.
      Progress toward the DoD goal is due in part to private sector capital and expertise that the
      Department has leveraged through public-private ventures.


                                                                                                     41
                                                                                     Department of the Navy



                  Cumulative Number of Privatization Projects

                                                                                   52,674


                                                                40,591




                                          14,508
     1,466           11,015

     2002             2003                 2004                  2005               2006

                             Fiscal Year Ending September 30




             A Sailor aĴached to Carrier Air Wing Two (CVW-2) meets his newborn
             child aĞer a deployment aboard the Nimitz-class aircraĞ carrier USS
             Abraham Lincoln (CVN 72).



42
2006 Annual Financial Report



Management Integrity
Commanders and managers throughout the Department must ensure the integrity of
their programs and operations. Part of this responsibility entails compliance with federal
requirements for ﬁnancial management systems, ﬁnancial reporting, and internal controls.
Below is a brief discussion of Department compliance with federal requirements during Fiscal
Year 2006.

Systems
      Federal Financial Management Improvement Act of 1996
      The Federal Financial Management Improvement Act (FFMIA) of 1996 requires agencies
      to implement and maintain ﬁnancial management systems that comply with federal
      systems requirements, applicable federal accounting standards, and the U.S. Standard
      General Ledger at the transaction level. The Department continues to progress toward
      full compliance with FFMIA as represented by the Navy ERP system initiative. The Navy
      ERP will be compliant with the Department of Defense Standard Financial Information
      Structure, which parallels the U.S. Standard General Ledger at the transaction level.

Financial Reporting
      Chief Financial Oﬃcers Act of 1990, as amended by the Government
      Management Reform Act of 1994
      The Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
      Reform Act of 1994, requires agencies to produce auditable annual ﬁnancial statements.
      The Department has been producing annual ﬁnancial statements for the Navy Working
      Capital Fund since Fiscal Year 1991 and the General Fund since Fiscal Year 1996. Through
      its Financial Improvement Program, the Department will be able to take the necessary
      steps for preparing auditable Department-wide ﬁnancial statements.

      Government Performance and Results Act of 1993
      The Government Performance and Results Act (GPRA) of 1993 requires agencies to
      engage in strategic planning and performance management for the purpose of improving
      the eﬀectiveness and eﬃciency of programs they administer. During Fiscal Year 2006,
      the Department implemented the ﬁnancial eﬃciency index (FEI), a comprehensive
      measure of how well the Department is executing its budget. See “Financial Reporting
      Results” for more information on the FEI. Improved measurements combined with
      NSPS implementation will move the Department forward towards an outcome-oriented,
      performance-based culture.

      Inspector General Act of 1978
      The Inspector General Act of 1978, as amended, requires agencies to provide an
      explanation for all audit reports that have open recommendations exceeding one year.
      As of September 30, 2006, the Department of the Navy, Naval Audit Service, had 66 audit
      reports open for more than one year, with potential monetary beneﬁts of $105.4 million.
      The Department closed out and implemented recommendations from 45 audit reports in
      Fiscal Year 2006 with claimed monetary beneﬁts of $244.6 million.


                                                                                                 43
                                                                                Department of the Navy



        Improper Payments Information Act of 2002
        The Improper Payments Information Act of 2002 seeks to reduce improper payments
        throughout the federal government by requiring agencies to report on programs and
        activities that are susceptible to improper payments. Improper payments are those that
        should not have been made or that were disbursed in incorrect amounts. Departmental
        programs and activities that have reporting responsibilities under the Improper Payments
        Information Act include Personnel Support Activities and Detachments, which calculate
        travel payments, and Disbursing Oﬃcers aboard ships and at other isolated locations.
        Note, however, that the Defense Finance and Accounting Service performs most of the
        Department’s entitlement computation and disbursement functions.

        In Fiscal Year 2006, the Department identiﬁed $2.5 million in potentially improper
        payments. This amount is signiﬁcantly less than the threshold of $10 million, as
        established by the Oﬃce of Management and Budget. The Department has instituted
        internal controls to reduce the occurrence of improper payments in the future.

     Management Controls
        Federal Managers’ Financial Integrity Act of 1982
        The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 requires agencies to
        evaluate their system of internal accounting and administrative controls and to report
        on the eﬀectiveness of these controls in an annual statement of assurance. The Sarbanes-
        Oxley Act of 2002, which applies to publicly traded companies, led to the federal
        government’s reevaluation of internal control policies under FMFIA. Consequently, the
        Oﬃce of Management and Budget issued a revised version of Circular A-123 in December
        2004, Management’s Responsibility for Internal Control. Appendix A of the revised circular
        requires agencies to provide a separate statement of assurance on the eﬀectiveness of
        ﬁnancial reporting controls.

        In Fiscal Year 2006, the Department of the Navy evaluated its management controls. The
        results indicate that the Department’s system of administrative and operational internal
        controls overall, in eﬀect as of June 30, 2006, provides qualiﬁed assurance, with the
        exception of material weaknesses, that controls are in place, operating eﬀectively, and
        being used. For the internal control weaknesses, the Department has either initiated or
        planned aggressive corrective action to strengthen internal controls. Milestones have
        been established for ensuring corrective action, and oversight oﬃcials have been assigned
        responsibility for meeting such milestones.

        In addition, to comply with the revised A-123 Circular, Appendix A, the Department of the
        Navy conducted an assessment of the eﬀectiveness of its controls over ﬁnancial reporting
        for the General Fund, the Working Capital Fund, and the Marine Corps. The Department
        conducted tests of controls over ﬁnancial reporting in selected focus areas, as prescribed
        by the Department of Defense Financial Improvement and Audit Readiness Program. The
        assessment identiﬁed several weaknesses that require corrective action. Corrective actions
        as well as an expanded and on-going testing program will validate and sustain ﬁnancial
        audit readiness.

44
2006 Annual Financial Report



       The Department of the Navy’s Fiscal Year 2006 FMFIA Annual Statement is available at
       hĴp://www.ﬁnance.hq.navy.mil.




The Honorable Richard Greco, Jr., Assistant Secretary of the Navy (Financial Management and Comptroller), receives the Department of
Defense Award of Excellence on behalf of the Department of the Navy from the Honorable Gordon England, Deputy Secretary of Defense,
recognizing best practices in internal management controls through the Department of the Navy Managers’ Internal Control Program and
implementation of the revised OMB Circular A-123, Appendix A.




                                                                                                                                       45
                                                                                      Department of the Navy



     Financial Reporting Results



        “E      ﬀective controls will enable us to do our jobs
                more eﬀectively, lessen the risk of undesirable
        outcomes, and ensure the resources entrusted to us are
        used in support of the Navy-Marine Corps wartime
        mission.”

          – The Honorable Richard Greco, Jr., Assistant Secretary of the Navy (Financial Management
                                                                       and Comptroller), October 2005



        The Fiscal Year 2006 Department of the Navy Annual Financial Report presents for the
        ﬁrst time subsidiary ﬁnancial statements and related notes for the U.S. Marine Corps. The
        Oﬃce of the Under Secretary of Defense (Comptroller), with support from the Department
        of the Navy, designated the Marine Corps a ﬁnancial reporting entity in Fiscal Year
        2006, which eﬀectively allowed the Marine Corps to prepare comprehensive ﬁnancial
        statements and related notes for its General Fund and Working Capital Fund. While the
        Marine Corps ﬁnancial statements and related notes have been presented separately in
        the annual report, the Fiscal Year 2006 Department of the Navy General Fund and Navy
        Working Capital Fund ﬁnancial statements are still consolidated statements, meaning that
        the line item values include dollar values from the Marine Corps General Fund and the
        Working Capital Fund.

        A discussion follows of ﬁnancial analysis relative to the Department of the Navy General
        Fund and the Navy Working Capital Fund consolidated ﬁnancial statements for Fiscal
        Years 2005 and 2006.

     DON General Fund
        Overview of Operations
        The Department of the Navy (DON) General Fund, which includes the U.S. Marine
        Corps General Fund as a subsidiary entity, supports overall Departmental operations.
        Direct appropriations from Congress comprise the majority of the General Fund account
        structure.

        In Fiscal Year (FY) 2006, the Department was appropriated a total of $145.5 billion,
        which was allocated among ﬁve major appropriation groups—see chart, next page.
        Appropriations received ﬂowed to the major commands, which in turn obligated the
        money to fund operational expenses and capital investments. Obligations represent
        the ﬁnancial value of orders placed, contracts awarded, services provided, and similar
        business transactions that support the DON mission.
46
2006 Annual Financial Report



                               Major Sources of Funding in FY 2006 ($ in Billions)
                                                     $2.0                $19.1
                 $45.2




                                                                                              $38.7


                                        $40.4
                                                            Military Construction
                                                            Research, Development, Test, and Evaluation
                                                            Procurement
                                                            Military Personnel
                                                            Operation and Maintenance




      Total obligations incurred against direct appropriations were $146.0 billion. As depicted in
      the chart below, the Department obligated the majority of FY 2006 funds, or $91.7 billion,
      to cover contractual services, such as ship construction, aircraĞ procurement, shore-side
      facilities construction, infrastructure maintenance; and personnel costs, both military
      and civilian. More information on Department of the Navy appropriations received and
      obligations incurred is available in the Combined Statement of Budgetary Resources and
      in Note 20 of the Department of the Navy General Fund Notes to the Principal Statements.

                                Major Uses of Funding in FY 2006 ($ in Billions)

                                        $2.9                                            $45.3

              $36.5




                      $8.8
                                 $2.9                                               $46.7
                                         $2.9
                                                                    Personnel
                                                                    Contractual Services
                                                                    Other Government Agencies
                                                                    Travel and Transportation
                                                                    Consumable Purchases
                                                                    Durable Goods/Equipment
                                                                    Land and Structures




                                                                                                          47
                                                                                                  Department of the Navy



         Financial Eﬃciency Index
         In Fiscal Year 2006, the Navy and Marine Corps Financial Management Community
         began to use a new metric for evaluating budget execution performance —the Financial
         Eﬃciency Index (FEI). The FEI is an innovative, real-time measurement of how well
         the Department of the Navy has obligated approved program funds. It is part of the
         Assistant Secretary of the Navy (Financial Management and Comptroller) strategic
         vision to measure and improve program performance. Performance measures cascade
         to the lowest level in the organization so that individuals can positively inﬂuence results
         and be rewarded accordingly under performance evaluation systems. The goal is to
         institutionalize a performance-based culture and lay the foundation for measurements
         that can be speciﬁcally tied to individuals’ performance plans. This initiative is aligned
         with the objectives of the Department of the Navy senior leadership and the President’s
         Management Agenda.

         Expressed as a composite score, the FEI assesses how eﬃciently the Department’s major
         commands are executing their funds throughout the life of an appropriation. The index
         reveals how well their funds are obligated during the active year(s) of an appropriation
         and during the funds’ “lifetime” before expiration or cancellation. The Department’s FY
         2006 FEI was 98 percent. The FY 2006 data will be used as the baseline for future trend
         analysis, making the index more valuable to managers every year.

     Overview of Financial Position
         Discussion of ﬁnancial position focuses on the Consolidated Balance Sheet. The balance
         sheet is similar to that used within the private sector, presenting assets, liabilities, and net
         position (stockholder’s equity in the private sector).

         Assets
         The Department of the Navy (DON) reported $354.8 billion in total assets as of September
         30, 2006, representing a $20.1 billion, or 6 percent, increase from the restated September 30,
         2005 total asset value.

                                   Increase in Total Assets, FY 2005 to FY 2006
                           $10.0




                                                                                           $5.4
                        $4.7

                                                         General Property, Plant and Equipment
                                                         Intragovernmental Assets
                                                         All Other Nonfederal Assets


48
2006 Annual Financial Report



      Changes in General Property, Plant and Equipment and Intragovernmental Assets,
      which include Fund Balance with Treasury, accounted for the majority of the $20.1
      billion increase in total assets as of September 30, 2006. Following is a brief discussion of
      signiﬁcant changes in total assets from Fiscal Years 2005 and 2006.

      General Property, Plant and Equipment (PP&E). DON recognized $187.0 billion in
      General PP&E as of September 30, 2006, an increase of $5.4 billion, or 3 percent, from the
      restated September 30, 2005 value. The overall increase in General PP&E as of September
      30, 2006 is primarily due to the use of a new estimation methodology (explained below)
      and subsequent increase in the value of Military Equipment.

      DON began reporting military equipment as General PP&E according to Statement of
      Federal Financial Accounting Standards Number 23, “Eliminating the Category National
      Defense Property, Plant and Equipment” in Fiscal Year 2003. At that time, a net value
      of $132.7 billion in military equipment was represented on the balance sheet. Initially,
      the value for all DoD military equipment was based on data provided by the Bureau of
      Economic Analysis (BEA), Department of Commerce.

      Beginning April 1, 2006, DON replaced the BEA methodology with one that uses internal
      records and historical costs. DON now updates the military equipment baseline value
      using records maintained by acquisition and logistic support personnel. This change was
      made through the Department of Defense Financial Improvement and Audit Readiness
      (DoD FIAR) Plan and the DON Financial Improvement Program (FIP) eﬀorts and is
      expected to result in an auditable value for military equipment, enhance the usefulness
      and reliability of military equipment information, and provide beĴer information
      regarding military acquisitions and disposals to decision makers.

                                    General Property, Plant and Equipment

                                                                          $182      $187

                                       $158              $152
             $ in Billions




                             $26
                             2002      2003              2004             2005       2006

                                              Fiscal Year Ending September 30

      More information on General PP&E is available in Note 10 of the Department of the Navy
      General Fund Notes to the Principal Statements.

                                                                                                      49
                                                                                            Department of the Navy



     Intragovernmental Assets. DON recognized $97.1 billion in Intragovernmental Assets
     as of September 30, 2006, an increase of $10.0 billion, or 12 percent, from September 30,
     2005. This increase is primarily the result of an increase to the Fund Balance with Treasury
     (FBWT), speciﬁcally in Appropriations Received that have not been fully executed. Of the
     $10.2 billion increase in FBWT, $8.1 billion was an increase in multi-year appropriations.
     The majority of the $8.1 billion was comprised of $6.2 billion for Procurement
     appropriations and $1.5 billion for Research, Development, Test, and Evaluation (RDT&E).
     The procurement appropriations involve addressing the requirement for the acquisition,
     modernization, and recapitalization of the ﬂeet and ﬂeet Marine forces war-ﬁghting
     assets. The RDT&E appropriations are used to transition science and technology, process
     innovation, and general research and development to meet the acquisition community and
     ultimately war-ﬁghter requirements.

     Liabilities
     DON reported $31.3 billion in total liabilities as of September 30, 2006, representing a
     $2.0 billion, or 7 percent, increase from September 30, 2005. Changes in Environmental
     Liabilities and All Other Nonfederal Liabilities, which include Accounts Payable,
     accounted for the majority of the $2.0 billion increase in total liabilities as of September 30,
     2006. Following is a brief discussion of signiﬁcant changes in total liabilities from Fiscal
     Years 2005 and 2006.

                            Increase in Total Liabilities, FY 2005 to FY 2006

                     $0.5                                                   $0.2




                                                                  $1.3
                                                               Environmental Liabilities
                                                               All Other Nonfederal Liabilities
                                                               Intragovernmental Liabilities



     Environmental Liabilities. DON recognized $17.3 billion in environmental liabilities
     for cleanup costs as of September 30, 2006, representing an increase of $0.2 billion, or
     1 percent, from September 30, 2005. DON recognizes environmental liabilities based
     on accounting estimates because actual costs cannot be determined until completion
     of cleanup and disposal operations. The majority of the environmental liability is
     noncurrent, meaning that cleanup and disposal operations will occur subsequent to
     September 30, 2007. Through the Financial Improvement Program eﬀorts, the DON
     revised its estimation methodology for nuclear ship and submarines. The revised
     methodology resulted in a more realistic estimate for managers and caused an overall
     decrease in the environmental liabilities estimate. However, for the ﬁrst time, during

50
2006 Annual Financial Report



      FY 2006, the DON began recognizing an environmental liability for Spent Nuclear Fuel,
      which oﬀset the overall decrease. Spent Nuclear Fuel is deﬁned as the used fuel that is
      removed from the nuclear reactors of nuclear powered ships and submarines.

                                 Environmental Disposal – Weapons Systems Programs

                         $14.0


                         $12.0


                         $10.0


                          $8.0
         $ in Billions




                          $6.0


                          $4.0


                          $2.0


                           $-
                                 2002          2003          2004              2005            2006

                                             Fiscal Year Ending September 30
                                                                    Other - Spent Nuclear Fuel
                                                                    Other National Defense Weapons Systems
                                                                    Other Nuclear Powered Ships
                                                                    Nuclear Powered Submarines
                                                                    Nuclear Powered AircraĞ Carriers



      All Other Nonfederal Liabilities. DON recognized $8.5 billion in All Other Nonfederal
      Liabilities as of September 30, 2006, representing an increase of $1.3 billion, or 19 percent,
      from September 30, 2005. This increase primarily results from a change in Department
      of Defense accounting policy that requires DON to estimate a contingent liability for
      progress payment-type contracts. In FY 2006, DON recognized a contingent liability of
      $1.1 billion.

Navy Working Capital Fund
The Navy Working Capital Fund (NWCF), which includes the Working Capital Fund – U.S.
Marine Corps as a subsidiary, is a revolving fund established to meet the diverse requirements
of the Navy and Marine Corps operating forces. Under the revolving fund concept, an
appropriation or a transfer of funds ﬁnances initial NWCF operations. General/appropriated
fund payments from customers for goods delivered or services performed subsequently


                                                                                                             51
                                                                                     Department of the Navy



     replenish this initial working capital investment and sustain a continuous cycle of operations,
     minimizing the need for additional annual appropriations by Congress.

     NWCF has ﬁve business areas: Supply Management, Depot Maintenance, Research and
     Development, Transportation, and Base Support. Each business area is responsible for one or
     more business activities (see illustration).

     The goal of the NWCF is to break even over time by matching revenues earned to costs
     incurred. Achievement of this goal is occasionally complicated by the requirement that
     NWCF business areas maintain stable prices for goods and services, to protect customers from
     unforeseen price ﬂuctuations.

     Discussion of the ﬁnancial performance of the NWCF focuses on the Consolidated Statement of
     Net Cost and cash management at the Departmental level.

                      Navy Working Capital Fund Business Activities By Business Area

     Supply Management                                Depot Maintenance
     Supply Management, Navy                          Depot Maintenance, Shipyards
     (www.navsup.navy.mil)                            (www.navsea.navy.mil)

     Supply Management, Marine Corps                  Depot Maintenance, Aviation
     (www.logcom.usmc.mil)                            (www.navair.navy.mil)

                                                      Depot Maintenance, Marine Corps
                                                      (www.logcom.usmc.mil)
     Base Support                                     Transportation
     Facilities Engineering Commands                  Military SealiĞ Command
     (www.navfac.navy.mil)                            (www.msc.navy.mil)

     Naval Facilities Engineering Service Centers
     (www.navfac.navy.mil)

                                       Research and Development
     Naval Research Laboratory                        Naval Air Warfare Centers
     (www.nrl.navy.mil)                               (www.navair.navy.mil)

     Naval Surface Warfare Centers                    Space and Naval Warfare Systems Centers
     (www.navsea.navy.mil)                            (www.spawar.navy.mil)

     Naval Undersea Warfare Centers
     (www.navsea.navy.mil)




52
2006 Annual Financial Report



      Overview of Operations
      Net cost of operations is the “boĴom line” on the statement of net cost. It is similar to the
      private sector’s net income (or net loss) on the income statement (also known as “the proﬁt
      and loss statement”). Both the statement of net cost and the income statement present
      revenues earned and costs (or expenses) incurred for the reporting period. However, to
      arrive at the boĴom line, federal entities calculate costs incurred less revenues earned,
      whereas the private sector calculates revenues earned less expenses incurred.

      In Fiscal Year (FY) 2006, NWCF net cost of operations decreased by $859.4 million (or
      33.3 percent). The majority of this decrease, $726.4 million, is aĴributed to Supply
      Management, Navy. There were two events during FY 2005 that caused unusually
      high gross costs in this business area. The two events were the reconciliation of system
      problems with the Depot Level Repairable Carcass Returns; and the Enterprise Resource
      Planning (ERP) Supply Maintenance Aviation Re-engineering Team Pilot concluding its
      objectives.

                                 Combined Net Cost of Operations ($ in Billions)

                                                                                                $2.6
                  $2.4



                                                                                                                   $1.7



                                                                      $1.0


                                           $0.4

                  2002                     2003                      2004                        2005              2006

                                                  Fiscal Year Ending September 30
                         NOTE: Totals above represent the combined total of net cost of operations for the NWCF.



      Fluctuations in the combined net cost of operations from FY 2002 to FY 2005 were
      primarily aĴributable to the increase in work-related eﬀorts supporting the ongoing
      Global War on Terror and Iraqi operations (FY 2002 to FY 2003); an increase in fuel
      consumption costs for the Transportation business area (FY 2004 to FY 2005); and the two
      events identiﬁed above for Supply Management, Navy (FY 2005 to FY 2006).

      To view the combined total of program costs and earned revenue for the NWCF, see the
      NWCF Consolidated Statement of Net Cost. Supporting details for this statement are in
      the NWCF Consolidating Statement of Net Cost.

      See Note 18, NWCF Notes to the Principal Statements, for more information on the
      FY 2006 Statement of Net Cost.

                                                                                                                          53
                                                                                                                        Department of the Navy



     Overview of Financial Position
     The Department of the Navy manages working capital fund cash at the Departmental
     level. It must maintain cash levels at seven to ten days of operational costs, plus have
     suﬃcient cash reserves to meet six months of projected capital outlays, as required by the
     Department of Defense Financial Management Regulation (hĴp://www.dod.mil/comptroller/
     fmr/). For FY 2006, the seven-day cash requirement was $782 million and the ten-day
     requirement was $1.1 billion.

           Navy Working Capital Fund FY 2006 Monthly Cash Balances ($ in Thousands)

           2,000,000

           1,500,000

           1,000,000

             500,000

                       -
                             Oct Nov           Dec      Jan     Feb      Mar      Apr May           Jun       Jul    Aug     Sep

                           *NOTE: Cash balances above represent the combined total of monthly cash balances for the NWCF.



     The NWCF ﬁnished FY 2006 with an ending cash balance of $1.2 billion. Supplemental
     appropriations and advance billings were primary contributors to the ﬁscal year-end cash
     balance as described below.

     •   $218 million transfer from the National Defense SealiĞ Fund to fund the Military
         SealiĞ Command’s purchase of three Maritime Prepositioning ships in January 2006.

     •   $197 million in advance billing initiated in January 2006 to enable DON to sustain an
         NWCF cash balance suﬃcient to meet expenses.

     •   $100.4 million in additional funding for the Public Works Centers: $35.4 million to
         fund fuel costs and $65 million to fund utility costs.

     •   $50 million Congressionally-directed transfer from the NWCF to the Operations and
         Maintenance, Navy appropriation, completed in September 2006.

     •   $27 million in additional funding for the Military SealiĞ Command to meet increased
         ship fuel costs.

     In addition, the ﬁscal year-end NWCF cash balance reﬂects $272 million for payroll
     accrued during the last 14 days of September 2006.




54
2006 Annual Financial Report



      Cash Management Initiative
      As part of the DON Financial Management Strategic Plan business transformation
      eﬀort, the NWCF Cash Management initiative will be focusing during FY 2007 on the
      deployment of cash forecasting and cash reconciliation processes across NWCF activities.
      Preliminary identiﬁcation of cash-related competencies will be made, and initial training
      will be developed for the workforce. BeĴer documented and controlled business
      processes will produce ﬁnancial information that will allow us to sustain and compress
      cash cycles. The desired outcome will be signiﬁcantly improved cash visibility and
      predictability, allowing for a reduced requirement to hold cash and create the potential
      to reduce that element of NWCF rates that is required to sustain a higher cash level. This
      allows DON customers to obtain more value for their operating dollars.




                                                                                                   55
     Department of the Navy




56
2006 Annual Financial Report



Looking Forward: Fiscal Year 2007 and Beyond




An architectural rendering of the spire of the new National Museum of the Marine Corps captures the famous ﬂag-raising at Iwo Jima.
The museum will be a lasting tribute to the U.S. Marine Corps – past, present, and future.


                                                                                                                                      57
                                                                                                                Department of the Navy




     The new National Museum of the Marine Corps, located in Quantico, Virginia, is scheduled to open on November 10, 2006,
     commemorating the 231st year of the founding of the U.S. Marine Corps.




58
2006 Annual Financial Report




Chief of Naval Operations Admiral Michael G. Mullen spoke during Recruit Graduation at Recruit Training Command Great Lakes. The
Department of the Navy will continue to focus on recruitment as a means to developing the 21st century naval workforce.




                                                                                                                                   59
                                                                                                                     Department of the Navy




     An Aviation Ordnanceman 1st Class in charge of safety supervised the transfer of ammunition from the Nimitz-class aircraĞ carrier USS
     George Washington (CVN 73) to the Military SealiĞ Command ammunition ship USNS Mount Baker (T-AE 34). Safety will continue to be
     a Secretary of the Navy priority.




     The artist’s illustration depicts the amphibious transport dock ship USS New York (LPD 21), which is under construction and expected to
     be delivered in 2008. USS New York is one of three future LPD-class ships that will pay tribute to the heroes and victims of the September
     11, 2001 aĴack. USS Arlington (LPD 24) will honor the heroes and victims of the Pentagon aĴack and USS Somerset (LPD 25) will pay
     tribute to the ﬂight downed in Pennsylvania.



60
2006 Annual Financial Report




Ceremony participants stand in prayer during the ground-breaking ceremony for the Pentagon Memorial, which is expected to be
completed by Fiscal Year 2008. The Pentagon Memorial will be a lasting tribute to the heroes and victims of the September 11, 2001
Pentagon aĴack.




                                                                                                                                     61
     Department of the Navy




62
                                          Department of the Navy

                                         General Fund


                             2006 Principal Statements




                                                                        General Fund Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                   63
2006 Annual Financial Report 2006 Annual Financial Report
                                                               Department of the Navy




     Limitations to the Financial
     Statements
     The principal ﬁnancial statements have been prepared
     to report the ﬁnancial position and results of
     operations of the entity, pursuant to the requirements
     of 31 U.S.C. 3515 (b). While the statements have been
     prepared from the books and records of the entity in
     accordance with GAAP for Federal entities and the
     formats prescribed by OMB, the statements are in
     addition to the ﬁnancial reports used to monitor and
     control budgetary resources which are prepared from
     the same books and records. The statements should be
     read with the realization that they are for a component
     of the U.S. Government, a sovereign entity.




64
2006 Annual Financial Report




Principal Statements
The FY 2006 Department of the Navy General Fund Principal Statements and related notes are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize ﬁnancial information for individual funds and
accounts within the General Fund for the ﬁscal year ending September 30, 2006, and are presented on a
comparative basis with information previously reported for the ﬁscal year ending September 30, 2005.

The following statements comprise the Department of the Navy General Fund Principal Statements:

      •    Consolidated Balance Sheet

      •    Consolidated Statement of Net Cost

      •    Consolidated Statement of Changes in Net Position

      •    Combined Statement Budgetary Resources

      •    Combined Statement of Financing

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                           65
                                                                                            General Fund
                                                                                                         Department of the Navy



     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED BALANCE SHEET
     As of September 30, 2006 and 2005
     ($ in thousands)


                                                                               2006 Consolidated          2005 Restated
        ASSETS (Note 2)
         Intragovernmental:
          Fund Balance with Treasury (Note 3)
               Entity                                                      $            95,941,461   $           85,734,659
               Non-entity Seized Iraqi Cash                                                      0                        0
               Non-entity - Other                                                          474,507                  344,546
          Investments (Note 4)                                                               9,751                    9,519
          Accounts Receivable (Note 5)                                                     159,270                  281,305
          Other Assets (Note 6)                                                            468,259                  672,257
               Total Intragovernmental Assets                              $            97,053,248   $           87,042,286
         Cash and Other Monetary Assets (Note 7)                                           176,306                  305,440
         Accounts Receivable (Note 5)                                                    3,231,414                3,267,657
         Loans Receivable (Note 8)                                                               0                        0
         Inventory and Related Property (Note 9)                                        58,794,634               55,584,837
         General Property, Plant and Equipment (Note 10)                               186,979,669              181,547,138
         Investments (Note 4)                                                                    0                        0
         Other Assets (Note 6)                                                           8,608,875                6,988,791
        TOTAL ASSETS                                                       $           354,844,146   $          334,736,149

        LIABILITIES (Note 11)
          Intragovernmental:
           Accounts Payable (Note 12)                                      $             1,035,043   $            1,208,703
           Debt (Note 13)                                                                        0                        0
           Other Liabilities (Note 15 & Note 16)                                         4,460,153                3,826,048
                Total Intragovernmental Liabilities                        $             5,495,196   $            5,034,751
          Accounts Payable (Note 12)                                                     1,265,536                1,180,034
         Military Retirement Benefits and Other Employment-                              1,513,644                1,532,819
            Related Actuarial Liabilities (Note 17)
          Environmental and Disposal Liabilities (Note 14)                              17,268,813               17,050,451
          Loan Guarantee Liability (Note 8)                                                      0                        0
          Other Liabilities (Note 15 and Note 16)                                        5,749,764                4,459,836
        TOTAL LIABILITIES                                                  $            31,292,953   $           29,257,891

        NET POSITION
         Unexpended Appropriations - Earmarked Funds (Note 23)             $                 1,550   $                    0
         Unexpended Appropriations - Other Funds                                        99,697,752               89,739,876
         Cumulative Results of Operations - Earmarked Funds                                 18,843                        0
         Cumulative Results of Operations - Other Funds                                223,833,048              215,738,382
        TOTAL NET POSITION                                                 $           323,551,193   $          305,478,258

        TOTAL LIABILITIES AND NET POSITION                                 $           354,844,146   $          334,736,149


        The accompanying notes are an integral part of these statements.




66
2006 Annual Financial Report



Department of Defense
Department of the Navy General Fund
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Consolidated         2005 Consolidated
   Program Costs
      Gross Costs                                                     $          129,530,253    $           123,610,807
      (Less: Earned Revenue)                                                      (3,912,287)                (8,181,148)
      Net Costs                                                       $          125,617,966    $           115,429,659
   Costs Not Assigned to Programs                                                          0                          0
   (Less: Earned Revenue Not Attributable to Programs)                                     0                          0
   Net Cost of Operations                                             $          125,617,966    $           115,429,659




   The accompanying notes are an integral part of these statements.




                                                                                                                             67
                                                                                                              General Fund
                                                                                                      Department of the Navy



     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
     For the Years Ended September 30, 2006 and 2005
     ($ in thousands)


                                                                             Earmarked Funds         Other Funds

        CUMULATIVE RESULTS OF OPERATIONS
         Beginning Balances                                              $              23,558   $        192,496,533
         Prior period adjustments (+/-)
            Changes in accounting principles (+/-)                                           0                      0
            Correction of errors (+/-)                                                       0             23,218,292
         Beginning balances, as adjusted                                 $              23,558   $        215,714,825
         Budgetary Financing Sources:
          Appropriations received                                        $                   0   $                  0
          Appropriations transferred in/out (+/-)                                            0                      0
          Other adjustments (rescissions, etc) (+/-)                                         0                      0
          Appropriations used                                                              861            132,896,065
          Nonexchange revenue                                                              564                      0
          Donations and forfeitures of cash and cash equivalents                        18,858                      0
          Transfers in/out without reimbursement (+/-)                                       0                 50,000
          Other budgetary financing sources (+/-)                                            0                      0
         Other Financing Sources:
          Donations and forfeitures of property                                              0                      0
          Transfers in/out without reimbursement (+/-)                                       0                187,068
          Imputed financing from costs absorbed by others                                    0                578,058
          Other (+/-)                                                                        0                      0
         Total Financing Sources                                         $              20,283 $          133,711,191
         Net Cost of Operations (+/-)                                                   24,998            125,592,968
         Net Change                                                                     (4,715)             8,118,223
         Ending Balances                                                 $              18,843 $          223,833,048

        UNEXPENDED APPROPRIATIONS
         Beginning Balances                                              $               2,311   $         89,737,565
         Prior period adjustments (+/-)
            Changes in accounting principles (+/-)                                           0                      0
            Correction of errors (+/-)                                                       0                      0
         Beginning balances, as adjusted                                 $               2,311   $         89,737,565
         Budgetary Financing Sources:
          Appropriations received                                        $                 100 $          145,492,145
          Appropriations transferred-in/out (+/-)                                            0                617,410
          Other adjustments (rescissions, etc) (+/-)                                         0             (3,253,303)
          Appropriations used                                                             (861)          (132,896,065)
          Nonexchange revenue                                                                0                      0
          Donations and forfeitures of cash and cash equivalents                             0                      0
          Transfers in/out without reimbursement (+/-)                                       0                      0
          Other budgetary financing sources (+/-)                                            0                      0
         Other Financing Sources:
          Donations and forfeitures of property                                              0                      0
          Transfers in/out without reimbursement (+/-)                                       0                      0
          Imputed financing from costs absorbed by others                                    0                      0
          Other (+/-)                                                                        0                      0
         Total Financing Sources                                         $                (761) $           9,960,187
         Net Cost of Operations (+/-)                                                        0                      0
         Net Change                                                                       (761)             9,960,187
         Ending Balances                                                 $               1,550 $           99,697,752
        The accompanying notes are an integral part of the statements.
68
2006 Annual Financial Report



Department of Defense
Department of the Navy General Fund
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                      2006 Consolidated          2005 Restated

CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                               $           192,520,091    $         188,170,325
 Prior period adjustments (+/-)
    Changes in accounting principles (+/-)                                              0                        0
    Correction of errors (+/-)                                                 23,218,292               23,218,291
 Beginning balances, as adjusted                                  $           215,738,383    $         211,388,616
 Budgetary Financing Sources:
  Appropriations received                                         $                     0    $                   0
  Appropriations transferred in/out (+/-)                                               0                        0
  Other adjustments (rescissions, etc) (+/-)                                            0                        0
  Appropriations used                                                         132,896,926              119,015,668
  Nonexchange revenue                                                                 564                      205
  Donations and forfeitures of cash and cash equivalents                           18,858                   29,518
  Transfers in/out without reimbursement (+/-)                                     50,000                  150,000
  Other budgetary financing sources (+/-)                                               0                        0
 Other Financing Sources:
  Donations and forfeitures of property                                                 0                        0
  Transfers in/out without reimbursement (+/-)                                    187,068                   (1,652)
  Imputed financing from costs absorbed by others                                 578,058                  585,686
  Other (+/-)                                                                           0                        0
 Total Financing Sources                                          $           133,731,474    $         119,779,425
 Net Cost of Operations (+/-)                                                 125,617,966              115,429,659
 Net Change                                                                     8,113,508                4,349,766
 Ending Balances                                                  $           223,851,891    $         215,738,382

UNEXPENDED APPROPRIATIONS
 Beginning Balances                                               $             89,739,876   $           79,161,774
 Prior period adjustments (+/-)
    Changes in accounting principles (+/-)                                               0                        0
    Correction of errors (+/-)                                                           0                        0
 Beginning balances, as adjusted                                  $             89,739,876   $           79,161,774
 Budgetary Financing Sources:
  Appropriations received                                         $            145,492,245 $            130,972,538
  Appropriations transferred-in/out (+/-)                                          617,410                  164,674
  Other adjustments (rescissions, etc) (+/-)                                    (3,253,303)              (1,543,442)
  Appropriations used                                                         (132,896,926)            (119,015,668)
  Nonexchange revenue                                                                    0                        0
  Donations and forfeitures of cash and cash equivalents                                 0                        0
  Transfers in/out without reimbursement (+/-)                                           0                        0
  Other budgetary financing sources (+/-)                                                0                        0
 Other Financing Sources:
  Donations and forfeitures of property                                                  0                        0
  Transfers in/out without reimbursement (+/-)                                           0                        0
  Imputed financing from costs absorbed by others                                        0                        0
  Other (+/-)                                                                            0                        0
 Total Financing Sources                                          $              9,959,426   $           10,578,102
 Net Cost of Operations (+/-)                                                            0                        0
 Net Change                                                                      9,959,426               10,578,102
 Ending Balances                                                  $             99,699,302   $           89,739,876
 The accompanying notes are an integral part of the statements.
                                                                                                                                69
                                                                                                                 General Fund
                                                                                                       Department of the Navy



     Department of Defense
     Department of the Navy General Fund
     COMBINED STATEMENT OF BUDGETARY RESOURCES
     For the Years Ended September 30, 2006 and 2005
     ($ in thousands)


                                                                               2006 Combined           2005 Combined
        BUDGETARY FINANCING ACCOUNTS
        Budgetary Resources:
          Unobligated balance, brought forward, October 1                  $          17,128,479   $           18,027,995
          Recoveries of prior year unpaid obligations                                  5,261,990               11,446,435
          Budget Authority:
             Appropriations received                                                 145,511,602              131,002,361
             Borrowing authority                                                               0                        0
             Contract authority                                                                0                        0
          Spending authority from offsetting collections:
             Earned
               Collected                                                               7,767,620                8,830,639
               Change in receivables from Federal sources                               (948,730)                 696,667
             Change in unfilled customer orders                                                0                        0
               Advances received                                                          54,329                  147,708
               Without advance from Federal sources                                      519,073                 (636,393)
             Anticipated for rest of year, without advances                                    0                        0
             Previously unavailable                                                            0                        0
             Expenditure transfers from trust funds                                            0                        0
            Subtotal                                                       $         152,903,894 $            140,040,982
          Nonexpenditure transfers, net, anticipated and actual                          667,410                  314,674
          Temporarily not available pursuant to Public Law                                     0                        0
          Permanently not available                                                   (3,253,303)              (1,543,442)
          Total Budgetary Resources                                        $         172,708,470 $            168,286,644

        Status of Budgetary Resources:
          Obligations incurred:
             Direct                                                        $         146,006,781   $          137,694,376
             Reimbursable                                                              5,865,715               13,463,789
             Subtotal                                                      $         151,872,496   $          151,158,165
          Unobligated balance:
             Apportioned                                                   $          19,197,595   $           15,607,505
             Exempt from apportionment                                                         0                        0
             Subtotal                                                                 19,197,595               15,607,505
          Unobligated balances not available                                           1,638,379                1,520,974
          Total status of budgetary resources                              $         172,708,470   $          168,286,644




        The accompanying notes are an integral part of these statements.




70
2006 Annual Financial Report



Department of Defense
Department of the Navy General Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                        2006 Combined         2005 Combined
   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
   Change in Obligated Balance:
    Obligated balance, net
       Unpaid obligations, brought forward, October 1               $          72,093,186 $          67,196,765
       Less: Uncollected customer payments from                                (3,400,814)           (3,340,541)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                                          68,692,372            63,856,224
    Obligations incurred, net (+/-)                                 $         151,872,496 $         151,158,165
    Less: Gross outlays                                                      (140,615,673)         (134,815,308)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                       0                     0
       Actual transfers, uncollected customer                                           0                     0
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                                  0                     0
    Less: Recoveries of prior year unpaid obligations, actual                  (5,261,990)          (11,446,435)
    Change in uncollected customer                                                429,657               (60,273)
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                                      78,088,020            72,093,186
       Less: Uncollected customer payments from                                (2,971,157)           (3,400,814)
          Federal sources
       Total Unpaid obligated balance, net, end of period                      75,116,863            68,692,372

   Net Outlays:
    Net Outlays:
       Gross Outlays                                                          140,615,673           134,815,308
       Less: Offsetting collections                                            (7,821,950)           (8,978,348)
       Less: Distributed Offsetting receipts                                     (149,284)             (115,805)
    Net Outlays                                                     $         132,644,439 $         125,721,155




   The accompanying notes are an integral part of the statements.




                                                                                                                     71
                                                                                                      General Fund
                                                                                                                     Department of the Navy



     Department of Defense
     Department of the Navy General Fund
     CONSOLIDATED STATEMENT OF FINANCING
     For the Years Ended September 30, 2006 and 2005
     ($ in thousands)


                                                                                         2006 Consolidated          2005 Consolidated

        Resources Used to Finance Activities:
        Budgetary Resources Obligated
          Obligations Incurred                                                       $           151,872,496 $              151,158,165
          Less: Spending authority from offsetting collections and recoveries (-)                (12,654,282)               (20,485,056)
          Obligations net of offsetting collections and recoveries                               139,218,214                130,673,109
          Less: Offsetting receipts (-)                                                             (149,284)                  (115,805)
          Net obligations                                                                        139,068,930                130,557,304
        Other Resources
          Donations and forfeitures of property                                                            0                          0
          Transfers in/out without reimbursement (+/-)                                               187,068                     (1,652)
          Imputed financing from costs absorbed by others                                            578,058                    585,686
          Other (+/-)                                                                                      0                          0
          Net other resources used to finance activities                                             765,126                    584,034
          Total resources used to finance activities                                 $           139,834,056    $           131,141,338

        Resources Used to Finance Items not Part of the Net Cost of Operations:
          Change in budgetary resources obligated for goods, services and benefits
           benefits ordered but not yet provided
             Undelivered orders (-)                                                  $            (6,657,708) $             (13,332,332)
             Unfilled Customer Orders                                                                 573,402                  (488,685)
          Resources that fund expenses recognized in prior periods                                  (101,501)                  (269,715)
          Budgetary offsetting collections and receipts that do not affect Net
            Cost of Operations                                                                       149,284                          0
          Resources that finance the acquisition of assets                                       (28,364,037)               (14,697,475)
          Other resources or adjustments to net obligated resources that do not
            affect Net Cost of Operations
             Less: Trust or Special Fund Receipts related to exchange in the
             entity's budget (-)                                                                           0                          0
             Other (+/-)                                                                            (187,068)                     1,652
          Total resources used to finance items not part of the Net
            Cost of Operations                                                       $           (34,587,628) $             (28,786,555)
          Total resources used to finance the Net Cost of Operations                 $           105,246,428 $              102,354,783




        The accompanying notes are an integral part of these statements.




72
2006 Annual Financial Report



Department of Defense
Department of the Navy General Fund
CONSOLIDATED STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                            2006 Consolidated          2005 Consolidated

   Components of the Net Cost of Operations that will not Require
     or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Increase in annual leave liability                                 $               43,363     $               170,047
     Increase in environmental and disposal liability                                  230,378                   1,028,763
     Upward/Downward reestimates of credit subsidy expense (+/-)                             0                           0
     Increase in exchange revenue receivable from the public (-)                             0                           0
     Other (+/-)                                                                       208,377                      69,091
     Total components of Net Cost of Operations that will require or
       generate resources in future periods                             $              482,118     $             1,267,901

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                      $            21,243,453    $            15,844,303
     Revaluation of assets or liabilities (+/-)                                       1,865,416                 (1,785,299)
     Other (+/-)
         Trust Fund Exchange Revenue                                                          0                        (10)
         Cost of Goods Sold                                                                   0                          0
         Operating Materials & Supplies Used                                         (3,209,774)                (2,244,170)
         Other                                                                           (9,675)                    (7,849)
     Total components of Net Cost of Operations that will not require
       or generate resources                                            $            19,889,420    $            11,806,975
     Total components of Net Cost of Operations that will
          not require or generate resources in the current period       $            20,371,538    $            13,074,876
      Net Cost of Operations                                            $           125,617,966    $           115,429,659




   The accompanying notes are an integral part of these statements.




                                                                                                                                            73
                                                                                                                             General Fund
     Department of the Navy




74
                                             Department of the Navy

                                            General Fund


                              2006
                        Notes to the Principal Statements




                                                                           General Fund Notes to the Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                      75
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                            Department of the Navy



     Note 1.         Signiﬁcant Accounting Policies
     1.A.    Basis of Presentation
     These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations
     of the Department of the Navy (DON) General Fund (GF), as required by the “Chief Financial Oﬃcers
     (CFO) Act of 1990,” expanded by the “Government Management Reform Act (GMRA) of 1994,” and
     other appropriate legislation. The ﬁnancial statements have been prepared from the books and records
     of DON in accordance with the “Department of Defense Financial Management Regulation” Oﬃce of
     Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent
     possible, Generally Accepted Accounting Principles (GAAP). The accompanying ﬁnancial statements
     account for all resources for which DON GF is responsible. Information relative to classiﬁed assets,
     programs, and operations is aggregated and reported in such a manner that it is not discernable.

     The DON is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations
     of its ﬁnancial management processes and systems, and nonﬁnancial systems and processes that feed
     into the ﬁnancial statements. The DON derives its reported values and information for major asset and
     liability categories, largely from nonﬁnancial systems, such as inventory systems and logistic systems.
     These systems were designed to support reporting requirements for maintaining accountability over
     assets and reporting the status of Federal appropriations rather than preparing ﬁnancial statements in
     accordance with GAAP. The DON continues to implement process and system improvements addressing
     these limitations. The DON currently has four auditor identiﬁed ﬁnancial statement material weaknesses:
     (1) accuracy and complete reporting of accounts payable, (2) identifying and reporting environmental
     disposal liabilities, (3) military equipment reporting, and (4) valuation of inventory and operating
     materials and supplies.

     Fiscal year (FY) 2006 represents the eleventh year that DON has prepared audited ﬁnancial statements as
     required by CFO Act and GMRA.

     1.B.    Mission of the Reporting Entity
     The Department of the Navy (DON) was created on April 30, 1798 by an act of Congress (I Stat. 533; 5
     U.S.C. 411-12). The overall mission of DON is to maintain, train, and equip combat-ready Navy and
     Marine Corps forces capable of winning wars, deterring aggression and maintaining freedom of the seas.

     1.C.    Appropriations and Funds
     The DON receives its appropriations and funds as general, working capital (revolving funds), trust,
     special, and deposit funds. The DON uses these appropriations and funds to execute its mission and
     report on resource usage.

     General funds are used for ﬁnancial transactions funded by congressional appropriations, including
     personnel, operations and maintenance, research and development, procurement, and military
     construction accounts.

     Revolving funds receive their initial funding through an appropriation or a transfer of resources from
     existing appropriations or funds and use those capital resources to ﬁnance the initial startup. Financial
     resources to replenish the initial working capital and to permit continuing operations are generated by
     the acceptance of customer orders on a reimbursable basis. The National Defense SealiĞ Fund is DON
     General Fund’s only revolving fund.

     Trust funds contain receipts and expenditures of funds held in trust by the government for use in
     carrying out speciﬁc purposes or programs in accordance with the terms of the donor, trust agreement, or
     statute.


76
2006 Annual Financial Report



Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or
public entity. The DON is acting as an agent or a custodian for funds awaiting distribution, for example
payroll taxes.

Certain special and trust funds may be designated as earmarked funds. Earmarked funds are ﬁnanced
by speciﬁcally identiﬁed revenues, required by statute to be used for designated activities, beneﬁts or
purposes, and remain available over time. Earmarked funds also have a requirement to account for and
report on the receipt, use and retention of revenues and other ﬁnancing sources that distinguish it from
general revenues.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity
accounts consist of resources that the agency has the authority to use, or where management is legally
obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity
but are not available for use in the operations of the entity.

OMB Circular A-136 provides guidance for reporting Parent-Child (Allocation) Transfer accounts. As the
recipient of allocations from parent accounts, DON has determined that the allocation transfers are not
material to its ﬁnancial statements.

Entity Accounts:
General Accounts
     17X0380         Coastal Defense Augmentation, Navy
     17 0703         Family Housing, Navy and Marine Corps
     17 0730         Family Housing Construction, Navy and Marine Corps
     17 0735         Family Housing Operation and Maintenance, Navy and Marine Corps
     17X0810         Environmental Restoration, Navy
     17 1000         Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
     17 1001         Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
     17 1002         Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
     17 1003         Medicare Eligible Retiree Health Care Fund, Reserve Personnel
                     Marine Corps
      17   1105      Military Personnel, Marine Corps
      17   1106      Operation and Maintenance, Marine Corps
      17   1107      Operation and Maintenance, Marine Corps Reserve
      17   1108      Reserve Personnel, Marine Corps
      17   1109      Procurement, Marine Corps
      17   1205      Military Construction, Navy and Marine Corps
      17   1235      Military Construction, Navy Reserve
      17   1236      Payments to Kaho’Olawe Island Conveyance, Remediation and Environmental
                     Restoration Fund, Navy
      17   1319      Research, Development, Test and Evaluation, Navy
      17   1405      Reserve Personnel, Navy
      17   1453      Military Personnel, Navy
      17   1506      AircraĞ Procurement, Navy
      17   1507      Weapons Procurement, Navy
      17   1508      Procurement of Ammunition, Navy and Marine Corps
      17   1611      Shipbuilding and Conversion, Navy
      17   1804      Operation and Maintenance, Navy
      17   1806      Operation and Maintenance, Navy Reserve
      17   1810      Other Procurement, Navy

                                                                                                                77
                                                                                                 General Fund
                                                                                         Department of the Navy



     Revolving Funds
          17 4557        National Defense SealiĞ Fund, Navy

     Earmarked Trust Funds
          17X8716      Department of the Navy General GiĞ Fund
          17X8723      Ships Stores Proﬁts, Navy
          17X8733      United States Naval Academy General GiĞ Fund

     Earmarked Special Funds
          17X5095       Wildlife Conservation, Military Reservations, Navy
          17X5185       Kaho’Olawe Island Conveyance, Remediation and Environmental Restoration
                        Fund, Navy
          17X5429       Rossmoor Liquidating Trust SeĴlement Account
          17X5562       Ford Island Improvement Account

     General Fund Receipt, Deposit, Suspense, and Clearing Accounts
          17 1XXX      Receipt Accounts
          17 3XXX      Receipt Accounts
          17X6XXX      Deposit Funds

     Parent-Child (Allocation) Transfer Accounts
          17 47X0535     Embassy Security, Defense Relocation Program, State Department
          17 11 1081     International Military Education and Training Funds, appropriated to the President
          17 11X1081     International Military Education and Training Funds, appropriated to the President
          17 11 1082     Foreign Military Financing Program Funds appropriated to the President
          17 12X1105B State and Private Forestry, Forest Service
          17 69X8083     Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
                         Administration

     1.D.   Basis of Accounting
     For FY 2006, DON’s General Fund ﬁnancial management systems are unable to meet all of the
     requirements for full accrual accounting. Many of DON’s ﬁnancial and nonﬁnancial feeder systems and
     processes were designed and implemented prior to the issuance of GAAP for federal agencies. These
     systems were not designed to collect and record ﬁnancial information on the full accrual accounting
     basis as required by GAAP. Most of DON’s legacy systems were designed to record information on a
     budgetary basis.

     The Department has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and
     nonﬁnancial feeder systems and processes into compliance with GAAP. One such action is the revision
     of its accounting systems to record transactions based on the United States Standard General Ledger
     (USSGL). Until all of DON’s ﬁnancial and nonﬁnancial feeder systems and processes are updated to
     collect and report ﬁnancial information as required by GAAP, DON’s ﬁnancial data will be largely based
     on budgetary transactions (obligations, disbursements, and collections), transactions from nonﬁnancial
     feeder systems, and adjustments for known accruals of major items such as payroll expenses, accounts
     payable, and environmental liabilities.

     In addition, DON identiﬁes program costs based upon the major appropriation groups provided by
     the Congress. Current processes and systems do not capture and report accumulated costs for major
     programs based upon the performance measures as required by the Government Performance and
     Results Act (GPRA). The DoD is in the process of reviewing available data and aĴempting to develop
     a cost reporting methodology that balances the need for cost information required by the Statement
     of Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and

78
2006 Annual Financial Report



Standards for the Federal Government,” with the need to keep the ﬁnancial statements from being overly
voluminous.

1.E.    Revenues and Other Financing Sources
The DON receives congressional appropriations as ﬁnancing sources for general funds on either an
annual or multi-year basis. When authorized by legislation, these appropriations are supplemented
by revenues generated by sales of goods or services. The DON recognizes revenue as a result of costs
incurred or services provided to other Federal agencies and the public. Full cost pricing is DON’s
standard policy for services provided as required by OMB Circular A-25. The DON recognizes revenue
when earned within the constraints of current system capabilities. In other instances, revenue is
recognized when bills are issued.

The DON does not include nonmonetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Statement of Financing. The U.S. has
cost sharing agreements with other countries. Examples include counties where there is a mutual or
reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. ﬂeet is in a port.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the
period incurred. However, because DON’s ﬁnancial and nonﬁnancial feeder systems were not designed
to collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments are
made for major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled
revenue. The DON’s expenditures for capital and other long-term assets are recognized as operating
expenses based on depreciation. In the case of Operating Materials and Supplies (OM&S), operating
expenses are generally recognized when the items are purchased. Eﬀorts are underway to migrate
towards the consumption method for recognizing OM&S expenses.

1.G.    Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
entities within DON, within DoD, or between two or more federal agencies. However, DON cannot
consistently and accurately identify all of its intragovernmental transactions by customer because DON’s
accounting systems do not track all buyer and seller data needed to match related transactions. For the
DON GF, the Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions
and balances between components or activities of DON. Seller entities within DoD provided summary
seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
DoD accounting oﬃces. In most cases, the buyer-side records are adjusted to agree with DoD seller-
side balances. Intra-DoD intragovernmental balances are eliminated when DoD ﬁnancial statements
are prepared. The DON properly eliminates the revenue resulting from intra-DoD sales of capitalized
assets. The DoD is developing long-term system improvements that will include suﬃcient up-front edits
and controls to eliminate the need for aĞer-the-fact reconciliations. The volume of intragovernmental
transactions is so large that aĞer-the-fact reconciliation cannot be accomplished eﬀectively with existing
or foreseeable resources.

The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating
transactions between DoD and other federal agencies. The Treasury Financial Manual, Part 2 – Chapter
4700, “Agency Reporting Requirements for the Financial Report of the United States Government” and
the Treasury’s “Federal Intragovernmental Transaction Accounting Policy Guide” provide guidance
for reporting and reconciling intragovernmental balances. While DON is unable to fully reconcile all
intragovernmental transactions with all federal partners, DON is able to reconcile balances pertaining
to investments in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank,
Federal Employees’ Compensation Act transactions with the Department of Labor (DOL), and beneﬁt

                                                                                                               79
                                                                                                General Fund
                                                                                            Department of the Navy



     program transactions with the Oﬃce of Personnel Management (OPM). The DoD’s proportionate share
     of public debt and related expenses of the federal government are not included. The federal government
     does not apportion debt and its related costs to federal agencies. The DoD’s ﬁnancial statements,
     therefore, do not report any portion of the public debt or interest thereon, nor do the statements report
     the source of public ﬁnancing whether from issuance of debt or tax revenues.

     Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
     ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have
     not been capitalized since the Department of the Treasury does not allocate such interest costs to the
     beneﬁting agencies.

     1.H.    Transactions with Foreign Governments and International Organizations
     Each year, DON sells defense articles and services to foreign governments and international organizations
     under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD
     has authority to sell defense articles and services to foreign countries and international organizations
     generally at no proﬁt or loss to the U.S. Government. Payment is required in advance.

     1.I.    Funds with the U.S. Treasury
     The DON’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing oﬃces
     of the Defense Finance and Accounting Service (DFAS), the Military Services, the U. S. Army Corps of
     Engineers (USACE), and the Department of State’s ﬁnancial service centers process the majority of the
     DON’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
     monthly reports that provide information to the U.S. Treasury on check issues, electronic fund transfers,
     interagency transfers and deposits.

     In addition, DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, by
     appropriation, on interagency transfers, collections received, and disbursements issued. The Department
     of the Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account.
     Diﬀerences between DON’s recorded balance in FBWT accounts and Treasury’s FBWT accounts
     sometimes result and are subsequently reconciled.

     1.J.    Foreign Currency
     Cash is the total of cash resources under the control of DON, which includes coin, paper currency,
     negotiable instruments, and amounts held for deposit in banks and other ﬁnancial institutions. Foreign
     currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign
     currencies held in foreign currency fund accounts. Cash and foreign currency is classiﬁed as nonentity
     and, therefore, is restricted. Amounts reported consist primarily of cash and foreign currency held by
     Disbursing Oﬃcers to carry out their paying, collecting, and foreign currency accommodation exchange
     missions.

     The DON conducts a signiﬁcant portion of its operations overseas. The Congress established a
     special account to handle the gains and losses from foreign currency transactions for ﬁve general fund
     appropriations (Operations and Maintenance, Military Personnel, Military Construction, Family Housing
     Operations and Maintenance, and Family Housing Construction.) The gains and losses are computed as
     the variance between the exchange rate current at the date of payment and a budget rate established at
     the beginning of each ﬁscal year. Foreign currency ﬂuctuations related to other appropriations require
     adjustments to the original obligation amount at the time of payment. The DON does not separately
     identify foreign currency ﬂuctuations.




80
2006 Annual Financial Report



1.K.    Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for doubtful accounts due from the public are
based upon analysis of collection experience by fund type. The DON does not recognize an allowance for
estimated doubtful amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

1.L.    Direct Loans and Loan Guarantees
Not applicable.

1.M.    Inventories and Related Property
Most of DON’s Inventory and Related Property are currently reported at an approximation of historical
cost using latest acquisition cost (LAC) adjusted for holding gains and losses. The DON General Fund’s
Inventory and Related Property consists of Operating Materials and Supplies (OM&S). The DON uses
LAC and other methods as its inventory systems were designed for material management rather than
accounting purposes. Although these systems provide visibility and accountability over inventory
items, they do not maintain historical cost data necessary to comply with the SFFAS No. 3, “Accounting
for Inventory and Related Property.” Additionally, these systems cannot produce ﬁnancial transactions
using the USSGL, as required by the Federal Financial Management Improvement Act of 1996 (P.L. 104-
208). By utilizing new systems development processes, DON is beginning to transition the inventory to
the moving average cost method. At this point, DON is unable to determine the value of OM&S that is
being reported using moving average cost methodology. However, since the on-hand balances which
transitioned were not, for the most part, baselined to auditable historical cost, the reported values remain
noncompliant with SFFAS No. 3 and GAAP.

The DON manages only military or government speciﬁc material under normal conditions. Items
commonly used in and available from the commercial sector are not managed in DON material
management activities. Operational cycles are irregular, and the military risks associated with stock-out
positions have no commercial parallel. The DON holds material based on military need and support for
contingencies. Therefore, DON does not aĴempt to account separately for “inventory held for sale” and
“inventory held in reserve for future use” based on SFFAS No. 3 deﬁnitions.

Related property includes operating materials and supplies (OM&S) and stockpile materials. The
OM&S, including munitions not held for sale, are valued at standard purchase price. The DoD uses both
the consumption method and the purchase method of accounting for OM&S. Items that are centrally
managed and stored, such as ammunition and engines, are generally recorded using the consumption
method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support
the consumption method, DON uses the purchase method. Under this method, materials and supplies
are expensed when purchased. During FY 2006, DON expensed signiﬁcant amounts using the purchase
method because the systems could not support the consumption method or management deemed that the
item was in the hands of the end user. DON does not hold stockpile materials.

The DON determined that the recurring high dollar value of OM&S in need of repair is material to the
ﬁnancial statements and requires a separate reporting category. Many high dollar items, such as aircraĞ
engines, are categorized as OM&S rather than military equipment.

The DON recognizes condemned material as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore the net value of condemned material is zero.
Potentially redistributed material, presented in previous years as “Excess, Obsolete, and Unserviceable,”
is included in the “Held for Use” or “Held for Repair” categories according to its condition.



                                                                                                                 81
                                                                                                  General Fund
                                                                                               Department of the Navy



     1.N.    Investments in U.S. Treasury Securities
     For the Trust Funds, DON reports investments in U.S. Treasury securities at cost, net of amortized
     premiums or discounts. Premiums or discounts amortize into interest income over the term of the
     investment using the eﬀective interest rate method or another method obtaining similar results. The
     DON’s intent is to hold investments to maturity, unless they are needed to ﬁnance claims or otherwise
     sustain operations. Consequently, no provision is made for unrealized gains or losses on these securities.

     The DON invests in nonmarketable securities. The two types of nonmarketable securities are par value
     and market-based intragovernmental securities. The Bureau of Public Debt issues nonmarketable par
     value intragovernmental securities. Nonmarketable, market-based intragovernmental securities mimic
     marketable securities, but are not traded publicly.

     1.O.    General Property, Plant and Equipment
     The DoD is moving away from a standard capitalization threshold for all categories (e.g. real property,
     military equipment, etc.) of General Property, Plant and Equipment (PP&E) to one that is speciﬁc for each
     individual category.

     The capitalization threshold was revised from $100,000 to $20,000 for real property. The DON has not
     implemented the $20,000 real property capitalization threshold yet pending an evaluation of real property
     systems, processes, and procedures that will have to be revised in order to implement the lowered
     threshold. The current $100,000 capitalization threshold remains unchanged for the remaining General
     PP&E categories.

     General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an
     asset has a useful life of two or more years and the acquisition cost equals or exceeds DoD capitalization
     threshold. DoD also requires capitalization of improvement costs over DoD capitalization threshold for
     General PP&E. The DON depreciates all General PP&E, other than land, on a straight-line basis. Land is
     not depreciated.

     Prior to ﬁscal year 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000,
     and $50,000 for ﬁscal years 1993, 1994, and 1995, respectively, and an estimated useful life of two or more
     years. General PP&E previously capitalized at amounts below $100,000 were wriĴen oﬀ DON General
     Fund ﬁnancial statements in ﬁscal year 1998.

     When it is in the best interest of the government, DON provides government property to contractors
     when deemed necessary to complete contract work. The DON either owns or leases such property, or
     it is purchased directly by the contractor for the government based on contract terms. When the value
     of contractor-procured General PP&E exceeds the DoD capitalization threshold, it must be reported on
     DON’s Balance Sheet.

     The DoD is developing new policies and a contractor reporting process that will provide appropriate
     General PP&E information for future ﬁnancial statement reporting purposes. Accordingly, DON reports
     only government property in the possession of contractors that is maintained in DON’s property systems.
     The DoD has issued new property accountability and reporting requirements that requires DON to
     maintain, in its property systems, information on all property furnished to contractors. This action
     and other DoD proposed actions are structured to capture and report the information necessary for
     compliance with Federal accounting standards.

     The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
     establishes generally accepted accounting principles for valuing and reporting military equipment
     (e.g., ships, aircraĞ, combat vehicles, weapons) in federal ﬁnancial statements. The Standard provides
     for the use of estimated historical cost for valuing military equipment if obtaining actual historical cost

82
2006 Annual Financial Report



information is not practical. The DON used Bureau of Economic Analysis (BEA) to calculate the value of
the military equipment for reporting periods from October 1, 2002 through March 31, 2006.

Eﬀective with 3rd Quarter, FY 2006, the DON replaced the BEA estimation methodology with an
estimation methodology for military equipment based on DON internal records. The DON initially
identiﬁed the universe of military equipment by accumulating information relating to program funding
and associated military equipment, equipment useful life, program acquisitions and disposals to create
a baseline. The military equipment baseline is updated using expenditure information, and information
related to acquisition and disposals.

1.P.    Advances and Prepayments
The DON records payments in advance of the receipt of goods and services as advances or prepayments
and reports them as assets on the Balance Sheet. The DON recognizes advances and prepayments as
expenses when it receives the related goods and services.

1.Q.    Leases
Lease payments for the rental of equipment and operating facilities are classiﬁed as either capital
or operating leases. When a lease is essentially equivalent to an installment purchase of property (a
capital lease) DON records the applicable asset and liability if the value equals or exceeds the current
capitalization threshold. The DON records the amounts as the lesser of the present value of the rental
and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease.
The DON as the lessee receives the use and possession of the leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not substantially
transfer all of the beneﬁts or risks of ownership. Payments for operating leases are charged to expense
over the lease term as it becomes payable.

Leases for oﬃce space entered into by DON are the largest component of operating leases. These costs
were gathered from existing leases, General Service Administration (GSA) bills, and Inter-service Support
Agreements. Future year projections use the Consumer Price Index (CPI), rather than the DoD inﬂation
factor. The CPI impacts increases to the leases, especially those at commercial lease sites. Equipment
leases have a variety of lease terms, which are not expected to be renewed upon expiration. Other
operating leases are generally one-year leases. The DON expects to continue to reduce the level of owned
assets while increasing the number of leased assets. The DON will strive to displace commercial leases
with more economical GSA leases.


1.R.    Other Assets
The DON conducts business with commercial contractors under two primary types of contracts: ﬁxed
price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term
contracts can cause, DON provides ﬁnancing payments. One type of ﬁnancing payment that the DON
makes for real property is based upon a percentage of completion. In accordance with the SFFAS No. 1,
“Accounting for Selected Assets and Liabilities,” such payments are treated as Construction-in-Progress
and are reported on the General PP&E line on the Balance Sheet and in the related note.

Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and contract ﬁnancing payments that are not reported elsewhere on the DON’s Balance Sheet.

Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as
authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the
Government. These payments are designed to alleviate the potential ﬁnancial burden on contractors
                                                                                                                   83
                                                                                                    General Fund
                                                                                              Department of the Navy



     performing on certain long-term contracts and facilitate competition for defense contracts. Contract
     ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include
     advance payments, performance-based payments, commercial advance and interim payments, progress
     payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
     ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental
     payments, or progress payments based on a percentage or stage of completion, which the Defense
     Federal Acquisitions Regulations Supplement (DFARS) authorizes only for construction of real property,
     shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property are reported
     as Construction in Progress in Note 10.

     1.S.    Contingencies and Other Liabilities
     The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
     12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
     condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
     uncertainty will be resolved when one or more future events occur or fail to occur. The DON recognizes
     contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the
     loss amount can be reasonably estimated.

     Financial statement reporting is limited to disclosure when conditions for liability recognition do not
     exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
     loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible
     claims and assessments. The DON’s loss contingencies arise as a result of pending or threatened litigation
     or claims and assessments occur due to events such as aircraĞ, ship and vehicle accidents, medical
     malpractice, property or environmental damages, and contract disputes.

     Other liabilities arise as a result of anticipated disposal costs for DON’s assets. This type of liability has
     two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for
     Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins
     when the asset is placed into service. Nonenvironmental disposal liabilities are recognized for assets
     when management decides to dispose of the asset based upon DoD’s policy, which is consistent with
     SFFAS No.5 “Accounting for Liabilities of Federal Government.” The DON recognizes nonenvironmental
     disposal liabilities for military equipment nuclear-powered assets when placed in service. Such amounts
     are developed in conjunction with, and not easily identiﬁable separately from, environmental disposal
     costs.

     1.T.    Accrued Leave
     The DON reports as liabilities military leave and civilian earned leave except sick leave that has been
     accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported
     at the end of the accounting period reﬂects the current pay rates.

     1.U.     Net Position
     Net Position consists of unexpended appropriations and cumulative results of operations.

     Unexpended Appropriations represent the amounts of authority that are unobligated and have not been
     rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
     liabilities for payments have not been incurred.

     Cumulative Results of Operations represent the net diﬀerence, since inception of an activity, between
     expenses and losses and ﬁnancing sources (including appropriations, revenue, and gains). Beginning
     with FY 1998, the cumulative results also include donations and transfers in and out of assets without
     reimbursement.




84
2006 Annual Financial Report



1.V.    Treaties for Use of Foreign Bases
The DON has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The DON purchases
capital assets overseas with appropriated funds; however, the host country retains title to land and
improvements. Generally, treaty terms allow DON continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases is
prohibited, losses are recorded for the value of any nonretrievable capital assets. This takes place aĞer
negotiations between U.S. and the host country have determined the amount to be paid the U.S. for such
capital investments.

1.W.    Comparative Data
The Financial Statements and accompanying Notes to the Financial Statements report the ﬁnancial
position and results of operations for FY 2006. Financial statement ﬂuctuations greater than two percent
of total assets on the Balance Sheet or greater than ten percent from the prior period presented are
explained within the Notes to the Financial Statements.

1.X.    Unexpended Obligations
The DON obligates funds to provide goods and services for outstanding orders not yet delivered. The
ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered.

1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the diﬀerence between disbursements and
collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts should agree with the
undistributed amounts reported on the departmental accounting reports. In-transit payments are those
payments that have been made by other agencies or entities that have not been recorded in the DON’s
accounting records. These payments are applied to the DON’s outstanding accounts payable balance. In-
transit collections are those collections from other agencies or entities that have not been recorded in the
accounting records. These collections are also applied to the DON’s accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of federal and nonfederal accounts payable and accounts
receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
undistributed collections are recorded in other liabilities. The DON follows this procedure.

1.Z.    Data Collection Approach
The DON ﬁnancial statements include information from both ﬁnancial systems and nonﬁnancial feeder
systems. The Defense Finance Accounting Service, Cleveland (DFAS-CL) and Kansas City (DFAS-
KC) collect the ﬁnancial system information and incorporate it into the ﬁnancial statements. The
DON collects ﬁnancial information from nonﬁnancial feeder systems through a data call process and
submits it to DFAS-CL and DFAS-KC for incorporation into the ﬁnancial statements. DFAS also collects
information from multiple sources, such as intragovernmental data from DON’s trading partners, which
is incorporated into the ﬁnancial statements. For FY 2006, DON is utilizing a web-based data collection
instrument (DCI) that captures certain required ﬁnancial information from feeder systems for the General
Fund (GF) statements. This is the seventh year DON has used the DCI to collect information from feeder
systems. The DON DCI identiﬁes the information requirements to the source provider, provides an
audit trail, and integrates into the ﬁnancial statement preparation process. The DON is transitioning
the data collection process to the Defense Departmental Reporting System (DDRS) Data Collection
Module (DCM). When the transition to DCM is complete, the stand-alone DCI legacy application will be
terminated.


                                                                                                                85
                                                                                                 General Fund
                                                                                                Department of the Navy



     Note 2.           Nonentity Assets
     As of September 30                                                 2006                    2005 Restated
     (Amounts in thousands)

     1. Intragovernmental Assets
        A. Fund Balance with Treasury                         $                 474,507    $                344,546
        B. Accounts Receivable                                                        0                           0
        C. Total Intragovernmental Assets                     $                 474,507    $                344,546

     2. Nonfederal Assets
        A. Cash and Other Monetary Assets                     $                  176,306   $                305,440
        B. Accounts Receivable                                                 3,142,047                  2,538,987
        C. Other Assets                                                                0                          0
        D. Total Nonfederal Assets                            $                3,318,353   $              2,844,427

     3. Total Nonentity Assets                                $                3,792,860   $              3,188,973

     4. Total Entity Assets                                   $            351,051,286     $            331,547,176


     5. Total Assets                                          $            354,844,146     $            334,736,149


     Fluctuations and Abnormalities
     The DON reported an increase in Total Nonentity Assets (Line 3) of $603.9 million, 19%, in FY 2006 which
     is primarily aĴributed to accounts receivable as described below.

     Nonfederal Assets.
     Nonentity Nonfederal Accounts Receivable (Line 2.B): The DON reported an increase of $603.0 million,
     24%. A receivable of $345.6 million that was classiﬁed in FY 2005 as “currently not collectible” was not
     reported as a nonentity receivable. However, DON began reporting this as an active nonentity receivable
     in the 1st Quarter, FY 2006, due to a change in the litigation status. Furthermore, in 4th Quarter, FY 2005,
     $210.8 million of out-of-service debt that should have been classiﬁed as nonentity was erroneously classiﬁed
     as an entity receivable. This classiﬁcation error was corrected in 1st Quarter, FY 2006.

     Information Related to Nonentity Assets

     Deﬁnitions
     Entity accounts.
     Assets that DON has the authority to use, or those that management is legally obligated to use to meet
     entity obligations.

     Nonentity accounts.
     Assets held by an entity, but are not available for use in the operations of the entity.

     Other Disclosures
     Nonentity Assets.
     For FY 2006, DON holds $3.8 billion nonentity assets. These assets are not available for use by DON in
     its day-to-day operations but DON maintains stewardship accountability and reporting responsibility.
     There are three categories of signiﬁcant nonentity assets held by DON: (1) the Intragovernmental Fund

86
2006 Annual Financial Report



Balance with Treasury, (2) the Nonfederal Cash and Other Monetary Assets, and (3) the Nonfederal
Accounts Receivable.

Nonentity Nonfederal Accounts Receivable (Public).
For FY 2006, the DON holds $3.1 billion of nonentity nonfederal accounts receivable. The primary
component is a principal amount of $1.3 billion, representing advance payments made to contractors and
$1.3 billion in associated accrued interest which remains in litigation. These receivable balances are being
reported in nonentity accounts receivable since the original appropriation year has been cancelled, and
any funds collected as a result of this litigation would go to the Department of the Treasury and not be
available for DON’s use in normal operations. See Note 5 for additional information.

Intragovernmental Fund Balance with Treasury.
This asset category, in the amount of $474.5 million represents amounts in DON’s deposit and receipt
fund accounts that are not available for DON’s use in normal operations. The increase of $130.0 million,
38% from FY 2005 is primarily due to increased participation by deployed Sailors and Marines, in the
savings plans that were established by Congress for their beneﬁt while serving overseas.

Cash and Other Monetary Assets.
This asset category, in the amount of $176.3 million, represents disbursing oﬃcers’ cash and undeposited
collections as reported on the Statement of Accountability. These assets are held by DON disbursing
oﬃcers as agents of the Treasury and are not available for DON’s use in normal operations. See Note 7 for
additional information.


Note 3.         Fund Balance with Treasury
 As of September 30                                              2006                    2005
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                               $            93,541,772     $     83,215,340
    B. Revolving Funds                                                2,387,470            2,501,771
    C. Trust Funds                                                        9,917               14,564
    D. Special Funds                                                      2,302                2,984
    E. Other Fund Types                                                 474,507              344,546
    F. Total Fund Balances                              $            96,415,968     $     86,079,205



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                        $            97,613,850     $     86,922,093
    B. Fund Balance per DON                                          96,415,968           86,079,205

 3. Reconciling Amount                                  $               1,197,882   $        842,888




                                                                                                                87
                                                                                                 General Fund
                                                                                            Department of the Navy



     Explanation of Reconciliation Amount:
     Parent/ Child Allocation Accounts                        $34,380
     Invalid Program Years                                    120,524
     Canceling Years                                         1,042,978
       Total Reconciling Amount                            $1,197,882

     Fund Balance Per Treasury Calculation:
     Undisbursed Appropriation Account Trial Balance (FMS 6654)            $97,521,347
     Receipt Account Trial Balance (FMS 6655)                                  111,860
     Less: 6655 Trust Funds Balances included in 6654                          (19,153)
     Less: 6655 Special Funds Balances included in 6654                           (204)
       Fund Balance Per Treasury                                           $97,613,850

     The Financial Management Service (FMS) 6653, which is the Undisbursed Appropriation Account
     Ledger, includes the current month’s transactions and cumulative balances for any appropriation that
     had ﬁnancial activity during the month. FMS 6653 is systematically interfaced with the Standard
     Accounting and Reporting System (STARS) for posting expenditure transactions. FMS 6654, which is the
     Undisbursed Appropriation Account Trial Balance, includes any activity and the cumulative balances
     for all appropriations regardless of whether they had activity for the month. Since the FMS 6654 is all-
     inclusive, this report is used to calculate Fund Balance with Treasury (FBWT). FMS 6655 is the Receipt
     Account Trial Balance.

     The total reconciling amount of $1.2 billion is primarily due to $1.0 billion in FBWT for appropriations
     that were canceled on September 30, 2006 and thus not reported on DON’s balance sheet. However,
     the FBWT for these canceled appropriations was reported by Treasury at September 30, 2006. Invalid
     program year numbers, primarily an extended availability Shipbuilding and Conversion, Navy
     appropriation, represent duplicative reporting at Treasury accounting for $120.5 million of the reconciling
     diﬀerence. The DON is working with Treasury to resolve the issue. Finally, $34.4 million of Parent/child
     Allocation accounts, primarily Treasury symbol 1081, International Military Education and Training with
     a balance of $34.0 million, comprised the remaining reconciling item. The DON, as the “child”, is the
     recipient of allocation transfers from other Federal agencies and has determined that the allocations are
     not material to the DON ﬁnancial statements. The providing agency, as the “parent”, is responsible for
     reporting the FBWT for these allocations.

     Fluctuations and Abnormalities
     The overall increase in FBWT of $10.3 billion, 12% is directly related to the $14.5 billion, 11% increase
     in Appropriations Received that have not been fully executed. This increase in FBWT is primarily
     aĴributable to an increase in multi-year appropriations of $8.1 billion ($6.2 billion in Procurement and
     $1.5 billion in RDT&E). The increase in the procurement appropriations is to address the requirement for
     the acquisition, modernization, and recapitalization of the Fleet. The increase in RDT&E is to meet the
     requirements for process innovation, transitioning science and technology to the acquisition community
     and the warﬁghter, and general research and development use.




88
2006 Annual Financial Report



Status of Fund Balance with Treasury
 As of September 30                                          2006                       2005
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                  $                 19,197,595    $        15,607,505
    B. Unavailable                                                   1,638,379              1,520,974

 2. Obligated Balance not yet Disbursed           $                 78,088,020    $        72,093,187

 3. Nonbudgetary FBWT                             $                    472,698    $            267,741

 4. NonFBWT Budgetary Accounts                    $                 (2,980,724)   $        (3,410,202)

 5. Total                                         $                 96,415,968    $        86,079,205


Other Information Related to Status of Fund Balance with Treasury

Fluctuations and Abnormalities
Total Status of FBWT increased $10.3 billion, 12% in FY 2006. The increase is a result of the Unobligated,
Available Line 1.A, which represents budget authority that is currently available for new obligations,
increasing $3.6 billion, 23% and Obligated Balance not yet Disbursed, representing expected future
expenditures, increasing $5.9 billion, 8% in FY 2006. This increase is primarily aĴributable to an increase
in multi-year appropriations of $8.1 billion ($6.2 billion in Procurement and $1.5 billion in RDT&E) and
the residual balances associated with the multi-year appropriation that have not been fully executed.

Deﬁnitions
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances
reﬂect the budgetary authority remaining for disbursements against current or future obligations. In
addition, the status includes various accounts that aﬀect either budgetary reporting or Fund Balance with
Treasury, but not both.

Unobligated balance represents the cumulative amount of budgetary authority that has not been set
aside to cover outstanding obligations. Unobligated balance is classiﬁed as available or unavailable and
is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not
been received or services that have not been performed.

Non-Budgetary FBWT includes entity and nonentity Fund Balance with Treasury accounts which do not
have budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not aﬀect FBWT, such as contract
authority, borrowing authority and investment accounts. This category reduces the Status of Fund
Balance with Treasury.

Other Disclosures
Unobligated, Unavailable balances are restricted to future use and are not apportioned for current use.


                                                                                                                89
                                                                                                 General Fund
                                                                                             Department of the Navy



     Although funds have been appropriated, single year appropriations such as Operation and Maintenance
     and Military Pay accounts, are not available for obligation because the period for obligation established
     by law has lapsed. Multi-year accounts and “X” or no year accounts are restricted based on their
     appropriation type. Trust funds and Earmarked funds are restricted to their intended use.


     Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                              (Decrease)/
      As of September 30                                 2004        2005         2006       Increase from
                                                                                             FY 2005 - 2006
      (Amounts in thousands)

      Account
       F3845 – Personal Property Proceeds            $           0 $        0 $         0     $              0
       F3875 – Disbursing Officer Suspense               (253,211)   (27,725)          72              27,797
       F3880 – Lost or Cancelled Treasury Checks             2,453      3,946       3,378               ( 568)
       F3882 – Uniformed Services Thrift Savings
       Plan Suspense                                      (37,698)     32,891       46,500             13,609
       F3885 – Interfund/IPAC Suspense                   (133,156)   (53,025)      (5,260)             47,765
       F3886 – Thrift Savings Plan Suspense                      9        429         (28)              ( 457)

      Total                                          $ (421,603) $ (43,484) $      44,662     $        88,146


     Fluctuations and Abnormalities
     The total amount in Suspense/Budget Clearing Accounts increased $88.1 million, 203%, from the prior
     period credit balance, in FY 2006. Account F3885 – Interfund/IPAC Suspense increased $47.8 million, 90%
     from the prior period credit balance, in FY 2006 as a result of a reduction of items in suspense. Account
     F3875 – Disbursing Oﬃcer Suspense increased $27.8 million, 100% from the prior period credit balance
     as a result of eﬀorts to clear aged suspended transactions throughout FY 2006. These eﬀorts are part of
     the DON Financial Improvement Plan and include an analysis of the types of inﬂows into the suspense
     accounts. Additionally, DON is establishing policies and procedures to ensure accurate and consistent
     use of these accounts.

     Disclosures Related to Suspense/Budget Clearing Accounts
     The F3875 suspense clearing account reported a positive balance of $72.0 thousand that represents the
     Disbursing Oﬃcer’s (DO) suspense. Account F3885, which includes the Interfund/IPAC suspense,
     reported a negative balance of $5.3 million. The F3882 suspense clearing account reported a positive
     balance of $46.5 million that represents the Uniformed Services ThriĞ Savings Plan established in FY
     2002. The amounts in this account represent a timing diﬀerence between the posting of the ThriĞ
     Savings Plan deductions by the National Finance Center and the posting of these amounts in the military
     accounting systems in the following month.

     Account F3886, representing the civilian ThriĞ Savings Plan suspense, has a credit balance of $28
     thousand. The F3880 suspense account reported a positive balance of $3.4 million. This amount
     represents the balance of Treasury checks that (1) have either been lost by the payee and need to be
     reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the Treasury and need to
     be transferred to the original appropriation.



90
2006 Annual Financial Report



Disclosures Related to Problem Disbursements and In-Transit
Disbursements
                                                                                            (Decrease)/
 As of September 30                              2004           2005           2006        Increase from
                                                                                          FY 2005 to 2006
 (Amounts in thousands)

 1. Total Problem Disbursements,
    Absolute Value
    A. Unmatched Disbursements
       (UMDs)                                $     183,570 $     1,313,996 $    984,547      $   (329,449)
    B. Negative Unliquidated
       Obligations (NULO)                            32,110         17,086       15,396            (1,690)

 2. Total In-transit
    Disbursements, Net                       $     (23,714) $      857,860 $    384,940      $   (472,920)


Fluctuations and Abnormalities
Since FY 2005 Unmatched Disbursements (UMDs) have decreased by $329.4 million or 25%. Negative
Unliquidated Obligations (NULOs) have decreased $1.7 million, 10% since FY 2005. The DON and DFAS
have partnered to reduce UMD and NULO balances and the signiﬁcant reductions are reﬂective of those
eﬀorts. In 2nd Quarter, FY 2005, DFAS-Cleveland expanded the scope of the deﬁnition of an UMD.
Formerly, transactions that had not yet reached an accounting station were deﬁned as undistributed.
Now these transactions are being deﬁned as an UMD. This change in practice was the primary driver
behind the increase from FY 2004 to FY 2005.

In-Transit Disbursements, Net decreased $472.9 million, 55%, since FY 2005. This decrease reﬂects a
concerted eﬀort by DON and DFAS to identify systemic errors and implement corrective actions through
synchronization of edit tables to validate data between systems.

In March 2006, DON submiĴed a plan of action and milestones to the Under Secretary of Defense
(Comptroller) (OUSD(C))- that describes how the DON will work in conjunction with DFAS to resolve
aged problem disbursements.

Deﬁnitions
An Unmatched Disbursement (UMD) occurs when a payment is not matched to a corresponding
obligation in the accounting system.

Absolute Value is the sum of the positive values of debit and credit transactions without regard to the sign.

A Negative Unliquidated Obligation (NULO) occurs when a payment is made against a valid obligation,
but the payment is greater than the amount of the obligation recorded in the oﬃcial accounting system.
These payments have been made using available funds and are based on valid receiving reports for goods
and services delivered under valid contracts.

In-Transit Disbursements, Net represent the net value of disbursements and collections made by a DoD
disbursing activity on behalf of an accountable activity which have not been posted in an accounting
system. Of the $384.9 million reported for DON General Fund, only $39.8 million, 10%, is over 30 days old.

                                                                                                                  91
                                                                                                   General Fund
                                                                                               Department of the Navy



     Other Disclosures
     The elimination of both Problem Disbursements and In-transits is one of the highest ﬁnancial
     management priorities of OUSD(C). Problem Disbursements and In-transits represent a signiﬁcant
     ﬁnancial management concern since: (1) accuracy of accounting reports is aﬀected; (2) availability of
     funds is more diﬃcult to determine, and (3) the required research and resolution process becomes much
     more labor intensive as the age of the problem disbursements increase. As a result, DON has eﬀorts
     underway to improve the systems and to resolve previous problem disbursements and process in-transit
     disbursements.

     The DON includes Foreign Military Sales in the amount of $105.1 thousand in Problem Disbursement
     amounts and DON is in balance with the Problem Disbursement metric.


     Note 4.        Investments and Related Interest
                                                                      2006

      As of September 30                                           Amortized                         Market
                                                   Amortization                    Investments,
                                        Cost                      (Premium) /                         Value
                                                     Method                            Net
                                                                    Discount                        Disclosure
      (Amounts in thousands)
      1. Intragovernmental
         Securities
        A. Nonmarketable,
           Market-Based             $    9,633                    $      (23)      $      9,610 $          9,610
        B. Accrued Interest                141                                              141              141
        C. Total
           Intragovernmental
           Securities               $    9,774                    $     ( 23)      $      9,751 $          9,751

      2. Other Investments
         A. Total Investments       $          0                  $           0    $           0            N/A


                                                                      2005

      As of September 30                                           Amortized                         Market
                                                   Amortization                    Investments,
                                        Cost                      (Premium) /                         Value
                                                     Method                            Net
                                                                    Discount                        Disclosure
      (Amounts in thousands)
      1. Intragovernmental
          Securities
         A. Nonmarketable, Market-
            Based                   $    9,421                    $          (2)   $   9,419 $             9,419
         B. Accrued Interest               100                                           100                 100
         C. Total Intragovernmental
            Securities              $    9,521                    $      ( 2)      $   9,519 $             9,519

      2. Other Investments
         A. Total Investments       $          0                  $           0    $       0                N/A

92
2006 Annual Financial Report



Fluctuations and Abnormalities
There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
percent of total assets to explain for this reporting period.

Other Disclosures
The two DON Trust Funds holding interest-bearing securities are the Naval Academy General GiĞ Fund
and the Navy General GiĞ Fund, which have a total Investment net value of $9.8 million (including
$141.6 thousand of accrued interest). These investments are Nonmarketable Market-Based U.S. Treasury
securities reported at cost, net of amortized premiums and discounts. In accordance with the Statement
of Federal Financial Accounting Standards No. 27, “Identifying and Reporting Earmarked Funds,” DON
Trust Funds are now classiﬁed and reported as earmarked funds.

Intragovernmental Investments for Earmarked Funds.
The Federal Government does not set aside assets to pay future beneﬁts or other expenditures associated
with DON’s earmarked Trust Funds. The cash receipts collected from the public for an earmarked fund
are deposited in the U.S. Treasury, which uses the cash for general Government purposes. Treasury
securities are issued to DON as evidence of its receipts. Treasury securities are an asset to the DON and
a liability to the U.S. Treasury. Because DON and the U.S. Treasury are both parts of the United States
Government, these assets and liabilities oﬀset each other from the standpoint of the Government as a
whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide ﬁnancial
statements. U.S. Treasury securities provide the DON with authority to draw upon the U.S. Treasury to
make future beneﬁt payments or other expenditures. When DON requires redemption of its Treasury
securities held in DON earmarked Trust Funds to make expenditures, the Government ﬁnances those
expenditures out of accumulated cash balances, by raising taxes or other receipts, by borrowing from
the public or repaying less debt, or by curtailing other expenditures. This is the same way that the
Government ﬁnances all other expenditures.


Note 5.         Accounts Receivable
 As of September 30                                     2006                                   2005
                                                   Allowance For          Accounts
                                   Gross                                                    Accounts
                                                    Estimated            Receivable,
                                 Amount Due                                              Receivable, Net
                                                   Uncollectibles           Net
 (Amounts in thousands)
 1. Intragovernmental
    Receivables                  $      159,270                N/A   $        159,270    $       281,304
 2. Nonfederal Receivables
    (From the Public)            $    3,238,178   $        (6,764)   $       3,231,414   $      3,267,657

 3. Total Accounts
    Receivable                   $    3,397,448   $        (6,764)   $       3,390,684   $      3,548,961


Information Related to Accounts Receivable

Fluctuations and Abnormalities
Intragovernmental Receivables.
The Department of the Navy (DON) General Fund (GF) acts as a seller of goods and services to other
Federal agencies (DON GF’s Level One trading partners) and other organizations within DoD (DON
GF’s Level Two trading partners). Receipt of customer orders, the resulting billing of receivables, and

                                                                                                                 93
                                                                                                  General Fund
                                                                                           Department of the Navy



     the collection of those receivables from other agencies, do not consistently follow a predictable paĴern.
     This revenue cycle is subject to the business conditions and requirements of DON’s trading partners. The
     value of accounts receivable is also subject to the processes used for billing and collection.

     The DON reported a decrease of $122.0 million, 43%, in Intragovernmental Receivables in FY 2006. The
     primary factors were a decrease of $40.5 million reported with the Department of Homeland Security
     (DHS) (Level One, business conducted with other Federal agencies), a decrease of $31.5 million reported
     for the Navy Working Capital Fund (Level Two), and a decrease of $21.4 million reported with Army
     General Fund (Level Two) as a result of Marine Corps’ improved billing and collection process. The
     decrease with DHS represents the collection of monies for work performed for Hurricane Katrina
     support. The decrease with NWCF represents the completion of the conversion project, and subsequent
     ﬁnal billing and collection for work on the USS Ohio (SSGN-726) in 2nd Quarter FY 2006.

     Nonfederal Receivables.
     There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
     percent of total assets to explain for this reporting period.

     Allowance Method
     Based upon an extensive analysis of historic public receivables, the allowance for FY 2006 was determined
     to be $6.8 million.

     Intragovernmental Accounts Receivable Adjustments
     Allocation of Undistributed Collections.
     Undistributed collections are allocated between federal and nonfederal categories based on the
     percentage of federal and nonfederal Accounts Receivable as submiĴed in the ﬁeld level general ledgers.
     This allocation was suggested as appropriate in a DFAS Arlington memorandum of October 4, 2000,
     which required disclosure to the audit community of the applicable methodology used to allocate
     undistributed collections. For FY 2006 $691.8 million in undistributed collections was allocated to
     accounts receivable.

     Elimination Adjustments.
     The DON’s accounting systems do not consistently capture trading partner data at the transaction
     level in a manner that facilitates trading partner reconciliations. Therefore, DON was unable to
     reconcile intragovernmental accounts receivable balances with the Accounts Payable balances of its
     intragovernmental trading partners. Through the ongoing Business Transformation Agency eﬀort, the
     Department intends to develop long-term systems improvements that will capture the data necessary to
     perform reconciliations.

     Intrafund transactions (within DON GF) are eliminated based upon trading partner information obtained
     from the Naval Personnel Command, the Naval Air Systems Command Enterprise Resource Planning
     system, the Standard Accounting and Reporting System – Field Level (STARS-FL), and the Standard
     Accounting and Reporting System – Headquarters Module (STARS-HQ). The elimination data obtained
     from these systems included seller appropriation, grantor (buyer) appropriation, grantor subhead,
     grantor code, reimbursable source code, accounts receivable, revenue, unearned revenue, and amount
     collected.




94
2006 Annual Financial Report



Aged Accounts Receivable
 As of September 30                           2006                                 2005
                               Intragovernmental     Nonfederal      Intragovernmental    Nonfederal
 (Amounts in thousands)
 CATEGORY
 Nondelinquent
     Current                   $           381,172   $    535,983    $          687,784   $    774,603
     Noncurrent                             30,402          7,549                89,984          6,280
 Delinquent
     1 to 30 days              $             2,188   $      7,022    $            7,227   $      5,270
     31 to 60 days                           1,101          4,737                 2,299          3,406
     61 to 90 days                           1,150          9,687                16,596         14,467
     91 to 180 days                          7,409         10,598                 3,630         16,348
     181 days to 1 year                      5,821         26,743                12,342         35,495
     Greater than 1 year
     and less than or equal
     to 2 years                              2,085         44,235                32,343         58,627
     Greater than 2 years
     and less than or equal
     to 6 years                             31,745         58,556                82,359         21,782
     Greater than 6 years
     and less than or equal
     to 10 years                               259         362,476                  248          14,861
     Greater than 10 years                       0       2,605,292                    0       2,526,709
 Subtotal                      $           463,332   $   3,672,878   $          934,812   $   3,477,848
    Less Supported
    Undistributed
    Collections                          (257,152)       (434,700)            (274,637)       (204,360)
    Less Eliminations                     (46,910)               0            (226,962)               0
    Less Other                                   0               0            (151,909)           5,479
 Total                         $           159,270   $   3,238,178   $          281,304   $   3,278,967


Nondelinquent Accounts Receivables are receivables outstanding for 30 days or less or those not yet due
under the contract or billing document pertaining to the receivable. Current nondelinquent accounts
receivable are those that are due in the next twelve months. Noncurrent nondelinquent accounts
receivable include out-of-service debt that are due beyond the next 12 months, and are valued at $37.9
million for FY 2006. These accounts are not considered delinquent since the associated repayment
schedules allow for repayment aĞer a 30-day period. The DON is actively pursuing collection action
on all accounts receivable, both public and intragovernmental, in accordance with guidance in the DoD
Financial Management Regulation, Volume 4, Chapter 3 and OMB Circular A-129 “Policies for Federal
Credit Programs and Non-Tax Receivables”.

For public debt, these collection actions include referring delinquent vendor debt to the Debt
Management Oﬃce (DMO) for servicing no later than 60 days aĞer the payment due date, and
coordinating with the DMO to further refer such debt over 180 days delinquent to the Treasury for further
collection action. A current example of collection actions related to public debt is a partnership between

                                                                                                               95
                                                                                                General Fund
                                                                                               Department of the Navy



     DON and DFAS to identify habitually delinquent public entities and develop standard processes with
     a goal of improving the joint business relationship. For delinquent intragovernmental debt, collection
     actions include detailed research of subsidiary accounting transactions with DFAS, the compilation and
     review of dispute packages, and consultation and negotiation with debtor agencies to resolve outstanding
     receivables. A current example is the extensive collaboration between DON and the Federal Emergency
     Management Agency to resolve delinquent receivables related to Hurricane Katrina support.

     It must be recognized that, in certain instances, the status of litigation impacts the ability of the DON to
     actively pursue collection action on public debt.

     As displayed in the previous table, the amounts reported for FY 2005 are not directly comparable to
     those reported for FY 2006. The methodology used to calculate delinquent receivables has changed:
     in FY 2005, when a receivable reached the age of 31 days, it was considered 31 days delinquent. In
     FY 2006 a receivable, which by terms of the repayment schedule is due in 30 days, is considered 1 day
     delinquent upon reaching the age of 31 days. The amounts reported in the FY 2005 “Less Other” category
     were required to balance the aging schedule to the ﬁnancial statements. In FY 2005, there was not a
     requirement for an aging schedule to be published in the ﬁnancial statements.


     Note 6.          Other Assets
      As of September 30                                            2006                         2005
      (Amounts in thousands)

      1. Intragovernmental Other Assets
         A. Advances and Prepayments                      $                 468,259    $                 672,257
         B. Other Assets                                                          0                            0
         C. Total Intragovernmental Other Assets          $                 468,259    $                 672,257

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing
            Payments                                      $                8,154,326   $                6,859,367
         B. Other Assets (With the Public)                                   454,549                      129,424
         C. Total Nonfederal Other Assets                 $                8,608,875   $                6,988,791



      3. Total Other Assets                               $                9,077,134   $                7,661,048


     Fluctuations and Abnormalities
     Intragovernmental Other Assets.
     The DON reported a decrease of $204.0 million, 30%, in Advances and Prepayments, (Line 1.A), in FY
     2006. The majority of the decrease was due to a $169.6 million decrease with the Navy Working Capital
     Fund (NWCF) (Trading Partner Level Two). To alleviate a cash shortage in FY 2005, NWCF Shipyards
     were granted authority to advance bill and DON advanced NWCF $180.9 million in FY 2005. As the
     NWCF cash shortage was addressed, in FY 2006 the level of advances provided by DON to NWCF has
     declined to $11.3 million.

     Nonfederal Other Assets.
     The DON reported an increase of $1.6 billion, 23%, in total nonfederal other assets in FY 2006. In 4th

96
2006 Annual Financial Report



Quarter FY 2006, in accordance with a DoD policy decision based on a DoD Inspector General audit
ﬁnding, DON began recording an estimated asset (and corresponding contingent liability) for the value
of in-process work that is expected to result in the delivery of ﬁnished goods. This estimated asset is $1.2
billion. The remaining increase is aĴributable to the recognition of $156.2 million in advances. The DON
began recognizing these advances in 2nd Quarter, FY 2006, as a result of improved processes derived
from the Financial Improvement Program.

Information Related to Other Assets
Intragovernmental Other Assets - Advances and Prepayment.
The buyer-side advances to others amounts were adjusted to agree with seller-side advances from others
on the books of other DoD reporting entities (Level Two trading partners). Additionally, the buyer-
side prepayment balances were adjusted to agree with seller-side deferred credits on the books of other
DoD reporting entities. Material diﬀerences may exist as advances and prepayments to Other Federal
Agencies (Level One trading partners) were estimated since DON accounting systems are unable to
identify the agency that is being advanced money from the buyer side perspective. The estimates were
based upon historical trading partner data obtained from the Intragovernmental Review and Analysis
System (IRAS).

Nonfederal Other Assets - Outstanding Contract Financing Payments.
Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to
the Department that protect the contract work from state or local taxation, liens or aĴachment by the
contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these rights should not
be misconstrued to mean that ownership of the contractor’s work has transferred to the Government. The
government does not have the right to take the work, except as provided in contract clauses related to
termination or acceptance, and the Department is not obligated to make payment to the contractor until
delivery and acceptance of a satisfactory product.

The Contract Financing Payment balance of $8.2 billion is comprised of $7.0 billion in contract ﬁnancing
payments and an additional $1.1 billion in estimated future funded payments that will be paid to
the contractor upon delivery and Government acceptance of a satisfactory product. (See additional
discussion in Note 15, Other Liabilities).

Nonfederal Other Assets, Other Assets (With the Public).
The Other Assets (With the Public) includes advance pay to DON military personnel, travel advances,
and miscellaneous advances to contractors.




                                                                                                                 97
                                                                                                  General Fund
                                                                                           Department of the Navy



     Note 7.           Cash and Other Monetary Assets
      As of September 30                                       2006                          2005
      (Amounts in thousands)

      1. Cash                                      $                    173,389   $                   201,999
      2. Foreign Currency                                                 2,917                       103,441

      3. Total Cash, Foreign Currency, &
         Other Monetary Assets                     $                    176,306   $                   305,440


     Fluctuations and Abnormalities
     Total Cash, Foreign Currency and Other Monetary Assets (Line 3) decreased $129.1 million, 42%.
     This is reﬂective of a decrease of $100.5 million, 97%, in Foreign Currency. When the Marine Corps
     Expeditionary Forces, Camp Lejeune returned from an overseas deployment in 2nd Quarter, FY 2006,
     their Disbursing Oﬃcer dissolved the Limited Depositary Account that had been held in the National
     Bank of Kuwait. This Limited Depositary Account, in accordance with DoD FMR guidelines, is part of
     the Disbursing Oﬃcer’s accountability for public funds.

     Deﬁnitions
     Cash - the total of cash resources under the control of DON, which includes coin, paper currency,
     purchased foreign currency, negotiable instruments, and amounts on deposit in banks and other ﬁnancial
     institutions.

     Foreign Currency - consists of the total U.S. dollar equivalent of nonpurchased foreign currencies held in
     foreign currency fund accounts. Nonpurchased foreign currency is limited to the Treasury Index 97X7000
     fund account (formerly called FT accounts).

     Restriction on Cash, Foreign Currency and Other Monetary Assets – total cash, foreign currency and
     other monetary assets reported are classiﬁed as nonentity, which means that the assets are not available
     for DON’s use in normal operations. Therefore, total cash, foreign currency and other monetary assets,
     totaling $176.3 million is restricted.

     Other Disclosures
     Cash and Foreign Currency consists primarily of cash held by Disbursing Oﬃcers to carry out their
     payment, collection, and foreign currency accommodation exchange mission. The primary source of the
     amounts reported is DoD Disbursing Oﬃcers, Statement of Accountability (Standard Form 1219).

     The DON translates foreign currency to U.S. dollars utilizing the Department of the Treasury Prevailing
     Rate of Exchange. This rate is the most favorable rate that would legally be available to the U.S.
     Government’s acquisition of foreign currency for its oﬃcial disbursement and accommodation of
     exchange transactions.


     Note 8.           Direct Loan and/or Loan Guarantee Programs
     Not Applicable.




98
2006 Annual Financial Report



Note 9.           Inventory and Related Property
 As of September 30                                              2006                                    2005
 (Amounts in thousands)

 1. Inventory, Net                                  $                              0       $                             0
 2. Operating Materials & Supplies, Net                                   58,794,634                            55,584,837
 3. Stockpile Materials, Net                                                       0                                     0

 4. Total                                           $                     58,794,634       $                    55,584,837



Inventory, Net
Not Applicable.


Operating Materials and Supplies, Net
                                                         2006                                     2005
 As of September 30              OM&S           Revaluation                                                     Valuation
                                                                        OM&S, Net              OM&S, Net
                               Gross Value      Allowance                                                        Method
 (Amounts in thousands)

 1. OM&S Categories
    A. Held for Use            $   53,664,746   $                 0   $    53,664,746          $ 51,202,582     SP, LAC
    B. Held for Repair              6,487,827           (1,357,939)         5,129,888             4,382,255     SP, LAC
    C. Excess,
       Obsolete, and
       Unserviceable                 582,918             (582,918)                     0                  0       NRV

     D. Total                  $   60,735,491   $ (1,940,857)         $    58,794,634          $ 55,584,837


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost

2. Restrictions on Operating Materials and Supplies (OM&S):
There are no known restrictions on the use of OM&S.

3. Other Information Related to Operating Materials and Supplies

Fluctuations and Abnormalities
There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
percent of total assets to explain for this reporting period.


                                                                                                                                 99
                                                                                                                  General Fund
                                                                                         Department of the Navy



      Information Related to Operating Material and Supplies, Net
      General Composition of Operating Materials and Supplies (OM&S).
      OM&S includes spare and repair parts, ammunition, conventional missiles, torpedoes, aircraĞ
      conﬁguration pods, and centrally managed aircraĞ engines. The general composition of OM&S is as
      follows:

       As of September 30, 2006
      (Amounts in thousands)
      Ammunition and Munitions                            $ 34,813,578
      Appropriation Purchase Account (APA)
        Principal End and Secondary Items                    9,474,209
      Sponsor Owned Material                                11,882,388
      Real-time Reutilization Asset
        Management (RRAM)                                    2,240,183
      Other                                                    384,276
        Total                                             $ 58,794,634

      Balances.
      The Statement of Federal Financial Accounting Standards (SFFAS) No. 3 “Accounting for Inventory and
      Related Property” requires disclosure of the amount of OM&S held for “Future Use.” This information
      is not captured by current OM&S systems which were designed for material management rather than
      accounting purposes.

      Decision Criteria For Identifying The Category To Which Operating Materials And Supplies Are
      Assigned.
      In order to standardize the reporting categories of Held for Use; Held for Repair; and Excess, Obsolete
      and Unserviceable, DON implemented the Oﬃce of Under Secretary of Defense (Comptroller) (OUSD(C))
      condition code crosswalk as deﬁned in the memorandum “Accounting for Excess, Unserviceable, and
      Obsolete Inventory and Operating Materials and Supplies” dated August 12, 2002. In addition, the
      condition code crosswalk was amended to include code “V” in the Excess, Obsolete, Unserviceable
      category in September 2002. OM&S is reported as follows:

      OM&S Category                     Condition Codes
      Held for Use                      A, B, C, D
      Held for Repair                   E, F, G, J, K, L, M, N, R
      Excess, Obsolete, Unserviceable   P, H, S, V

      Condition Codes are used for material management purposes and are deﬁned in the Naval Supply
      Systems Command (NAVSUP) Publication 409.

      Valuation Method for OM&S.
      On July 6, 2001, OUSD(C) issued a memorandum requiring Moving Average Cost (MAC) as the approved
      valuation method for Inventory Held for Sale and Operating Materials and Supplies. The memorandum
      directs each Military Department and Defense Agency responsible for material amounts of inventory or
      operating materials and supplies to implement the moving average cost valuation method as systems
      are renovated or replaced. The DON is participating in a DoD Business Transformation Agency eﬀort
      that is currently designing and updating the Business Enterprise Architecture (BEA). The BEA includes
      guidance on transition plan strategy concepts, considerations, processes, and principles. MAC will be

100
2006 Annual Financial Report



implemented as existing OM&S systems are renovated or replaced. Until then, DON continues to value
OM&S using diﬀerent valuation methodologies such as standard purchase price or actual cost. These
valuation methodologies vary by system.

Other Disclosures
Ammunition and Munitions.
Ammunition and Munitions are maintained and valued in the Conventional Ammunition Integrated
Management System Open System Environment (CAIMS-OSE).

APA Principal End and Secondary Items.
Principal and Secondary Items include OM&S items such as shipboard hull, mechanical and electronic
equipment, and uninstalled aircraĞ engines. They are items of such importance that central inventory
control is required. They normally possess one of the following characteristics: (a) essential for combat
or training; (b) high dollar value; (c) diﬃcult to procure or produce; or (d) critical basic materials or
components.

Sponsor Owned Material (SOM).
SOM is deﬁned as programmatic material required in support of Program Manager’s mission
requirements for production, life cycle maintenance, and installation of systems and equipment consistent
with the mission charter. The material usage may involve, but is not limited to: item fabrication,
assembly, testing, manufacture, development, repair, or research and development.

Real-time Reutilization Asset Management (RRAM).
Material maintained and valued in RRAM is considered excess to the owner, but may not be excess to the
Navy. Standard price is used to value all stock-numbered items. Part-numbered items are valued by best
available information.

Other Operating Materials & Supplies.
Other OM&S consists primarily of Fleet Hospitals held by the Bureau of Medicine and Surgery and War
Reserve material in possession of the U.S. Coast Guard.


Stockpile Materials, Net
Not Applicable.




                                                                                                                101
                                                                                                 General Fund
                                                                                                                    Department of the Navy



      Note 10. General PP&E, Net
                                                                                                                             2005
                                                                              2006
                                                                                                                           Restated
          As of September 30
                                        Depreciation/                                      (Accumulated
                                                         Service         Acquisition                         Net Book      Prior FY Net
                                        Amortization                                       Depreciation/
                                                          Life             Value                              Value        Book Value
                                          Method                                           Amortization)
          (Amounts in thousands)


          1. Major Asset Classes
            A. Land                         N/A           N/A        $       611,761                 N/A $       611,761     $     616,579
            B. Buildings, Structures,
               and Facilities               S/L         20 Or 40          33,951,515   $      (20,889,320)    13,062,195         14,102,743
            C. Leasehold
               Improvements                 S/L         lease term             7,643                 (749)         6,894           7,129
            D. Software                     S/L          2-5 Or 10             3,818               (3,712)           106             205
            E. General Equipment            S/L           5 or 10          2,824,043           (2,265,692)       558,351         495,262
            F. Military Equipment           S/L           Various        299,030,122         (128,686,613)   170,343,509     163,498,292
            G. Assets Under Capital
               Lease                        S/L         lease term               115                  (11)          104                   0
            H. Construction-in-
               Progress                     N/A           N/A              2,396,749                  N/A      2,396,749       2,826,928
            I. Other                                                               0                     0             0               0
            J. Total General PP&E                                    $   338,825,766   $     (151,846,097) $ 186,979,669   $ 181,547,138


      1
       Note 15 for additional information on Capital Leases
      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable

      Fluctuations and Abnormalities
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      Other Information Related to General PP&E, Net
      The DON has the use of land, buildings, and other overseas facilities that are obtained through various
      international treaties and agreements negotiated by the Department of State. Generally, treaty terms
      allow the DON continued use of these properties until the treaties expire. There are no other known
      restrictions on General PP&E.

      Military Equipment.
      The Department changed its method of valuing military equipment in 3rd Quarter, FY 2006. Previously,
      military equipment was valued using Bureau of Economic Analysis (BEA) data. Beginning with the
      3rd Quarter, FY 2006, military equipment is valued based on internal records. The value of military
      equipment for the 4th Quarter, FY 2005 was restated from $140.3 billion to $163.5 billion for comparative
      purposes using the new valuation method.

      For 4th Quarter, FY 2006, military equipment is valued at $170.3 billion based on internal records. Under
      the previously used BEA valuation methodology, this equipment would have been valued at $143.7
      billion.

      Property in the Possession of Contractors.
      The value of DON’s General PP&E real property in the possession of contractors is included in the values

102
2006 Annual Financial Report



reported above for the Major Asset Classes of Land and Buildings, Structures, and Facilities. The value
of General PP&E personal property (Major Asset Classes of SoĞware and Equipment) does not include
all of the General PP&E above DoD capitalization threshold in the possession of contractors. The net
book amount of such property is immaterial in relation to the total General PP&E net book value. Per
an approved strategy with Oﬃce of Management Budget (OMB), Government Accountability Oﬃce
(GAO) and DoD Inspector General, DoD is developing new policies and a contractor reporting process
to capture General PP&E information for future reporting purposes for compliance with Federal General
Accepted Accounting Principles (GAAP). The DON does not have any General PP&E, for which the
acquisition cost is unknown, therefore no valuation method to disclose.

Heritage Assets and Stewardship Land.

Relationship of Heritage Assets to Department of the Navy’s (DON’s) Mission.
The overall mission of DON is to control and maintain freedom of the seas; project power beyond the
sea; and inﬂuence events and advance U.S. interests across the full spectrum of military operations. As
this mission has been executed DON has become a large-scale owner of historic buildings, structures,
districts, archeological sites and artifacts, ships, aircraĞ, and other cultural resources. Protection of
these components of the nation’s heritage is an essential part of DON’s mission; DON is commiĴed to
responsible cultural resources stewardship.

Stewardship Policies for Heritage Assets and Description of Each Major Category of Heritage Assets.
The overall policy for DON’s stewardship policies for heritage assets is contained in the Secretary of the
Navy Instruction 4000.35A, “DON Cultural Resources Program.”
     •     Heritage Assets are items that are unique for one of more of the following reasons: (1)
           historical or natural signiﬁcance; (2) cultural, educational or artistic importance; or (3)
           signiﬁcant architectural characteristics. The process used to deﬁne items as having heritage
           signiﬁcance varies between categories and type of assets being evaluated. Subject maĴer
           experts, including historians and curators, play a signiﬁcant role in the deﬁnition process.
           In all cases, a myriad of federal statutes, regulations, and other guidelines mandate heritage
           signiﬁcance or provide guidance in its determination.
     •     Preservation considerations are incorporated into routine DON management of historic
           buildings, structures, districts, sites, ships, aircraĞ and other cultural resources. Compliance
           with cultural resources protection requirements is incorporated as appropriate into other
           DON planning processes, including but not limited to master planning, environmental
           planning, budgeting/programming, and facilities management. When functionally
           appropriate and economically prudent, DON gives preference to the rehabilitation or adaptive
           use of historic properties over new construction or leasing.
     •     The appropriate consultation is initiated with State Historic Preservation Oﬃcers, Tribal
           Historic Preservation Oﬃcers, Advisory Council on Historic Preservation, Native Americans,
           Native Hawaiians, and other interested agencies and publics whenever DON conducts or
           supports undertakings that may aﬀect any National Register resource.
     •     DON designated staﬀ maintain an awareness of speciﬁc legal obligations regarding its
           management of cultural resources such as establishing a program to locate and inventory
           all cultural resources under DON control and to evaluate them against National Register
           eligibility criteria for possible nomination to the National Register.
     •     Cultural resources management, including consultation, takes place at the lowest appropriate
           level in the chain of command.
     •     Archeological sites under the control of DON are excavated only to the extent required for
           evaluation and identiﬁcation, unless scientiﬁc or programmatic considerations, or concerns
           about the integrity or security of a site, make more extensive excavation necessary or
           advisable.


                                                                                                                103
                                                                                                 General Fund
                                                                                            Department of the Navy



            •    Archaeological Sites are locations that contain the remains of past human activity of various
                 sorts that are listed or eligible for listing on the National Register of Historic Places.
            •    Buildings and Structures are listed as or determined eligible for listing on the National
                 Register of Historic Places, including Multi-Use Heritage Assets.
            •    Cemeteries are government owned burial grounds on which gravesites of prominent historical
                 ﬁgures may be located in addition to other gravesites.
            •    Major Collections include archeological artifacts that are maintained and inventoried by
                 cubic feet, archival items that are maintained and inventoried by linear feet, and artwork and
                 historical artifacts that are maintained and inventoried by individual items.
            •    Monuments and Memorials are those items that are built or placed to commemorate a person
                 or event, preserve the memory of a historical event, or are shown or maintained for its
                 historical interest.

      Relationship of Stewardship Land to Department of the Navy’s (DON’s) Mission.
      The overall mission of DON is to control and maintain freedom of the seas; project power beyond the
      sea; and inﬂuence events and advance U.S. interests across the full spectrum of military operations. As
      this mission has been executed DON has accumulated several hundred installations throughout the
      United States. These installations provide the capability to organize, train, and equip DON to perform its
      mission.

      Stewardship Land Policy.
      The DON Stewardship Land policy is the same as that which DON maintains over all land and
      installations. The DON strives to be a responsible steward of the land and to maintain it in a way that
      both protects human health and the environment and allows training and support of ﬂeet readiness. The
      DON works to develop and improve partnerships with the communities in which its installations are
      located, the federal regulatory agencies such as U.S. Environmental Protection Agency, state regulatory
      agencies, and within the military services by sharing lessons learned and transfer of technologies.

      Stewardship Land is deﬁned as the type of land not acquired for or in connection with land, on which
      General Plant and Equipment is located. For DON, Stewardship Land includes land acquired through
      public domain, land set aside, and donated land. Some of this land is used as a buﬀer around the
      perimeter of DON installations and may include, but is not limited to, grazing lands and forestry
      maintenance areas.

      Other Disclosures
      Real Property.
      The Internet Naval Facility Asset Database Store (iNFADS) provides real property values for ﬁnancial
      statement reporting purposes.

      Leasehold Improvements.
      The DON’s real property system iNFADS does not track leasehold improvements as a separate
      component of a building’s total value. However, DON collects this information through a data call and
      began recognizing the leasehold improvement values beginning in FY 2004.

      SoĞware.
      The DON uses the Defense Property Accountability System (DPAS) to capture costs associated with
      Internal Use SoĞware.

      Construction-in-Progress (CIP).
      The CIP balances were obtained from the Facilities Information System (FIS). The value of construction
      that is performed for the beneﬁt of external customers, such as Air Force and several of the Defense
      Agencies, is provided to Air Force, the Defense Agencies, and the Defense Finance and Accounting
      Service. The value of construction for external customers is not included in DON CIP balances.
104
2006 Annual Financial Report



Preponderant Use.
Per the DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determinant factor when
establishing which DoD Component recognizes a particular General PP&E asset for accounting and
reporting purposes. If the following four criteria are met, the preponderant user should report the
property regardless of legal ownership or funding source:

      •    The asset embodies a probable future beneﬁt;
      •    The DoD Component that reports the asset obtains the beneﬁt and controls access to the
           beneﬁt inherent in the asset;
      •    The transaction or event giving the Component the right to, and control over, the beneﬁt has
           already occurred; and
      •    The predominantly used assets, taken as a whole, are material to the Component’s ﬁnancial
           statements.

In accordance with an Oﬃce of the Under Secretary of Defense (Comptroller) memorandum of
July 5, 2005, the military departments and DoD activities meeting the criteria of preponderant user
are responsible for reconciliation of preponderant use property. A milestone of the DON Financial
Improvement Plan (FIP) is to reconcile with DoD activities and to ensure that the DON real property
database recognizes the preponderant user. As these eﬀorts are completed and reconciliations are
documented, DON General Fund will make the adjustments to the General Property, Plant and
Equipment line.


Assets Under Capital Lease
 As of September 30                                            2006                      2005
 (Amounts in thousands)

 1. Entity as Lessee, Assets Under Capital Lease
    A. Land and Buildings                             $                      0 $                        0
    B. Equipment                                                           115                          0
    C. Accumulated Amortization                                           (11)                          0

    D. Total Capital Leases                           $                   104 $                         0


2. Description of Lease Arrangements
Leased assets consist primarily of personal property reported in the DPAS system.

3. Other Information Related to Assets under Capital Lease
The DON reported a net increase of $104 thousand, 100%, in Assets under Capital Lease in FY 2006. No
capital leases existed in FY 2005, but one new lease was reported beginning
1st Quarter FY 2006.




                                                                                                               105
                                                                                                General Fund
                                                                                              Department of the Navy



      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                          2006                         2005
       (Amounts in thousands)

       1. Intragovernmental Liabilities
          A. Accounts Payable                            $                        0       $                     0
          B. Debt                                                                 0                             0
          C. Other                                                        3,770,838                     3,162,677
          D. Total Intragovernmental Liabilities         $                3,770,838       $             3,162,677

       2. Nonfederal Liabilities
          A. Accounts Payable                            $                  37,299        $               28,049
          B. Military Retirement and
             Other Federal Employment Benefits                          1,513,644                       1,532,819
          C. Environmental Liabilities                                 16,773,218                      16,513,000
          D. Other Liabilities                                          3,735,957                       3,550,457
          E. Total Nonfederal Liabilities                $             22,060,118         $            21,624,325

       3. Total Liabilities Not Covered by
          Budgetary Resources                            $             25,830,956         $            24,787,002

       4. Total Liabilities Covered by Budgetary
          Resources                                      $                5,461,997   $                 4,470,889

       5. Total Liabilities                              $             31,292,953     $                29,257,891


      Fluctuations and Abnormalities
      Intragovernmental Liabilities.
      Total intragovernmental liabilities increased $608.2 million, 19%, in FY 2006. A receivable of $345.6
      million that was classiﬁed in FY 2005 as “currently not collectible” was not reported as a nonentity
      receivable. The DON began reporting this as an active nonentity receivable in the 1st Quarter, FY 2006
      due to a change in the litigation status. Furthermore, in 4th Quarter FY 2005, $210.8 million of out-
      of-service debt that should have been classiﬁed as nonentity was erroneously classiﬁed as an entity
      receivable. This classiﬁcation error was corrected in 1st Quarter, FY 2006. The oﬀseĴing entry for these
      nonentity receivables is a liability to Department of Treasury. The associated accounts receivable balances
      are remiĴed to Treasury upon collection, and thus considered a liability to DON.

      Nonfederal Liabilities.
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      An explanation of ﬂuctuations and abnormalities for Total Liabilities Covered by Budgetary Resources is
      included in the speciﬁc note for that liability. See Notes 12 through 17.

      Deﬁnitions
          •     Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity,
                which are covered by realized budgetary resources as of the balance sheet date. Budgetary

106
2006 Annual Financial Report



             resources encompass not only new budget authority, but also other resources available to
             cover liabilities for speciﬁed purposes in a given year.

         •   Realized budgetary resources include:

             (1)   New budget authority

             (2)   Spending authority from oﬀseĴing collections (credited to an appropriation or fund
                   account)

             (3)   Recoveries of unexpired budget authority through downward adjustments of prior year
                   obligations

             (4)   Unobligated balances of budgetary resources at the beginning of the year or net transfers
                   of prior year balances during the year, and

             (5)   Permanent indeﬁnite appropriations or borrowing authority, which have been enacted
                   and signed into law as of the balance sheet date, provided that the resources may be
                   apportioned by OMB without further action by the Congress or without a contingency
                   ﬁrst having to be met.

         •   Conversely, Liabilities Not Covered by Budgetary Resources are those liabilities which
             are not considered covered by realized budgetary resources as of the balance sheet date.
             Budgetary Authority to satisfy these liabilities is expected to be provided in a future Defense
             Appropriations Act. When that future budgetary authority is provided, these respective
             liabilities will be recorded as Covered by Budgetary Resources with an associated funded
             expense. To prevent overstatement on the Balance Sheet and Statement of Net Cost, the
             liabilities previously recorded as Not Covered by Budgetary Resources and the associated
             unfunded expenses are reversed.

Other Disclosures
Military Retirement Beneﬁts and Other Employment Related Actuarial Liabilities (Line 2.B) includes $1.5
billion in Federal Employee’s Compensation Act (FECA) liabilities.

Intragovernmental Liabilities – Other (Not covered by Budgetary Resources) (Line 1.C) includes the
following:

As of September 30, 2006
(Amounts in thousands)
Federal Employees’
 Compensation Act (FECA)                                   $557,343
Unemployment                                                 71,447
Liabilities to Treasury                                   3,142,048
 Total                                                   $3,770,838

Liabilities to Treasury.
The primary component of the $3.1 billion liability to Treasury is a principal amount of $1.3 billion,
representing advance payments made to contractors and $1.3 billion in associated accrued interest which
remains in litigation. This amount in litigation is reported as an unfunded liability to Department of the
Treasury. Collections on this debt will be due and payable to Treasury as the original appropriation is in a
cancelled status. See Notes 2 and 5 for further disclosure.


                                                                                                                  107
                                                                                                   General Fund
                                                                                                  Department of the Navy



      Nonfederal Liabilities – Other (Not covered by Budgetary Resources) (Line 2.D) includes the following:

      As of September 30, 2006
      (Amounts in thousands)
      Annual Leave                                                            $2,738,551
      Military Equipment – Non-nuclear Non
        Environmental Disposal Liabilities                                      285,200
      Disposal Liabilities for Excess/Obsolete Structures                       635,835
      Contract Incentives                                                           76,371
        Total                                                                 $3,735,957


      Note 12. Accounts Payable
                                                                 2006                                      2005

       As of September 30                                    Interest, Penalties,
                                       Accounts Payable     and Administrative            Total            Total
                                                                    Fees
       (Amounts in thousands)

       1.   Intragovernmental
            Payables                   $        1,035,043   $           N/A           $   1,035,043    $   1,208,703
       2.   Nonfederal Payables
            (to the Public)                     1,265,536                       0         1,265,536        1,180,034

       3.   Total                      $        2,300,579   $                   0     $   2,300,579    $   2,388,737


      4. Other Information Related to Accounts Payable

      Fluctuation and Abnormalities
      Intragovernmental Payables.
      The DON reported a decrease of $173.7 million, 14%, in Intragovernmental payables in FY 2006. The
      trading partner process largely drives the balances in Intragovernmental payables. Upon receipt of
      accounts receivable data reported by our trading partners, DON records compensating accounts payable.
      For agencies that do not provide account receivable data, DON records accounts payable estimates
      based upon historical data. The total Level One (business conducted with other Federal Agencies)
      Intragovernmental accounts payable amount recorded in FY 2006 was $347.8 million. The Level One
      estimate is updated quarterly.

      The majority of the decrease was with the General Services Administration and Department of Energy
      (Level One) for the amounts of $50.3 million and $10.3 million respectively, as a result of improving
      the oversight for non-Economy Act orders. The decrease with the Navy Working Capital Fund (Level
      Two, business conducted with other DoD organizations) for the amount of $85.0 million was a result of
      implementing a business practice that allowed the NWCF to charge the appropriations directly when
      making contract payments. This change took place throughout FY 2006.

      Nonfederal Payables.
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

108
2006 Annual Financial Report



Deﬁnitions
Intragovernmental Accounts Payable.
This line consists of amounts owed to other federal agencies for goods or services ordered and received
but not yet paid. Interest, penalties and administrative fees are not applicable to intragovernmental
payables.

Nonfederal Payables (to the Public).
This line represents amounts owed to nonfederal government entities and individuals.

Undistributed Disbursements.
Undistributed Disbursements are the diﬀerence between disbursements recorded at the detailed level to
a speciﬁc obligation or payable in the activity ﬁeld records versus those reported by the Department of
the Treasury. This should agree with the undistributed disbursements reported on monthly accounting
reports. Generally, timing issues between systems cause undistributed disbursements. In-transit
disbursements are payments that have been made by other agencies, entities, or systems that have not yet
been recorded in DON’s accounting records. For FY 2006, total supported undistributed disbursements
were $1.8 billion.

Intragovernmental Elimination.
Regarding interagency purchases; DON accounting systems do not capture trading partner data at the
transaction level in a manner that facilitates trading partner aggregations. Therefore, DON was unable to
fully reconcile intragovernmental accounts payable to the related intragovernmental accounts receivable,
on another agencies’ records that generated the payable.

Therefore, DoD summary level seller accounts receivables were compared to DON’s accounts payable.
An adjustment was posted to DON’s accounts payable based on the comparison with the accounts
receivable of DoD Components providing goods and services to DON.

The DoD intends to develop long-term systems improvements that will include suﬃcient up-front edits
and controls to eliminate the need for aĞer-the-fact reconciliations. The volume of intragovernmental
transactions is so large that aĞer-the-fact reconciliation cannot be accomplished with existing or
foreseeable resources. In the interim, DFAS is leading an eﬀort to identify alternative means of capturing
and recognizing buyer side trading partner data.

Other Disclosures

Payables, more than any other liability, are subject to the vagaries of the business cycle, contract terms, the
timing of the receipt of invoices for goods and services, and the subsequent liquidation of those invoices;
thus variances from the previous reporting period are not uncommon. Payables are temporary liabilities
and are expected to be liquidated within the next payment cycle.

Judgment Fund Liabilities.
The DON must reimburse the Department of the Treasury for payments made from the Judgment Fund
on its behalf. These payments are a result of claims being resolved under the Contracts Dispute Act. In
addition, the Notiﬁcation of Federal Antidiscrimination and Retaliatory Act (No FEAR) was implemented
on October 1, 2003. This law requires all agencies to reimburse the Judgment Fund for cases covered by
the No FEAR Act. For FY 2006, DON reported $167.0 thousand for No FEAR Act liabilities.


Note 13.          Debt
Not Applicable.



                                                                                                                   109
                                                                                                    General Fund
                                                                                                                 Department of the Navy



      Note 14. Environmental Liabilities and Disposal Liabilities
                                                                                       2006                                2005
       As of September 30                                       Current             Noncurrent
                                                                                                         Total             Total
                                                                Liability            Liability
       (Amounts in thousands)

       1. Environmental Liabilities--Nonfederal
        A. Accrued Environmental Restoration Liabilities
         1. Active Installations—Installation Restoration
            Program (IRP) and Building Demolition and
            Debris Removal (BD/DR)                          $      330,987      $       1,998,233    $    2,329,220    $    2,666,516
         2. Active Installations—Military Munitions
            Response Program (MMRP)                                 54,700               630,300           685,000           554,455
         3. Formerly Used Defense Sites—IRP and
            BD/DR                                                           0                    0                 0               0
         4. Formerly Used Defense Sites--MMRP                               0                    0                 0               0

       B. Other Accrued Environmental Liabilities—
          Active Installations
        1. Environmental Corrective Action                               0                40,637            40,637                 0
        2. Environmental Closure Requirements                          289               185,544           185,833                 0
        3. Environmental Response at Operational
           Ranges                                                           0                    0                 0               0
        4. Other                                                            0                    0                 0               0

       C. Base Realignment and Closure (BRAC)
        1. Installation Restoration Program                         98,805              1,018,288         1,117,093         1,079,256
        2. Military Munitions Response Program                      11,103                101,746           112,849            65,236
        3. Environmental Corrective Action / Closure
           Requirements                                             18,074                49,388            67,462                 0
        4. Other                                                         0                     0                 0                 0


       D. Environmental Disposal for Weapons Systems
          Programs
        1.   Nuclear Powered Aircraft Carriers                              0           5,604,268         5,604,268         6,426,100
        2.   Nuclear Powered Submarines                                     0           3,377,665         3,377,665         5,837,200
        3.   Other Nuclear Powered Ships                                    0             277,608           277,608           223,900
        4.   Other National Defense Weapons Systems                         0             233,772           233,772           197,788
        5.   Chemical Weapons Disposal Program                              0                   0                 0                 0
        6.   Other                                                          0           3,237,406         3,237,406                 0

       2. Total Environmental Liabilities                   $      513,958      $      16,754,855    $   17,268,813    $   17,050,451


      Fluctuations and Abnormalities
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      In addition to the liabilities reported above, the Department of the Navy (DON) has the potential to
      incur costs for restoration initiatives in conjunction with returning overseas Defense facilities to host
      nations. The DON is unable to provide a reasonable estimate at this time because the extent of restoration
      required is not known.

110
2006 Annual Financial Report



Other Category Disclosure Comparative
                                                            2006             2005
(Amounts in thousands)
Other Accrued Environmental Costs- Other                      $0               $0
     Total                                                    $0               $0
Base Realignment and Closure- Other                           $0               $0
     Total                                                    $0               $0
Environmental Disposal for Weapon Systems             $3,237,406               $0
Programs- Other- Spent Nuclear Fuel
     Total                                            $3,237,406               $0

The “Other” type of environmental liabilities is Spent Nuclear Fuel (Line1.D.6). Per a Government
Accountability Oﬃce audit recommendation and completion of a milestone of the DON Financial
Improvement Program, DON began recognizing an estimated environmental disposal liability associated
with Spent Nuclear Fuel during 3rd Quarter, FY 2006. Spent Nuclear Fuel is the used fuel that is removed
from the nuclear reactors of nuclear powered ships and submarines. The estimate includes shipping,
processing, and storing the spent nuclear fuel. The total estimated liability for spent nuclear fuel is $3.2
billion.

Other Information Related to Environmental Liabilities

1. Applicable Laws and Regulations of Cleanup Requirements
The following is a summary of signiﬁcant laws that aﬀect DON’s conduct of environmental policy and
regulations.

The National Environmental Policy Act (NEPA) of 1970 requires DON to consider the environmental
impacts of proposed actions in the decision making process. Per DON regulations, the action proponent
will determine the level or amount of NEPA documentation required. The Resource Conservation and
Recovery Act (RCRA) of 1976 as amended by the Hazardous and Solid Waste Amendments (HSWA)
of 1984, was the ﬁrst comprehensive federal eﬀort to deal with safe disposal of all types of hazardous
wastes, and provides for “cradle to grave” tracking of hazardous wastes. Permits are required for
treatment, storage or disposal. Requirements for underground storage tanks (USTs) are also contained in
RCRA.

The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
commonly referred to as the Superfund legislation, provided Federal agencies authority to respond to the
release or the substantial threat of release of hazardous substances into the environment. CERCLA was
amended several times; one of the amendments was the Superfund Amendments and Reauthorization
Act (SARA) of 1986. This amendment established procedures to ensure that actual or threatened
hazardous substance releases have proper responses. The procedures address reporting, investigations,
remedy selection, and responsive provisions. Another amendment to CERCLA was the Community
Environmental Response Facilitation Act (CERF) of 1992. The DON must identify real property on
each facility that is not contaminated and that oﬀers the greatest opportunity for expedited reuse and
redevelopment. When property is transferred, DON is still responsible for any remediation or corrective
action or any response action found to be necessary aĞer the transfer.

The Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the Federal Water
Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the nation’s waters.
The CWA implementing regulations established closure and post closure requirements for sewage sludge
disposal. To help protect the nation’s drinking water supply, including underground injections through
a permiĴing scheme, is the purpose of the Safe Drinking Water Act of 1974 (Well Head Protection Areas).

                                                                                                                111
                                                                                                 General Fund
                                                                                                Department of the Navy



      The Clean Air Act (CAA) of 1990 established standards/limitations to prevent and control air pollutant
      discharges that could harm human health and natural resources. Requirements ensure that units can
      no longer operate when they are shutdown. Finally, the Toxic Substances Control Act (TSCA) of 1976
      was implemented to understand the health risks of chemical substances by developing production and
      health risk data from the manufacturers. Based on the data, the Environmental Protection Agency has
      promulgated regulations for speciﬁc chemicals. The control of polychlorinated biphenyls (PCBs) is a
      good example. The control addresses spill cleanup and removal and disposal of units containing PCBs.

      For the nuclear powered aircraĞ carriers and submarines, other nuclear powered ships, and spent nuclear
      fuel, the following signiﬁcant laws aﬀect DON’s conduct of environmental policy and regulations. The
      Atomic Energy Act of 1954, as amended, assures the proper management of source, special nuclear, and
      byproduct material. As in all cases with nuclear power, DON coordinates all actions with the Department
      of Energy. The Nuclear Waste Policy Act of 1982 required all owners and generators of high-level nuclear
      waste and spent nuclear fuel, to pay their respective shares of the full cost of the program. Finally,
      the Low Level Radioactive Waste Policy Amendments Act of 1986 provides for the safe and eﬃcient
      management of low-level radioactive waste.

      2. Methods for Assigning Total Cleanup Costs to Current Operating Periods
      Accrued Environmental Restoration (Defense Environmental Restoration Program (DERP) Funded
      Liabilities.
      Active Installations – Environmental Restoration (ER): Accrued restoration (cleanup) liabilities represent the
      cost to correct past environmental areas that are funded under the Defense Environmental Restoration
      Program in accordance with “Management Guidance for DERP,” and “Environmental and Non-
      Environmental Liabilities,” Chapter 13 of Volume 4 of Department of Defense Financial Management
      Regulation (DoD FMR). These liabilities relate to Plant, Property and Equipment, including acquired
      land and Stewardship Land, as those major asset categories are described in Chapter 6 of Volume 4 of
      DoD FMR. Environmental restoration activities may be conducted at operating installations, at Formerly
      Used Defense Sites (FUDS), and at Closed, Transferred, and Transferring Ranges. Environmental
      restoration measurements involve the use of cost estimates that consider, on a current cost basis, the
      anticipated costs of the level of eﬀort required to aﬀect the restoration, as well as applicable legal and/or
      regulatory requirements. Program management and support costs are included in the estimates. The
      estimates are based on DON’s cost-to-complete (CTC) module of the Normalization of Data System
      (NORM). Veriﬁcation, validation, and accreditation (VV&A) of CTC module was completed in FY
      2002. Such cost estimates are based on the current technology available. The DON, as the baseline for
      environmental restoration (cleanup) liability measurement (i.e., the current cost to acquire the required
      services), used the site inventory and estimated cost data prepared for DERP report to the Congress.
      The Accrued Environmental Restoration (Cleanup) Costs do not include the costs of environmental
      compliance; pollution prevention, conservation activities, contamination or spills associated with current
      operations or treaty obligations, all of which are accounted for as part of ongoing operations. The DON
      Environmental Restoration (ER, N) Program includes 3,700 clean-up sites at active installations while
      those installations covered by Base Realignment and Closure (BRAC) funding include 1,148 clean-up
      sites. The Marine Corps is included in these programs. In addition, the DON Environmental Corrective
      Action Program at BRAC installations included 610 sites.

      Active Installations – Military Munitions Response Program: This area represents the environmental
      liabilities associated with the identiﬁcation, investigation and removal and remedial actions to address
      environmental contamination at ranges that were closed prior to September 30, 2002. The contamination
      may include munitions, chemical residues from military munitions and munitions scrap at ranges on
      active installations that pose a threat to human health or the environment. The amount reported is the
      portion of the liability that can be estimated based on site level investigations and characterizations. The
      estimate produced is based on site-speciﬁc information and use of cost models validated in accordance
      with DoD Instruction 5000.61, “DoD Modeling and Simulation (M&S) Veriﬁcation, Validation, and

112
2006 Annual Financial Report



Accreditation (VV&A)” of May 2003. Total liabilities (cost-to-complete) are not estimated until there is
suﬃcient site-speciﬁc data available to estimate the total liability. However, the DON uses the cost of
the study as the estimate until the study is completed. Beginning in FY 2001, DON began an inventory
of closed ranges and transferring ranges under the Military Munitions Response Program (MMRP) or
Unexploded Ordnance (UXO) program. The inventory was completed September 2002 and currently
contains 216 closed ranges at active installations and 28 sites (transferring ranges) at BRAC installations.

Environmental Disposal for Weapons Systems Programs: This area represents environmental liabilities
associated with the Nuclear Powered AircraĞ Carriers and Submarines, Other Nuclear Powered Ships,
Conventional Ships, and Spent Nuclear Fuel. During FY 2006, under DON Financial Improvement
Program, DON completed a review of the estimating methodology for determining the cost for disposal
of ships and submarines. This review resulted in an environmental and nonenvironmental liability
estimate, that more accurately reﬂects the true costs of disposal. The estimating methodology is based on
average cost per class of ship rather than an average applied to all ships regardless of class. This change
in estimating methodology resulted in an overall decrease in the estimated environmental liability for
nuclear powered ships and submarines and conventional ships in 3rd Quarter, FY 2006. However this
decrease was oﬀset by recognizing an estimated liability for spent nuclear fuel beginning in 3rd Quarter,
FY 2006.

3. Description of the Types of Environmental Liabilities and Disposal Liabilities
Accrued Environmental Restoration (DERP Funded) Cost Liabilities.
The DON Environmental Restoration includes those sites that have been identiﬁed as legacy cleanup
sites. For FY 2006, DON estimated and reported $3.0 billion for environmental restoration liabilities. This
amount is comprised of $2.3 billion in Active Installations - Environmental Restoration (ER) liabilities
and $685.0 million in Active Installations – ER for Closed Ranges, liabilities, which represents UXO. The
DoD FMR, Volume 6B, Chapter 10 requires that “any estimate produced must be based on site speciﬁc
information and use cost models validated in accordance with DoD Instruction 5000.61.” The DON is
supporting this requirement by continuing to validate its range inventory as well as by pursuing the
process of obtaining valid cost estimates for each range.

Other Accrued Environmental Costs (Non-DERP funds).
The DON deﬁnes Non-DERP environmental units as those sites associated with on-going operations
such as solid waste management unit cleanup, landﬁll closure, permiĴed facilities, removal, replacement,
retroﬁll, and/or disposal of polychlorinated biphenyls (PCBs) transformers, underground storage tank
remedial investigation and closure. As part of the DON Financial Improvement Program eﬀorts, DON
completed surveying, identifying, and estimating, Non-DERP units and expects to recognize the estimate
1st Quarter FY 2007. The Marine Corps completed its survey of on-going operations and their estimated
total liability for Non-DERP is $226.5 million.

Base Realignment and Closure (BRAC).
BRAC environmental sites are environmental sites at DON installations that are or will be closed under
the congressionally mandated Base Realignment and Closure process. For FY 2006, DON estimated
and reported $1.2 billion for BRAC funded environmental restoration liabilities. This amount includes
$1.1 billion for environmental restoration (ER) program, $112.8 million for Military Munitions Response
Program, and $67.5 million for corrective action and closure requirements. Military Munitions Response
Program includes military munitions, chemical residues from military munitions, and munitions scrap at
locations on or associated on or associated with a military range on a BRAC installation.

Environmental Disposal for Weapons Systems Programs.
Environmental Disposal for Weapon Systems are those estimates associated with the environmental
disposal costs for DON nuclear weapons programs that includes Nuclear Powered AircraĞ Carriers
and Submarines and Other Nuclear Powered Ships, Conventional Ships, and Spent Nuclear Fuel. The

                                                                                                                  113
                                                                                                   General Fund
                                                                                            Department of the Navy



      DON reported an environmental disposal liability for Weapons Systems Programs of $12.7 billion in FY
      2006. This amount includes nuclear powered aircraĞ carriers of $5.6 billion, nuclear powered submarines
      of $3.4 billion, other nuclear powered ships of $277.6 million, other national defense weapons systems
      (conventional ships) of $233.7 million, and spent nuclear fuel (Other) of $3.2 billion.

      4. Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to
      Inﬂation, Deﬂation, Technology, or Applicable Laws and Regulations
      For both current and prior periods, the changes due to price growth (inﬂation) and increases in
      labor rates and materials have been oﬀset by a change in the estimating methodology for weapons
      systems. This change in estimating methodology resulted in an overall decrease in the estimated
      environmental disposal liability. However, this decrease was oﬀset by recognizing an estimated liability
      for spent nuclear fuel during 3rd Quarter, FY 2006 Currently, there are no indications that any of the
      environmental liabilities for any category will be adjusted due to deﬂation. As of FY 2006, there are no
      changes to the environmental liability estimates due to changes in laws, regulations, and in agreements
      with regulatory agencies. The DON does not have any estimates that were changed due to advances in
      technology.

      5. Description of the Level of Uncertainty Regarding the Accounting Estimates used to calculate the
      Reported Environmental Liabilities
      The environmental liabilities for DON are based on accounting estimates that require certain judgments
      and assumptions that DON believes are reasonable based upon information available to us at the time
      of calculating the estimates. The actual results may vary materially from the accounting estimates
      if agreements with regulatory agencies require remediation to a diﬀerent degree than anticipated
      when calculating the estimates. The liabilities can be further impacted if further investigation of the
      environmental sites discloses contamination diﬀerent than known at the time of the estimates.

      Overall, DON has a reasonable level of conﬁdence in the estimates recognized on the face of the ﬁnancial
      statements. This reasonable level of conﬁdence in the estimates is based on the fact that the estimates
      for DERP/BRAC programs are based on the Cost to Complete (CTC) module of the NORM System. A
      veriﬁcation, validation, and accreditation was completed by a third party for CTC module of NORM,
      while the environmental program managers continue to validate the data. For the Weapons systems, the
      environmental program managers base their environmental disposal estimates on actual costs for similar
      projects. A change in the overall methodology in weapons systems reﬂects a more accurate estimate of
      what it will cost to dispose of the weapons systems. Given the fact that the planned date for opening the
      Department of Energy’s (DOE) planned waste repository has been delayed, there is uncertainty associated
      with the estimate for spent nuclear fuel. As DOE’s plans are solidiﬁed, DON’s estimates for spent nuclear
      fuel will change accordingly.

      The DON believes that the current environmental liabilities for BRAC are reasonable based upon
      information available at the time of calculating the estimates. However, as the FY 2005 BRAC closure
      activities are implemented over the next several ﬁscal years, the actual results may vary materially
      from the accounting required estimates. The variance will depend on additional information gleaned
      from planned or ongoing studies of the extent and concentration of site environmental contamination.
      In addition to the possibility of the estimates changing on current identiﬁed sites, DON may incur
      additional environmental cleanup and restoration costs if new sites are identiﬁed as BRAC activities are
      implemented.




114
2006 Annual Financial Report



Environmental Disclosures
  As of September 30                                                     2006                2005

  (Amounts in thousands)
    A. Amount of operating and capital expenditures used
       to remediate legacy waste. Legacy wastes are the
       remediation efforts covered by IRP, MMRP, and
       BD/DR regardless of funding source.                                 567,536               356,165
    B. The unrecognized portion of the estimated total
       cleanup costs associated with general property, plant,
       and equipment.                                                     1,423,683                     0
    C. The estimated cleanup costs associated with general
       property, plant, and equipment placed into service
       during each fiscal year.                                                   0                     0
    D. Changes in total cleanup costs due to changes in laws,
       regulations, and/or technology.                                            0                     0
    E. Portion of the changes in estimated costs due to
       changes in laws and technology that is related to
       prior periods.                                                             0                     0


Explanations
Line A. For FY 2006, of the total $567.5 million, $296.4 million is related to DERP while $271.1million is
related to BRAC corrective action and restoration programs. When compared with FY 2005, the increase
of $211.4 million, 59% is a result of increased funding (BRAC appropriation and increased revenue from
land sales) and therefore the BRAC oﬃce was able throughout FY 2006 to execute a greater amount of
environmental corrective actions and environmental restoration cleanup than in FY 2005.

Line B. The unrecognized portion of the estimated total cleanup costs is associated with Nuclear Powered
Carriers and Submarines, Conventional Ships, Spent Nuclear Fuel, and Non-DERP. Of the total, $36.0
million is associated with conventional ships while the remainder, $1.3 billion is associated with Nuclear
Powered Carriers and Submarines and Spent Nuclear Fuel and $14.3 million is associated with Non-
DERP. For FY 2005, DON was not accruing the liability as required by DoD FMR, Volume 4, Chapter 13
and therefore did not have any unrecognized portion for Weapons Systems Programs and Non-DERP
environmental liabilities.

Line C. For FY 2005, DON recognized the entire environmental liability for Weapons Systems Programs
and did not accrue the liability. For FY 2006, DON can determine the unrecognized portion, and is
working on a methodology to identify the individual assets and units by year. This eﬀort will be
completed by 2nd Quarter FY 2007.

Lines D. and E. Through our quarterly data call process, DON determined that there are no changes to
the environmental liability estimates due to changes in laws, regulations, in agreements with regulatory
agencies, and advances in technology for both FY 2005 and FY 2006.




                                                                                                               115
                                                                                                General Fund
                                                                                           Department of the Navy



      Note 15. Other Liabilities
                                                                  2006                              2005
      As of September 30                      Current         Noncurrent
                                                                                   Total            Total
                                              Liability        Liability
      (Amounts in thousands)

      1. Intragovernmental
         A. Advances from Others          $               0   $            0   $           0    $           0
         B. Deposit Funds and Suspense
            Account Liabilities                  474,507                 0           474,507         311,227
         C. Disbursing Officer Cash              176,306                 0           176,306         305,441
         D. Judgment Fund Liabilities                  0                 0                 0               0
         E. FECA Reimbursement to the
            Department of Labor                  237,791           319,552            557,343         554,280
         F. Other Liabilities                  3,251,997                 0          3,251,997       2,655,100

         G. Total Intragovernmental
            Other Liabilities             $    4,140,601      $    319,552     $    4,460,153   $   3,826,048
      (Amounts in thousands)
      2. Nonfederal
         A. Accrued Funded Payroll and
            Benefits                      $      445,018      $          0     $     445,018    $    566,829
         B. Advances from Others                 205,544                 0           205,544         151,215
         C. Deferred Credits                           0                 0                 0               0
         D. Deposit Funds and Suspense
            Accounts                              42,257                 0            42,257                0
         E. Temporary Early Retirement
            Authority                                     0              0                 0                0
         F. Nonenvironmental Disposal
            Liabilities
             (1) Military Equipment
             (Nonnuclear)                                 0        285,201           285,201         683,514
             (2) Excess/Obsolete
             Structures                           59,412           626,206           685,618         235,897
             (3) Conventional Munitions
             Disposal                                     0              0                 0                0
         G. Accrued Unfunded Annual
            Leave                              2,738,551                 0          2,738,551       2,650,745
         H. Capital Lease Liability                    0                  0                 0              0
         I. Other Liabilities                    181,648          1,165,927         1,347,575        171,636

         J. Total Nonfederal Other
            Liabilities                   $    3,672,430      $   2,077,334    $    5,749,764   $   4,459,836

      3. Total Other Liabilities          $    7,813,031      $   2,396,886    $   10,209,917   $   8,285,884
116
2006 Annual Financial Report



Fluctuations and Abnormalities
Intragovernmental Other Liabilities.
Total intragovernmental liabilities increased $634.1 million, 17%, in FY 2006. A receivable of $345.6
million that was classiﬁed in FY 2005 as “currently not collectible” was not reported as a nonentity
receivable. The DON began reporting this as an active nonentity receivable in the 1st Quarter, FY 2006
due to a change in the litigation status. Furthermore, in 4th Quarter FY 2005, $210.8 million of out-
of-service debt that should have been classiﬁed as nonentity was erroneously classiﬁed as an entity
receivable. This classiﬁcation error was corrected in 1st Quarter, FY 2006. The oﬀseĴing entry for these
nonentity receivables is a liability to Department of Treasury. The associated accounts receivable balances
are remiĴed to Treasury upon collection, thus considered a liability to DON.

Nonfederal Other Liabilities.
The DON reported an increase of $1.3 billion, 29%, in Nonfederal Other Liabilities in FY 2006. In 4th
Quarter FY 2006, in accordance with a DoD policy decision based on a DoD Inspector General audit
ﬁnding, DON began recording an estimated contingent liability (and corresponding asset) for the
value of unbilled contractor costs on speciﬁed contracts. This contingent liability balance includes $1.1
billion in estimated contract ﬁnancing payments that will be paid to the contractor upon delivery and
Government acceptance of a satisfactory product. In accordance with contract terms, speciﬁc rights to the
contractor’s work vests with the Government when a speciﬁc type of contract ﬁnancing payment is made,
thereby protecting taxpayer funds in the event of contract nonperformance. These rights should not be
misconstrued as the rights of ownership. The Department is under no obligation to pay the contractor for
amounts greater than the amounts authorized in the contract until delivery and Government acceptance
of a satisfactory product. Because it is probable that the contractor will complete its eﬀorts and deliver
a satisfactory product to the Department and the amount of potential payments are estimable, the
Department has recognized a contingent liability for estimated payments, which are conditional pending
delivery and Government acceptance of a satisfactory product.

Other Disclosures
In response to the Department of Defense, Inspector General audit, “Financial Management: DoD
Process for Reporting Contingent Legal Liabilities”, the DON developed a methodology during 4th
Quarter FY 2006 that provides an estimate for those legal cases that are considered probable or reasonably
possible to be seĴled against the government. The DON is testing the methodology with the objective to
begin reporting in 2nd Quarter FY 2007.

For FY 2006, the DON does not have any delinquent amounts due to the Department of Labor (DOL) for
the FECA bill. The FY 2007 FECA bill is due to DOL 30 days aĞer the appropriation bill is passed and
signed.

Intragovernmental Other Liabilities:
Other Liabilities - Other (Line 1.F) includes the following:

 As of September 30, 2006
(Amounts in thousands)
Liability to Treasury & Others                          $3,144,045
Unemployment                                                   71,447
Employment Beneﬁt                                              36,505
  Total Intragovernmental Other Liabilities             $3,251,997




                                                                                                               117
                                                                                                General Fund
                                                                                              Department of the Navy



      Nonfederal Other Liabilities:
      Other Liabilities - Other (Line 2.I) includes the following:

       As of September 30, 2006
      (Amounts in thousands)
      Contract Holdbacks                                         $151,188
      Litigation SeĴlement                                           $4,000
      Employer Contributions (taxes)                                  3,508
      Contract Incentives                                            76,371
      Liability for In-Process Assets                           1,112,508
        Total Intragovernmental Other Liabilities              $1,347,575


      Capital Lease Liability
      Not applicable.


      Note 16. Commitments and Contingencies
      Legal Contingencies:
      The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
      with claims including environmental damage claims, equal opportunity maĴers, and contractual bid
      protests. These proceedings and actions arise in the normal course of operations and their ultimate
      disposition is unknown. The DON will accrue contingent liabilities for legal actions in those instances
      where the DON’s Oﬃce of General Counsel considers an adverse decision probable and the amount of
      loss is measurable. In the event of an adverse judgment against the Government, some of the liabilities
      may be payable from the Judgment Fund. Others may be payable from DON’s resources, either directly
      or by reimbursement to the Judgment Fund. The DON records Judgment Fund liabilities in Accounts
      Payable, which are detailed in Note 12.

      For ﬁscal years 2006 and 2005, the DON General Fund materiality threshold for reporting litigation,
      claims, or assessments was $56.1 million and $53.2 million, respectively. Based on information contained
      in the FY 2006 Preliminary and Final Legal Representation LeĴers, management does not have suﬃcient
      reason to believe that it is likely that the Government will be liable for the amounts claimed in individual
      or aggregated cases.

      The DON currently has sixteen cases; ﬁĞeen against the Navy and one against the United States Marine
      Corps, that meet the FY 2006 DON General Fund materiality threshold. DON legal counsel was unable
      to express an opinion concerning the likely outcome of these sixteen cases. Therefore, no contingent
      liabilities were accrued nor is any disclosure of estimated contingencies required. This declaration is fully
      supported by the Preliminary and Final Legal Representation leĴers and the subsidiary management
      summary schedule.

      In response to the Department of Defense, Inspector General audit, “Financial Management: DoD
      Process for Reporting Contingent Legal Liabilities”, the DON developed a methodology during 4th
      Quarter FY 2006 that provides an estimate for those legal cases that are considered probable or reasonably
      possible to be seĴled against the government. The DON is testing the methodology with the objective to
      begin reporting in 2nd Quarter FY 2007.




118
2006 Annual Financial Report



Other Commitments and Contingencies
The DON has recorded a contingent liability in the amount of $37.3 million for obligations related to
cancelled appropriations.

The DON has recorded a contingent liability in the amount of $76.4 million for Contract Incentives.


Note 17. Military Retirement and Other Federal Employment
         Related Beneﬁts
                                                               2006                                   2005

 As of September 30                 Present        Assumed       (Less: Assets                       Present
                                                                                 Unfunded
                                    Value of        Interest     Available to                        Value of
                                                                                  Liability
                                    Benefits       Rate (%)      Pay Benefits)                       Benefits
 (Amounts in thousands)

 1. Pension and Health
    Actuarial Benefits
   A. Military Retirement
      Pensions                  $              0                $            0   $          0    $              0
   B. Military Retirement
      Health Benefits                          0                             0              0                   0
   C. Military Medicare-
      Eligible Retiree
      Benefits                                 0                             0              0                   0
   D. Total Pension and
      Health Actuarial
      Benefits                  $              0                $            0   $          0    $              0

 2. Other Actuarial
    Benefits
   A. FECA                      $    1,513,644                  $            0   $   1,513,644   $ 1,532,819
   B. Voluntary Separation
      Incentive Programs                       0                             0              0                   0
   C. DoD Education
      Benefits Fund                            0                             0              0                   0
   D. Total Other Actuarial
      Benefits                  $    1,513,644                  $            0   $   1,513,644   $ 1,532,819

 3. Other Federal
    Employment Benefits         $              0                $            0   $          0    $              0

 4. Total Military
    Retirement and Other
    Federal Employment
    Benefits:                   $    1,513,644                  $            0   $   1,513,644   $ 1,532,819


                                                                                                                     119
                                                                                                      General Fund
                                                                                             Department of the Navy



      Actuarial Cost Method Used:
      Assumptions:
      Market Value of Investments in Market-based and Marketable Securities:

      Fluctuation and Abnormalities
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      Other Information Related to Military Retirement Beneﬁts and Other Employment Related Actuarial
      Liabilities

      Military Retirement Pensions.
      The portion of the military retirement beneﬁts actuarial liability applicable to DON is reported on the
      ﬁnancial statements of the Military Retirement Fund (MRF).

      Military Retirement Health Beneﬁts.
      Health beneﬁts are funded centrally at the DoD level. As such, the portion of the health beneﬁts actuarial
      liability that is applicable to DON is reported only on the DoD Agency-wide ﬁnancial statements.

      Federal Employees’ Compensation Act (FECA).
      Actuarial Cost Method Used and Assumptions:
      The DON’s actuarial liability for workers’ compensation beneﬁts is developed by the Department of Labor
      and provided to DON at the end of each ﬁscal year. The liability for future workers’ compensation (FWC)
      beneﬁts includes the expected liability for death, disability, medical, and miscellaneous costs for approved
      compensation cases, plus a component for incurred but not reported claims. The liability is determined
      using a method that utilizes historical beneﬁt payment paĴerns related to a speciﬁc incurred period
      to predict the ultimate payments related to that period. Consistent with past practice, these projected
      annual beneﬁt payments have been discounted to present value using the Oﬃce of Management and
      Budget’s economic assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized
      for discounting were as follows:

      FY 2006
      5.170 % in Year 1
      5.313 % in Year 2 and thereaĞer

      To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensation
      beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
      (consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
      The actual rates for these factors for the charge back year (CBY) 2006 were also used to adjust the
      methodology’s historical payments to current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as
      follows:

      CBY                    COLA                  CPIM
      2006                   3.50%                 4.00%
      2007                   3.13%                 4.01%
      2008                   2.40%                 4.01%
      2009                   2.40%                 4.013%
      2010+                  2.43%                 4.09%


120
2006 Annual Financial Report



The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitive analysis of the model to economic assumptions, (2) a comparison
of the percentage change in the liability amount by agency to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid loses per case (a measure of case-
severity) in CBY 2006 to the average paĴern observed during the most current three charge back years,
and (4) a comparison of the estimated liability per case in the 2006 projection to the average paĴern for
the projections of the most recent three years.

The estimate was allocated between General Fund and Navy Working Capital Fund using a percentage
based on the number of civilian employees taken from the Navy Budget Tracking System. The following
table details the numbers used in support of the allocation:

                                      Personnel     Allocation %
DON General Fund                          84,068             44%
Navy Working Capital Fund                108,166             56%
  Total                                  192,234            100%


Note 18. General Disclosures Related to the Statement of
         Net Cost
 Intragovernmental Costs and Exchange Revenue

 As of September 30                                     2006                            2005

 (Amounts in thousands)

 1. Intragovernmental Costs                    $                40,177,296       $              39,245,020
 2. Public Costs                                                89,352,957                      84,365,787
 3. Total Costs                                $               129,530,253       $             123,610,807



 4. Intragovernmental Earned
    Revenue                                    $               (2,551,473)       $             (3,480,214)
 5. Public Earned Revenue                                      (1,360,814)                     (4,700,934)
 6. Total Earned Revenue                       $               (3,912,287)       $             (8,181,148)

 7. Net Cost of Operations                     $               125,617,966       $             115,429,659


Net Costs of Operations
The DON reported an increase in the Net Cost of Operations of $10.2 billion, 9% in FY 2006. The pertinent
changes are described below in the disclosure for Total Costs and Earned Revenue.

Total Costs
Total Costs increased $5.9 billion, 5% in FY 2006. Public Costs increased $5.0 billion, 6%, which represents
the majority of the increase in Total Costs, while Intragovernmental Costs increased $932.3 million.
Total Earned Revenue
Total Earned Revenue decreased $4.3 billion, 52%. The majority of the total decrease is in Public Earned
Revenue which decreased $3.3 billion, 71%, in FY 2006. The two major drivers behind the decrease in
                                                                                                                121
                                                                                                 General Fund
                                                                                            Department of the Navy



      Public Earned Revenue were:
            •    Marine Corps real property additions decreased $462.0 million due to completion of
                 construction projects and increased additions during FY 2005 that were not reﬂected in
                 FY 2006.

            •    Navy Military construction real property asset capitalization decreased $2.0 billion due to
                 completion of construction projects and increased additions during FY 2005 that were not
                 reﬂected in FY 2006. FY 2005 increases in acquisition value of General PP&E were recorded
                 in Other Gains (USSGL 7190), which had a positive impact on public revenues. In FY 2006
                 General PP&E did not increase to the same level as during FY 2005, hence the decrease in
                 revenue between years.

            •    Work performed for nonfederal customers decreased $825.0 million from FY 2005.

      Other Disclosures Related to the Statement of Net Cost
      The DON recorded a prior period adjustment due to a change in the methodology for reporting
      of military equipment. The FY 2005 restatement impacts the value of general property, plant, and
      equipment and associated accumulated depreciation reported on the balance sheet. The DON has
      determined that developing the prior year value for the depreciation expense is cost-prohibitive, and thus
      has elected not to restate the Statement of Net Cost.

      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between DON and a nonfederal entity.

      The Statement of Net Cost is unique because its principles are driven by an understanding the net cost
      of programs and/or organizations that the Federal Government supports through appropriations or
      other means. This statement provides gross and net cost information that can be related to the amount
      of output or outcome for a given program and/or organization administered by a responsible reporting
      entity.

      The DON’s ﬁnancial management systems are unable to meet all of the requirements for full accrual
      accounting. Many of DON’s ﬁnancial and nonﬁnancial feeder systems and processes were designed
      and implemented prior to the issuance of Generally Accepted Accounting Principles (GAAP) for federal
      agencies. These systems were not designed to collect and record ﬁnancial information on the full
      accrual accounting basis as required by GAAP. Most of DON’s legacy systems were designed to record
      information on a budgetary basis. Considering these systems limitations, DON is unable to compare its
      intragovernmental costs and revenues with the corresponding balances of its intragovernmental trading
      partners.

      The DON has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and nonﬁnancial
      feeder systems and processes into compliance with all elements of GAAP. One such action is the revision
      of its accounting systems to record transactions based on the US Standard General Ledger (USSGL). Until
      such time as all of the DON’s ﬁnancial and nonﬁnancial feeder systems and processes are updated to
      collect and report ﬁnancial information as required by GAAP, DON’s ﬁnancial data will be largely based
      on budgetary transactions (obligations, disbursements, and collections), transactions from nonﬁnancial
      feeder systems, and adjustments for known accruals of major items such as payroll expenses, accounts
      payable, and environmental liabilities.

      Heritage Asset Disclosure
      The DON’s accounting systems do not capture information relative to Heritage Assets separately
      and distinctly from normal operations. The DON has not had any transfers of heritage assets or any
      donations of heritage assets.

122
2006 Annual Financial Report



Note 19. Disclosures Related to the Statement of Changes in
         Net Position
                                                             2006                          2005 Restated
 As of September 30                         Cumulative
                                                               Unexpended
                                                                                   Cumulative
                                                                                                          Unexpended
                                             Results of                             Results of
                                                              Appropriations                             Appropriations
                                            Operations                             Operations
 (Amounts in thousands)

 1. Prior Period Adjustments Increases
    (Decreases) to Net Position Beginning
    Balance


    A. Changes in Accounting Standards      $           0     $                0   $             0   $                    0
    B. Errors and Omissions in Prior Year
       Accounting Reports                       23,218,292                     0       23,218,292                         0

    C. Total Prior Period Adjustments       $   23,218,292    $                0   $   23,218,292    $                    0
                                                                                                                          0
 2. Imputed Financing                                                                                                     0
    A. Civilian CSRS/FERS Retirement        $     219,410     $                0   $     232,513     $                    0
    B. Civilian Health                            327,916                      0         319,112                          0
    C. Civilian Life Insurance                      1,066                      0           1,038                          0
    D. Judgment Fund                               29,666                      0          33,023                          0
    E. IntraEntity                                      0                      0               0                          0
                                                                                                                          0
    F. Total Imputed Financing              $     578,058     $                0   $     585,686     $                    0



Disclosures
The Department of the Navy (DON) recorded a $23.2 billion prior period adjustment due to a change in
the methodology for reporting of military equipment, resulting in a $23.2 billion restatement for FY 2005.
The FY 2005 restatement impacts the value of general property, plant, and equipment and associated
accumulated depreciation reported on the balance sheet. The DON has determined that developing the
prior year value for the depreciation expense is cost-prohibitive, and thus has elected not to restate the
Statement of Net Cost.

In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 23, Eliminating the
Category National Defense Property, Plant, and Equipment, the DON reported military equipment values in
the ﬁnancial statements beginning in FY 2003. As an interim measure, while DON worked to develop its
military equipment baseline from internal records, the military equipment values reported were based on
information obtained from the Bureau of Economic Analysis (BEA).

Eﬀective 3rd Quarter, FY 2006, DON replaced the BEA estimation methodology with a valuation based
on internal DON records. During the process of establishing a baseline, it was discovered that the BEA
estimates had failed to consider disposals, thresholds, and construction in process. While an estimation
methodology is acceptable per SFFAS No. 23, due to the nature of the BEA omissions, DON considers the
method previously used noncompliant with Generally Accepted Accounting Principles (GAAP), and thus
have treated the adjustment as correction of a material error.

Appropriations Received on the Statement of Changes in Net Position (SOCNP) does not agree
with Appropriations Received on the Statement of Budgetary Resources due to diﬀerences between
proprietary and budgetary accounting concepts and reporting requirements. The diﬀerence of $19.4

                                                                                                                                 123
                                                                                                                  General Fund
                                                                                           Department of the Navy



      million between the SOCNP Appropriations Received and the Statement of Budgetary Resources
      Appropriations Received is primarily due to the values for Trust Funds and Special Receipt Accounts
      in Appropriated Trust or Special Fund Receipts (USSGL 4114) not being included in the Appropriations
      Received line of SOCNP.

      Imputed Financing.
      The amounts the Department of Defense (DoD) remits to the Oﬃce of Personnel Management (OPM)
      by and for employees covered by the Civil Service Retirement System (CSRS), the Federal Employees’
      Retirement System (FERS), the Federal Employees’ Health Beneﬁts (FEHB) program, and the Federal
      Employees’ Group Life Insurance (FEGLI) program do not fully cover the government’s cost to provide
      these beneﬁts. An imputed cost is recognized as the diﬀerence between the government’s cost of
      providing these beneﬁts to employees and DON contributions for them. The OPM provides the cost
      factors to the Defense Finance and Accounting Service (DFAS) for the computation of imputed ﬁnancing
      costs. These costs are provided by DFAS to the Oﬃce of the Under Secretary of Defense (Personnel and
      Readiness) for validation and approval. The approved imputed costs are provided to the DoD reporting
      entities for inclusion in their ﬁnancial statements.

      Judgment Fund.
      Treasury provided information related to amounts paid for Judgment Fund liabilities under the Contracts
      Dispute Act and the Notiﬁcation of Federal Antidiscrimination and Retaliatory Act (No FEAR Act) on
      behalf of DON, which DON is required to repay. Judgment Fund payments made out of the following
      Treasury appropriations do not require reimbursement and therefore represent imputed ﬁnancing to
      DON: 20X1740 and 20X1742. Only those payments made from Treasury appropriation 20X1743 and that
      portion of 20X1741 that is related to the No FEAR Act are required to be repaid by DON.


      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                          2006                      2005
       (Amounts in thousands)

       1. Net Amount of Budgetary Resources
          Obligated for Undelivered Orders at the
          End of the Period                               $            83,047,974     $             76,392,061

       2. Available Borrowing and Contract
          Authority at the End of the Period                                    0                           0

       3. Other Information Related to the Statement of Budgetary Resources (SBR)

      Apportionment Categories for Obligations Incurred
      On the Statement of Budgetary Resources: Obligations Incurred includes $146.0 billion of Direct Program
      Obligations and $5.9 billion of Reimbursable Program Obligations.

      On the Report on Budget Execution (SF-133):
           •    Direct Obligations, Category A, amounts apportioned quarterly, are $85.1 billion.

            •    Direct Obligations, Category B, amounts apportioned on a basis other than quarterly, are $60.9
                 billion.


124
2006 Annual Financial Report



      •    Total Direct Obligations are therefore $146.0 billion.

      •    Category B Reimbursable Obligations are $5.9 billion.

Intraentity Transactions
Intraentity transactions have not been eliminated because the statements are presented as combined and
combining.

Permanent, Indeﬁnite Appropriations.
DON has two permanent, indeﬁnite appropriations.

National Defense SealiĞ Fund.
The National Defense SealiĞ Fund (NDSF) is operated under the authority of 10 U.S. Code 2218, which
provides for the construction (including design of vessels), purchase, alteration, and conversion of
Department of Defense (DoD) sealiĞ vessels; operation, maintenance, and lease or charter of DoD
vessels for national defense purposes; installation and maintenance of defense features for national
defense purposes on privately owned and operated vessels that are constructed in the United States
and documented under the laws of the United States; research and development relating to national
defense sealiĞ; and expenses for maintaining the National Defense Reserve Fleet (NDRF) including the
acquisition, alteration or conversion of vessels built in U.S. shipyards for NDRF. As of September 30,
2006, one transfer for $1.0 million from the Defense Working Capital Fund to the NDSF was recorded; no
transfers from NDSF have occurred.

Environmental Restoration, Navy.
Environmental Restoration, Navy (ER, N) is a transfer account that funds environmental restoration,
reduction and recycling of hazardous waste, removal of unsafe buildings and debris, and similar
purposes. Funds are to remain available until transferred, and remain available for the same purpose and
same time period as the appropriations to which transferred. As of September 30, 2006, $296.4 million
has been transferred to Operations and Maintenance, Navy and $5.1 million has been transferred to
Operations and Maintenance, Defense Agencies from ER, N. No transfers to ER, N have occurred.

Diﬀerences between the SBR and the Budget of the United States Government
Legitimate reasons can exist for diﬀerences between SBR and DON’s programs in the Budget of the
United States Government, such as expired unobligated balances being reported on SBR but not in the
Budget.

Diﬀerences between the SBR and the SF-133 Report on Budget Execution
Diﬀerences exist between the SF-133 and the SBR for a number of reasons; including accruals recorded
for fringe beneﬁts, liabilities recorded for the Judgment Fund, and accruals recorded for trading partner
advances and liabilities.

Other Disclosures
Unobligated budget authority is the diﬀerence between the obligated balance and the total unexpended
balance. It represents that portion of the unexpended balance unencumbered by recorded obligations.
Appropriations are provided on an annual, multi-year, and no-year basis. An appropriation expires on
the last day of its period of availability and is no longer available for new obligations when in an expired
status. Unobligated balances retain their ﬁscal year identity in an expired account for an additional ﬁve
ﬁscal years. The unobligated balance remains available to make legitimate obligation adjustments, i.e.,
to record previously unrecorded obligations and to make upward obligation adjustments in previously
underestimated obligations for ﬁve years. At the end of the ﬁĞh year the budget authority is canceled.
ThereaĞer, the budget authority is not available for any purpose.

Information about legal limitations and restrictions aﬀecting the use of the unobligated balance of budget

                                                                                                                 125
                                                                                                  General Fund
                                                                                             Department of the Navy



      authority is speciﬁcally stated by program and ﬁscal year in the applicable appropriation language or in
      the alternative provisions section at the end of the appropriations act.

      As noted above, the NDSF, a revolving fund, received a transfer of $1.0 million in September 2006 from
      the Defense Working Capital Fund per Public Law 109-148. A transfer of resources to a revolving fund is
      considered a capital infusion.


      Note 21. Disclosures Related to the Statement of Financing
      Fluctuations and Abnormalities
      Budgetary data is not in agreement with proprietary expenses and assets capitalized. This causes a
      diﬀerence in net cost between the Statement of Net Cost and the Statement of Financing. Adjustments
      are posted to the Statement of Financing for these diﬀerences. For FY 2006, an adjustment of $9.6 million
      was made to Resources that Finance the Acquisition of Assets of the Statement of Financing so that
      proprietary accounts reconcile with the budgetary accounts. The alignment was made per Oﬃce of the
      Under Secretary of Defense (Comptroller) guidance.

      Other Disclosures
      The increase in resources that ﬁnance the acquisition of assets is primarily due to the implementation
      of SFFAS No. 23 “Eliminating the Category of National Defense Property, Plant, and Equipment.”
      Correspondingly, there is also an increase in the reported depreciation for the military equipment.

      The Statement of Financing is presented as a consolidated statement. However, the following Statement
      of Financing lines are presented as combined instead of consolidated due to interagency budgetary
      transactions not being eliminated:

            •    Obligations Incurred
            •    Less: Spending Authority from OﬀseĴing Collections and Recoveries
            •    Obligations Net of OﬀseĴing Collections and Recoveries
            •    Less: OﬀseĴing Receipts
            •    Net Obligations
            •    Undelivered Orders
            •    Unﬁlled Customer Orders

      Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
      permanently not available (included in the “Adjustments” line on the Statement of Budgetary Resources),
      are not included in “Spending Authority From OﬀseĴing Collections and Adjustments” line on the
      Statement of Budgetary Resources or on the Statement of Financing. The Statement of Financing was
      expanded to further articulate and detail the relationship between new obligations from budgetary
      accounting and net cost of operations from proprietary accounting.

      Description of the Other lines.
      Resources Used to Finance Items not Part of the Net Cost of Operations –
      The Other resources or adjustments to net obligated resources that do not aﬀect the net cost of operations
      balance of $187.1 million consists primarily of a transfer of Construction in Progress from other Defense
      Agencies in the amount of $96.7 million and a transfer of property from Marine Corps Working Capital
      Fund to Marine Corps General Fund in the amount of $91.5 million.

      Components Requiring or Generating Resources –
      The Other is related to future periods and the balance of $208.4 million consists primarily of unfunded
      liabilities for employment related programs.


126
2006 Annual Financial Report



Components not Requiring or Generating Resources –
The Other not requiring or generating resources has a balance of $9.7 million, which consists primarily of
bad debt expense related to the allowance for doubtful accounts.

The amount reﬂected on the Statement of Financing of $482.1 million reports changes in accruals of
unfunded liabilities, which included but are not limited to: unused annual leave, environmental and
non-environmental disposal, litigation, Federal Employees’ Compensation Act (FECA), unemployment
compensation, canceled year accounts payable, and contract incentives. The total of $25.8 billion
in Liabilities Not Covered by Budgetary Resources included on the Balance Sheet includes the
aforementioned items and liabilities to Treasury for nonentity accounts receivable of the DON.
Collections on nonentity receivables would not require or generate resources for the DON as they are
deposited at Treasury and belong to the general cash balances of the United States Government.

Reconciling Item for Allocation Transfers.
There is $34.4 million of Parent/child Allocation accounts, primarily Treasury symbol 1081, International
Military Education and Training with a balance of $34.0 million. The DON, as the “child,” is the recipient
of allocation transfers from other Federal agencies and has determined that the allocations are not
material to the DON Financial Statements. The providing agency, as the “parent,” is responsible for
reporting for these allocations.


Note 22. Disclosures Related to the Statement of Custodial
         Activity
Not applicable.




                                                                                                               127
                                                                                                General Fund
                                                                                       Department of the Navy



      Note 23. Earmarked Funds
      BALANCE SHEET                                                 Other
      As of September 30                       MRF       MERHCF   Earmarked     Eliminations       Total
      (Amounts in thousands)                                        Funds
      ASSETS
      Fund balance with Treasury           $         0   $    0   $   12,218    $          0   $    12,218
      Investments                                    0        0        9,751               0         9,751
      Accounts and Interest Receivable               0        0            0               0             0
      Other Assets                                   0        0           22               0            22
      Total Assets                         $         0   $    0   $   21,991    $          0   $    21,991

      LIABILITIES and NET POSITION
      As of September 30
      Military Retirement Benefits and
      Other Employment Related
      Actuarial Liabilities                $         0   $    0   $        0    $          0   $         0
      Other Liabilities                              0        0        1,598               0         1,598
      Unexpended Appropriations                      0        0        1,550               0         1,550
      Cumulative Results of Operations               0        0       18,843               0        18,843
      Total Liabilities and Net Position   $         0   $    0   $   21,991    $          0   $    21,991


      STATEMENT OF NET COST
      As of September 30

      Program Costs                        $         0   $    0   $   24,998    $          0   $    24,998
      Less Earned Revenue                            0        0            0               0             0
      Net Program Costs                    $         0   $    0   $   24,998    $          0   $    24,998
      Less Earned Revenues Not
      Attributable to Programs                       0        0            0               0               0
      Net Cost of Operations               $         0   $    0   $   24,998    $          0   $    24,998


      STATEMENT OF CHANGES IN NET POSITION
      As of September 30

      Net Position Beginning of the
      Period                               $         0   $    0   $   25,869    $          0   $    25,869
      Net Cost of Operations                         0        0       24,998               0        24,998
      Other Nonexchange Revenue                      0        0       19,522               0        19,522
      Other Financing Sources                        0        0             0              0              0
      Change in Net Position               $         0   $    0   $   (5,476)   $          0   $    (5,476)
      Net Position End of Period           $         0   $    0   $    20,393   $          0   $     20,393




128
2006 Annual Financial Report



Fluctuation and Abnormalities
Earmarked funds were required to be reported and disclosed separately from other funds beginning
1st Quarter, FY 2006. For DON General Fund, a reclassiﬁcation to the new earmarked funds reporting
aĴribute was performed, beginning balances were transferred from the previous aĴributes, and the
status of the earmarked funds is displayed in this Note to the ﬁnancial statements. However, prior year
amounts were not remapped to the new earmarked funds reporting aĴributes.

General Disclosures
Earmarked funds are ﬁnanced by speciﬁcally identiﬁed revenues and are required by statute to be used
for designated activities or purposes. The DON has seven earmarked funds. Four are categorized as
Special Funds and three are categorized as Trust Funds. A list of these earmarked funds and a brief
description of each follows below. There have been no changes in legislation that signiﬁcantly changes
the purpose of any of the seven funds or that redirects a material portion of the accumulated balances of
any of the seven funds.

Special Earmarked Funds
Wildlife Conservation, Military Reservations, Navy –
This fund, authorized by 16 United States Code 670b, provides for the development and conservation of
ﬁsh and wildlife and recreational facilities on military installations. Proceeds from the sale of ﬁshing and
hunting permits are used for these programs at Navy and Marine Corps installations charging such user
fees. These programs are carried out through cooperative plans agreed upon by the local representatives
of the Secretary of Defense, the Secretary of the Interior, and the appropriate agency of the State in which
the installation is located.

Kaho’olawe Island Conveyance, Remediation and Environmental Restoration Fund, Navy –
This fund, authorized by 107 United States Statute 1483, was established to recognize and fulﬁll the
commitments made on behalf of the United States to the people of Hawaii and to return to the State of
Hawaii the Island of Kaho’olawe. Congress has found it to be in the national interest and an essential
element in the federal government’s relationship with the State of Hawaii the conveyance, clearance or
removal of unexploded ordnance, environmental restoration, control of access to the Island and future
use of the Island be undertaken in a manner consistent with the enhancement of that relationship, the
Department of Defense’s military mission, the federal interest, and applicable provisions of law.

Roosmoor Liquidating Trust SeĴlement Account –
The Roosmoor Liquidating Trust account was established by Section 2208 of Public Law 104-106; the
National Defense Authorization Act of 1996. Per the statute, monies awarded the United States when
litigation is seĴled in favor of the Roosmoor Liquidating Trust is deposited into this account. The monies
are made available to DON solely for the acquisition or construction of military family housing in, or in
the vicinity of San Diego, California.

Ford Island Improvement Account –
The Ford Island Improvement fund is authorized by 10 United States Code 2814 and was established to
carry out improvements to property and facilities that will deliver overall beneﬁts to DON at the Pearl
Harbor Naval Complex at Ford Island, Hawaii. Ford Island is a central feature in the Pearl Harbor
National Historic Landmark. The Ford Island legislation allows DON to sell or lease properties in Hawaii
and use the proceeds to develop Ford Island.

Trust Earmarked Funds
Department of the Navy General GiĞ Fund –
This trust fund is authorized by 10 United States Code 2601. Under the provisions of this statute, the
Secretary of the Navy may accept, hold, administer, and spend any giĞ, devise, or bequest of real or
personal property, made on the condition that they be used for the beneﬁt, or in connection with the

                                                                                                                 129
                                                                                                  General Fund
                                                                                                Department of the Navy



      establishment, operation, or maintenance of a school, hospital, library, museum, cemetery, or other
      institution under the jurisdiction of the Department of the Navy.

      Ships Stores Proﬁt, Navy –
      This trust fund is authorized under 10 United States Code 7220. Deposits to this fund are derived from
      proﬁts realized through the operation of ships’ stores and from the acceptance of giĞs accepted for the
      purpose of providing recreation, amusement, and contentment for enlisted members of the Navy and
      Marine Corps.

      U.S. Naval Academy General GiĞ Fund –
      This trust fund is authorized by 10 United States Code 6973. Under the provisions of this statute, the
      Secretary of the Navy may accept, hold, administer, and spend any giĞ, devise, or bequest of personal
      property, made on the condition that it they used for the beneﬁt, or in connection with the United States
      Naval Academy, or the Naval Academy Museum, its collections, or its services.


      Note 24. Other Disclosures
                                                                         2006
       As of September 30                                           Asset Category
                                           Land and Buildings       Equipment           Other            Total
       (Amounts in thousands)

       1. ENTITY AS LESSEE-
           Operating Leases
          Future Payments Due
          Fiscal Year
           2007                        $                14,317 $                 0 $            464 $       14,781
           2008                                         14,722                   0              476         15,198
           2009                                         15,230                   0              487         15,717
           2010                                         15,164                   0              500         15,664
           2011                                         15,690                   0              512         16,202
           After 5 Years                                     0                   0                0              0

         Total Future Lease
         Payments Due                  $                75,123 $                 0 $         2,439 $        77,562


      Fluctuations and Abnormalities
      Although a comparative column is not shown, the DON reported a decrease of $28.4 million in Operating
      Leases Future Payments Due in FY 2006. This decrease is due to the ongoing eﬀort to validate operating
      leases throughout the Navy shore establishment.

      Lessee – A person or entity that receives the use and possession of leased property (e.g. real estate or
      equipment) from a lessor in exchange for a payment of funds.

      Operating Lease - A lease that does not substantially transfer all the beneﬁts and risk of ownership;
      payments are charged to expense over the lease term as they become payable.




130
2006 Annual Financial Report



Other Disclosure
The values reported for operating leases is derived from DON data collection process. This process only
provides summary level values at this time. Lease periods vary and are not expected to be renewed at the
end of the lease term. There are no material escalation clauses or contingent rental restrictions. Data is
gathered from existing leases, General Service Administration bills, and Interservice Support Agreements.
Future year projections use the Consumer Price Index (CPI), rather than the DoD inﬂation factor. The CPI
more accurately impacts increases to the leases, especially those at commercial lease sites.




                                                                                                              131
                                                                                               General Fund
      Department of the Navy




132
                                            Department of the Navy

                                           General Fund


                              2006
          Supporting Consolidating/Combining Statements




                                                                           General Fund Supporting Consolidating/Combining Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                     133
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                                                 Department of the Navy



      Department of Defense
      Department of the Navy
      CONSOLIDATING BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)



                                                                      Navy                 Marine Corps           Combined Total

         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                            $      84,567,726 $             11,373,735 $            95,941,461
                Non-entity Seized Iraqi Cash                                      0                        0                       0
                Non-entity - Other                                          356,131                  118,376                 474,507
           Investments (Note 4)                                               9,751                        0                   9,751
           Accounts Receivable, Net (Note 5)                                138,151                   37,983                 176,134
           Other Assets (Note 6)                                            462,485                    5,774                 468,259
                Total Intragovernmental Assets                    $      85,534,244 $             11,535,868 $            97,070,112
          Cash and Other Monetary Assets (Note 7)                           116,657                   59,649                 176,306
          Accounts Receivable (Note 5)                                    3,209,853                   21,561               3,231,414
          Loans Receivable (Note 8)                                               0                        0                       0
          Inventory and Related Property, Net (Note 9)                   58,324,063                  470,571              58,794,634
          General Property, Plant and Equipment, Net (Note 10)          178,481,762                8,497,907             186,979,669
          Investments (Note 4)                                                    0                        0                       0
          Other Assets (Note 6)                                           8,109,607                  499,268               8,608,875
         TOTAL ASSETS                                             $     333,776,186 $             21,084,824 $           354,861,010

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                            $            945,180 $            106,727 $              1,051,907
            Debt (Note 13)                                                           0                    0                        0
            Other Liabilities (Note 15 & Note 16)                            4,197,133              263,020                4,460,153
                 Total Intragovernmental Liabilities              $          5,142,313 $            369,747 $              5,512,060
           Accounts Payable (Note 12)                             $            789,577 $            475,959 $              1,265,536
           Military Retirement and Other Federal Employment-                 1,299,211              214,433                1,513,644
             Related Actuarial Liabilities (Note 17)
           Environmental and Disposal Liabilities (Note 14)              17,042,343                  226,470              17,268,813
           Loan Guarantee Liability (Note 8)                                      0                        0                       0
           Other Liabilities (Note 15 and Note 16)                        4,815,278                  934,486               5,749,764
         TOTAL LIABILITIES                                        $      29,088,722 $              2,221,095 $            31,309,817

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23)   $           1,550 $                      0 $                 1,550
          Unexpended Appropriations - Other Funds                        88,640,658               11,057,094              99,697,752
          Cumulative Results of Operations - Earmarked Funds                 18,843                        0                  18,843
          Cumulative Results of Operations - Other Funds                216,026,413                7,806,635             223,833,048
         TOTAL NET POSITION                                       $     304,687,464 $             18,863,729 $           323,551,193

         TOTAL LIABILITIES AND NET POSITION                       $     333,776,186 $             21,084,824 $           354,861,010




134
2006 Annual Financial Report



Department of Defense
Department of the Navy
CONSOLIDATING BALANCE SHEET
As of September 30, 2006 and 2005
($ in thousands)



                                                                Eliminations          2006 Consolidated        2005 Restated

   ASSETS (Note 2)
    Intragovernmental:
     Fund Balance with Treasury (Note 3)
          Entity                                            $                   0 $             95,941,461 $        85,734,659
          Non-entity Seized Iraqi Cash                                          0                        0                   0
          Non-entity - Other                                                    0                  474,507             344,546
     Investments (Note 4)                                                       0                    9,751               9,519
     Accounts Receivable, Net (Note 5)                                     16,864                  159,270             281,305
     Other Assets (Note 6)                                                      0                  468,259             672,257
          Total Intragovernmental Assets                    $              16,864 $             97,053,248 $        87,042,286
    Cash and Other Monetary Assets (Note 7)                                     0                  176,306             305,440
    Accounts Receivable (Note 5)                                                0                3,231,414           3,267,657
    Loans Receivable (Note 8)                                                   0                        0                   0
    Inventory and Related Property, Net (Note 9)                                0               58,794,634          55,584,837
    General Property, Plant and Equipment, Net (Note 10)                        0              186,979,669         181,547,138
    Investments (Note 4)                                                        0                        0                   0
    Other Assets (Note 6)                                                       0                8,608,875           6,988,791
   TOTAL ASSETS                                             $              16,864 $            354,844,146 $       334,736,149

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                            $              16,864 $              1,035,043 $         1,208,703
      Debt (Note 13)                                                            0                        0                   0
      Other Liabilities (Note 15 & Note 16)                                     0                4,460,153           3,826,048
           Total Intragovernmental Liabilities              $              16,864 $              5,495,196 $         5,034,751
     Accounts Payable (Note 12)                             $                   0 $              1,265,536 $         1,180,034
     Military Retirement and Other Federal Employment-                          0                1,513,644           1,532,819
       Related Actuarial Liabilities (Note 17)
     Environmental and Disposal Liabilities (Note 14)                           0               17,268,813          17,050,451
     Loan Guarantee Liability (Note 8)                                          0                        0                   0
     Other Liabilities (Note 15 and Note 16)                                    0                5,749,764           4,459,836
   TOTAL LIABILITIES                                        $              16,864 $             31,292,953 $        29,257,891

   NET POSITION
    Unexpended Appropriations - Earmarked Funds (Note 23)   $                  0 $                   1,550 $                 0
    Unexpended Appropriations - Other Funds                                    0                99,697,752          89,739,876
    Cumulative Results of Operations - Earmarked Funds                         0                    18,843                   0
    Cumulative Results of Operations - Other Funds                             0               223,833,048         215,738,382
   TOTAL NET POSITION                                       $                  0 $             323,551,193 $       305,478,258

   TOTAL LIABILITIES AND NET POSITION                       $              16,864 $            354,844,146 $       334,736,149




                                                                                                                                         135
                                                                                                                          General Fund
                                                                                                        Department of the Navy



      Department of Defense
      Navy General Fund
      CONSOLIDATING STATEMENT OF NET COST
      For the Periods ended September 30, 2006 and 2005
      ($ in thousands)

                                                                     Navy               Marine Corps          Combined Total

           Program Costs
         A. Military Personnel
                Gross Costs                                      $      29,263,834 $           10,661,165 $           39,924,999
                (Less: Earned Revenue)                                   (256,353)               (20,664)              (277,017)
                Net Program Costs                                       29,007,481 $           10,640,501 $           39,647,982
         B. Operation and Maintenance
                Gross Costs                                      $      39,871,491 $            7,158,553 $            47,030,044
                (Less: Earned Revenue)                                 (3,832,715)              (471,263)             (4,303,978)
                Net Program Costs                                       36,038,776 $            6,687,290 $            42,726,066
         C. Procurement
                Gross Costs                                      $      22,209,626 $            2,032,386 $            24,242,012
                (Less: Earned Revenue)                                 (1,283,614)              (142,289)             (1,425,903)
                Net Program Costs                                       20,926,012 $            1,890,097 $            22,816,109
         D. Research, Development, Test & Evaluation
                Gross Costs                                      $      18,109,762                       $            18,109,762
                (Less: Earned Revenue)                                   (275,798)                                     (275,798)
                Net Program Costs                                       17,833,964                       $            17,833,964
         E. Military Construction/Family Housing
                Gross Costs                                      $          3,401,265                    $             3,401,265
                (Less: Earned Revenue)                                      (621,156)                                  (621,156)
                Net Program Costs                                           2,780,109                    $             2,780,109
         F. Other
                Gross Costs                                      $     (2,644,581) $            (130,233) $           (2,774,814)
                (Less: Earned Revenue)                                   2,366,799                221,751               2,588,550
                Net Program Costs                                        (277,782) $               91,518 $             (186,264)
         G. Total Program Costs
                Gross Costs                                      $     110,211,397 $           19,721,871 $          129,933,268
                (Less: Earned Revenue)                                  (3,902,837)             (412,465)             (4,315,302)
                Net Program Costs                                      106,308,560 $           19,309,406 $          125,617,966
           Cost Not Assigned to Programs                                          0                     0                       0
           (Less: Earned Revenue Not Attributable to Programs)                    0                     0                       0
           Net Cost of Operations                                $     106,308,560 $           19,309,406 $          125,617,966




136
2006 Annual Financial Report



Department of Defense
Navy General Fund
CONSOLIDATING STATEMENT OF NET COST
For the Periods ended September 30, 2006 and 2005
($ in thousands)

                                                               Eliminations          2006 Consolidated        2005 Consolidated

     Program Costs
   A. Military Personnel
          Gross Costs                                      $                  0 $              39,924,999 $             39,845,683
          (Less: Earned Revenue)                                              0                 (277,017)                (501,540)
          Net Program Costs                                $                  0 $              39,647,982 $             39,344,143
   B. Operation and Maintenance
          Gross Costs                                      $                  0 $              47,030,044 $             47,538,207
          (Less: Earned Revenue)                                              0               (4,303,978)              (6,896,322)
          Net Program Costs                                $                  0 $              42,726,066 $             40,641,885
   C. Procurement
          Gross Costs                                      $                  0 $              24,242,012 $             20,464,820
          (Less: Earned Revenue)                                              0               (1,425,903)              (1,627,506)
          Net Program Costs                                $                  0 $              22,816,109 $             18,837,314
   D. Research, Development, Test & Evaluation
          Gross Costs                                      $                  0 $              18,109,762 $             16,105,552
          (Less: Earned Revenue)                                              0                 (275,798)                (382,732)
          Net Program Costs                                $                  0 $              17,833,964 $             15,722,820
   E. Military Construction/Family Housing
          Gross Costs                                      $                  0 $               3,401,265 $              3,957,738
          (Less: Earned Revenue)                                              0                 (621,156)              (2,686,605)
          Net Program Costs                                $                  0 $               2,780,109 $              1,271,133
   F. Other
          Gross Costs                                      $             403,015 $            (3,177,829) $            (4,301,193)
          (Less: Earned Revenue)                                       (403,015)                2,991,565                3,913,557
          Net Program Costs                                $                   0 $              (186,264) $              (387,636)
   G. Total Program Costs
          Gross Costs                                      $             403,015 $            129,530,253 $            123,610,807
          (Less: Earned Revenue)                                       (403,015)               (3,912,287)              (8,181,148)
          Net Program Costs                                $                   0 $            125,617,966 $            115,429,659
     Cost Not Assigned to Programs                                             0                         0                        0
     (Less: Earned Revenue Not Attributable to Programs)                       0                         0                        0
     Net Cost of Operations                                $                   0 $            125,617,966 $            115,429,659




                                                                                                                                      137
                                                                                                                      General Fund
                                                                                                         Department of the Navy



      Department of Defense
      Navy General Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Periods ended September 30, 2006 and 2005
      ($ in thousands)
                                                                       Navy            Marine Corps
         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources
           Unobligated balance, brought forward, October 1         $    15,113,721 $         2,014,758
           Recoveries of prior year unpaid obligations                   3,722,816           1,539,174
           Budget Authority:
              Appropriation received                                   121,543,102          23,968,500
              Borrowing authority                                                0                   0
              Contract authority                                                 0                   0
           Spending authority from offsetting collections:
              Earned
                Collected                                                7,190,245            577,375
                Change in receivables from Federal sources               (888,223)            (60,507)
              Change in unfilled customer orders
                Advances received                                            54,329                  0
                Without advance from Federal sources                        567,102           (48,029)
              Anticipated for the rest of year, without advances                  0                  0
              Previously unavailable                                              0                  0
              Expenditure transfers from trust funds                              0                  0
             Subtotal                                              $   128,466,555 $        24,437,339
           Nonexpenditure transfers, net, anticipated and actual            774,316          (106,906)
           Temporarily not available pursuant to Public Law                       0                  0
           Permanently not available                                    (3,000,805)          (252,498)
           Total Budgetary Resources                               $   145,076,603 $        27,631,867

         Status of Budgetary Resources:
           Obligations Incurred:
              Direct                                               $   121,584,596 $        24,422,185
              Reimbursable                                               5,050,915             814,800
              Subtotal                                             $   126,635,511 $        25,236,985
           Unobligated balance:
              Apportioned                                          $    17,058,081 $         2,139,514
              Exempt from apportionment                                          0                   0
              Subtotal                                                  17,058,081           2,139,514
           Unobligated balances not available                            1,383,011             255,368
           Total, status of budgetary resources                    $   145,076,603 $        27,631,867




138
2006 Annual Financial Report



Department of Defense
Navy General Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Periods ended September 30, 2006 and 2005
($ in thousands)
                                                                 Navy            Marine Corps
   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources
     Unobligated balance, brought forward, October 1         $    15,113,721 $         2,014,758
     Recoveries of prior year unpaid obligations                   3,722,816           1,539,174
     Budget Authority:
        Appropriation received                                   121,543,102          23,968,500
        Borrowing authority                                                0                   0
        Contract authority                                                 0                   0
     Spending authority from offsetting collections:
        Earned
          Collected                                                7,190,245            577,375
          Change in receivables from Federal sources               (888,223)            (60,507)
        Change in unfilled customer orders
          Advances received                                            54,329                  0
          Without advance from Federal sources                        567,102           (48,029)
        Anticipated for the rest of year, without advances                  0                  0
        Previously unavailable                                              0                  0
        Expenditure transfers from trust funds                              0                  0
       Subtotal                                              $   128,466,555 $        24,437,339
     Nonexpenditure transfers, net, anticipated and actual            774,316          (106,906)
     Temporarily not available pursuant to Public Law                       0                  0
     Permanently not available                                    (3,000,805)          (252,498)
     Total Budgetary Resources                               $   145,076,603 $        27,631,867

   Status of Budgetary Resources:
     Obligations Incurred:
        Direct                                               $   121,584,596 $        24,422,185
        Reimbursable                                               5,050,915             814,800
        Subtotal                                             $   126,635,511 $        25,236,985
     Unobligated balance:
        Apportioned                                          $    17,058,081 $         2,139,514
        Exempt from apportionment                                          0                   0
        Subtotal                                                  17,058,081           2,139,514
     Unobligated balances not available                            1,383,011             255,368
     Total, status of budgetary resources                    $   145,076,603 $        27,631,867




                                                                                                                  139
                                                                                                   General Fund
                                                                                                      Department of the Navy



      Department of Defense
      Navy General Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Periods ended September 30, 2006 and 2005
      ($ in thousands)


                                                                           Navy             Marine Corps
         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Change in obligated balance:
          Obligated balance, net
             Unpaid obligations, brought forward, October 1           $     65,559,102 $           6,534,084
             Less: Uncollected customer payments from                       (3,083,852)            (316,962)
                Federal sources, brought forward, October 1
             Total unpaid obligated balance                                  62,475,250            6,217,122
          Obligations incurred, net (+/-)                             $     126,635,511 $         25,236,985
          Less: Gross outlays                                             (119,571,057)         (21,044,616)
          Obligated balance transferred, net
             Actual transfers, unpaid obligations (+/-)                              0                     0
             Actual transfers, uncollected customer                                  0                     0
                payments from Federal sources (+/-)
             Total Unpaid obligated balance transferred, net                          0                    0
          Less: Recoveries of prior year unpaid obligations, actual         (3,722,816)          (1,539,174)
          Change in uncollected customer                                        321,121              108,536
             payments from Federal sources (+/-)
          Obligated balance, net, end of period
             Unpaid obligations                                             68,900,741             9,187,279
             Less: Uncollected customer payments from                       (2,762,731)            (208,426)
                Federal sources
             Total, unpaid obligated balance, net, end of period            66,138,010             8,978,853

         Net Outlays:
          Net Outlays:
             Gross Outlays                                                 119,571,057            21,044,616
             Less: Offsetting collections                                   (7,244,575)            (577,375)
             Less: Distributed Offsetting receipts                            (149,284)                    0
          Net Outlays                                                 $    112,177,198 $          20,467,241




140
2006 Annual Financial Report



Department of Defense
Navy General Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Periods ended September 30, 2006 and 2005
($ in thousands)


                                                                     Navy             Marine Corps
   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
   Change in obligated balance:
    Obligated balance, net
       Unpaid obligations, brought forward, October 1           $     65,559,102 $           6,534,084
       Less: Uncollected customer payments from                       (3,083,852)            (316,962)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                                  62,475,250            6,217,122
    Obligations incurred, net (+/-)                             $     126,635,511 $         25,236,985
    Less: Gross outlays                                             (119,571,057)         (21,044,616)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                              0                     0
       Actual transfers, uncollected customer                                  0                     0
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                          0                    0
    Less: Recoveries of prior year unpaid obligations, actual         (3,722,816)          (1,539,174)
    Change in uncollected customer                                        321,121              108,536
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                             68,900,741             9,187,279
       Less: Uncollected customer payments from                       (2,762,731)            (208,426)
          Federal sources
       Total, unpaid obligated balance, net, end of period            66,138,010             8,978,853

   Net Outlays:
    Net Outlays:
       Gross Outlays                                                 119,571,057            21,044,616
       Less: Offsetting collections                                   (7,244,575)            (577,375)
       Less: Distributed Offsetting receipts                            (149,284)                    0
    Net Outlays                                                 $    112,177,198 $          20,467,241




                                                                                                                        141
                                                                                                         General Fund
                                                                                                                Department of the Navy



      Department of Defense
      Navy General Fund
      CONSOLIDATING STATEMENT OF FINANCING
      For the Periods ended September 30, 2006 and 2005
      ($ in thousands)

                                                                                             Navy               Marine Corps

         Resources Used to Finance Activities:
         Budgetary Resources Obligated
           Obligations Incurred                                                          $      126,635,511 $           25,236,985
           Less: Spending authority from offsetting collections and recoveries (-)             (10,646,269)            (2,008,013)
           Obligations net of offsetting collections and recoveries                             115,989,242             23,228,972
           Less: Offsetting receipts (-)                                                          (149,284)                      0
           Net obligations                                                                      115,839,958             23,228,972
         Other Resources
           Donations and forfeitures of property                                                         0                      0
           Transfers in/out without reimbursement (+/-)                                             96,689                 90,379
           Imputed financing from costs absorbed by others                                         510,817                 67,241
           Other (+/-)                                                                                   0                      0
           Net other resources used to finance activities                                          607,506                157,620
           Total resources used to finance activities                                    $     116,447,464 $           23,386,592

         Resources Used to Finance Items not Part of the Net Cost of Operations:
           Change in budgetary resources obligated for goods, services and benefits
            ordered but not yet provided
              Undelivered orders (-)                                                            (3,830,416)            (2,827,292)
              Unfilled Customer Orders                                                              621,431               (48,029)
           Resources that fund expenses recognized in prior periods                               (101,474)                   (27)
           Budgetary offsetting collections and receipts that do not affect net
             cost of operations                                                                     149,284                      0
           Resources that finance the acquisition of assets                                    (25,488,612)            (2,875,425)
           Other resources or adjustments to net obligated resources that do not
             affect net cost of operations
              Less: Trust or Special Fund Receipts Related to exchange in the Entity's
              Budget (-)                                                                                   0                    0
              Other (+/-)                                                                           (96,689)             (90,379)
           Total resources used to finance items not part of the net
             cost of operations                                                          $     (28,746,476) $          (5,841,152)
           Total resources used to finance the net cost of operations                    $       87,700,988 $           17,545,440
         Components of the Net Cost of Operations that will not Require
           or Generate Resources in the Current Period:
         Components Requiring or Generating Resources in Future Periods:
           Increase in annual leave liability                                            $           43,363 $                   0
           Increase in environmental and disposal liability                                           3,908               226,470
           Upward/Downward reestimates of credit subsidy expense (+/-)                                    0                     0
           Increase in exchange revenue receivable from the public (-)                                    0                     0
           Other (+/-)                                                                              103,016               105,361
           Total components of Net Cost of Operations that will require or
             generate resources in future periods                                        $          150,287 $             331,831

         Components not Requiring or Generating Resources:
           Depreciation and amortization                                                 $      19,784,673 $            1,458,780
           Revaluation of assets and liabilities (+/-)                                           1,890,592               (25,176)
           Other (+/-)
               Trust Fund Exchange Revenue                                                                0                      0
               Cost of Goods Sold                                                                         0                      0
               Operating Material & Supplies Used                                               (3,209,710)                   (64)
               Other                                                                                (8,270)                (1,405)
           Total components of Net Cost of Operations that will not require
             or generate resources                                                       $      18,457,285 $            1,432,135
           Total components of Net Cost of Operations that will
                not Require or Generate Resources in the Current Period                  $      18,607,572 $            1,763,966
            Net Cost of Operations                                                       $     106,308,560 $           19,309,406

142
2006 Annual Financial Report




    Combined Total          Eliminations         2006 Consolidated        2005 Consolidated



$           151,872,496 $                  0 $            151,872,496 $            151,158,165
           (12,654,282)                    0             (12,654,282)             (20,485,056)
            139,218,214                    0              139,218,214              130,673,109
              (149,284)                    0                (149,284)                (115,805)
            139,068,930                    0              139,068,930              130,557,304

                     0                     0                        0                         0
               187,068                     0                  187,068                   (1,652)
               578,058                     0                  578,058                  585,686
                     0                     0                        0                         0
               765,126                     0                  765,126                  584,034
$          139,834,056 $                   0 $            139,834,056 $            131,141,338




            (6,657,708)                    0              (6,657,708)             (13,332,332)
                573,402                    0                  573,402                (488,685)
              (101,501)                    0                (101,501)                (269,715)

                149,284                    0                  149,284                        0
           (28,364,037)                    0             (28,364,037)             (14,697,475)




                     0                     0                        0                        0
             (187,068)                     0                (187,068)                    1,652

$          (34,587,628) $                  0 $           (34,587,628) $           (28,786,555)
$           105,246,428 $                  0 $            105,246,428 $            102,354,783




$                43,363 $                  0 $                 43,363 $                 170,047
                230,378                    0                  230,378                 1,028,763
                      0                    0                        0                         0
                      0                    0                        0                         0
                208,377                    0                  208,377                    69,091

$               482,118 $                  0 $                482,118 $               1,267,901



$            21,243,453 $                  0 $             21,243,453 $              15,844,303
              1,865,416                    0                1,865,416               (1,785,299)

                      0                    0                         0                     (10)
                      0                    0                         0                        0
            (3,209,774)                    0               (3,209,774)              (2,244,170)
                (9,675)                    0                   (9,675)                  (7,849)

$            19,889,420 $                  0 $             19,889,420 $             11,806,975

$            20,371,538 $                  0 $             20,371,538 $             13,074,876
$           125,617,966 $                  0 $            125,617,966 $            115,429,659

                                                                                                                 143
                                                                                                  General Fund
      Department of the Navy




144
                                            Department of the Navy

                                           General Fund


                              2006
         Required Supplementary Stewardship Information




                                                                           General Fund Required Supplementary Stewardship Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                     145
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                              Department of the Navy



                              INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                 Yearly Investment in Research and Development
                                         For Fiscal Years 2002 through 2006
                                                (In Millions of Dollars)

      (a)                                                       (b)         (c)        (d)         (e)         (f)
      Categories                                             FY02        FY03        FY04       FY05        FY06
      1. Basic Research                                       $378       $399        $431        $437        $449
      2. Applied Research                                      647         743        686         692         739
      3. Development
         Advanced Technology Development                       779         836        967         951         912
         Advanced Component Development And                  2,415       2,536      2,361       3,030       3,223
         Prototypes
         System Development and Demonstration                2,836       4,200      6,115       7,094       7,819
         Research, Development, Test, and                      838         797        906         955       1,022
         Evaluation Management Support
         Operational Systems Development                     2,417       2,385      1,820       3,775       3,399
      Total                                                $10,310     $11,896    $13,286     $16,934    $17,563

      Narrative Statement
      Investments in Research and Development
      Investment values included in this Report are based on Research and Development (R&D) outlays
      (expenditures). Outlays are used because current Department of Navy (DON) systems are unable to fully
      capture and summarize costs in accordance with FASAB standards.

      A. Basic Research
      Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
      phenomena and of observable facts without speciﬁc applications, processes, or products in mind. Basic
      Research involves the gathering of fuller knowledge or understanding of the subject under study. Major
      outputs are scientiﬁc studies and research papers.

      The following are two representative program examples for the Basic Research category.

      Cosmic BaĴle Creates Milky-Way Sized Tunnel
      The National Aeronautics and Space Administration, the Naval Research Laboratory’s radio astronomy
      researchers, the National Radio Astronomy Observatory, and the National Science Foundation (NSF),
      under a cooperative agreement with Associated Universities, Inc., supported a team of astronomers who
      discovered a giant Milky Way-sized tunnel ﬁlled with high energy particles in a distant galaxy cluster.
      These new ﬁndings are of special interest to astronomers as they may provide the missing evolutionary
      link necessary to understand the cycle of cosmic birth and death, as well as the environmental impact of
      radio jets, which result from ravenous super-massive black holes within giant galaxies.

      Using the Chandra X-ray Observatory to study the multi-million degree gas in the galaxy cluster, Abell
      2597, the research scientists discovered an unusual X-ray tunnel large enough to ﬁt the entire Milky Way
      galaxy inside. The cluster, located at a distance of roughly one billion light years from the Earth, contains
      a tunnel in the hot gas, which measures nearly 110 thousand light years by 36 thousand light years in
      size. The tunnel, which appears to originate near the core of the central giant galaxy in the cluster, may
      be more than 200 million years old. A constant baĴle is being waged in the central regions of clusters of
      galaxies. The hot gas invades the core of the cluster and feeds the super-massive black hole that is lurking
      there.
146
2006 Annual Financial Report



The fact that the tunnel connects back to the super-massive black hole suggests that the black hole
is trying to breach the cluster’s defenses in the same area where it has been successful in the past.
Astronomers are far from understanding the complex interactions between radio jets and the hot
gas in galaxy clusters. Further progress in the ﬁeld will require sensitive observations at even longer
wavelengths, but unfortunately the current suite of low frequency radio telescopes are already at their
limits of sensitivity and resolution.

To address this shortcoming, astronomers at several institutions, collectively known as the Southwest
Consortium, are contributing to an eﬀort to build the world’s largest and most sensitive low-frequency
telescope, called the Long Wavelength Array (LWA). The LWA will operate at wavelengths between 15
and 3.75 meters (or 20 and 80 Megahertz) and has the potential to revolutionize future studies of radio
galaxies and galaxy clusters. Current plans call for the LWA to be sited near the Very Large Array in New
Mexico. Ironically, the LWA will operate at the same frequencies at which the ﬁrst extra-terrestrial radio
emissions were discovered, thus representing a return to the very roots of radio astronomy.

Bering Sea Ecosystem Responding to Changes in Arctic Climate
The Western Shelf-Basin Interactions (SBI) research project conducted a series of research cruises to
observe changes in the carbon balance of the oﬀshore areas of the Alaskan Arctic and their eﬀects on the
food chain. The cruises included a number of researchers supported by the Oﬃce of Naval Research
(ONR), the NSF, and the National Oceanic and Atmospheric Administration. The group also funded
researchers who contributed data collected by the Bering Strait Environmental Observatory, which
annually samples waters in the northern Bering Sea to assess the biological status of productive animal
communities on the sea ﬂoor.

Physical changes, including rising air and seawater temperatures and decreasing seasonal ice cover,
appear to be the cause of a series of biological changes in the northern Bering Sea ecosystem that could
have long range and irreversible eﬀects on the animals that live there and on the people who depend
on them for their livelihoods. In a paper published in the journal, Science, a team of U.S. and Canadian
researchers used data from long-term observations of physical properties and biological communities
to conclude that previously documented physical changes in the Arctic in recent years are profoundly
aﬀecting Arctic life. The northern Bering Sea provides critical habitat for large populations of sea ducks,
gray whales, bearded seals, and walruses, all of which depend on small boĴom-dwelling creatures for
sustenance.

While the climatic changes researchers are observing are not uniform throughout the Bering Sea, the
changes are tied to the nature of the sea ice. In the southeast Bering Sea, ﬁsh population and boĴom-
dwelling animal changes are taking place in the context of a complete loss of sea ice. But in the northern
Bering Sea, ecological changes are occurring in the context of shiĞs in the quality of the sea ice. Satellite
observations and other measurements, combined with observations of native Yupik hunters, conﬁrm that
sea ice extent and thickness have become greatly reduced in recent years. Also, observations by scientists
on the SBI research cruises conﬁrm that walrus mothers were leaving their pups when sea ice the animals
normally use as a summer resting platform, retreated to the north. ShiĞs in ﬁsh populations have also
been observed, including the appearance of juvenile pink salmon in rivers that drain into the Arctic
Ocean, much farther north than normal.

B. Applied Research
Applied Research is the systematic study to gain knowledge or understanding necessary for determining
the means by which a recognized and speciﬁc need may be met. It is also the practical application
of such knowledge or understanding for the purpose of meeting the recognized need. This research
points toward speciﬁc military needs with a view toward developing and evaluating the feasibility and
practicability of proposed solutions and determining their parameters. Major outputs of applied research
are scientiﬁc studies, investigations and research papers, hardware components, soĞware codes, and
limited construction of, or part of, a weapon system to include nonsystem speciﬁc development eﬀorts.


                                                                                                                 147
                                                                                                  General Fund
                                                                                             Department of the Navy



      The following are two representative program examples for the Applied Research category.

      Nanorobot Fabrication Makes Ultrasmall Sensors Possible
      Researchers at the ONR are using nanotechnology to help answer the question of how to build an
      infrared (IR) camera that is small enough to ﬁt on a mini-unmanned aerial vehicle (UAV) without
      cryogenic cooling. Nanotechnology is the understanding and control of maĴer at dimensions of roughly
      1 to 100 nanometers and involves imaging, measuring, modeling, and manipulating maĴer at this length
      scale. As a point of reference, a nanometer is one-billionth of a meter; a single sheet of paper is about
      100,000 nanometers thick.

      Researchers working with the ONR developed a way to build extremely small sensors using nanorobot
      fabrications. ONR researchers created this new process and Michigan State University scientists
      implemented it. This technology allows a human operator to use a powerful microscope and a hand-held
      controller to manipulate nano-sized contact points remotely—similar to using extremely small hands—to
      construct the pixel elements that will form the heart of the sensor.

      The reason for making such a small sensor has to do with the largest of things—protecting multibillion-
      dollar aircraĞ carriers and other ships and their thousands of Sailors and Marines. To improve the ability
      of carrier strike groups to detect enemy missiles over the horizon, the U.S. Navy is searching for ways to
      augment its surveillance capabilities with a covert team of mini-UAVs, also known as drones, equipped
      with passive sensors that can cruise near the ocean surface at slow speeds for many hours. A small UAV
      is possible with the advent of nano-based sensors.

      Free-Electron Laser Being Developed For Shipboard Defense
      The Free-Electron Laser (FEL), currently housed at the Energy Department’s Thomas Jeﬀerson National
      Accelerator Facility in Newport News, Virginia, is funded by the Oﬃce of Naval Research’s Directed
      Energy Program. It is also used by the Army, Air Force, industry, and academia for research. The FEL
      could be ready for deployment as a shipboard defense against enemy missiles onboard ships like DD(X)
      next-generation destroyers and CVN-21-class carriers by 2020. The ﬂexibility and range of the laser has
      been one of the main reasons these varying partners are interested in pursuing the technology.

      The FEL’s ability to tune to diﬀerent wavelengths makes it more desirable for shipboard defense
      – whether to detect missiles or to destroy them – because its beam is not aﬀected by atmospheric
      interference, which is thickest over the sea’s surface. During FY 2006, FEL achieved 10 kilowaĴs of
      infrared laser light, 10 million times more powerful than grocery store scanners, making the laser the
      most powerful of its kind in the world.

      The level of output of a FEL, which works best for the Navy at sea level and in a humid environment, has
      increased in order of magnitude every three years. Within the next ﬁve years, the output level is expected
      to be 100,000 waĴs, which is the cusp of lethality. Researchers are conﬁdent that within an additional
      three to ﬁve years, the FEL’s output will be one megawaĴ (one million waĴs).

      The weapon’s precision and power make the FEL particularly desirable for Navy needs. The FEL’s range
      of 100 meters to “multiple kilometers,” and power to adjust provide capability to tackle threats from
      missiles to small ﬁshing boats, make it a good candidate for asymmetric defense.

      The Army’s Night Vision Laboratory is interested in the laser’s ability to create very long wavelengths or
      terahertz light, which can penetrate the ground, to aid in the detection of improvised explosive devices
      (IEDs) and land mines. The Air Force would like to use the technology to produce shorter wavelengths or
      ultraviolet light to be used in making materials for picosatellites.




148
2006 Annual Financial Report



C. Development
Development takes what has been discovered or learned from basic and applied research and uses it to
establish technological feasibility, assessment of operability, and production capability. Development is
comprised of ﬁve stages deﬁned below:

      1.   Advanced Technology Development is the systematic use of the knowledge or understanding
           gained from research directed toward proof of technological feasibility and assessment of
           operational and production rather than the development of hardware for service use. It
           employs demonstration activities intended to prove or test a technology or method.

      2.   Advanced Component Development and Prototypes evaluates integrated technologies in as
           realistic an operating environment as possible to assess the performance or cost reduction
           potential of advanced technology. Programs in this phase are generally system speciﬁc. Major
           outputs of Advanced Component Development and Prototypes are hardware and soĞware
           components or complete weapon systems ready for operational and developmental testing
           and ﬁeld use.

      3.   System Development and Demonstration concludes the program or project and prepares it for
           production. It consists primarily of preproduction eﬀorts, such as logistics and repair studies.
           Major outputs are weapons systems ﬁnalized for complete operational and development
           testing.

      4.   RDT&E Management Support is support for installations and operations for general research
           and development use. This category includes costs associated with test ranges, military
           construction maintenance support for laboratories, operation and maintenance of test aircraĞ
           and ships, and studies and analyses in support of the R&D program.

      5.   Operational Systems Development is concerned with development projects in support of
           programs or upgrades still in engineering and manufacturing development. These projects
           have received approval for production, for which production funds have been budgeted in
           subsequent ﬁscal years.

The following are two representative program examples for the Development category.

Plumbing the Chemistry of Iraq IEDs
The ONR is sponsoring a research project at the MassachuseĴs Institute of Technology (MIT), which is
analyzing the molecular interaction of explosive materials. The goal of the three-year program is to study
the physics and chemistry of IEDs and ﬁnd techniques to detonate or short-circuit them before they cause
harm.

Two objectives of this project are developing countermeasures and developing safer and more reliable
materials for our own use to defend against the IEDs. MIT researchers are conducting with research
partners at Washington State University and Michigan Technological University. The funding is part
of a military program called the Multidisciplinary University Research Initiative, which is designed to
support technology advances and academic work in subjects representing exceptional opportunities for
future military applications.

Composed of leĞover Iraqi Army mortars, artillery shells, TNT, and a variety of other explosives readily
available in Iraq, IEDs pose perhaps the most troublesome problem for U.S. troops on the ground.
The bombs, hidden along patrol and convoy routes, are relatively cheap to make, yet have become
increasingly sophisticated, more powerful, and harder for the military to defend against. Increasingly
skilled insurgents have disguised IEDs as rocks or tucked them inside roadside debris and dead animals.



                                                                                                                149
                                                                                                 General Fund
                                                                                            Department of the Navy



      Other research includes testing diﬀerent ways that explosives can be stimulated, or triggered – such as
      through heat, radiation, or mechanics. The goal from this research is to use the knowledge to make IEDs
      on the side of the road more vulnerable to preemptive stimuli, thereby disabling the explosive devices
      before they cause harm to U.S. service members.

      Program Underway to Develop an Electromagnetic Rail Gun
      The ONR instituted a ﬁve-year program to break through a historically elusive barrier in the ﬁeld of
      weapons technology – a tactically useful electromagnetic (EM) rail gun. The potential of electromagnetic
      power to shaĴer the speed and range limits of traditional artillery ﬁred by exploding gas weapons has
      captivated naval and land warfare visionaries for nearly a century, but the promise has always outpaced a
      number of stubborn technical obstacles.

      The Navy has established a goal of demonstrating the feasibility of a rail gun launcher with muzzle
      energy of 32 megajoules (MJ), or about half the power output needed for an operational weapon, by 2011.
      The key metric for determining the feasibility of the rail gun is whether the launcher’s containment bore
      – the protective shroud encapsulating the gun’s twin rails and movable armature – is strong enough to
      survive 100 shots before needing to be replaced due to metal fatigue.

      If the project succeeds, ONR predicts that a demonstration of a full-scale 64 MJ launcher could occur by
      2015, followed by the ﬁelding of an operational weapon in the year 2020. The Navy’s ultimate goal is to
      replace traditional indirect ﬁre weapons on aĴack ships with EM rail guns.


      NON-FEDERAL PHYSICAL PROPERTY
      The Department of the Navy does not fund this type of Activity.




150
                                           Department of the Navy

                                         General Fund


                              2006
                    Required Supplementary Information




                                                                          General Fund Required Supplementary Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                    151
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                                                                       Department of the Navy



      Department of Defense
      Navy General Fund
      DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                                   Research,
                                                                                                                          Operation and
                                                                          Other               Development, Test, &                                 Procurement
                                                                                                                          Maintenance
                                                                                                  Evaluation
         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources
           Unobligated balance, brought forward, October 1            $            23,638 $              1,623,910    $            771,488     $        13,511,782
           Recoveries of prior year unpaid obligations                                354                  395,523               2,759,040               1,639,323
           Budget Authority:
              Appropriation received                                              324,023               19,132,442              44,902,797              38,728,922
              Borrowing authority                                                       0                        0                       0                       0
              Contract authority                                                        0                        0                       0                       0
           Spending authority from offsetting collections:
              Earned
                Collected                                                               0                 470,976                4,974,223               1,127,268
                Change in receivable from Federal sources                               0                 (86,963)                (636,293)                (30,564)
              Change in unfilled customer orders
                Advances received                                                    0                      (2,208)                 22,671                       0
                Without advance from Federal sources                                 0                      82,227                 348,410                   3,219
              Anticipated for the rest of year, without advances                     0                           0                       0                       0
              Previously unavailable                                                 0                           0                       0                       0
              Expenditure transfers from trust funds                                 0                           0                       0                       0
             Subtotal                                                 $        324,023 $                19,596,474 $            49,611,808 $            39,828,845
           Nonexpenditure transfers, net, anticipated and actual              (301,520)                    144,891                 733,249                  34,389
           Temporarily not available pursuant to Public Law                          0                           0                       0                       0
           Permanently not available                                            (3,046)                   (368,881)               (996,920)             (1,337,565)
           Total Budgetary Resources                                  $         43,449 $                21,391,917 $            52,878,665 $            53,676,774

         Status of Budgetary Resources:
           Obligations Incurred:
              Direct                                                  $            24,174 $             19,133,972    $         47,785,754     $        36,913,814
              Reimbursable                                                              0                  130,542               3,885,085                 931,526
              Subtotal                                                $            24,174 $             19,264,514    $         51,670,839     $        37,845,340
           Unobligated balance:
              Apportioned                                             $            19,276 $              1,962,250 $               247,077 $            15,490,588
              Exempt from apportionment                                                 0                        0                       0                       0
              Subtotal                                                             19,276                1,962,250                 247,077              15,490,588
           Unobligated Balance not available                                            0                  165,154                 960,749                 340,846
           Total status of budgetary resources                        $            43,450 $             21,226,764 $            51,917,916 $            53,335,928




         Change in obligated balance:
          Obligated balance, net
             Unpaid obligations, brought forward, October 1           $            60,037 $              7,881,595 $            18,006,235 $            43,170,095
             Less: Uncollected customer payments from                                   0                 (377,933)             (1,988,640)               (133,235)
                Federal sources, brought forward, October 1
             Total unpaid obligated balance                                        60,037                7,503,662               16,017,595              43,036,860
          Obligations incurred, net (+/-)                             $            24,174 $             19,264,514 $             51,670,839 $            37,845,340
          Less: Gross outlays                                                     (24,630)             (17,892,010)             (47,807,868)            (32,496,411)
          Obligated balance transferred, net
             Actual transfers, unpaid obligations (+/-)                                 0                        0                        0                       0
             Actual transfers, uncollected customer                                     0                        0                        0                       0
                payments from Federal sources (+/-)
             Total Unpaid obligated balance transferred, net                            0                        0                        0                       0
          Less: Recoveries of prior year unpaid obligations, actual                  (354)                (395,524)              (2,759,040)             (1,639,323)
          Change in uncollected customer                                                0                    4,736                  287,884                  27,345
             payments from Federal sources (+/-)
          Obligated balance, net, end of period
             Unpaid obligations                                                    59,227                8,858,576              19,110,166              46,879,702
             Less: Uncollected customer payments from                                   0                 (373,196)             (1,700,757)               (105,891)
                Federal sources
             Total, unpaid obligated balance, net, end of period                   59,227                8,485,380              17,409,409              46,773,811

         Net Outlays:
          Net Outlays:
             Gross outlays                                                         24,630               17,892,010              47,807,868              32,496,411
             Less: Offsetting collections                                               0                 (468,768)             (4,996,895)             (1,127,268)
             Less: Distributed Offsetting receipts                                (12,699)                       0                (136,585)                      0
          Net Outlays                                                 $            11,931 $             17,423,242 $            42,674,388 $            31,369,143




152
2006 Annual Financial Report



Department of Defense
Navy General Fund
DISAGGREGATED STATEMENT OF BUDGETAR
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                                                    Military
                                                                    Military Personnel         Construction/Family        2006 Combined            2005 Combined
                                                                                                    Housing
   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources
     Unobligated balance, brought forward, October 1            $               165,732    $             1,031,929    $         17,128,479     $          18,027,995
     Recoveries of prior year unpaid obligations                                441,101                     26,649               5,261,990                11,446,435
     Budget Authority:
        Appropriation received                                               40,433,914                  1,989,504             145,511,602              131,002,361
        Borrowing authority                                                           0                          0                       0                        0
        Contract authority                                                            0                          0                       0                        0
     Spending authority from offsetting collections:
        Earned
          Collected                                                             376,531                    818,622               7,767,620                 8,830,639
          Change in receivable from Federal sources                             (99,514)                   (95,395)               (948,729)                  696,667
        Change in unfilled customer orders
          Advances received                                                           0                     33,866                  54,329                  147,708
          Without advance from Federal sources                                    5,298                     79,919                 519,073                 (636,393)
        Anticipated for the rest of year, without advances                            0                          0                       0                        0
        Previously unavailable                                                        0                          0                       0                        0
        Expenditure transfers from trust funds                                        0                          0                       0                        0
       Subtotal                                                 $            40,716,229 $                2,826,516 $           152,903,895 $            140,040,982
     Nonexpenditure transfers, net, anticipated and actual                      190,649                   (134,248)                667,410                  314,674
     Temporarily not available pursuant to Public Law                                 0                          0                       0                        0
     Permanently not available                                                 (413,185)                  (133,706)             (3,253,303)              (1,543,442)
     Total Budgetary Resources                                  $            41,100,524 $                3,617,140 $           172,708,471 $            168,286,644

   Status of Budgetary Resources:
     Obligations Incurred:
        Direct                                                  $            40,530,339    $             1,618,729    $        146,006,782     $        137,694,376
        Reimbursable                                                            370,706                    547,855               5,865,714               13,463,789
        Subtotal                                                $            40,901,045    $             2,166,584    $        151,872,496     $        151,158,165
     Unobligated balance:
        Apportioned                                             $                88,443 $                1,389,961 $            19,197,595 $             15,607,505
        Exempt from apportionment                                                     0                          0                       0                        0
        Subtotal                                                                 88,443                  1,389,961              19,197,595               15,607,505
     Unobligated Balance not available                                          111,036                     60,594               1,638,379                1,520,974
     Total status of budgetary resources                        $            41,100,524 $                3,617,139 $           172,708,468 $            168,286,644




   Change in obligated balance:
    Obligated balance, net
       Unpaid obligations, brought forward, October 1           $               746,627 $                2,228,597 $            72,093,186 $             67,196,765
       Less: Uncollected customer payments from                                (121,321)                  (779,684)             (3,400,813)              (3,340,541)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                                           625,306                   1,448,913              68,692,373               63,856,224
    Obligations incurred, net (+/-)                             $            40,901,045 $                 2,166,583 $           151,872,495 $            151,158,165
    Less: Gross outlays                                                     (40,296,475)                 (2,098,279)           (140,615,673)            (134,815,308)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                     0                          0                        0                        0
       Actual transfers, uncollected customer                                         0                          0                        0                        0
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                                0                          0                        0                        0
    Less: Recoveries of prior year unpaid obligations, actual                  (441,101)                   (26,649)              (5,261,991)             (11,446,435)
    Change in uncollected customer                                               94,216                     15,476                  429,657                  (60,273)
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                                       910,097                  2,270,253              78,088,021               72,093,186
       Less: Uncollected customer payments from                                 (27,105)                  (764,208)             (2,971,157)              (3,400,814)
          Federal sources
       Total, unpaid obligated balance, net, end of period                      882,992                  1,506,045              75,116,864               68,692,372

   Net Outlays:
    Net Outlays:
       Gross outlays                                                         40,296,476                  2,098,279             140,615,674              134,815,308
       Less: Offsetting collections                                            (376,531)                  (852,488)             (7,821,950)              (8,978,348)
       Less: Distributed Offsetting receipts                                          0                          0                (149,284)                (115,805)
    Net Outlays                                                 $            39,919,945 $                1,245,791 $           132,644,440 $            125,721,155




                                                                                                                                                                        153
                                                                                                                                                      General Fund
                                                                                             Department of the Navy



                     Department of the Navy (DON) General Property, Plant, and Equipment
                      Real Property Deferred Annual Sustainment and Restoration Tables
                                           As of September 30, 2006
                                                 ($ in Millions)

      Annual Sustainment FY 2006
                                               Required           Actual         Diﬀerence
      Navy                                       1,399             1,289              110
      Marine Corps                                 561              524                37
      Building, Structures, and Utilities        1,960             1,813              147


      Annual Deferred Sustainment Trend
                                                FY 2003          FY 2004           FY 2005           FY 2006
      Navy                                           -              488               248               110
      Marine Corps                                   -               24                30                37
      Building, Structures, and Utilities            -              512               278               147


      Restoration and Modernization Requirements
                                             End FY 2005       End FY 2006         Change
      Navy                                           -             2,021            2,021
      Marine Corps                                   -              256               256
      Building, Structures, and Utilities            -             2,277            2,277

      Narrative Statement:
      Fiscal Year 2006 represents the ﬁĞh year the Facility Sustainment Model (FSM) was utilized for the
      Department of the Navy (DON) General Fund. Sustainment is deﬁned as the maintenance and repair
      activities necessary to keep a typical facility in good working order over its service life. It includes
      regularly scheduled adjustments and inspections (such as for ﬁre sprinkler heads and HVAC systems),
      regulatory inspections (for example, of elevators and bridges), emergency and routine preventive
      maintenance tasks, and major repair or replacement of facility components, such as roof replacement,
      reﬁnishing wall surfaces, repairing and replacing electrical, heating, and cooling systems, and replacing
      tile and carpeting. In FY 2006, FSM Version 7.2 was used for programming and budgeting for facilities
      sustainment. Deferred amounts were calculated in accordance with the methodology provided by
      Department of Defense Financial Management Regulation, Volume 6B, Chapter 12.

      Restoration and Modernization is currently not modeled. Restoration includes repair and replacement
      work to restore facilities damaged by inadequate sustainment, excessive age, disaster, accident, or other
      causes. Modernization includes alteration of facilities solely to implement new or higher standards and
      regulatory changes, to accommodate new functions including base realignment and closure (BRAC), or
      to renew building components that typically last more than 50 years, such as foundations and structural
      members. Requirements listed on the table are actual expenditures for restoration and modernization
      by year. The program growth evident in the funding trend reﬂects the impact of Hurricanes Ivan and
      Katrina and BRAC.

      The DON General Fund has no material amounts of deferred sustainment for the General Property, Plant,
      and Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.


154
2006 Annual Financial Report



                                          Military Equipment
                                    Deferred Maintenance Amounts
                                       As of September 30, 2006
                                            ($ in Thousands)

                     Major Type                                              Amount
                     1. AircraĞ                                               $70,000
                     2. Ships                                                  26,000
                     3. Missiles                                               78,000
                     4. Combat Vehicles                                        83,000
                     5. Other Weapons Systems                                 240,000
                     6. Total                                                $497,000

Narrative Statement:
AircraĞ Deferred Maintenance
Four sub-categories comprise aircraĞ deferred maintenance: airframe rework and maintenance (active
and reserve), engine rework and maintenance (active and reserve), component repair, and soĞware
maintenance. The airframe rework deferred maintenance calculation reﬂects unfunded requirements,
which represent aircraĞs that failed AircraĞ Service Period Adjustment (ASPA) inspections or reached
ﬁxed Period End Date (PED) at year-end. The engine rework deferred maintenance calculation reﬂects
year-end actual requirements minus actual funded units. Component repair deferred maintenance
represents the diﬀerence between the validated requirements minus corresponding funding.

Airframe rework and maintenance (active and reserve) is currently performed under both the Standard
Depot Level Maintenance (SDLM) and Integrated Maintenance Concept (IMC) programs. Currently, the
AV-8B, C-130, C-2, E-2, E-6, EA-6B, F-5, F/A-18, H-1, H-46, H-53, H-60, P-3, and S-3 aircraĞ programs have
been incorporated under the IMC concept. The IMC concept uses Planned Maintenance Intervals (PMI),
performing more frequent depot maintenance, but with smaller work packages, thereby reducing out-
of-service time. The goal of this program is to improve readiness while reducing operating and support
costs. The Naval Air Systems Command’s (NAVAIR) Industrial Strategy is to maintain the minimum
level of organic capacity, consistent with force levels, which are necessary to sustain peacetime readiness
and maintain ﬁghting surge capability. NAVAIR works in partnership with private industry to make
maximum use of industry’s production capabilities and for non-core related aviation depot maintenance.

Ship Deferred Maintenance
Fleet Type Commanders provide deferred ship maintenance data. Data is collected from the
Current Ships Maintenance Plan (CSMP) database, which captures maintenance actions at all levels
(organizational, intermediate, depot) for active and reserve ships. Only depot level deferred maintenance
is provided in the calculation of ship deferred maintenance. This includes maintenance actions deferred
from actual depot maintenance work-packages as well as maintenance deferred before inclusion in
a work package due to ﬁscal, operational, or capacity constraints. Although there are some deferred
maintenance actions, no ships fall into the category of, “unacceptable operating condition.” Any ship
that would be at risk of being in unacceptable operating condition would receive priority for maintenance
funding to maintain acceptable operating condition.

Missile Maintenance
Four categories are used to determine missile maintenance: missiles, tactical missiles, soĞware
maintenance, and other. Deferred maintenance is deﬁned as the diﬀerence between the total weapon
maintenance requirement as determined by requirements modeling processes and the weapon
maintenance that is funded in accordance with the annual budget controls for the missile maintenance

                                                                                                               155
                                                                                                General Fund
                                                                                                   Department of the Navy



      program. The maintenance requirements model projects the quantity of missiles and missile components
      per weapon system that are required to be maintained or reworked annually.

      Combat Vehicles
      The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine
      Corps assets. The combat vehicle category consists of weapons systems such as the M1A1 Tank, the
      Amphibious Assault Vehicle, the Hercules Recovery Vehicle, and the Light Armored Vehicle. The total
      requirement is the planned quantity of combat vehicles that require depot level maintenance in a year as
      determined by program managers and the operating forces with requirements validated by a modeling
      process. The deferred maintenance is the diﬀerence between the validated requirements and funding
      received for that ﬁscal year.

      Other Weapons Systems
      The Other Weapons Systems category is comprised of ordnance, end item maintenance for support
      equipment, camera equipment, landing aids, calibration equipment, air traﬃc control equipment,
      target systems, expeditionary airﬁeld equipment, special weapons, target maintenance, and repair
      of repairable components. Three categories deﬁne ordnance maintenance: ordnance maintenance,
      soĞware maintenance, and other. Although the various programs diﬀer in the methodology in
      deﬁning requirements, all programs deﬁne deferred maintenance as the diﬀerence between validated
      requirements and funding.

      SoĞware Maintenance
      SoĞware maintenance requirements and deferred maintenance for aircraĞ, missiles, and other equipment
      are determined using the same methodology and therefore will not be addressed separately for each
      Military Equipment Deferred Maintenance reporting categories. SoĞware maintenance includes the
      operational and system test soĞware that runs in the airborne avionics systems (e.g., mission computer,
      display computer, radar) and the soĞware that runs the ground-based support labs used to perform
      soĞware sustainment (e.g., compilers, editors, simulation, conﬁguration management).


                                                           HERITAGE ASSETS
                                                   For Fiscal Year Ended September 2006

                                                Measurement      As of                                      As of
                                                 Quantity      Oct 1, 2005   Additions    Deletions      Sep 30, 2006
      Museums                                      Each            27              -           -               27
      Monuments & Memorials                        Each           526             26           -             552
      Cemeteries                                   Sites           60              1           -               61
      Archeological Sites                          Sites       23,941              -       6,153          17,788
      Buildings and Structures                     Each         9,092              -           -            9,092
      Major Collections                            Each
        (See Supplemental Reporting, pg. 156)




156
2006 Annual Financial Report



Narrative Statement:
The DON is required to report Heritage Assets in accordance with the following public laws and
regulations:
      •    Antiquities Act of 1906

      •    Historic Sites Act of 1935

      •    USC 470 National Historic Preservation Act of 1966

      •    National Environmental Policy Act of 1969

      •    American Indian Religious Freedom Act of 1978

      •    Archeological Resources Protection Act of 1979

      •    Native American Graves Protection & Repatriation Act of 1990

      •    Presidential Memorandum for Heads of Executive Departments and Agencies: Government
           to Government Relations with Native American Tribal Governments Act of 1994

      •    36 CFR 79 – Curation of Federally Owned and Administered Archeological Collections

      •    36 CFR 60.4 – National Register of Historic Places

      •    Federal Accounting Standards Advisory Board (FASAB) Standard 29, “Heritage Assets and
           Stewardship Land”

      •    Executive Order 13287 – Preserve America – of 2003

      •    Executive Order 13327 – Federal Real Property Asset Management – of 2004

      •    SECNAVINST 5755.1A – Navy Museums – of 1992

In general, the DON deﬁnes Heritage Assets as items that are unique for one or more of the following
reasons: historical or natural signiﬁcance; cultural, educational or artistic importance; or signiﬁcant
architectural characteristics. Monetary values are not required for Heritage Asset reporting; only physical
units of measure are reported.

Explanation for adjustments, additions, and deletions. In FY 2006, adjustments to Archeological Sites
were made aĞer a reconciliation to the DON Federal Archeology Report was performed.

Accurate inventories of archaeological artifacts, archaeological sites, and buildings and structures
are dependent on full implementation of tracking systems, notably the Internet Naval Facilities Asset
Database Store (iNFADS) and the Department of the Navy Heritage Asset Management System
(DONHAMS), and related use of historic property data elements for buildings and structures.

Process used to deﬁne assets as Heritage Assets. The processes used to deﬁne items as having heritage
signiﬁcance varies between categories and type of assets being evaluated. Subject maĴer experts,
including historians and curators, play a signiﬁcant role in the deﬁnition process in addition to other
criteria such as being listed on the National Register of Historic Places. In all cases, a myriad of federal
statutes, service regulations, and other guidelines mandate heritage signiﬁcance or provide guidance in
its determination.

Multi-Use Heritage Assets. Per DoD Financial Management Regulation (FMR) Volume 6B, “Form and
Content of the Department of Defense Audited Financial Statements,” Multi-Use Heritage Assets are
reported as Heritage Assets on the RSSI and on the Balance Sheet as Real Property.
                                                                                                                  157
                                                                                                   General Fund
                                                                                               Department of the Navy



      Information Pertaining to the Condition of DON Heritage Assets. The methodology used to report the
      condition of the heritage assets was a combination of visual assessment of the objects, historic value to
      DON collection, and general display and storage standards for historic collections. The overall condition
      of the collection objects is good.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientiﬁc, historical, or artistic value. Secretary of the
      Navy Instruction 5755.1A, Navy Museums, deﬁnes the scope of the Navy Museum program.

      Monuments and Memorials
      Monuments and Memorials have signiﬁcant monetary and/or historical value to DON.

      Cemeteries
      Cemeteries are government owned burial grounds on which gravesites of prominent historical ﬁgures
      may be located in addition to other gravesites.

      Archeological Sites
      Archeological Sites are lands on which items of signiﬁcance are located.

      Buildings and Structures
      Buildings and Structures are listed as or determined eligible for listing on the National Register of
      Historic Places, including Multi-Use Heritage Assets. Criteria for evaluating National Register eligibility
      of these sites may be referenced at 36 CFR 60.4.

      Supplemental Reporting. In addition to the data presented in the table above, the following supplemental
      information on Major Collections was reported as of September 30, 2006:

                                   Measurement       As of Oct 1,                                     As of Sep 30,
      Category                      Quantity            2005          Additions       Deletions           2006
      Archeological Artifacts        Cubic Feet             14,271           3,779                -          18,050
      Archival                      Linear Feet             97,289             859                -          98,148
      Artwork                           Item                38,478             335              11           38,802
      Historical Artifacts              Item             1,145,715           2,360             340        1,145,735

      Archeological Artifacts
      In FY 2006 an adjustment of 3,779 cubic feet of Archeological Artifacts was made subsequent to the
      completion of a reconciliation with DON Federal Archeology Report.

      Archival
      The FY 2006 increase of 859 linear feet of Archival items is primarily due to the receipt of additional
      Command Chronology reports.

      Artwork
      The FY 2006 net increase of 324 Artwork items reﬂects normal acquisitions and donations.

      Historical Artifacts
      The net increase of 2,020 Historical Artifacts reﬂects normal acquisitions and donations.




158
2006 Annual Financial Report



                                        STEWARDSHIP LAND
                               For Fiscal Year Ended September 30, 2006
                                           (Acres in Thousands)

(a)                                          (b)           (c)              (d)                  (e)
Land Use                       As of Oct 1, 2005   Additions          Deletions   As of Sep 30, 2006
1. Mission                                2,026             0                0                2,026
2. Parks & Historic Sites                     0             0                0                    0
Totals                                    2,026             0                0                2,026

Narrative Statement
The DON followed the deﬁnition of Stewardship Land per DoD FMR to include Public Domain, Land
Set Aside, and Donated Land. The iNFADS was used to derive acres for Stewardship Land. Within the
deﬁnition of Stewardship Land, land can be further categorized as Improved, Semi-Improved or in the
Other Category of land.




                                                                                                          159
                                                                                           General Fund
                                                                                                                       Department of the Navy



      Schedule, Part A DoD Intragovernmental Asset
      Balances                                             Treasury     Fund Balance     Accounts       Loans
                                                                                                                    Investments    Other
                                                            Index:      with Treasury   Receivable    Receivable
      ($ Amounts in Thousands)
      Department of Agriculture                               12                              2,671
      Department of Commerce                                  13                                                                       2,165
      Department of the Interior                              14                                 10                                   80,587
      Department of Justice                                   15                              4,922
      United States Postal Service                            18                                 13
      Department of State                                     19                              2,853
      Department of the Treasury                              20           96,415,968           355                        9,751
      Army General Fund                                       21                             16,144                                         73
      Resolution Trust Corporation                            22                                  1
      Office of Personnel Management                          24                                                                      37,062
      Nuclear Regulatory Commission                           31                                 97
      Department of Veterans Affairs                          36
      Government Printing Office                               4                                  2
      General Service Administration                          47                                  3                                   11,887
      National Science Foundation                             49                                263                                       92
      Air Force General Fund                                  57                             13,973                                  184,167
      Environmental Protection Agency                         68                                                                       2,250
      Department of Transportation                            69                                688                                  116,132
      Homeland Security                                       70                             20,082
      Agency for International Development                    72                                 27
      Small Business Administration                           73                                                                           107
      Department of Health and Human Services                 75                                 71                                         24
      National Aeronautics and Space Administration           80                              1,946                                        696
      Department of Housing and Urban Development             86                                 20
      Department of Energy                                    89                                371                                        551
      Department of Education                                 91                                356
      US Army Corps of Engineers                              96                                518
      Other Defense Organizations General Funds               97                             36,417                                       25
      Other Defense Organizations Working Capital Funds     97-4930                          23,090                                   21,046
      Army Working Capital Fund                           97-4930.001                         1,745
      Navy Working Capital Fund                           97-4930.002                        32,128                                   11,393
      Air Force Working Capital Fund                      97-4930.003                           502
      Totals might not match the Principal Statements       Totals        $96,415,968      $159,268            $0         $9,751    $468,257




160
2006 Annual Financial Report



Schedule, Part B DoD Intragovernmental Entity Liabilities
                                                                                                  Debts/Borrowings
                                                            Treasury Index:   Accounts Payable      From Other       Other
                                                                                                     Agencies
($ Amounts in Thousands)
Department of Agriculture                                         12                        906
Department of Commerce                                            13                      1,701
Department of the Interior                                        14                      5,900
Department of Justice                                             15                      1,408
Department of Labor                                               16                                                     628,791
Department of State                                               19                     16,601
Department of the Treasury                                        20                     28,357
Army General Fund                                                 21                     52,816
Office of Personnel Management                                    24                                                         36,505
Nuclear Regulatory Commission                                     31                         21
Department of Veterans Affairs                                    36                      2,901
General Service Administration                                    47                    154,926
National Science Foundation                                       49                      1,518
Air Force General Fund                                            57                     44,066
Tennessee Valley Authority                                        64                        492
Environmental Protection Agency                                   68                        245
Department of Transportation                                      69                     32,791
Homeland Security                                                 70                     13,876
Small Business Administration                                     73                        170
Department of Health and Human Services                           75                         57
National Aeronautics and Space Administration                     80                      6,852
Department of Energy                                              89                     99,131
US Army Corps of Engineers                                        96                        770
Other Defense Organizations General Funds                         97                     13,568                               1,997
Other Defense Organizations Working Capital Funds               97-4930                 236,564
Army Working Capital Fund                                     97-4930.001                11,884
Navy Working Capital Fund                                     97-4930.002               301,721
Air Force Working Capital Fund                                97-4930.003                 5,802
The General Fund of the Treasury                                  99                                                    3,792,860
Totals might not match the Principal Statements                 Totals               $1,035,044                 $0     $4,460,153




                                                                                                                                      161
                                                                                                                       General Fund
                                                                                            Department of the Navy



      Schedule, Part C DoD Intragovernmental Revenue and Related Costs
                                                                         Treasury Index:   Earned Revenue
      ($ Amounts in Thousands)
      Executive Office of the President                                         11                  114,310
      Department of Agriculture                                                 12                   24,608
      Department of Commerce                                                    13                    2,220
      Department of the Interior                                                14                       68
      Department of Justice                                                     15                   16,958
      United States Postal Service                                              18                        2
      Department of State                                                       19                    9,282
      Department of the Treasury                                                20                      771
      Army General Fund                                                         21                  282,160
      Resolution Trust Corporation                                              22                       18
      Office of Personnel Management                                            24                        1
      Nuclear Regulatory Commission                                             31                    2,996
      Department of Veterans Affairs                                            36                       16
      Government Printing Office                                                4                        91
      General Service Administration                                            47                      193
      National Science Foundation                                               49                      664
      Air Force General Fund                                                    57                  219,519
      Consumer Product Safety Commission                                        61                   17,901
      Environmental Protection Agency                                           68                       75
      Department of Transportation                                              69                    4,701
      Homeland Security                                                         70                  112,914
      Agency for International Development                                      72                       99
      American Battle Monuments                                                 74                    4,359
      National Aeronautics and Space Administration                             80                   13,886
      Department of Housing and Urban Development                               86                      338
      Department of Energy                                                      89                    2,237
      Selective Service System                                                  90                        7
      Department of Education                                                   91                      752
      US Army Corps of Engineers                                                96                   46,196
      Other Defense Organizations General Funds                                 97                  581,442
      Other Defense Organizations Working Capital Funds                      97-4930                210,978
      Army Working Capital Fund                                            97-4930.001
      Navy Working Capital Fund                                            97-4930.002              728,998
      Air Force Working Capital Fund                                       97-4930.003                1,781
      DoD Medicare-Eligible Retiree Health Care Fund                                                125,220
      Totals might not match the Principal Statements                        Totals               $2,525,761




162
2006 Annual Financial Report



Schedule, Part E DoD Intragovernmental Non-exchange Revenues
                                                               Treasury Index:   Transfers In      Transfers Out
($ Amounts in Thousands)
Air Force General Fund                                               57                      123
Other Defense Organizations General Funds                            97                   96,666
Other Defense Organizations Working Capital Funds                  97-4930                    38
Navy Working Capital Fund                                        97-4930.002             141,492              1,251
Totals might not match the Principal Statements                    Totals               $238,319             $1,251




                                                                                                                          163
                                                                                                           General Fund
      Department of the Navy




164
                                          Department of the Navy

                                        General Fund


                             2006
                       Other Accompanying Information




                                                                         General Fund Other Accompanying Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                   165
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      Department of the Navy



      Appropriations, Funds, and Accounts Included in the
      Principal Statements
      Entity Accounts
      General Funds
           17X0380      Coastal Defense Augmentation, Navy
           17 0703      Family Housing, Navy and Marine Corps
           17 0730      Family Housing Construction, Navy and Marine Corps
           17 0735      Family Housing Operation and Maintenance, Navy and Marine Corps
           17X0810      Environmental Restoration, Navy
           17 1000      Medicare Eligible Retiree Health Care Fund, Military Personnel Navy
           17 1001      Medicare Eligible Retiree Health Care Fund, Military Personnel Marine Corps
           17 1002      Medicare Eligible Retiree Health Care Fund, Reserve Personnel Navy
           17 1003      Medicare Eligible Retiree Health Care Fund, Reserve Personnel Marine Corps
           17 1105      Military Personnel, Marine Corps
           17 1106      Operation and Maintenance, Marine Corps
           17 1107      Operation and Maintenance, Marine Corps Reserve
           17 1108      Reserve Personnel, Marine Corps
           17 1109      Procurement, Marine Corps
           17 1205      Military Construction, Navy and Marine Corps
           17 1235      Military Construction, Naval Reserve
           17 1236      Payments to Kaho Olawe Island Conveyance, Remediation and Environmental
                        Restoration Fund, Navy
           17   1319    Research, Development, Test and Evaluation, Navy
           17   1405    Reserve Personnel, Navy
           17   1453    Military Personnel, Navy
           17   1506    AircraĞ Procurement, Navy
           17   1507    Weapons Procurement, Navy
           17   1508    Procurement of Ammunition, Navy and Marine Corps
           17   1611    Shipbuilding and Conversion
           17   1804    Operation and Maintenance, Navy
           17   1806    Operation and Maintenance, Navy Reserve
           17   1810    Other Procurement, Navy

      Revolving Funds
           17 4557      National Defense SealiĞ Fund, Navy

      Earmarked Trust Funds
           17X8716      Department of the Navy General GiĞ Fund
           17X8723      Ships Stores and Proﬁts, Navy
           17X8733      United States Naval Academy General GiĞ Fund

      Earmarked Special Funds
           17X5095      Wildlife Conservation, Military Reservations, Navy
           17X5185      Kaho Olawe Island Conveyance, Remediation and Environmental Restoration Fund,
                        Navy
           17X5429      Rossmoor Liquidating Trust SeĴlement Account
           17X5562      Ford Island Improvement Account




166
2006 Annual Financial Report



General Fund Non- Entity Accounts
      17 1XXX        Receipt Accounts
      17 3XXX        Receipt Accounts
      17X6XXX        Deposit Funds

Parent-Child (Allocation) Transfer Accounts
     17 47X0535 Embassy Security, Defense Relocation Program, State Department
     17 11 1081    International Military Education and Training Funds, appropriated to the President
     17 11X1081 International Military Education and Training Funds, appropriated to the President
     17 11 1082    Foreign Military Financing Program, Funds appropriated to the President
     17 12X1105B State and Private Forestry, Forest Service
     17 69X8083 Federal-Aid Highways (Liquidation of Contract Authorization), Federal Highway
                   Administration




                                                                                                           167
                                                                                            General Fund
      Department of the Navy




168
                                           Department of the Navy

                             Navy Working Capital Fund


                             2006 Principal Statements




                                                                          Navy Working Capital Fund Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                    169
2006 Annual Financial Report 2006 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been prepared
      to report the ﬁnancial position and results of
      operations of the entity, pursuant to the requirements
      of 31 U.S.C. 3515 (b). While the statements have been
      prepared from the books and records of the entity in
      accordance with GAAP for Federal entities and the
      formats prescribed by OMB, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




170
2006 Annual Financial Report




Principal Statements
The FY 2006 Navy Working Capital Fund Principal Statements and related notes are presented in the
format prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume
6B. The statements and related notes summarize ﬁnancial information for individual activity groups
and activities within the Navy Working Capital Fund for the ﬁscal year ending September 30, 2006, and
are presented on a comparative basis with information previously reported for the ﬁscal year ending
September 30, 2005.

The following statements comprise the Navy Working Capital Fund Principal Statements:

      •    Consolidated Balance Sheet

      •    Consolidated Statement of Net Cost

      •    Consolidated Statement of Changes in Net Position

      •    Combined Statement Budgetary Resources

      •    Combined Statement of Financing

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994.

The accompanying notes should be considered an integral part of the Principal Statements.




                                                                                                             171
                                                                                 Navy Working Capital Fund
                                                                                                         Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Consolidated     2005 Consolidated
         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                                      $           1,244,509 $             977,865
                Non-entity Seized Iraqi Cash                                                    0                     0
                Non-entity - Other                                                              0                     0
           Investments (Note 4)                                                                 0                     0
           Accounts Receivable (Note 5)                                                   444,251               494,499
           Other Assets (Note 6)                                                            1,941                   374
                Total Intragovernmental Assets                              $           1,690,701 $           1,472,738
          Cash and Other Monetary Assets (Note 7)                                               0                     0
          Accounts Receivable, net (Note 5)                                                69,356                29,686
          Loans Receivable (Note 8)                                                             0                     0
          Inventory and Related Property, net (Note 9)                                 13,806,149            15,610,774
          General Property, Plant and Equipment, net (Note 10)                          3,769,854             3,730,522
          Investments (Note 4)                                                                  0                     0
          Other Assets (Note 6)                                                           363,465               536,741
         TOTAL ASSETS                                                       $          19,699,525 $          21,380,461

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                                      $             143,723 $             199,606
            Debt (Note 13)                                                                173,224               381,518
            Other Liabilities (Note 15 & Note 16)                                         230,190               457,477
                 Total Intragovernmental Liabilities                        $             547,137 $           1,038,601
           Accounts Payable (Note 12)                                                   1,485,833             2,152,112
           Military Retirement and Other Federal Employment-                            1,185,039             1,192,551
             Related Actuarial Liabilities (Note 17)
           Environmental and Disposal Liabilities (Note 14)                                     0                     0
           Loan Guarantee Liability (Note 8)                                                    0                     0
           Other Liabilities (Note 15 and Note 16)                                      3,549,935             3,450,673
         TOTAL LIABILITIES                                                  $           6,767,944 $           7,833,937

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23)             $                   0 $                   0
          Unexpended Appropriations - Other Funds                                           2,896                 6,286
          Cumulative Results of Operations - Earmarked Funds                                    0                     0
          Cumulative Results of Operations - Other Funds                               12,928,685            13,540,238
         TOTAL NET POSITION                                                 $          12,931,581 $          13,546,524

         TOTAL LIABILITIES AND NET POSITION                                 $          19,699,525 $          21,380,461


         The accompanying notes are an integral part of these statements.




172
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Consolidated       2005 Consolidated
   Program Costs
      Gross Costs                                                     $            24,097,994 $            24,824,369
      (Less: Earned Revenue)                                                     (22,373,405)            (22,240,414)
      Net Costs                                                       $            1,724,589 $             2,583,955
   Costs Not Assigned to Programs                                                          0                       0
   (Less: Earned Revenue Not Attributable to Programs)                                     0                       0
   Net Cost of Operations                                             $            1,724,589 $             2,583,955




   The accompanying notes are an integral part of these statements.




                                                                                                                                  173
                                                                                                      Navy Working Capital Fund
                                                                                                           Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                        2006 Consolidated       2005 Consolidated

         CUMULATIVE RESULTS OF OPERATIONS
          Beginning Balances                                        $          13,540,239   $          16,021,873
          Prior period adjustments (+/-)
             Changes in accounting principles (+/-)                                     0                       0
             Correction of errors (+/-)                                                 0                       0
          Beginning balances, as adjusted                           $          13,540,239   $          16,021,873
          Budgetary Financing Sources:
           Appropriations received                                  $                   0 $                     0
           Appropriations transferred in/out (+/-)                                      0                       0
           Other adjustments (rescissions, etc) (+/-)                                   0                       0
           Appropriations used                                                    121,857                 287,964
           Nonexchange revenue                                                          0                       0
           Donations and forfeitures of cash and cash equivalents                       0                       0
           Transfers in/out without reimbursement (+/-)                           (46,097)                (84,615)
           Other budgetary financing sources (+/-)                                      0                       0
          Other Financing Sources:
           Donations and forfeitures of property                                        0                       0
           Transfers in/out without reimbursement (+/-)                           (89,398)                      0
           Imputed financing from costs absorbed by others                        559,297                 552,597
           Other (+/-)                                                            567,376                (653,626)
          Total Financing Sources                                   $           1,113,035 $               102,320
          Net Cost of Operations (+/-)                                          1,724,589               2,583,955
          Net Change                                                             (611,554)             (2,481,635)
          Ending Balances                                           $          12,928,685 $            13,540,238

         UNEXPENDED APPROPRIATIONS
          Beginning Balances                                        $               6,286   $                   0
          Prior Period Adjustments (+/-)
             Changes in accounting principles (+/-)                                     0                       0
             Correction of errors (+/-)                                                 0                       0
          Beginning balances, as adjusted                           $               6,286   $                   0
          Budgetary Financing Sources:
           Appropriations received                                  $             118,467 $               298,000
           Appropriations transferred-in/out (+/-)                                      0                  (3,750)
           Other adjustments (rescissions, etc) (+/-)                                   0                       0
           Appropriations used                                                   (121,857)               (287,964)
           Nonexchange revenue                                                          0                       0
           Donations and forfeitures of cash and cash equivalents                       0                       0
           Transfers-in/out without reimbursement (+/-)                                 0                       0
           Other budgetary financing sources (+/-)                                      0                       0
          Other Financing Sources:
           Donations and forfeitures of property                                        0                       0
           Transfers-in/out without reimbursement (+/-)                                 0                       0
           Imputed financing from costs absorbed by others                              0                       0
           Other (+/-)                                                                  0                       0
          Total Financing Sources                                   $              (3,390) $                6,286
          Net Cost of Operations (+/-)                                                  0                       0
          Net Change                                                               (3,390)                  6,286
          Ending Balances                                           $               2,896 $                 6,286




174
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Combined        2005 Combined
   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
     Unobligated balance, brought forward, October 1                  $         2,816,660 $          2,749,720
     Recoveries of prior year unpaid obligations                                        0                    0
     Budget Authority:
        Appropriations received                                                   118,467             298,000
        Borrowing authority                                                             0                   0
        Contract authority                                                      4,903,708             865,296
     Spending authority from offsetting collections:
        Earned
          Collected                                                            24,056,575           23,151,266
          Change in receivables from Federal sources                              108,975            (233,654)
        Change in unfilled customer orders
          Advances received                                                      (159,907)               8,239
          Without advance from Federal sources                                   (371,044)             249,981
        Anticipated for rest of year, without advances                                   0                   0
        Previously unavailable                                                           0                   0
        Expenditure Transfers from trust funds                                           0                   0
       Subtotal                                                       $         28,656,774 $        24,339,128
     Nonexpenditure Transfers, net, anticipated and actual                        (46,097)            (88,365)
     Temporarily not available pursuant to Public Law                                    0                   0
     Permanently not available                                                 (5,936,931)           (247,828)
     Total Budgetary Resources                                        $         25,490,406 $        26,752,655

   Status of Budgetary Resources:
     Obligations incurred:
        Direct                                                        $            39,985 $                  0
        Reimbursable                                                           22,902,470           23,935,997
        Subtotal                                                      $        22,942,455 $         23,935,997
     Unobligated balance:
        Apportioned                                                   $         2,796,842 $          2,768,052
        Exempt from apportionment                                               (441,211)            (143,714)
        Subtotal                                                                2,355,631            2,624,338
     Unobligated balances not available                                           192,320              192,321
     Total status of budgetary resources                              $        25,490,406 $         26,752,656




   The accompanying notes are an integral part of these statements.




                                                                                                                                  175
                                                                                                      Navy Working Capital Fund
                                                                                                             Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Combined        2005 Combined

         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Change in Obligated Balance:
          Obligated balance, net                                            $         12,667,320 $         11,860,610
             Unpaid obligations, brought forward, October 1                          (7,638,329)          (7,621,902)
             Less: Uncollected customer payments from
                Federal sources, brought forward, October 1                 $          5,028,991 $          4,238,708
             Total unpaid obligated balance                                 $         22,942,454 $         23,935,997
          Obligations incurred, net (+/-)                                           (23,497,266)         (23,129,285)
          Less: Gross outlays
          Obligated balance transferred, net                                                   0                   0
             Actual transfers, unpaid obligations (+/-)                                      (1)                   0
             Actual transfers, uncollected customer
                payments from Federal sources (+/-)                                          (1)                    0
             Total Unpaid obligated balance transferred, net                                   0                    0
          Less: Recoveries of prior year unpaid obligations, actual                     262,068              (16,325)
          Change in uncollected customer
             payments from Federal sources (+/-)
          Obligated balance, net, end of period                                       12,112,506           12,667,320
             Unpaid obligations                                                      (7,376,260)          (7,638,229)
             Less: Uncollected customer payments from
                Federal sources                                                       4,736,246            5,029,091
             Total Unpaid obligated balance, net, end of period

         Net Outlays:
          Net Outlays:                                                                23,497,266           23,129,285
             Gross Outlays                                                          (23,896,668)         (23,159,504)
             Less: Offsetting collections                                                      0                    0
             Less: Distributed Offsetting receipts                          $          (399,402) $           (30,221)
          Net Outlays




         The accompanying notes are an integral part of these statements.




176
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATED STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                                    2006 Consolidated       2005 Consolidated

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
     Obligations Incurred                                                       $            22,942,454 $            23,935,997
     Less: Spending authority from offsetting collections and recoveries (-)               (23,634,600)            (23,175,830)
     Obligations net of offsetting collections and recoveries                                 (692,146)                 760,167
     Less: Offsetting receipts (-)                                                                    0                       0
     Net obligations                                                                          (692,146)                 760,167
   Other Resources
     Donations and forfeitures of property                                                           0                       0
     Transfers in/out without reimbursement (+/-)                                             (89,397)                       0
     Imputed financing from costs absorbed by others                                           559,297                 552,597
     Other (+/-)                                                                               567,376               (653,626)
     Net other resources used to finance activities                                          1,037,276               (101,029)
     Total resources used to finance activities                                 $              345,130 $               659,138

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
      benefits ordered but not yet provided
        Undelivered orders (-)                                                  $            (113,368) $             (684,742)
        Unfilled Customer Orders                                                             (530,951)                 258,220
     Resources that fund expenses recognized in prior periods                                 (10,441)                       0
     Budgetary offsetting collections and receipts that do not affect Net
       Cost of Operations                                                                             0                       0
     Resources that finance the acquisition of assets                                       (3,154,696)             (4,342,345)
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund Receipts related to exchange in the
        entity's budget (-)                                                                          0                       0
        Other (+/-)                                                                          (477,979)                 653,626
     Total resources used to finance items not part of the Net
       Cost of Operations                                                       $           (4,287,435) $           (4,115,241)
     Total resources used to finance the Net Cost of Operations                 $           (3,942,305) $           (3,456,103)




   The accompanying notes are an integral part of these statements.




                                                                                                                                  177
                                                                                                      Navy Working Capital Fund
                                                                                                             Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATED STATEMENT OF FINANCING
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                  2006 Consolidated      2005 Consolidated

         Components of the Net Cost of Operations that will not Require
           or Generate Resources in the Current Period:
         Components Requiring or Generating Resources in Future Periods:
           Increase in annual leave liability                                 $                    0 $                    0
           Increase in environmental and disposal liability                                        0                      0
           Upward/Downward reestimates of credit subsidy expense                                   0                      0
           Increase in exchange revenue receivable from the public (-)                             0                      0
           Other (+/-)                                                                         2,928                 24,326
           Total components of Net Cost of Operations that will require or
             generate resources in future periods                             $                2,928 $               24,326

         Components not Requiring or Generating Resources:
           Depreciation and amortization                                      $              221,880 $              205,205
           Revaluation of assets and liabilities (+/-)                                     1,583,686              1,236,002
           Other (+/-)
               Trust Fund Exchange Revenue                                                         0                      0
               Cost of Goods Sold                                                          3,858,204              4,574,426
               Operating Material & Supplies Used                                                  0                      0
               Other                                                                             194                     99
           Total components of Net Cost of Operations that will not require
             or generate resources                                            $            5,663,964 $            6,015,732
           Total components of Net Cost of Operations that will
             not require or generate resources in the current period          $            5,666,892 $            6,040,058
           Net Cost of Operations                                             $            1,724,587 $            2,583,955




         The accompanying notes are an integral part of these statements.




178
                                             Department of the Navy

                             Navy Working Capital Fund


                              2006
                        Notes to the Principal Statements




                                                                            Navy Working Capital Fund Notes to the Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                      179
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                             Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of
      the Navy Working Capital Fund (NWCF), as required by the Chief Financial Oﬃcers (CFO) Act of 1990,
      expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The
      ﬁnancial statements have been prepared from the books and records of the NWCF in accordance with
      the Department of Defense (DoD) Financial Management Regulation, the Oﬃce of Management and
      Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the extent possible generally
      accepted accounting principles (GAAP). The accompanying ﬁnancial statements account for all resources
      for which the NWCF is responsible. Information relative to classiﬁed assets, programs, and operations is
      aggregated and reported in such a manner that it is not discernable.

      The NWCF is unable to fully implement all elements of GAAP and the OMB Circular A-136, due to
      limitations of its ﬁnancial management processes and systems and nonﬁnancial systems and processes
      that feed into the ﬁnancial statements. The NWCF derives its reported values and information for major
      asset and liability categories, largely from nonﬁnancial systems, such as inventory and logistic systems.
      These systems were designed to support reporting requirements for maintaining accountability over
      assets and reporting the status of Federal appropriations rather than preparing ﬁnancial statements
      in accordance with GAAP. The NWCF continues to implement processes and system improvements
      addressing these limitations many of which are detailed below. The NWCF currently has one auditor
      identiﬁed ﬁnancial statement weakness: valuation of inventory and operating materials and supplies.

      1.B.    Mission of the Reporting Entity
      The Department of the Navy was created on April 30, 1798 by an act of Congress (I Stat.533; 5 U.S.C. 411-
      12). The overall mission of the Department of the Navy (DON) is to maintain, train, and equip combat-
      ready Navy and Marine Corps forces capable of winning wars, deterring aggression and maintaining
      freedom of the seas. The NWCF provides goods, services, and infrastructure to DON and other DoD
      customers to help ensure our military forces are mobile, ready, and have the most advanced technology.

      The NWCF has prepared annual ﬁnancial statements pursuant to the CFO Act of 1990, as amended,
      for the past sixteen years. The Act requires that ﬁnancial statements be prepared and audited for each
      revolving fund and account that performed substantial commercial functions, such as those performed by
      the NWCF.

      1.C.    Appropriations and Funds
      The NWCF receives its appropriations and funds as working capital (revolving) funds. The NWCF uses
      these appropriations and funds to execute their missions and report on resource usage.

      Working capital funds (WCF) receive their initial funding through an appropriation or a transfer
      of resources from existing appropriations or funds and use those capital resources to ﬁnance the
      initial startup. The WCF entities provide goods and services on a reimbursable basis. Reimbursable
      receipts fund ongoing operations and generally are available in their entirety for use without further
      congressional action.

      1.D.    Basis of Accounting
      For FY 2006, the NWCF’s ﬁnancial management systems are unable to meet all of the requirements for
      full accrual accounting. Many of the NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes
      were designed and implemented prior to the issuance of GAAP for federal agencies. These systems were
      not designed to collect and record ﬁnancial information on the full accrual accounting basis as required
      by GAAP.

180
2006 Annual Financial Report



The Department has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and
nonﬁnancial feeder systems and processes into compliance with GAAP. One such action is the current
revision of its accounting systems to record transactions based on the United States Standard General
Ledger (USSGL). Until all of the NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes are
updated to collect and report ﬁnancial information as required by GAAP, the NWCF’s ﬁnancial data will
be based on transactions from nonﬁnancial feeder systems, and adjustments for known accruals of major
items such as payroll expenses and accounts payable.

In addition, the NWCF identiﬁes program costs based upon major business areas. Current processes and
systems do not capture and report accumulated costs for major programs based upon the performance
measures as required by the Government Performance and Results Act (GPRA). The NWCF is in the
process of reviewing available data and aĴempting to develop a cost reporting methodology that balances
the need for cost information required by the Statement of Federal Financial Accounting Standards
(SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with
the need to keep the ﬁnancial statements from being overly voluminous.

1.E.    Revenues and Other Financing Sources
Depot Maintenance and Ordnance WCF activities recognize revenue according to the percentage of
completion method for depot maintenance activities. Research and Development activities recognize
revenue according to the percentage of completion method or as actual costs are incurred and billed.
Supply Management WCF activities recognize revenue from the sale of inventory items and at the time
service is rendered for base support activities. The Transportation Activity, Military SealiĞ Command
(MSC) recognizes revenue on either a reimbursable or per diem basis. The preponderance of per diem
projects are billed and collected in the month services are rendered. In the case of reimbursables, some
per diems, and point-to-point voyages, the revenue is accrued in the month services are rendered and
collection is made the following month.

The NWCF does not include nonmonetary support provided by US allies for common defense and
mutual security in amounts reported in the Statement of Net Cost and the Statement of Financing. The
US has cost sharing agreements with other countries. Examples include countries where there is a mutual
or reciprocal defense agreement, where US troops are stationed, or where the US ﬂeet is in a port.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because the NWCF’s ﬁnancial and nonﬁnancial feeder systems were not designed
to collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments are
made for major items such as payroll expenses, accounts payable, and unbilled revenue. The NWCF’s
expenditures for capital and other long-term assets are recognized as operating expenses based on
depreciation. In the case of Operating Materials and Supplies (OM&S), operating expenses are generally
recognized when the items are purchased. Eﬀorts are underway to migrate towards the consumption
method for recognizing OM&S expenses.

1.G.    Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
entities within the DoD or between two or more federal agencies. However, the NWCF cannot accurately
identify most of its intragovernmental transactions by customer because the NWCF’s systems do not
track buyer and seller data needed to match related transactions. Seller entities within the DoD provided
summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side
internal DoD accounting oﬃces. In most cases, the buyer-side records are adjusted to agree with DoD
seller-side balances. Intra DoD intragovernmental balances are then eliminated. The NWCF properly
eliminates the revenue resulting from intra DoD sales of capitalized assets. The DoD is developing long-

                                                                                                                181
                                                                                    Navy Working Capital Fund
                                                                                              Department of the Navy



      term system improvements that will include suﬃcient up-front edits and controls to eliminate the need
      for aĞer-the-fact reconciliations. The volume of intragovernmental transactions is so large that aĞer-the-
      fact reconciliations cannot be accomplished eﬀectively with existing or foreseeable resources.

      The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating
      transactions between the DoD and other federal agencies. The Treasury Financial Manual, Part
      2 – Chapter 4700, “Agency Reporting Requirements for the Financial Report of the United States
      Government” and the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,”
      provide guidance for reporting and reconciling intragovernmental balances. While the NWCF is unable
      to fully reconcile intragovernmental transactions with all federal partners, the NWCF is able to reconcile
      balances pertaining to investments in federal securities, borrowings from the US Treasury and the Federal
      Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor
      (DOL), and beneﬁt program transactions with the Oﬃce of Personnel Management (OPM). The DoD’s
      proportionate share of public debt and related expenses to the federal government are not included.
      The federal government does not apportion debt and its related costs to federal agencies. The DoD’s
      ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
      statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have
      not been capitalized since the Department of the Treasury does not allocate such interest costs to the
      beneﬁting agencies.

      1.H.    Transactions with Foreign Governments and International
              Organizations
      Each year the NWCF sells defense articles and services to foreign governments and international
      organizations under the provisions of the Arms Export Control Act of 1976. Under the provisions of the
      Act, the DoD has authority to sell defense articles and services to foreign countries and international
      organizations generally at no proﬁt or loss to the US Government. Payment is required in advance.

      1.I.    Funds with the U.S. Treasury
      The NWCF’s monetary ﬁnancial resources are maintained in US Treasury accounts. The disbursing
      oﬃces of the Defense Finance and Accounting Service (DFAS), the Military Services, the US Army Corps
      of Engineers (USACE) and the Department of State’s ﬁnancial service centers process the majority of the
      NWCF’s cash collections, disbursements, and adjustments worldwide. Each disbursing station prepares
      monthly reports that provide information to the US Treasury on check issues, electronic fund transfers,
      interagency transfers, and deposits.

      In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the
      Treasury, by appropriation, on interagency transfers, collections received, and disbursements issued.
      The Department of the Treasury records this information to the applicable Fund Balance with Treasury
      (FBWT) account. Diﬀerences between the NWCF’s recorded balance in the FBWT accounts and Treasury’s
      FBWT accounts sometimes result and are subsequently reconciled.

      1.J.    Foreign Currency
      Not Applicable.

      1.K.    Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
      from other federal entities or from the public. Allowances for doubtful accounts due from the public are
      based upon analysis of collection experience by fund type. The DoD does not recognize an allowance for

182
2006 Annual Financial Report



estimated doubtful amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

The NWCF bases the estimate of doubtful accounts receivable from the public on a percentage of the total
that was billed aĞer the total project cost has been adjusted to reﬂect the advance deposit. The NWCF
requires an advance deposit from all public entities prior to the commencement of work. Therefore, an
assumption is made that the amount of doubtful accounts should be negligible.

1.L.    Direct Loans and Loan Guarantees
Not Applicable.

1.M.    Inventories and Related Property
Most of the NWCF’s inventories are currently reported at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used because
legacy inventory systems were designed for material management rather than accounting. Although
these systems provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce ﬁnancial transactions using the USSGL, as required by
the Federal Financial Management Improvement Act of 1996 (P.L. 104-208). By utilizing new system
development processes, the NWCF has transitioned, and is continuing to transition, the inventory
to the moving average cost method. By utilizing new systems development processes, the NWCF is
transitioning the inventory to the moving average cost method.

The NWCF manages only military or government speciﬁc material under normal conditions. Items
commonly used in and available from the commercial sector are not managed in the NWCF material
management activities. Operational cycles are irregular, and the military risks associated with stock-out
positions have no commercial parallel. The NWCF holds material based on military need and support for
contingencies. Therefore, the DoD does not aĴempt to account separately for “inventory held for sale”
and “inventory held in reserve for future sale” based on SFFAS No. 3 deﬁnitions.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held
for sale, are valued at standard purchase price. The DoD uses both the consumption method and
the purchase method of accounting for OM&S. Items that are centrally managed and stored, such as
ammunition and aircraĞ engines, are generally recorded using the consumption method and are reported
on the balance sheet as OM&S. When current systems cannot fully support the consumption method,
the NWCF uses the purchase method. Under this method, materials and supplies are expensed when
purchased. During FY 2006, the NWCF expensed signiﬁcant amounts using the purchase method
because the systems could not support the consumption method or management deemed that the item
was in the hands of the end user.

The NWCF determined that the recurring high dollar value of OM&S in need of repair is material to the
ﬁnancial statements and requires a separate reporting category. Many high dollar items, such as aircraĞ
engines, are categorized as OM&S rather than military equipment.

The NWCF recognizes condemned material as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned material is zero.
Potentially redistributed material, presented in previous years as “Excess, Obsolete, and Unserviceable,”
is included in the “Held for Use” or “Held for Repair” categories according to its condition.

Past audits identiﬁed uncertainties about completeness and existence of reported values of inventory.
Inventory available and purchased for resale includes consumable spare and repair parts and repairable
items owned and managed by the NWCF. This inventory is retained to support military or national
                                                                                                                 183
                                                                                     Navy Working Capital Fund
                                                                                            Department of the Navy



      contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable for
      sale. It is more economical to repair than to procure these inventory items. Because the NWCF oĞen
      relies on weapon systems and machinery no longer in production, the NWCF supports a process that
      encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a
      ready, mobile, and armed military force.

      Work in process balances include costs related to the production or servicing of items, including direct
      material, direct labor, applied overhead, and other direct costs. Work in process also includes the value
      of ﬁnished products or completed services pending the submission of bills to the customer. The work
      in process designation may also be used to accumulate the amount paid to a contractor under cost
      reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts
      paid to other government plants for accrued costs of end items of material ordered but not delivered.
      Work in process includes munitions in production and depot maintenance work with its associated labor,
      applied overhead, and supplies used in the delivery of maintenance services.

      1.N.    Investments in U.S. Treasury Securities
      Not Applicable.

      1.O.    General Property, Plant and Equipment
      The Department is moving away from a standard capitalization threshold for all categories (e.g. real
      property, military equipment, etc.) of General Property Plant and Equipment (PP&E) to one that is
      speciﬁc for each individual category. The capitalization threshold was revised from $100,000 to $20,000
      for real property. The DON has not implemented the $20,000 real property capitalization threshold yet
      pending an evaluation of real property systems, processes, and procedures that will have to be revised
      in order to implement the lowered threshold. Therefore, the $100,000 capitalization threshold remains
      unchanged for the remaining general PP&E categories.

      General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when
      an asset has a useful life of two or more years and the acquisition cost equals or exceeds the DoD
      capitalization threshold of $100,000. The DoD also requires capitalization of improvement costs over the
      DoD capitalization threshold of $100,000 for general PP&E. The DoD depreciates all general PP&E, other
      than land, on a straight-line basis.

      Prior to FY 1996, general PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and
      $50,000 for ﬁscal years 1993, 1994, and 1995, respectively, and an estimated useful life of two or more
      years. General PP&E previously capitalized at amounts below $100,000 were wriĴen oﬀ General Fund
      ﬁnancial statements in FY 1998. No adjustment was made for NWCF assets. These assets remain
      capitalized and reported on NWCF ﬁnancial statements.

      When it is in the best interest of the government, the NWCF provides government property to contractors
      to complete contract work. The NWCF either owns or leases such property, or it is purchased directly
      by the contractor for the government based on contract terms. When the value of contractor-procured
      general PP&E exceeds the DoD capitalization threshold, it must be reported on the NWCF Balance Sheet.

      The DoD is developing new policies and a contractor reporting process that will provide appropriate
      general PP&E information for future ﬁnancial statement reporting purposes. Accordingly, the NWCF
      reports only government property in the possession of contractors that is maintained in the NWCF’s
      property systems. The DoD has issued new property accountability and reporting requirements that
      require NWCF Components to maintain, in their property systems, information on all property furnished
      to contractors. This action and other DoD proposed actions are structured to capture and report the
      information necessary for compliance with Federal accounting standards.


184
2006 Annual Financial Report



The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
established generally accepted accounting principles for valuing and reporting military equipment
(e.g. ships, aircraĞ, combat vehicles, weapons) in federal ﬁnancial statements. The standard provides
for the use of estimated historical cost for valuing military equipment if obtaining actual historical cost
information is not practical. The Department estimated historical cost using the Bureau of Economic
Analysis (BEA) estimates to calculate the value of the military equipment for reporting periods from
October 1, 2002 through September 30, 2006.

Eﬀective 3rd Quarter, FY 2006, the Department replaced the BEA estimation methodology with military
equipment values based on internal Departmental records. The Department initially identiﬁed the
universe of military equipment by accumulating information relating to program funding and associated
military equipment, equipment useful life, program acquisitions and disposals to create baseline. The
military equipment baseline is updated using expenditure information, and information related to
acquisition and logistics to identify acquisitions and disposals.

1.P.    Advances and Prepayments
The NWCF records payments in advance of the receipt of goods and services as advances or prepayments
and reports them as assets on the Balance Sheet. The NWCF recognizes advances and prepayments as
expenses when it receives the related goods and services.

1.Q.    Leases
Lease payments for the rental of equipment and operating facilities are classiﬁed as either capital or
operating leases. When a lease is essentially equivalent to an installment purchase of property (a capital
lease), the NWCF records the applicable asset and liability if the value equals or exceeds the current
capitalization threshold. The NWCF records the amounts as the lesser of the present value of the rental
and other lease payments during the lease term (excluding portions representing executory costs paid to
the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease.
The NWCF as the lessee receives the use and possession of leased property, for example real estate or
equipment, from a lessor in exchange for a payment of funds. An operating lease does not substantially
transfer all the beneﬁts and risk of ownership. Payments for operating leases are charged to expense
over the lease term as it becomes payable.

Oﬃce space and leases entered into by the NWCF in support of contingency operations are the largest
component of operating leases. These costs were gathered from existing leases, General Service
Administration (GSA) bills, and Interservice Support Agreements. Future year projections use the
Consumer Price Index (CPI), rather than the DoD inﬂation factor. The CPI impacts increases to the
leases, especially those at commercial lease sites. Equipment leases have a variety of lease terms, which
are not expected to be renewed upon expiration. Other operating leases are generally one-year leases.
The NWCF expects to continue to reduce the level of owned assets while increasing the number of leased
assets. The NWCF will strive to displace commercial leases with more economical GSA leases.

1.R.    Other Assets
The NWCF conducts business with commercial contractors under two primary types of contracts: ﬁxed
price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term
contracts can cause, the NWCF provides ﬁnancing payments. One type of ﬁnancing payment that the
NWCF makes for real property is based upon a percentage of completion. In accordance with the SFFAS
No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated as construction in
process and are reported on the general PP&E line on the Balance Sheet and in the related note.

Other assets includes those assets, such as military and civil service employee pay advances, travel

                                                                                                                    185
                                                                                        Navy Working Capital Fund
                                                                                               Department of the Navy



      advances, and contract ﬁnancing payments, that are not reported elsewhere on the Department’s Balance
      Sheet.

      Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as
      authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the
      Government. These payments are designed to alleviate the potential ﬁnancial burden on contractors
      performing on certain long-term contracts and facilitate competition for defense contracts. Contract
      ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include
      advance payments, performance-based payments, commercial advance and interim payments, progress
      payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
      ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental
      payments, or progress payments based on a percentage or stage of completion, which the Defense
      Federal Acquisitions Regulations Supplement (DFARS) authorizes only for construction of real property,
      shipbuilding, and ship conversion, alteration, or repair. Progress payments for real property and ships
      are reported as Construction in Progress in Note 10.

      1.S.    Contingencies and Other Liabilities
      The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
      12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
      condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The
      uncertainty will be resolved when one or more future events occur or fail to occur. The NWCF recognizes
      contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the
      loss amount can be reasonably estimated.

      Financial statement reporting is limited to disclosure when conditions for liability recognition do not
      exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
      loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible
      claims and assessments. The NWCF’s loss contingencies arise as a result of pending or threatened
      litigation or claims and assessments occur due to events such as aircraĞ, ship and vehicle accidents,
      medical malpractice, property or environmental damages, and contract disputes.

      1.T.    Accrued Leave
      The NWCF reports as liabilities military leave and civilian earned leave except sick leave that has been
      accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported
      at the end of the accounting period reﬂects the current pay rates.

      1.U.    Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations.

      Unexpended Appropriations represent the amounts of authority that are unobligated and have not been
      rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
      liabilities for payments have not been incurred.

      Cumulative Results of Operations represent the net diﬀerence, since inception of an activity, between
      expenses and losses and ﬁnancing sources (including appropriations, revenue, and gains). Beginning
      with FY 1998, the cumulative results also include donations and transfer in and out of assets without
      reimbursement.

      1.V.    Treaties for Use of Foreign Bases
      The NWCF has the use of the land, building, and other overseas facilities that are obtained through
      various international treaties and agreements negotiated by the Department of State. The NWCF

186
2006 Annual Financial Report



purchases capital assets overseas with appropriated funds; however, the host country retains title to land
and improvements. Generally, treaty terms allow the NWCF continued use of these properties until the
treaties expire. In the event treaties or other agreements are terminated, whereby use of the foreign bases
is prohibited, losses are recorded for the value of any nonretrievable capital assets. This takes place aĞer
negotiations between the US and the host country have determined the amount to be paid the US for such
capital investments.

1.W.    Comparative Data
Financial statement ﬂuctuations greater than two percent of total assets on the Balance Sheet or ten
percent from the previous period presented are explained within the notes to the ﬁnancial statements.

1.X.    Unexpended Obligations
The NWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The
ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered.

1.Y.    Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the diﬀerence between disbursements and
collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
ﬁeld records as opposed to those reported by the US Treasury. These amounts should agree with the
undistributed amounts reported on the departmental accounting reports. In-transit payments are
those payments that have been made to other agencies or entities that have not been recorded in their
accounting records. These payments are applied to the entities’ outstanding accounts payable balance.
In-transit collections are those collections from other agencies or entities that have not been recorded in
the accounting records. These collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of federal and nonfederal accounts payable and accounts
receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
undistributed collections are recorded in other liabilities. The NWCF follows this procedure.




                                                                                                                   187
                                                                                       Navy Working Capital Fund
                                                                                            Department of the Navy



      Note 2.         Nonentity Assets
       As of September 30                                         2006                        2005
       (Amounts in thousands)

       1. Intragovernmental Assets
          A. Fund Balance with Treasury                $                         0    $                      0
          B. Accounts Receivable                                                 0                           0
          C. Total Intragovernmental Assets            $                         0    $                      0

       2. Nonfederal Assets
          A. Cash and Other Monetary Assets            $                         0    $                      0
          B. Accounts Receivable                                             2,822                       2,725
          C. Other Assets                                                        0                           0
          D. Total Nonfederal Assets                   $                     2,822    $                  2,725

       3. Total Nonentity Assets                       $                     2,822    $                   2,725

       4. Total Entity Assets                          $                 19,696,703   $              21,377,736


       5. Total Assets                                 $                 19,699,525   $              21,380,461


      6. Other Information Related to Nonentity Assets

      Fluctuations and Abnormalities
      There are no abnormalities to disclose and no ﬂuctuations equal to or greater than ten percent and/or two
      percent of total assets to explain for this reporting period.

      Deﬁnitions
      Nonentity accounts are assets that are held by Navy Working Capital Fund (NWCF), but not available for
      use in the operations of NWCF.

      Composition of Nonentity Assets
      The Nonentity Assets amount of $2.8 million represents interest, penalties, ﬁnes and administrative fees.
      These fees do not belong to NWCF and will be distributed directly to the Department of Treasury.




188
2006 Annual Financial Report



Note 3.            Fund Balance with Treasury
 As of September 30                                               2006                       2005
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                    $                   0       $                0
    B. Revolving Funds                                                   1,244,509                  977,865
    C. Trust Funds                                                               0                        0
    D. Special Funds                                                             0                        0
    E. Other Fund Types                                                          0                        0
    F. Total Fund Balances                                   $           1,244,509       $          977,865



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                             $           1,244,509       $          977,865
    B. Fund Balance per NWCF                                             1,244,509                  977,865

 3. Reconciling Amount                                       $                  0        $                 0


4. Explanation of Reconciliation Amount:

No reconciling amount to report this period.

5. Information Related to Fund Balance with Treasury:

Fluctuations and Abnormalities
Fund Balance with Treasury (FBWT) increased $266.6 million, 27%, in FY 2006. The majority of this
increase is aĴributed to Supply Management, Navy for the following reasons:
      •     An increase of $159.6 million in the recovery of costs of operations and the sale of material in
            excess of inventory replenishment throughout FY 2006. This is a result of the ﬁnancial lead
            time of the disbursements for inventory replenishments. For FY 2006 ending, replenishment
            orders were executed later in the ﬁscal year and the related cash disbursement had not been
            executed as compared to the previous ﬁscal year.

      •       A cash warrant was received in the amount of $83.1 million in 2nd Quarter, FY 2006.

Composition of Fund Balance with Treasury
The FBWT of $1.2 billion reﬂects the FY 2005 ending balance of $977.9 million plus current FY 2006
collections, disbursements, and other cash transactions recorded in the Navy Working Capital Fund
(NWCF) Treasury sub-limit 97X4930.002. The following table details the amounts recorded as of
September 30, 2006:

(Amounts in thousands)
Collections                                           $ 23,897,667
Disbursements                                        $ (23,497,266)
Other Cash Transactions, Net                           $ (132,756)


                                                                                                                   189
                                                                                       Navy Working Capital Fund
                                                                                             Department of the Navy



      The following table provides a breakout of other cash transactions, net:

      (Amounts in thousands)
       Business Activity                           Description                   Amount
      Base Support, Navy                           Public Law 109-62                  $70
      Depot Maintenance, Aviation                  Public Law 109-62                  $23
      Supply Management, Navy                      Public Law 109-62                 $243
      Component                                    Public Law 109-62                 $802
      Research and Development, Naval              Public Law 109-62               $2,765
       Research Lab
      Research and Development, Space and          Public Law 109-148            $(50,000)
       Naval Warfare Systems
      Supply Management, Navy                      Public Law 109-148             $83,067
      Base Support, Navy                           Public Law 109-234             $35,400
      Transportation (Military SealiĞ              Payment of Debt           $(205,126)
      Command)
        Total                                                                $(132,756)

      Other Disclosures Related to Fund Balance with Treasury
      As a part of the DON’s Financial Management Strategic Plan, the Oﬃce of the Assistant Secretary of the
      Navy (Financial Management and Comptroller) competitively engaged an accounting ﬁrm to conduct
      a review of NWCF cash management practices and make recommendations for improvement. The
      review identiﬁed NWCF cash management challenges and inconsistencies from not applying the same
      policies and procedures throughout the NWCF for reconciling cash. Opportunities were also identiﬁed
      to assist activities in reducing the rework required to resolve unmatched disbursements and unmatched
      collections, which distort cash balances.

      One of the primary outcomes of this review is insight into how to level cash balances throughout the
      ﬁscal year so as to eliminate the second quarter downward spiral and fourth quarter upward spiral,
      which create extreme spikes in the cash balance. Short and long-term tasks were identiﬁed to improve
      the timeliness of cash reporting. An evaluation of the risk of maintaining separate vice consolidated
      NWCF cash balances determined that consolidated balances avoid increases to the total cash requirement.
      This ﬁnding supports implementation of the Department of Defense (DoD) Management Initiative
      Decision 903. The team also made recommendations to improve the Department’s Quick Ratio measure
      assessed quarterly by DoD.

      The focus during FY 2007 will be the initial deployment of cash forecasting and cash reconciliation
      processes across NWCF activities. Furthermore, cash will be baselined via the write-oﬀ of historical
      unsupported undistributed values, and via the rebalancing of activity cash levels. Preliminary
      identiﬁcation of cash related competencies will be made, and initial training will be developed for the
      workforce.




190
2006 Annual Financial Report



Status of Fund Balance with Treasury
 As of September 30                                              2006                         2005
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                       $                2,355,631   $                2,624,338
    B. Unavailable                                                        192,321                      192,321

 2. Obligated Balance not yet Disbursed                $             12,112,507     $             12,667,320

 3. Nonbudgetary FBWT                                  $                       0    $                       0

 4. NonFBWT Budgetary Accounts                         $            (13,415,951)    $           (14,535,420)

 5. Total                                              $                1,244,508   $                 948,559


6. Information Related to Status of Fund Balance with Treasury:

Fluctuations and Abnormalities
Total Status of Fund Balance with Treasury (FWBT) increased $295.9 million, 31%, in FY 2006. The
majority of this increase is aĴributed to Supply Management, Navy for the following reasons:

      •     An increase of $159.6 million in the recovery of costs of operations and the sale of material in
            excess of inventory replenishment throughout FY 2006. This is a result of the ﬁnancial lead
            time of the disbursements for inventory replenishments.

      •     A cash warrant was received in the amount of $83.1 million in 2nd Quarter, FY 2006.

There was an overall NWCF diﬀerence between total Status of FWBT for FY 2005 and FWBT for FY 2005
of $29.3 million. This diﬀerence was researched and analyzed by NWCF and DFAS during the 3rd and
4th quarters in FY 2006 and has been resolved. These diﬀerences resulted from various system problems
throughout the history of the NWCF and have been resolved as they have been identiﬁed.

Deﬁnitions
The Status of FWBT consists of unobligated and obligated balances. These balances reﬂect the budgetary
authority remaining for disbursements against current or future obligations. In addition, the status
includes various accounts that aﬀect either budgetary reporting or fund balance with treasury, but not
both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
aside to cover outstanding obligations. Unobligated balance is classiﬁed as available or unavailable and
is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
adjustments until the account is closed.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods not yet received
or services not yet performed.

Non-Budgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary
authority, such as unavailable receipt accounts or clearing accounts.


                                                                                                                    191
                                                                                        Navy Working Capital Fund
                                                                                               Department of the Navy



      Non-FBWT Budgetary Accounts include budgetary accounts that do not aﬀect FBWT, such as contract
      authority, borrowing authority and investment accounts. This category reduces the status of FBWT.

      Disclosure of Restrictions
      Certain unobligated unavailable balances may be restricted to future use and are not apportioned for
      current use.

      Diﬀerences Between the Status of FWBT and the Total of the Fund Balance with Treasury
      The NWCF does not report a diﬀerence between Status of Fund Balance with Treasury and the Total of
      the FWBT at the overall NWCF level. However, there are diﬀerences internal to the NWCF at the major
      command levels. These diﬀerences are a result of various system issues and the internal weakness of
      the NWCF of creating budgetary accounts from the proprietary accounts. The NWCF and DFAS are
      researching these internal command level diﬀerences and plan to correct during
      FY 2007.


      Disclosures Related to Suspense/Budget Clearing Accounts
      The NWCF Suspense/Budget Clearing Accounts are being reported under DON General Funds, Index 17.


      Disclosures Related to Problem Disbursements and In-Transit
      Disbursements
                                                                                                 (Decrease)/
       As of September 30                  2004           2005                2006            Increase from FY
                                                                                                2005 to 2006
       (Amounts in thousands)

      1. Total Problem
         Disbursements, Absolute
         Value
         A. Unmatched
            Disbursements (UMDs)       $    126,000      $       67,703   $          50,181         $     (17,522)
         B. Negative Unliquidated
            Obligations (NULO)                    0                  0                  14                       14

      2. Total In-transit
         Disbursements, Net            $          0      $   (29,618)     $     (56,516)            $     (26,898)

      3. Information Related to Disclosures Related to Problem Disbursements and In-Transit
         Disbursements

      Abnormalities and Fluctuations
      UMDs decreased $17.5 million, 26%, in FY 2006. This decrease is a direct result of an ongoing initiative
      to clean up aged UMDs. In order to comply with Under Secretary of Defense, (Comptroller)’s (OUSD(C))
      direction to eliminate DON’s UMDs over 120 days old by June 30, 2006, an initiative began during 4th
      Quarter, FY 2005, which increased coordination between DFAS and NWCF activities concerning the
      reduction of UMDs. As part of this initiative, DFAS and NWCF activities performed root cause analysis
      that discovered several system and process weaknesses. Some examples of these weaknesses and related
      corrections of UMDs are:
192
2006 Annual Financial Report



      •    Several diﬀerent root causes have been identiﬁed throughout FY 2006. These include the need
           for strict system edits for processing material bills and accounts payable not being established
           correctly in Mechanization of Contract Administration System . Additionally, another root
           cause was incorrect data elements on data entry and system timing issues. DON and DFAS
           have implemented several changes to working capital fund accounting systems to prevent
           UMDs. DFAS and DON activities have manually cleared the aged UMDs as these system
           weaknesses were identiﬁed.

      •    The Transportation Activity, Military SealiĞ Command identiﬁed incorrectly charged
           transactions due to a system weakness in the Visual Interfund System Transaction
           Accountability. The deﬁciencies in the system were corrected by the end of 4th Quarter, FY
           2005. DON and DFAS manually cleared the aged UMDs that were a result of this weakness
           in the 1st Quarter, FY 2006 and the system correction has prevented future UMDs from
           occurring.

NULOs increased $14.0 thousand, 100%, in FY 2006. The breakdown of this information was not
identiﬁable and reported in previous years. The DON submiĴed a plan of action and milestones in
March 2006 to the OUSD(C) that describes how DON will resolve this reporting issue. The DON and
DFAS have incorporated all NULOs as part of the UMD corrective action plan.

Total In-transit Disbursements, Net decreased $26.9 million, 91% in FY 2006. The breakdown of this
information was reported but not identiﬁable in detail in the previous year. These amounts are due to
disbursements and collections made by a Department of Defense (DoD) disbursing activity and have
not yet been posted to the accounting system. DFAS and NWCF activities are working together to align
system process schedules that minimize the amount of these transactions each month.

The NWCF does not report problem disbursements related to Foreign Military Sales (FMS). These
problem disbursements are reported by DFAS Denver, FMS Branch.

A portion of the amounts reported on the metric furnished by DFAS Arlington is not supported by NWCF
accounting systems. These discrepancies exist within DFAS Columbus reports. Therefore, discrepancies
of $527 thousand in UMDs, $12 thousand in NULOs, and $14.8 million in in-transit disbursements exist
for this reporting period.

Deﬁnitions
An UMD occurs when a payment is not matched to a corresponding obligation in the accounting system.
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign
(plus or minus).

A NULO occurs when a payment is made against a valid obligation, but the payment is greater than the
amount of the obligation recorded in the oﬃcial accounting system. These payments have been made
using available funds and are based on valid receiving reports for goods and services delivered under
valid contracts.

In-transit disbursements represent the net value of disbursements and collections made by a DoD
disbursing activity on behalf of an accountable activity and have not yet been posted to the accounting
system.




                                                                                                                 193
                                                                                     Navy Working Capital Fund
                                                                                                  Department of the Navy



      Note 4.           Investments and Related Interest
      Not Applicable.


      Note 5.           Accounts Receivable
                                                                2006                                      2005

       As of September 30                                   Allowance For
                                   Gross Amount                                   Accounts           Accounts
                                                             Estimated
                                        Due                                    Receivable, Net    Receivable, Net
                                                            Uncollectibles
       (Amounts in thousands)
       1. Intragovernmental
          Receivables              $        444,251                    N/A      $       444,251       $     494,499
       2. Nonfederal
          Receivables (From
          the Public)              $         69,383     $               (27)    $        69,356       $       29,686

       3. Total Accounts
          Receivable               $        513,634     $               (27)    $       513,607       $     524,185


      4.   Other Information Related to Accounts Receivable:

      Fluctuations and Abnormalities
      Intragovernmental Accounts Receivable decreased $50.2 million, 10%, in FY 2006. The primary drivers
      aĴributing to this decrease are described below:

       (Amounts in thousands)
       Business Activity        Increases   Decreases        Explanations
       Base Support, Public                 32,603           This reduction is a direct result of ongoing eﬀorts
       Works Centers                                         throughout FY 2006 by both the Department of the
                                                             Navy (DON) and Defense Finance and Accounting
                                                             Service (DFAS) to dedicate resources to review
                                                             and analyze the aged abnormal unsupported
                                                             undistributed values. As a result of this review
                                                             and analysis, balances related to aged unsupported
                                                             undistributed collections have been identiﬁed and
                                                             cleared, thus reducing accounts receivable balances.
       Research and                         10,670           A Daily Expenditure File (DEF) liquidating
       Development, Naval                                    receivables for September 2005 business was not
       Surface Warfare                                       received and posted until October 2005. A timelier
       Center                                                posting of DEF ﬁles occurred in September 2006,
                                                             thus reducing accounts receivable. Additional
                                                             decreases are a result of ongoing eﬀorts to validate
                                                             and reduce accounts receivables through research
                                                             and analysis by DON and DFAS.
       Totals                               $43,273



194
2006 Annual Financial Report



Nonfederal accounts receivable increased $39.7 million, 134%, during FY 2006. The primary drivers
aĴributing to this increase are described below:

(Amounts in thousands)
Business Activity              Increases   Decreases   Explanations
Supply Management,             42,955                  The increase is primarily the result of the
Navy                                                   liquidation of Stabilized Unsupported
                                                       Undistributed. This adjustment is a one time
                                                       event that received Oﬃce of Under Secretary of
                                                       Defense (Comptroller) (OUSD(C)) approval in
                                                       September 2006 that was in accordance with new
                                                       guidance provided by OUSD(C) of July 31, 2006.
Base Support, Public                       7,928       This reduction is a direct result of ongoing eﬀorts
Works Centers                                          throughout FY 2006 by both Navy Working
                                                       Capital Fund (NWCF) and DFAS to dedicate
                                                       resources to review and analyze the aged
                                                       abnormal unsupported undistributed values.
                                                       As a result of this review and analysis, balances
                                                       related to aged unsupported undistributed
                                                       collections have been identiﬁed and cleared, thus
                                                       reducing accounts receivable balances.
Totals                         $42,955     $7,928




                                                                                                                 195
                                                                                     Navy Working Capital Fund
                                                                                               Department of the Navy



      Aged Accounts Receivable
                                                 2006                                   2005
      As of September 30
                                  Intragovernmental     Nonfederal      Intragovernmental        Nonfederal
      (Amounts in thousands)
      CATEGORY
      Nondelinquent
          Current                 $           699,170   $     40,407        $      751,493      $         45,374
          Noncurrent                                0              0                    29                 8,072
      Delinquent
          1 to 30 days            $             2,765   $      2,419        $       18,570      $            100
          31 to 60 days                         1,220          3,792                 1,379                 1,269
          61 to 90 days                         3,095            953                   406                 2,450
          91 to 180 days                        2,118          2,135                 5,180                 4,656
          181 days to 1 year                      470          2,031                 1,553                 2,866
          Greater than 1 year
          and less than or
          equal to 2 years                        699          3,262                 6,769                 3,047
          Greater than 2 years
          and less than or
          equal to 6 years                          3          2,410                   405                 2,472
          Greater than 6 years
          and less than or
          equal to 10 years                         0          1,845                    55                 1,452
          Greater than 10
          years                                     0          4,597                     0                 4,847
      Subtotal                    $           709,540   $     63,851        $      785,839      $         76,605
         Less Supported
         Undistributed
         Collections                        (148,182)         (8,724)             (310,557)              (9,185)
         Less Eliminations                  (106,136)               0              (80,817)                    0
         Less Other                          (10,971)         14,256                100,036             (37,733)
      Total                       $           444,251   $     69,383        $      494,499      $         29,686


      Information Related to Aged Accounts Receivable
      The NWCF systems do not age accounts receivable, but rather it is a manual process to generate
      the aging reports. Though the total accounts receivable amount is correct, there is the possibility of
      misrepresentation of an amount for a particular aging category. The NWCF is working on a systems
      solution that should be achieved during FY 2007.

      The Other line referenced in the chart above for intragovernmental receivables in the amount of $11.0
      million and nonfederal receivables in the amount of $14.3 million consists of:

              •   For intragovernmental and nonfederal receivables there is $10.2 million reﬂected as a
                  reclassiﬁcation for Foreign Military Sales (FMS) from intragovernmental to public as required
                  per the change in Department of Defense Financial Management Regulation, Volume 15,
                  Chapter 3. The NWCF is unable to properly categorize all FMS sales due to varying methods
196
2006 Annual Financial Report



           for compiling the data. Therefore, some FMS sales appear diﬀerently on the Monthly
           Receivables Report (MRR) than is reported on the Seller Elimination Report (SER). The aging
           information in this footnote is produced from the MRR; the general ledger account reﬂects
           information in the SER. Therefore this adjustment is required in order to balance the two
           areas.

      •    The remaining $732 thousand and $4.0 million in intragovernmental and nonfederal
           receivables respectively, is reﬂected as manual adjustments for diﬀerences between the SER
           and the Accounts Receivable Single Source Submission Report (ARSSR). The ARSSR is the
           report used to create the MRR. The aging information in this footnote is produced from the
           MRR; the general ledger account reﬂects information in the SER. Therefore, this adjustment is
           required in order to balance.

The top portion of this chart is derived from MRR, which is manually maintained by DFAS and NWCF
activities. The boĴom portion of this chart is derived from the accounting adjustments required in the
preparation of the ﬁnancial statements. In order to prepare this chart, NWCF must make adjustments to
the “other” line on this chart in order to reconcile the two portions. The DFAS is working with the ﬁeld
sites to eliminate the diﬀerences between these two areas.

The eliminations line in this chart reﬂects the amount of internal NWCF eliminations as reported in the
ﬁnancial statements. The $106 million represents the amounts aĴributable to other NWCF activities.

NonDelinquent Aged Accounts Receivable
The NWCF does not report any nondelinquent noncurrent accounts receivable.

Delinquent Aged Accounts Receivable
Delinquent Intragovernmental and Nonfederal Receviables over 30 days old totaled $10.4 and $23.4
million respectfully in 4th Quarter, FY 2006.

There are various reasons for the existence of intragovernmental and nonfederal receivables greater than
30 days old. Some of these reasons include, but are not limited to:

      •    Standard Accounting and Reporting System (STARS) rejects that are being researched by
           DFAS. When errors occur that result in STARS rejects, additional time is needed to resolve
           the error, thus resulting in a longer period before the receivable is liquidated. Eﬀorts are
           underway at all Commands to team with DFAS in clearing existing rejects and implementing
           business rules/processes that will reduce or eliminate these rejects in the future.

      •    Reimbursable bills processed in Centralized Expenditure Reimbursable Processing System as
           of September 28, 2006 did not post to Activities’ ledger prior to year-end closing.

      •    Transactions contain non-standard lines of accounting that do not pass system edits, resulting
           in errors that take additional time to research and correct.

The DON is taking corrective actions to eliminate the existence of intragovernmental and nonfederal
receivables older than 30 days. Some of these corrective actions include, but are not limited to:

      •    The NWCF and DFAS are working together to ensure timely collection/resolution of
           delinquent receivables, as well as timely submission of receivables to debt collection in
           accordance with guidance. The DON is also expecting to develop and implement instructions
           on the use of the Delinquent Aged Accounts Receivable Report to resolve receivables.




                                                                                                               197
                                                                                   Navy Working Capital Fund
                                                                                             Department of the Navy



            •    NWCF Commands are actively monitoring and establishing business rules and processes that
                 ensure that receivables are liquidated in a timely manner. NWCF Commands are also teaming
                 with local nonﬁnancial personnel to reduce the number of errors that arise from nonﬁnancial
                 feeder systems.

            •    DFAS is seĴing up a Government Receivables Debt Collection Oﬃce to act as a liaison
                 between government agencies, ensuring timely collection of government receivables.


      Note 6.         Other Assets
      As of September 30                                             2006                       2005
      (Amounts in thousands)

      1. Intragovernmental Other Assets
         A. Advances and Prepayments                        $                 1,941     $                  374
         B. Other Assets                                                          0                          0
         C. Total Intragovernmental Other Assets            $                 1,941     $                  374

      2. Nonfederal Other Assets
         A. Outstanding Contract Financing Payments         $                27,898     $                    0
         B. Other Assets (With the Public)                                  335,567                    536,741
         C. Total Nonfederal Other Assets                   $               363,465     $              536,741



      3. Total Other Assets                                 $               365,406     $              537,115


      4. Information Related to Other Assets:

      Fluctuations and Abnormalities
      Intragovernmental Other Assets, Advances and Prepayments increased $1.6 million, 418% in FY 2006.
      This increase is the result of buyer side trading partner adjustments for Advances to Others that exceeded
      the value of similar adjustments made in FY 2005. The trading partner contributing the largest amount
      to this adjustment is the Defense Logistics Agency (DLA). It was discovered in September 2006 that
      inconsistent business processes between DLA and Navy Working Capital Fund (NWCF) caused this
      adjustment. The DLA, as per their business processes, is recording transactions as advances; however,
      NWCF, per their business processes, is recording the transactions as expenses. The NWCF, Defense
      Finance and Accounting Service (DFAS), and DLA are working together to resolve these issues during 1st
      Quarter, FY 2007.

      Nonfederal Other Assets, Outstanding Contract Financing Payments increased $27.9 million, 100%, in FY
      2006. The balance of this line is the estimated future funded payments that will be paid to the contractor
      upon future delivery and Government acceptance of a satisfactory product. This amount is a direct
      result of a manual Journal Voucher directed by the Oﬃce of Under Secretary of Defense (Comptroller)
      (OUSD(C)) to satisfy the Department of the Defense, Inspector General (DoDIG) Audit “Financial
      Management: Report on Recording and Accounting for DoD Contract Financing Payment,” of May
      10, 2005. The data that was provided to determine the amount of the manual entry was derived from
      OUSD(C) query of the Mechanization of Contract Administration System (MOCAS) data. The NWCF
      compared the MOCAS query data to NWCF account data, but was unable to reconcile with the MOCAS
      query data. Therefore, NWCF is unable to substantiate the balance on this line for 4th Quarter, FY 2006.

198
2006 Annual Financial Report



Nonfederal Other Assets, Other Assets (With the Public) decreased $201.2 million, 37%, in FY 2006. The
drivers aĴributing to this decrease are described below:

Business Activity         Increases    Decreases      Explanations
Transportation                         204,898        The decrease is aĴributable to the purchase of
Activity, Military                                    three ships under the Aﬂoat Prepositioning
SealiĞ Command                                        Force Program and the payments applied in
                                                      January and July 2006 to the Federal Financing
                                                      Bank (FFB).
Supply Management,        12,274                      The increase is a result of increased progress
Navy                                                  payments made to contractors in support of
                                                      aviation weapon systems (for example, the FA-
                                                      18 Hornet, E-2/C-2 Hawkeye, and P3 Orion) in
                                                      4th Quarter, FY 2006.
Totals                    $12,274       $204,898

Composition of Other Assets (With the Public)
Other Assets (With the Public) includes balances related to outstanding debt principal, prepayments
made to vendors, and travel advances.


Note 7.           Cash and Other Monetary Assets
Not Applicable.


Note 8.           Direct Loan and/or Loan Guarantee Programs
Not Applicable


Note 9.           Inventory and Related Property
 As of September 30                                        2006                          2005
 (Amounts in thousands)

 1. Inventory, Net                               $                13,378,039     $              14,888,574
 2. Operating Materials & Supplies, Net                              428,110                       722,200
 3. Stockpile Materials, Net                                               0                             0

 4. Total                                        $                13,806,149     $              15,610,774


Fluctuations and Abnormalities
Total Inventory and Related Property decreased $1.8 billion, 12%, in FY 2006. The majority of this
decrease is aĴributable to Inventory, Net. The decrease is described in the following sections.




                                                                                                                 199
                                                                                     Navy Working Capital Fund
                                                                                               Department of the Navy



      Inventory, Net
                                                     2006                                2005
      As of September 30         Inventory,       Revaluation        Inventory,       Inventory,     Valuation
                                Gross Value       Allowance             Net              Net          Method
      (Amounts in thousands)

      1. Inventory
         A. Available and
            Purchased for
            Resale               $   24,236,931   $   (24,541,675)    (304,744)   $     1,918,988   LAC,MAC
         B. Held for Repair          11,429,158          1,859,138   13,288,296        12,558,056   LAC,MAC
         C. Excess, Obsolete,
            and
            Unserviceable             1,161,329        (1,161,329)            0                 0     NRV
         D. Raw Materials                     0                  0            0                 0   MAC,SP,LA
         E. Work in Process             394,487                  0      394,487           411,530     AC

          F. Total               $   37,221,905   $   (23,843,866)   13,378,039   $    14,888,574


      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
      NRV = Net Realizable Value
      SP = Standard Price
      O = Other
      AC = Actual Cost
      MAC = Moving Average Cost

      2. Information Related to Inventory, Net:

      Fluctuations and Abnormalities
      Total Inventory, Net decreased by $1.5 billion, 10%, in FY 2006. The primary driver of this decrease is
      aĴributed to Supply Management, Navy’s (NAVSUP) normal business practice of disposing of obsolete
      weapon systems and inventory that is beyond economic repair or above required retention level. A
      portion of these disposals, which began in the 3rd Quarter, FY 2006 is due to the retirement of an aircraĞ
      program (F-14). The Navy Working Capital Fund (NWCF) anticipates additional disposal due to the
      retirement of the F-14 aircraĞ though FY 2007 and estimates completion of these disposals early in FY
      2008.

      Restrictions on Inventory Use, Sale, or Disposition
      Generally, there are no restrictions with regard to the use, sale, or disposition to applicable Department of
      Defense (DoD) activities and personnel. Other than certain safety and war reserve levels, inventory may
      be sold to foreign, state and local governments, private parties and contractors in accordance with DoD
      and the Department of the Navy (DON) policies and guidance or at the direction of the President.

      There are no restrictions on disposition of inventory as related to environmental or other liabilities. Any
      disposal of inventory is accomplished in accordance with current disposal regulations that allow for the
      disposal of materials with environmental concerns.

      Composition of Inventory
      Except for the Work in Process, all inventory categories shown in the table above apply to the Supply
      Management Activities only.

200
2006 Annual Financial Report



Inventory Categories
Inventory represents property that is (1) held for sale, (2) in the process of production for sale or (3)
to be consumed in the production of goods for sale or in the provision of services for a fee. Inventory
Available and Purchased for Resale includes consumable spare and repair parts and repairable items
owned and managed by the DON. In some cases, the consumable and repairable items are managed by
other Military Services, the Defense Logistics Agency, or the General Services Administration. Material
available and purchased for resale includes material held due to a managerial determination that it
should be retained to support military or national contingencies. Federal Accounting Standards requires
disclosure of the amount of Inventory Held for “Future Sale.” The Navy Working Capital Fund currently
has no inventory held for future sale reported for FY 2006 in Inventory Held for Sale, Net. All inventory
is currently planned for sale next ﬁscal year. There is no management or valuation diﬀerence between the
two categories.

Inventory Held for Repair is inventory that requires repair to make it suitable for sale. Many of the
inventory items are more economical to repair than to procure. In addition, because the DON oĞen relies
on weapon systems and machinery no longer in production, the DON supports a process that encourages
the repair and rebuilding of certain items. This repair cycle is an essential part of maintaining a ready,
mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be
economically repaired and are awaiting disposal. The NWCF does not anticipate recovering any
signiﬁcant costs as a result of ﬁnal disposal of these items. Therefore, excess, obsolete, and unserviceable
inventory has a net realizable value of zero.

Work in process balance includes costs related to the production or servicing of items, including direct
material, direct labor, applied overhead and other direct costs. Work in process also includes the
value of ﬁnished products or completed services pending billing to the customer. The work in process
designation may also be used to accumulate the amount paid to a contractor under cost reimbursable
contracts, including the amount withheld from payment to ensure performance, and the amount paid to
other Government plants for accrued costs of end items of material ordered but not delivered.

Decision Criteria for Identifying the Category to which Inventory is Assigned
In order to standardize reporting of the categories held for use; held for repair; and excess, obsolete,
unserviceable, DON implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition code
crosswalk as deﬁned in the memorandum “accounting for excess, unserviceable, and obsolete inventory
and operating materials and supplies,” of August 12, 2002. In addition, the condition code crosswalk was
amended to include code “V” in the excess, obsolete, unserviceable category in September 2002.

Inventory Category                       Condition Code
Available and Purchased for Resale       A, B, C, D
Held for Repair                          E, F, G, J, K, L, M, N, R
Excess, Obsolete, Unserviceable          P, H, S, V

Other Disclosures Related to Inventory
The general ledger values in the accounting system do not reconcile with the supporting detail record in
NAVSUP logistics system. NAVSUP has determined that program changes must be made to the Material
Financial Control System (MFCS) to correct systemic posting problems, which contribute to a reconciling
diﬀerence between the systems. Twenty-four reconciliation System Change Requests (SCR) for Phase
Two have been implemented at the NAVSUP ﬁeld activity. The NAVSUP is working with the ﬁeld
activity to determine journal voucher accounts and values. Once that is completed, the journal vouchers
will be submiĴed to the Oﬃce of Financial Operations (FMO) and the Defense Finance and Accounting

                                                                                                                  201
                                                                                      Navy Working Capital Fund
                                                                                             Department of the Navy



      Service (DFAS). Once the journal vouchers and the adjustments posting logic SCR are approved, funded,
      and developed, the ﬁnal adjustments will be made to inventory and ﬁnancial systems to align data.
      Adjustments are planned to occur during FY 2007.

      The NAVSUP inventory is currently being reported at an approximation of historical cost using the
      latest acquisition cost adjusted for holding gains and losses. The latest acquisition cost method is used
      because legacy inventory systems were designed to capture material management information rather
      than accounting data. Although these systems provide visibility and accountability over inventory
      items, they do not maintain historical cost data necessary to comply with the Statement of Federal
      Financial Accounting Systems (SFFAS) No. 3, “Accounting for Inventory and Related Property.” Since the
      implementation of the Oﬃce of Under Secretary of Defense Comptroller (OUSD(C)) Inventory Valuation
      and Cost of Goods Sold (COGS) Model, prior year values in Equity, Inventory, and Inventory Allowance
      accounts have been impacted and remain noncompliant with SFFAS No. 3 and Generally Accepted
      Accounting Practices (GAAP). The Navy ERP will value inventory at moving average cost and will be
      compliant with necessary guidance.


      Operating Materials and Supplies, Net
                                                         2006                         2005
      As of September 30             OM&S            Revaluation                                   Valuation
                                                                    OM&S, Net     OM&S, Net
                                   Gross Value       Allowance                                      Method
      (Amounts in thousands)

      1. OM&S Categories
         A. Held for Use          $      428,110     $          0   $   428,110   $    722,200     SP, LAC
         B. Held for Repair                    0                0             0              0     SP, LAC
         C. Excess, Obsolete,
            and Unserviceable                    0              0            0               0       NRV

         D. Total                 $      428,110     $          0   $   428,110   $    722,200




      Legend for Valuation Methods:
      Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
      NRV = Net Realizable Value
      SP = Standard Price
      O = Other
      AC = Actual Cost

      2. Information Related to Operating Materials and Supplies (OM&S), Net:

      Fluctuations and Abnormalities
      Total Operating Materials and Supplies, Net decreased $294 million, 41%, in FY 2006. The primary
      drivers aĴributing to this decrease are described below:




202
2006 Annual Financial Report




(Amounts in thousands)
Business Activity          Increases        Decreases        Explanations
Depot Maintenance,                          314,663          The primary reason for this decrease is
Aviation                                                     due to a transfer of inventory to NAVSUP
                                                             in June 2006. This decrease is an eﬀort to
                                                             improve supply chain management by
                                                             leveraging NAVSUP eﬃciencies for inventory
                                                             management and replenishment.
Depot Maintenance,         30,625                            The majority of the increase took place in
Marine Corps                                                 June 2006, and is due to purchasing material
                                                             in bulk with long lead time, to ensure the
                                                             material was delivered in a timely manner to
                                                             support the production schedule; and to take
                                                             advantage of opportunities for beĴer pricing
                                                             and vendor market. Examples of these items
                                                             include armor plating, Light Armor Vehicles,
                                                             and radars.
Total                      $30,625          $314,663

Restrictions on OM&S
Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable to the
Department of Defense (DoD) activities.

Composition of OM&S
The OM&S Held for Use represents property that is consumed during normal operations and includes
consumable spare and repair parts for use on customer work by various activities. Federal Accounting
Standards require disclosure of the amount of OM&S held for “future use.” The NWCF reports that $11.3
million of OM&S categorized as held for future use and is included in the “held for use” category.

Decision Criteria for Identifying OM&S Category
In order to standardize reporting of the categories held for use, held for repair, and excess, obsolete,
unserviceable, DODN implemented the Under Secretary of Defense (Comptroller) (USD(C) condition
code crosswalk as deﬁned in the memorandum “Accounting for Excess, Unserviceable, and Obsolete
Inventory and Operating Materials and Supplies,” of August 12, 2002. In addition, the condition code
crosswalk was amended to include code “V” in the excess, obsolete, unserviceable category in September
2002.

OM&S Category                          Condition Code
Held for Use                           A, B, C, D
Held for Repair                        E, F, G, J, K, L, M, N, R
Excess, Obsolete, Unserviceable        P, H, S, V




                                                                                                                  203
                                                                                      Navy Working Capital Fund
                                                                                                         Department of the Navy



      Stockpile Materials, Net
      Not Applicable.


      Note 10. General PP&E, Net
                                                                   2006                                              2005
      As of September 30       Depreciation/                                    (Accumulated
                                               Service        Acquisition                          Net Book       Prior FY Net
                               Amortization                                     Depreciation/
                                                Life            Value                               Value         Book Value
                                 Method                                         Amortization)
      (Amounts in thousands)

      1. Major Asset
         Classes
        A. Land                    N/A          N/A       $         45,822               N/A $         45,822 $        45,848
        B. Buildings,
           Structures, and
           Facilities              S/L         20 Or 40          6,131,252 $       (4,053,308)      2,077,944        2,007,984
        C. Leasehold                             lease
           Improvements            S/L          term                   302               (224)            78                100
                                                2-5 Or
        D. Software
                                   S/L            10               474,721           (278,577)        196,144         211,122
        E. General
           Equipment               S/L         5 or 10           3,301,129         (2,572,577)        728,552         773,536
        F. Military
           Equipment               S/L         Various                      0               0                 0              0
        G. Assets Under                          lease
           Capital Lease           S/L          term                        0               0                 0              0
        H. Construction-in-
           Progress                N/A          N/A                718,491               N/A          718,491         681,761
        I. Other                                                     2,823                 0            2,823          10,171
        J. Total General
           PP&E                                           $     10,674,540 $       (6,904,686) $    3,769,854 $      3,730,522


      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable

      2. Information Related to General Property, Plant and Equipment (GPP&E):

      Fluctuations and Abnormalities
      There are no abnormalities to disclose and no ﬂuctuations equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      Military Equipment
      Military equipment is reported on the ﬁnancial statements of the Department of the Navy (DON) General
      Fund.




204
2006 Annual Financial Report



Heritage Assets and Stewardship Land
Heritage assets and stewardship land are reported on the ﬁnancial statements of the DON General Fund.

Other Disclosures Related to General PP & E
There are no known restrictions on the use or convertibility of General PP&E, nor are there any
adjustments resulting from changes in the accounting standards.

A Supply Management, Navy milestone of the DON Financial Improvement Plan is to identify corrective
actions for the reporting of land, buildings, and soĞware during FY 2007.


Assets Under Capital Lease
Information Related to Assets Under Capital Lease:
Navy Working Capital Fund has no assets under capital lease.


Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                          2006                        2005
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                             $                      0        $                  0
    B. Debt                                                                0                           0
    C. Other                                                           2,822                       2,725
    D. Total Intragovernmental Liabilities          $                  2,822        $              2,725

 2. Nonfederal Liabilities
    A. Accounts Payable                             $                      0        $                   0
    B. Military Retirement Benefits and
       Other Employment-Related
       Actuarial Liabilities                                        1,185,040                   1,192,552
    C. Environmental Liabilities                                            0                           0
    D. Other Liabilities                                                    0                           0
    E. Total Nonfederal Liabilities                 $               1,185,040       $           1,192,552

 3. Total Liabilities Not Covered by Budgetary
     Resources                                      $               1,187,862       $           1,195,277

 4. Total Liabilities Covered by Budgetary
     Resources                                      $               5,580,082   $               6,638,660

 5. Total Liabilities                               $               6,767,944   $               7,833,936


6. Information Related to Liabilities Not Covered and Covered by Budgetary Resources:

Fluctuations and Abnormalities
There are no abnormalities to disclose and no ﬂuctuations equal to or greater than ten percent and or two
percent of total assets to explain for this reporting period.

                                                                                                                205
                                                                                    Navy Working Capital Fund
                                                                                                 Department of the Navy



      Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
      The Other Intragovernmental Liabilities amount of $2.8 million represents interest, penalties, ﬁnes
      and administrative fees. These fees do not belong to Navy Working Capital Fund (NWCF) and will be
      distributed directly to the Department of Treasury.

      The $1.2 billion included in Military Retirement Beneﬁts and Other Employment-Related Actuarial
      Liabilities represents Federal Employees’ Compensation Act liabilities.


      Note 12. Accounts Payable
                                                             2006                                    2005

      As of September 30                             Interest, Penalties,
                                     Accounts
                                                    and Administrative          Total                Total
                                     Payable
                                                            Fees
      (Amounts in thousands)

      1. Intragovernmental
         Payables               $       143,723     $         N/A           $     143,723    $               199,605
      2. Nonfederal
         Payables (to the
         Public)                       1,485,833                        0        1,485,833               2,152,112

      3. Total                  $      1,629,556    $                   0   $    1,629,556   $           2,351,717


      4. Information Related to Accounts Payable:
      Fluctuations and Abnormalities
      Intragovernmental Accounts Payable decreased $55.9 million, 28%, in FY 2006. The primary drivers of the
      decrease are summarized below:

      (Amounts in thousands)
      Business Activity    Increases     Decreases      Explanations
      Supply                             268,236        The decrease is primarily the result of the liquidation
      Management,                                       of Stabilized Unsupported Undistributed (SUU). This
      Navy                                              adjustment is a one time event that received the Oﬃce
                                                        of Under Secretary of Defense (Comptroller) (OUSD(C))
                                                        approval in September 2006. This is in accordance with
                                                        new guidance that was provided by OUSD(C) of July 31,
                                                        2006.
      Research and                       5,868          The decrease is due to ongoing eﬀorts to validate and
      Development,                                      reduce aged accounts payable during FY 2006. These
      Navy Research                                     eﬀorts have resulted in the liquidation of accounts
      Labs                                              payable balances for intragovernmental orders that have
                                                        been completed.
      Component            230,589                      Buyer side trading partner adjustments and adjustments
                                                        for unsupported undistributed during the current period
                                                        was greater than similar adjustments made previously in
                                                        FY 2005.
      Totals               $230,589      $274,104
206
2006 Annual Financial Report



Nonfederal Accounts Payable decreased $666.3 million, 31%, in FY 2006. A decrease of $486 million was
the result of the liquidation of SUU. This adjustment is a one time event that received the OUSD(C)
approval in September 2006. This is in accordance with new guidance that was provided by OUSD(C) of
July 31, 2006.


Note 13.         Debt
                                                 2006                                      2005
 As of September 30            Beginning                         Ending           Net              Ending
                                         Net Borrowing
                                Balance                          Balance       Borrowing           Balance
 (Amounts in thousands)

 1. Agency Debt
    (Intragovernmental)
    A. Debt to the
        Treasury               $        0    $          0    $             0   $           0   $             0
    B. Debt to the
       Federal Financing
       Bank                        381,518       (208,294)         173,224         (124,759)          381,518
    C. Total Agency Debt       $   381,518   $   (208,294)   $     173,224     $   (124,759)   $      381,518

 2. Total Debt                 $   381,518   $   (208,294)   $     173,224     $   (124,759)   $      381,518


3. Information Related to Debt:

Fluctuations and Abnormalities
Intragovernmental Debt decreased $208.3 million, 55%, in FY 2006. This decrease is a result of:

      •    The Transportation Activity, Military SealiĞ Command (MSC) exercised an option in January
           2006 to purchase three Maritime Prepositioning Ships (MPS) that had previously been under
           long-term charter.

      •    MSC in January and July 2006 paid semi-annual principal payments to the Federal Financing
           Bank (FFB) for MPS ships.

Other Information Related to Debt
The Aﬂoat Prepositioning Force program, with congressional approval, provides ships for time charter to
meet requirements not available in the marketplace. These ships are built or converted by private interim
vessel owners using private, non-government ﬁnancing obtained from various banking institutions.
There were no payments made by the government during the building/conversion phase. Aﬂoat
Prepositioning Force program time charters are for ﬁve years with four option renewal periods of ﬁve
years each, for a total of 25 years. At the end of the contract, each ship returns to the vessel’s owner.

The FFB is one of the institutions that provided loans to the vessel owners. The FFB reports that the MSC
has a debt in the amount of $173.2 million, which represents an outstanding principal balance of $170.6
million and accrued interest payable of $2.6 million. The MSC does not owe this debt to the FFB. This
debt is a public debt owed by the private vessel owners. In order to simplify the payments to the FFB
and to meet its requirements, the FFB cross-disburses the semi-annual principal and interest payments
directly from the Navy Working Capital Fund (NWCF). This is done instead of having the MSC make

                                                                                                                    207
                                                                                        Navy Working Capital Fund
                                                                                           Department of the Navy



      Capital Hire payments to the vessel owners, who would in turn make loan obligation payments to the FFB.

      It is not uncommon for the government to make payments directly to the bank (FBB) and mirrors other
      time charters where payment is assigned directly to a bank. This occurred when the ownership of these
      vessels was transferred to private vessel owners; however, when establishing the loan, FBB coded the loan
      as a government debt.

      As required by the Oﬃce of Under Secretary of Defense (Comptroller) (OUSD(C)) memorandum of
      January 22, 1999, the Transportation Activity Group is correctly recording these payments as an operating
      expense. The outstanding debt principal amount is reported in the NWCF Balance Sheet as an other asset
      in order to reconcile with the amount reported by FFB. The misclassiﬁcation by FFB has generated this
      long-standing reporting problem. See Note 6 for additional disclosures.

      As required by the Department of Defense Appropriations Act passed in December 1985, ten percent of
      the ﬁĞh year termination value of the vessels must be obligated from Operation and Maintenance, Navy
      funds. This was completed as each vessel was delivered.


      Note 14. Environmental Liabilities and Disposal Liabilities
      Not Applicable.




208
2006 Annual Financial Report



Note 15. Other Liabilities
                                                                   2006                                   2005
 As of September 30                           Current             Noncurrent
                                                                                       Total              Total
                                              Liability            Liability
 (Amounts in thousands)

 1. Intragovernmental
     A. Advances from Others              $         190,427   $                0   $     190,427      $     416,448
     B. Deposit Funds and Suspense
        Account Liabilities                               0                    0                  0               0
     C. Disbursing Officer Cash                           0                    0                  0               0
     D. Judgment Fund Liabilities                         0                    0                  0               0
     E. FECA Reimbursement to the
        Department of Labor                               0                    0               0                  0
     F. Other Liabilities                            39,763                    0          39,763             41,029

    G. Total Intragovernmental Other
       Liabilities                        $         230,190   $                0   $     230,190      $     457,477
 (Amounts in thousands)
 2. Nonfederal
    A. Accrued Funded Payroll and
       Benefits                           $         843,552   $                0   $     843,552      $     795,598
    B. Advances from Others                         207,797                    0         207,797            141,884
    C. Deferred Credits                                   0                    0               0             11,800
    D. Deposit Funds and Suspense
       Accounts                                      95,694                    0          95,694            151,206
    E. Temporary Early Retirement
       Authority                                          0                    0                  0               0
    F. Nonenvironmental Disposal
       Liabilities
        (1) Military Equipment
        (Nonnuclear)                                      0                    0                  0               0
         (2) Excess/Obsolete Structures                   0                    0                  0               0
         (3) Conventional Munitions
         Disposal                                         0                    0                  0               0
     G. Accrued Unfunded Annual
        Leave                                             0                    0                  0               0
     H. Capital Lease Liability                           0                    0                0                 0
     I. Other Liabilities                         2,374,987               27,905        2,402,892         2,350,185

     J. Total Nonfederal Other
        Liabilities                       $       3,522,030   $           27,905   $    3,549,935     $   3,450,673


 3. Total Other Liabilities               $       3,752,220   $           27,905   $    3,780,125     $   3,908,150




                                                                                                                           209
                                                                                               Navy Working Capital Fund
                                                                                              Department of the Navy



      4. Information Related to Other Liabilities:
      Fluctuations and Abnormalities
      Total Intragovernmental Other Liabilities decreased by $227.3 million, 50%, in FY 2006. (The primary
      drivers aĴributing to Intragovernmental Advances from Others (Line 1.A.) decreasing are as follows:)

       (Amounts in thousands)
       Business Activity        Increases    Decreases       Explanations
       Depot Maintenance,                    114,444         This decrease is primarily aĴributable to two
       Shipyards                                             events. The decrease in advance billings
                                                             throughout FY 2006 is due to work being
                                                             completed on orders that were advance billed
                                                             by Portsmouth and Norfolk Naval Shipyards in
                                                             February 2005 and February 2006. The decrease
                                                             in progress billings throughout FY 2006 is due
                                                             to work being completed by Puget Sound Naval
                                                             Shipyard. Puget Sound began transitioning
                                                             from working capital fund to mission funding
                                                             in FY 2004; this reduction in progress billings is
                                                             consistent with the transition process.
       Research and                          49,639          FY 2005 execution was higher than normal due to
       Development,                                          emergent workload from other non DoD agencies
       Space and Naval                                       (US Homeland Security, for example) associated
       Warfare Systems                                       with the Global War on Terror. FY 2006 results
       Center                                                reﬂect a return to more normal execution levels.
       Total                                 $164,083

      Composition of Intragovernmental Other Liabilities (Line 1.F)
      Intragovernmental other liabilities represents liabilities of:

      (Thousands)
      Health Beneﬁts                                            $ 16,257
      Life Insurance                                                365
      Retirement Beneﬁts                                         20,319
      Custodial Liabilities                                        2,822
        Total                                                  $ 39,763

      Nonfederal Deposit Funds and Suspense Account Liabilities include amounts for unsupported
      undistributed collections.

      Composition of Nonfederal Other Liabilities (Line 2.I.)
      Nonfederal other liabilities totaled $2.4 billion in 4th Quarter, FY 2006, which includes amounts that are
      signiﬁcant portions of the total liabilities presented in the Navy Working Capital Fund (NWCF) Balance
      Sheet. A breakout of the major components of nonfederal other liabilities follow:

            a.   Accrual of Contractual Services represents an accrued liability for direct work performed
                 by contractors or material and supplies purchased for a direct order in which a request for
                 payment has not been received. The accrual is based on the level of eﬀort performed for the
                 direct order on a monthly basis.

            b.   Depot Level Repairable Carcass Return Liability represents the value of returned items that

210
2006 Annual Financial Report



           have been received by an accountable activity from an end-use activity, but a serviceable asset
           has not been issued.

      c.   In addition, the portion of other liabilities that consists of progress billings are maintained to
           show the balance of payments taken for accrued costs charged to work in process or the value
           of material procured and held for speciﬁc orders received from customers within Department
           of Defense.

      d.   Liability for Future Funded Payments, per the Department of the Defense, Inspector General
           (DoDIG) Audit. “Financial Management: Report on Recording and accounting for DoD
           Contract Financing Payment,” of May 10, 2005 and OUSD(C) direction, a contingent liability
           for outstanding contract ﬁnancing payments based on cost in excess of progress payments was
           recognized for the ﬁrst time in 4th Quarter, FY 2006. The recognized data was derived from
           an OUSD(C) query of the Mechanization of Contract Administration System (MOCAS). The
           NWCF ﬁeld level account data does not reconcile with the MOCAS data, therefore, the NWCF
           cannot support this OUSD(C) directed adjustment. Also, current business processes and
           contract clauses do not support this OUSD(C) directed adjustment.

      e.   The remainder of the other liabilities amount includes Property Furnished by Other Liability.

Intragovernmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL)
For FY 2006, the DON does not have any delinquent amounts due to the Department of Labor (DOL) for
the Federal Employees’ Compensation Act (FECA) bill. The FY 2007 FECA bill is due to DOL 30 days
aĞer the appropriation bill is passed and signed.


Capital Lease Liability
Not Applicable.


Note 16. Commitments and Contingencies
Legal Contingencies:
The Department of the Navy (DON) is a party in various administrative proceedings and legal actions,
with claims including environmental damage claims, equal opportunity maĴers, and contractual bid
protests. These proceedings and actions arise in the normal course of operations and their ultimate
disposition is unknown. The DON will accrue contingent liabilities for legal actions in those instances
where the DON’s Oﬃce of General Counsel considers an adverse decision probable and the amount of
loss is measurable. In the event of an adverse judgment against the Government, some of the liabilities
may be payable from the Judgment Fund. Others may be payable from DON’s resources, either directly
or by reimbursement to the Judgment Fund. The DON records Judgment Fund liabilities in Note 15,
“Other Liabilities,” and Note 12 “Accounts Payable.” See Notes 15 and 12 for details.

For ﬁscal years 2006 and 2005, the Navy Working Capital Fund (NWCF) materiality threshold for
reporting litigation, claims, or assessments was $5.0 million and $6.0 million, respectively. Based on
information contained in the FY 2006 Preliminary and Final Legal Representation LeĴers, management
does not have suﬃcient reason to believe that it is likely the Government will be liable for the amounts
claimed in individual or aggregated cases.

The NWCF currently has ﬁve cases that meet the FY 2006 NWCF materiality threshold, with all ﬁve cases
against the Navy and none against the United States Marine Corps. DON legal counsel was unable to
express an opinion concerning the likely outcome of these cases. Therefore, no contingent liabilities were
accrued nor is any disclosure of estimated contingencies required. This declaration is fully supported
by the Preliminary and Final Legal Representation leĴers and the subsidiary management summary
schedule.

                                                                                                                  211
                                                                                      Navy Working Capital Fund
                                                                                             Department of the Navy



      In response to the Department of Defense, Inspector General audit, “Financial Management: DoD
      Process for Reporting Contingent Legal Liabilities,” the DON developed a methodology during
      4th Quarter, FY 2006 that provides an estimate for those legal cases that are considered probable or
      reasonably possible to be seĴled against the government. The DON is testing the methodology with the
      objective to begin reporting in 2nd Quarter, FY 2007.

      Other Commitments and Contingencies
      The NWCF does not have obligations related to cancelled appropriations for which the reporting entity
      has a contractual commitment for payment.

      The NWCF has contractual arrangements which may require future ﬁnancial obligations (i.e. undelivered
      orders). These undelivered orders are estimated at $7.7 billion as of September 30, 2006. Included in this
      total is $27.9 million also included in the balance for nonfederal other liabilities related to contracting
      ﬁnancing payments. No budgetary adjustments were considered in the Oﬃce Under Secretary Defense
      (Comptroller) direction for the Journal Voucher to adjust contingent liabilities. The NWCF has diﬃculties
      creating budgetary accounts from proprietary accounts. This has been reported as an internal weakness.
      Defense Finance and Accounting Service (DFAS) is working with the DON in the Financial Improvement
      Plan to correct this weakness. In FY 2007, the NWCF plans to start reporting budgetary accounts from
      the ﬁeld level accounting systems.




212
2006 Annual Financial Report



Note 17. Military Retirement and Other Federal Employment
         Beneﬁts
                                                               2006                                    2005
 As of September 30                                Assumed       (Less: Assets                        Present
                               Present Value                                     Unfunded
                                                    Interest     Available to                         Value of
                                of Benefits                                       Liability
                                                   Rate (%)      Pay Benefits)                        Benefits
 (Amounts in thousands)

 1. Pension and Health
    Actuarial Benefits
   A. Military Retirement
      Pensions                     $          0                   $          0   $            0   $              0
   B. Military Retirement
      Health Benefits                         0                              0                0                  0
   C. Military Medicare-
      Eligible Retiree
      Benefits                                0                              0                0                  0
   D. Total Pension and
      Health Actuarial
      Benefits                 $              0                   $          0   $            0   $              0

 2. Other Actuarial
    Benefits
   A. FECA                     $       1,185,039                  $          0   $   1,185,039    $    1,192,551
   B. Voluntary Separation
      Incentive Programs                      0                              0                0                  0
   C. DoD Education
      Benefits Fund                           0                              0                0                  0
   D. Total Other Actuarial
      Benefits                 $       1,185,039                  $          0   $   1,185,039    $    1,192,551

 3. Other Federal
    Employment Benefits        $              0                   $          0   $            0   $              0

 4. Total Military
    Retirement and Other
    Federal Employment
    Benefits:                  $       1,185,039                  $          0   $   1,185,039    $    1,192,551


5. Information Related to Military Retirement Beneﬁts and Other Employment-Related Actuarial
   Liabilities

Fluctuations and Abnormalities
There are no abnormalities to disclose and no ﬂuctuations equal to or greater than ten percent and or two
percent of total assets to explain for this reporting period.

Actuarial Cost Method Used
The Department of the Navy (DON) actuarial liability for workers’ compensation beneﬁts is developed
by the Department of Labor and provided to the DON at the end of each ﬁscal year. The liability is
                                                                                                                          213
                                                                                              Navy Working Capital Fund
                                                                                               Department of the Navy



      distributed between the NWCF and DON General Fund based upon the number of civilian employees
      funded in each entity as reported in the Navy Budget Tracking System. The liability includes the expected
      liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The
      liability is determined using a method that utilizes historical beneﬁt payment paĴerns to predict the
      ultimate payments.

      Assumptions
      The assumptions relate to Federal Employees’ Compensation Act (FECA). The projected annual beneﬁt
      payments are discounted to the present value using OMB’s economic assumptions for ten year U.S.
      Treasury notes and bonds. Cost-of-living adjustments and medical inﬂation factors are also taken into
      consideration when calculating projected future beneﬁts. The interest rate assumptions utilized when
      discounting were as follows:

      2006
      5.170% in Year 1
      5.313% in Year 2 and thereaĞer

      To provide more speciﬁcity concerning the eﬀects of inﬂation on the liability for future workers’
      compensation beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) or medical inﬂation
      factors (consumer price index medical or CPIMs) were applied to the calculation of projected future
      beneﬁts. The actual rates for these factors for the charge back year (CBY) 2006 were also used to adjust
      the methodology’s historical payments to current year constant dollars.

      The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

       CBY                   COLA                   CPIM
       2006                  3.50%                  4.00%
       2007                  3.13%                  4.01%
       2008                  2.40%                  4.01%
       2009                  2.40%                  4.013%
       2010+                 2.43%                  4.09%

      The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
      was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison
      of the percentage change in the liability amount by agency to the percentage change in the actual
      incremental payments, (3) a comparison of the incremental paid loses per case (a measure of case-
      severity) in CBY 2006 to the average paĴern observed during the most current three charge back years,
      and (4) a comparison of the estimated liability per case in the 2006 projection to the average paĴern for
      the projections of the most recent three years.

      Market Value of Investments in Market-based and Marketable Securities
      Not Applicable.

      Changes in Actuarial Liability
      There have been no changes in the calculation of Actuarial Liability since last reporting period.

      Other Employment – Related Actuarial Liabilities
      Other Employment – Related Actuarial Liabilities did not have any abnormalities to disclose and no
      variances equal to or greater than ten percent and or two percent of Actuarial Liabilities to explain for this
      reporting period. The balance of other employment-related actuarial liabilities is $1.2 billion, all of which
      is aĴributable to FECA.
214
2006 Annual Financial Report



Note 18. General Disclosures Related to the Statement of
         Net Cost
 Intragovernmental Costs and Exchange Revenue

 As of September 30                                    2006                        2005

 (Amounts in thousands)

 1. Intragovernmental Costs                 $                  4,523,181    $              5,567,550
 2. Public Costs                                              19,574,813                  19,256,819
 3. Total Costs                             $                 24,097,994    $             24,824,369



 4. Intragovernmental Earned Revenue        $             (21,367,634)      $          (20,715,924)
 5. Public Earned Revenue                                  (1,005,772)                  (1,524,490)
 6. Total Earned Revenue                    $             (22,373,406)      $          (22,240,414)

 7. Net Cost of Operations                  $                  1,724,588    $              2,583,955

8. Information Related to the Statement of Net Cost:

Fluctuations and Abnormalities
Net Cost of Operations decreased $859.4 million, 33%, in FY 2006. The primary driver of this decrease is
aĴributable to Gross Costs decreasing during FY 2006 by $726.4 million when compared with FY 2005.
The gross costs for FY 2006 reﬂect a return to normal business. There were two events during FY 2005
that increased the gross costs for Supply Management, Navy and therefore caused unusually high gross
costs. The two events that resulted in increased costs in FY 2005 were:

      •    The reconciliation of system problems with the Depot Level Repairable Carcass Returns,
           which occurred in the 2nd Quarter, FY 2005.

      •    The Enterprise Resource Planning Supply Maintenance (ERP) Aviation Re-engineering Team
           Pilot concluded its objectives in 3rd Quarter, FY 2005.

Composition of Statement of Net Cost
The NWCF generally records transactions on an accrual basis as required by Federal Generally Accepted
Accounting Principles (GAAP). Information presented on the Statement of Net Cost represents the net
result of post closing adjustments and eliminating entries made in compiling and consolidating the NWCF
ﬁnancial statements. These entries signiﬁcantly aﬀected the reported amounts of Intragovernmental
Program Cost, Program Cost with the Public, Earned Revenue and Net Program Cost. The post closing
adjustments were made in order to increase or decrease certain NWCF account balances reported as of
September 30, 2006 to ensure agreement with related balances reported by other Department of Defense
(DoD) and other federal reporting entities. Eliminating entries are required adjustments made as part of
the ﬁnancial process. This process enables the matching of trading partner data recorded at each ﬁnancial
statement consolidation level: NWCF, DoD and Federal Government levels.

Other Disclosures Related to the Statement of Net Cost
This statement is unique because its principles are driven by an understanding of net cost of programs
and or organizations that the Federal Government supports through appropriations. This statement
provides gross and net cost information that can relate to the amount of output for a given program and/
or organization administered by a responsible reporting entity.
                                                                                                               215
                                                                                   Navy Working Capital Fund
                                                                                              Department of the Navy



      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
      entity.

      Although NWCF is able to compare its intragovernmental costs and revenues with corresponding
      balances of its intragovernmental trading partners, it is unable to validate these balances. There were no
      material diﬀerences identiﬁed during the 4th Quarter, FY 2006.

      The NWCF does not report any heritage assets or stewardship land, as these entities are reported on the
      ﬁnancial statements of the Department of the Navy General Fund.

      For FY 2006, the NWCF’s ﬁnancial management systems are unable to meet all of the requirements for
      full accrual accounting. Many of the NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes
      were designed and implemented prior to the issuance of GAAP for federal agencies. These systems were
      not designed to collect and record ﬁnancial information on the full accrual accounting basis as required
      by GAAP. The NWCF has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and
      nonﬁnancial feeder systems and processes into compliance with GAAP. One such action is the current
      revision of its accounting systems to record transactions based on the US Standard General Ledger
      (USSGL). Until all of the NWCF’s ﬁnancial and nonﬁnancial feeder systems and processes are updated to
      collect and report ﬁnancial information as required by GAAP, the NWCF’s ﬁnancial data will be based on
      transactions from nonﬁnancial feeder systems, and adjustments for known accruals of major items such
      as payroll expenses, accounts payable, and environmental liabilities.

      In addition, the NWCF identiﬁes program costs based upon business areas. Current processes and
      systems do not capture and report accumulated costs for major programs based upon the performance
      measures as required by the Government Performance and Results Act (GPRA). The NWCF is in the
      process of reviewing available data and aĴempting to develop a cost reporting methodology that balances
      the need for cost information, as required by the Statement of Federal Financial Accounting Standards
      (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with
      the need to keep the ﬁnancial statements from being overly voluminous.




216
2006 Annual Financial Report



Note 19. Disclosures Related to the Statement of Changes in
         Net Position
                                                   2006                                        2005
 As of September 30                  Cumulative                                 Cumulative
                                                            Unexpended                            Unexpended
                                      Results of                                 Results of
                                                           Appropriations                        Appropriations
                                     Operations                                 Operations
 (Amounts in thousands)

 1. Prior Period Adjustments
    Increases (Decreases) to
    Net Position Beginning
    Balance

    A. Changes in Accounting
       Standards                 $                 0   $                    0   $         0      $                0
    B. Errors and Omissions
       in Prior Year
       Accounting Reports                          0                        0             0                       0

    C. Total Prior Period
       Adjustments               $                 0   $                    0   $         0      $                0

 2. Imputed Financing
    A. Civilian CSRS/FERS
       Retirement                $         225,349     $                    0   $    234,870    $                 0
    B. Civilian Health                     332,920                          0        316,724                      0
    C. Civilian Life Insurance               1,028                          0          1,004                      0
    D. Judgment Fund                             0                          0              0                      0
    E. IntraEntity                               0                          0              0                      0

    F. Total Imputed Financing $           559,297     $                    0   $    552,598    $                 0


3. Information Related to the Statement of Changes in Net Position:

Imputed Financing
The amounts remiĴed to the Oﬃce of Personnel Management (OPM) by and for employees covered by
the Civil Service Retirement System, Federal Employee Retirement System, Federal Employee Health
Beneﬁts Program and the Federal Employee Group Life Insurance Program do not fully cover the
Government’s cost to provide these beneﬁts. An imputed cost is recognized as the diﬀerence between
the Government’s cost of providing these beneﬁts to the employees and contributions made by and
for them. OPM provides the cost factors to the Defense Finance and Accounting Service (DFAS) for
computation of imputed ﬁnancing cost. DFAS provides the costs to the Oﬃce of the Under Secretary of
Defense (Personnel and Readiness) for validation. Approved imputed costs are provided to the reporting
components for inclusion in their ﬁnancial statements.




                                                                                                                            217
                                                                                                Navy Working Capital Fund
                                                                                                 Department of the Navy



      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                         2006                          2005
       (Amounts in thousands)

       1. Net Amount of Budgetary Resources
          Obligated for Undelivered Orders at
          the End of the Period                   $                      7,699,219     $               7,585,850

       2. Available Borrowing and Contract
          Authority at the End of the Period                             6,039,690                     6,897,192


      3. Information Related to the Statement of Budgetary Resources

      Intraentity Transactions
      The Statement of Budgetary Resources (SBR) does include intraentity transactions, which have not been
      eliminated because the statements are presented as combined and combining.

      Apportionment Categories
      Oﬃce of Management and Budget Circular A-136 requires disclosure of the amount of direct and
      reimbursable obligations incurred against amounts apportioned under categories A, B and exempt from
      apportionment. These amounts are as follows:

      (Amounts in thousands)
      Obligations Incurred – Direct                   Line 8.A.                      $39,985
      Obligations Incurred – Reimbursable             Line 8.B.               $22,902,469
      Exempt from apportionment                       Line 9.B.                            $0

      Undelivered Orders
      Undelivered Orders presented in the SBR includes Undelivered Orders, Unpaid for both direct and
      reimbursable funds.

      Other Disclosures Related to Statement of Budgetary Resources
      The SBR is an image of the monthly Report on Budget Execution, Standard Form 133 (SF 133). These
      reports should be produced using budgetary accounts. However, the Navy Working Capital Fund
      (NWCF) uses proprietary accounts because its ﬁnancial accounting systems were not designed to produce
      budgetary accounting data. All ﬁeld level accounting systems have been updated to include budgetary
      accounts. The Department of the Navy (DON) and the Defense Finance and Accounting Service
      (DFAS) have implemented a process that allows the ﬁeld level accounting systems to report budgetary
      accounts to Defense Departmental Reporting System (DDRS). However, at the end of FY 2006, only two
      commands have implemented this interface. During FY 2007, the remaining commands will implement
      interfaces.




218
2006 Annual Financial Report



Note 21. Disclosures Related to the Statement of Financing
Information Related to the Statement of Financing:
The Statement of Financing is designed to provide information about the total resources used by an entity,
to explain how those resources were used to ﬁnance orders for goods and services not yet delivered, to
acquire assets and liabilities, and to fund the entity’s net cost of operations. It is designed to report the
diﬀerences and facilitate the reconciliation of accrual based amounts used in the Statement of Net Cost
and obligation-based amounts used in the Statement of Budgetary Resources (SBR). The computations
and presentation of items in the Statement of Financing demonstrate that the budgetary and proprietary
information in an entity’s ﬁnancial management system is in agreement.

The Defense Finance and Accounting Service (DFAS), Navy Working Capital Fund (NWCF) accounting
systems, and Navy Enterprise Resource Planning include budgetary accounts. Because some of the
legacy accounting systems do not include budgetary accounts, however, NWCF budgetary data is not in
agreement with proprietary expenses and assets capitalized. The detailed level of information required to
appropriately complete the SBR is being developed for those activities that cannot provide the data due to
system deﬁciencies. As a result, the SBR is generated by DFAS using data extracted from the proprietary
accounts.

As a result of these system deﬁciencies, Resources that Finance the Acquisition of Assets on the Statement
of Financing was adjusted upward by $921.7 million at the end of 4th Quarter, FY 2006 to bring it into
balance with the Statement of Net Cost.

The following Statement of Financing lines are presented as combined instead of consolidated due to
interagency budgetary transactions not being eliminated:

      •    Obligations Incurred

      •    Less: Spending Authority from OﬀseĴing Collections and Recoveries

      •    Obligations Net of OﬀseĴing Collections and Recoveries

      •    Less: OﬀseĴing Receipts

      •    Net Obligations

      •    Undelivered Orders

      •    Unﬁlled Customer Orders

Composition of Other Lines
There are four “Other” lines on the Consolidated Statement of Financing during FY 2006. The
compositions of those lines are described below:

Resources Used to Finance Items not Part of the Net Cost of Operations
The amount reported as other is the result of the ﬁnancial closure of three Navy Working Capital Fund
(NWCF) activities during FY 2006. On October 1, 1999, the Naval Weapons Station, Seal Beach and the
Naval Weapons Station, Yorktown migrated from the NWCF to the Navy General Fund. Closure of the
residual ﬁnancial records occurred in the 2nd Quarter, FY 2006. Public Works Center, San Francisco was
operationally closed on September 27, 1997. Closure of the residual ﬁnancial records occurred in the 3rd
Quarter, FY 2006. The closure of the residual ﬁnancial records for these activities resulted in a net loss
posted to deferred accumulated operating results.

Other Resources Used to Finance Items not Part of the Net Cost of Operations, Other
The amount reported as other resources used to ﬁnance items not part of the net cost of operations is
comprised of transfers of assets out of NWCF.

                                                                                                                  219
                                                                                      Navy Working Capital Fund
                                                                                            Department of the Navy



      Components Not Requiring or Generating Resources from Cost of Goods Sold
      The amount reported as other components not requiring or generating resources from cost of goods sold
      consists of the amount of NWCF cost of goods sold.

      Components Not Requiring or Generating Resources, Other
      The amount reported as other components not requiring or generating resources from other consist of
      adjustments to inventory held for repair valuation accounts.

      Other Disclosures
      There were no allocation transfers.

      Liabilities not covered by budgetary resources consist of nonentity assets (interest, penalties, ﬁnes and
      administrative fees) and Military Retirement Beneﬁts and Other Employment Actuarial Liabilities for the
      Navy Working Capital Fund. There are no amounts for resources in future periods for the Navy Working
      Capital Fund, as revenues are generated to cover liabilities during current years. Therefore, amounts
      reported as requiring resources in future periods do not have a relationship to liabilities not covered by
      budgetary resources.


      Note 22. Disclosures Related to the Statement of Custodial
               Activity
      Not Applicable.


      Note 23. Earmarked Funds
      Not applicable.


      Note 24. Other Disclosures
      Not Applicable.




220
                                            Department of the Navy

                              Navy Working Capital Fund


                              2006


                                                                           Navy Working Capital Fund Supporting Consolidating/Combining Statements
          Supporting Consolidating/Combining Statements




2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                     221
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                                               Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)


                                                                                                   Depot
                                                                      Depot Maintenance,
                                                                                                Maintenance,          Ordnance
                                                                          Shipyards
                                                                                                  Aviation
         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                            $               326,388   $           203,214   $              0
                Non-entity Seized Iraqi Cash                                            0                     0                  0
                Non-entity - Other                                                      0                     0                  0
           Investments (Note 4)                                                         0                     0                  0
           Accounts Receivable (Note 5)                                             4,837                63,644                  0
           Other Assets (Note 6)                                                        0                     0                  0
                Total Intragovernmental Assets                    $               331,225   $           266,858   $              0
          Cash and Other Monetary Assets (Note 7)                 $                     0   $                 0   $              0
          Accounts Receivable, net (Note 5)                                           117                 1,410                  0
          Loans Receivable (Note 8)                                                     0                     0                  0
          Inventory and Related Property, net (Note 9)                            177,221               130,470                  0
          General Property, Plant and Equipment, net (Note 10)                    629,183               340,396                  0
          Investments (Note 4)                                                          0                     0                  0
          Other Assets (Note 6)                                                    27,288                 4,546                  0
         TOTAL ASSETS                                             $             1,165,034   $           743,680   $              0

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                            $               (3,875) $             125,397 $                0
            Debt (Note 13)                                                              0                     0                  0
            Other Liabilities (Note 15 & Note 16)                                  13,432                 5,620                  0
                 Total Intragovernmental Liabilities              $                 9,557 $             131,017 $                0
           Accounts Payable (Note 12)                             $                54,522 $              12,734 $                0
           Military Retirement and Other Federal Employment-                            0                     0                  0
             Related Actuarial Liabilities (Note 17)
           Environmental and Disposal Liabilities (Note 14)                             0                     0                  0
           Loan Guarantee Liability (Note 8)                                            0                     0                  0
           Other Liabilities (Note 15 and Note 16)                                314,305               249,788                  0
         TOTAL LIABILITIES                                        $               378,384 $             393,539 $                0

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23)   $                     0 $                   0 $                0
          Unexpended Appropriations - Other Funds                                       0                     0                  0
          Cumulative Results of Operations - Earmarked Funds                            0                     0                  0
          Cumulative Results of Operations - Other Funds                          786,650               350,141                  0
         TOTAL NET POSITION                                       $               786,650 $             350,141 $                0

         TOTAL LIABILITIES AND NET POSITION                       $             1,165,034 $             743,680 $                0




222
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2006 and 2005
($ in thousands)



                                                                                                             Research &
                                                                Transportation          Base Support
                                                                                                            Development

   ASSETS (Note 2)
    Intragovernmental:
     Fund Balance with Treasury (Note 3)
          Entity                                            $             363,363   $         268,183   $          1,039,328
          Non-entity Seized Iraqi Cash                                          0                   0                      0
          Non-entity - Other                                                    0                   0                      0
     Investments (Note 4)                                                       0                   0                      0
     Accounts Receivable (Note 5)                                         114,034             121,291               (26,895)
     Other Assets (Note 6)                                                      0                   0                      0
          Total Intragovernmental Assets                    $             477,397   $         389,474   $          1,012,433
    Cash and Other Monetary Assets (Note 7)                 $                   0   $               0   $                  0
    Accounts Receivable, net (Note 5)                                         229              33,387                  8,769
    Loans Receivable (Note 8)                                                   0                   0                      0
    Inventory and Related Property, net (Note 9)                            2,092              28,950                356,437
    General Property, Plant and Equipment, net (Note 10)                   38,014             774,337              1,448,498
    Investments (Note 4)                                                        0                   0                      0
    Other Assets (Note 6)                                                 172,010               2,014                  9,710
   TOTAL ASSETS                                             $             689,742   $       1,228,162   $          2,835,847

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                            $             105,275 $            42,188 $               (2,412)
      Debt (Note 13)                                                      173,224                   0                       0
      Other Liabilities (Note 15 & Note 16)                                 2,973               5,368                210,887
           Total Intragovernmental Liabilities              $             281,472 $            47,556 $              208,475
     Accounts Payable (Note 12)                             $             276,372 $           208,548 $              573,258
     Military Retirement and Other Federal Employment-                          0                   0                       0
       Related Actuarial Liabilities (Note 17)
     Environmental and Disposal Liabilities (Note 14)                           0                   0                      0
     Loan Guarantee Liability (Note 8)                                          0                   0                      0
     Other Liabilities (Note 15 and Note 16)                               63,673              76,311              2,084,016
   TOTAL LIABILITIES                                        $             621,517 $           332,415 $            2,865,749

   NET POSITION
    Unexpended Appropriations - Earmarked Funds (Note 23)   $                   0 $                 0 $                    0
    Unexpended Appropriations - Other Funds                                     0                   0                    507
    Cumulative Results of Operations - Earmarked Funds                          0                   0                      0
    Cumulative Results of Operations - Other Funds                         68,225             895,747               (30,409)
   TOTAL NET POSITION                                       $              68,225 $           895,747 $             (29,902)

   TOTAL LIABILITIES AND NET POSITION                       $             689,742 $         1,228,162 $            2,835,847




                                                                                                                                223
                                                                                                   Navy Working Capital Fund
                                                                                                                     Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)



                                                                       Supply             Component           Marine Corps -       Combined
                                                                     Management             Level                NWCF                Total

         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                           $        (747,777)   $       (238,383)   $           30,193   $      1,244,509
                Non-entity Seized Iraqi Cash                                      0                   0                    0                  0
                Non-entity - Other                                                0                   0                    0                  0
           Investments (Note 4)                                                   0                   0                    0                  0
           Accounts Receivable (Note 5)                                     143,180             (9,687)               33,906            444,310
           Other Assets (Note 6)                                                  0               1,941                    0              1,941
                Total Intragovernmental Assets                   $        (604,597)   $       (246,129)   $           64,099   $      1,690,760
          Cash and Other Monetary Assets (Note 7)                $                0   $               0   $                0   $              0
          Accounts Receivable, net (Note 5)                                  13,736              11,381                  327             69,356
          Loans Receivable (Note 8)                                               0                   0                    0                  0
          Inventory and Related Property, net (Note 9)                   12,552,911                   0              558,068         13,806,149
          General Property, Plant and Equipment, net (Note 10)              491,151                   0               48,275          3,769,854
          Investments (Note 4)                                                    0                   0                    0                  0
          Other Assets (Note 6)                                             121,923              25,455                  519            363,465
         TOTAL ASSETS                                            $       12,575,124   $       (209,293)   $          671,288   $     19,699,584

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                           $         202,053 $          (331,226) $              6,382 $          143,782
            Debt (Note 13)                                                       0                     0                   0            173,224
            Other Liabilities (Note 15 & Note 16)                                0               (9,007)                 917            230,190
                 Total Intragovernmental Liabilities             $         202,053 $          (340,233) $              7,299 $          547,196
           Accounts Payable (Note 12)                            $          59,085 $            233,468 $             67,846 $        1,485,833
           Military Retirement and Other Federal Employment-                     0            1,155,444               29,595          1,185,039
             Related Actuarial Liabilities (Note 17)
           Environmental and Disposal Liabilities (Note 14)                      0                    0                    0                  0
           Loan Guarantee Liability (Note 8)                                     0                    0                    0                  0
           Other Liabilities (Note 15 and Note 16)                         608,079              123,090               30,673          3,549,935
         TOTAL LIABILITIES                                       $         869,217 $          1,171,769 $            135,413 $        6,768,003

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23) $                 0 $                  0 $                 0 $                0
          Unexpended Appropriations - Other Funds                                 0                2,389                   0              2,896
          Cumulative Results of Operations - Earmarked Funds                      0                    0                   0                  0
          Cumulative Results of Operations - Other Funds                 11,705,907          (1,383,451)             535,875         12,928,685
         TOTAL NET POSITION                                     $        11,705,907 $        (1,381,062) $           535,875 $       12,931,581

         TOTAL LIABILITIES AND NET POSITION                      $       12,575,124 $         (209,293) $            671,288 $       19,699,584




224
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATING BALANCE SHEET
As of September 30, 2006 and 2005
($ in thousands)




                                                                Eliminations            2006 Consolidated        2005 Consolidated

   ASSETS (Note 2)
    Intragovernmental:
     Fund Balance with Treasury (Note 3)
          Entity                                            $                   0   $            1,244,509   $              977,865
          Non-entity Seized Iraqi Cash                                          0                        0                        0
          Non-entity - Other                                                    0                        0                        0
     Investments (Note 4)                                                       0                        0                        0
     Accounts Receivable (Note 5)                                              59                  444,251                  494,499
     Other Assets (Note 6)                                                      0                    1,941                      374
          Total Intragovernmental Assets                    $                  59   $            1,690,701   $            1,472,738
    Cash and Other Monetary Assets (Note 7)                 $                   0   $                    0   $                    0
    Accounts Receivable, net (Note 5)                                           0                   69,356                   29,686
    Loans Receivable (Note 8)                                                   0                        0                        0
    Inventory and Related Property, net (Note 9)                                0               13,806,149               15,610,774
    General Property, Plant and Equipment, net (Note 10)                        0                3,769,854                3,730,522
    Investments (Note 4)                                                        0                        0                        0
    Other Assets (Note 6)                                                       0                  363,465                  536,741
   TOTAL ASSETS                                             $                  59   $           19,699,525   $           21,380,461

   LIABILITIES (Note 11)
     Intragovernmental:
      Accounts Payable (Note 12)                            $                  59 $                143,723 $                199,605
      Debt (Note 13)                                                            0                  173,224                  381,518
      Other Liabilities (Note 15 & Note 16)                                     0                  230,190                  457,477
           Total Intragovernmental Liabilities              $                  59 $                547,137 $              1,038,600
     Accounts Payable (Note 12)                             $                   0 $              1,485,833 $              2,152,112
     Military Retirement and Other Federal Employment-                          0                1,185,039                1,192,551
       Related Actuarial Liabilities (Note 17)
     Environmental and Disposal Liabilities (Note 14)                           0                        0                        0
     Loan Guarantee Liability (Note 8)                                          0                        0                        0
     Other Liabilities (Note 15 and Note 16)                                    0                3,549,935                3,450,673
   TOTAL LIABILITIES                                        $                  59 $              6,767,944 $              7,833,936

   NET POSITION
    Unexpended Appropriations - Earmarked Funds (Note 23)   $                  0 $                       0 $                      0
    Unexpended Appropriations - Other Funds                                    0                     2,896                    6,286
    Cumulative Results of Operations - Earmarked Funds                         0                         0                        0
    Cumulative Results of Operations - Other Funds                             0                12,928,685               13,540,239
   TOTAL NET POSITION                                       $                  0 $              12,931,581 $             13,546,525

   TOTAL LIABILITIES AND NET POSITION                       $                  59 $             19,699,525 $             21,380,461




                                                                                                                                         225
                                                                                                             Navy Working Capital Fund
                                                                                                    Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING STATEMENT OF NET COST
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)



                                                                     Combined Total        Eliminations

           Program Costs
                Gross Costs                                      $             730,863 $               662
                (Less: Earned Revenue)                                       (708,962)               (686)
                Net Program Costs                                $              21,901 $              (24)
         A. Base Support
                Gross Costs                                      $           2,099,170 $                  0
                (Less: Earned Revenue)                                     (2,005,275)                    0
                Net Program Costs                                $              93,895 $                  0
         B. Component Level
                Gross Costs                                      $         (1,377,706) $               686
                (Less: Earned Revenue)                                       1,902,406               (662)
                Net Program Costs                                $             524,700 $                24
         C. Depot Maintenance, Aviation
                Gross Costs                                      $           1,844,712 $                  0
                (Less: Earned Revenue)                                     (1,837,155)                    0
                Net Program Costs                                $               7,557 $                  0
         D. Depot Maintenance, Shipyards
                Gross Costs                                      $           1,778,663 $                  0
                (Less: Earned Revenue)                                     (1,732,033)                    0
                Net Program Costs                                $              46,630 $                  0
         E. Ordnance
                Gross Costs                                      $                 22 $                   0
                (Less: Earned Revenue)                                              0                     0
                Net Program Costs                                $                 22 $                   0
         F. Transportation
                Gross Costs                                      $           2,378,339 $                  0
                (Less: Earned Revenue)                                     (2,479,253)                    0
                Net Program Costs                                $           (100,914) $                  0
         G. Research & Development
                Gross Costs                                      $          10,097,710 $                  0
                (Less: Earned Revenue)                                    (10,064,473)                    0
                Net Program Costs                                $              33,237 $                  0
         H. Supply Management
                Gross Costs                                      $           6,547,569 $                  0
                (Less: Earned Revenue)                                     (5,450,008)                    0
                Net Program Costs                                $           1,097,561 $                  0
         I. Total Program Costs
                Gross Costs                                      $          24,099,342 $             1,348
                (Less: Earned Revenue)                                    (22,374,753)             (1,348)
                Net Program Costs                                $           1,724,589 $                 0
           Cost Not Assigned to Programs                                             0                   0
           (Less: Earned Revenue Not Attributable to Programs)                       0                   0
           Net Cost of Operations                                $           1,724,589 $                 0




226
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
($ in thousands)



                                                               2006 Consolidated       2005 Consolidated

     Program Costs
          Gross Costs                                      $              730,201 $                 659,655
          (Less: Earned Revenue)                                        (708,276)                 (683,205)
          Net Program Costs                                $               21,925 $                (23,550)
   A. Base Support
          Gross Costs                                      $             2,099,170 $              1,693,763
          (Less: Earned Revenue)                                       (2,005,275)              (1,739,097)
          Net Program Costs                                $                93,895 $               (45,334)
   B. Component Level
          Gross Costs                                      $           (1,378,392) $             (777,277)
          (Less: Earned Revenue)                                         1,903,068               1,779,340
          Net Program Costs                                $               524,676 $             1,002,063
   C. Depot Maintenance, Aviation
          Gross Costs                                      $             1,844,712 $              1,962,339
          (Less: Earned Revenue)                                       (1,837,155)              (1,818,993)
          Net Program Costs                                $                 7,557 $                143,346
   D. Depot Maintenance, Shipyards
          Gross Costs                                      $             1,778,663 $              1,686,929
          (Less: Earned Revenue)                                       (1,732,033)              (1,656,365)
          Net Program Costs                                $                46,630 $                 30,564
   E. Ordnance
          Gross Costs                                      $                   22 $                (12,144)
          (Less: Earned Revenue)                                                0                         0
          Net Program Costs                                $                   22 $                (12,144)
   F. Transportation
          Gross Costs                                      $             2,378,339 $              2,002,735
          (Less: Earned Revenue)                                       (2,479,253)              (1,951,860)
          Net Program Costs                                $             (100,914) $                 50,875
   G. Research & Development
          Gross Costs                                      $            10,097,710 $             10,032,416
          (Less: Earned Revenue)                                      (10,064,473)             (10,036,814)
          Net Program Costs                                $                33,237 $                 (4,398)
   H. Supply Management
          Gross Costs                                      $             6,547,569 $              7,575,953
          (Less: Earned Revenue)                                       (5,450,008)              (6,133,420)
          Net Program Costs                                $             1,097,561 $              1,442,533
   I. Total Program Costs
          Gross Costs                                      $            24,097,994 $             24,824,369
          (Less: Earned Revenue)                                      (22,373,405)             (22,240,414)
          Net Program Costs                                $             1,724,589 $              2,583,955
     Cost Not Assigned to Programs                                               0                        0
     (Less: Earned Revenue Not Attributable to Programs)                         0                        0
     Net Cost of Operations                                $             1,724,589 $              2,583,955




                                                                                                                           227
                                                                                               Navy Working Capital Fund
                                                                                                                  Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)



                                                                       Depot Maintenance, Shipyards       Depot Maintenance, Aviation

         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources:
           Unobligated balance, brought forward, October 1         $                         577,355 $                         842,461
           Recoveries of prior year unpaid obligations                                             0                                 0
           Budget Authority:
              Appropriations Received                                                               0                                 0
              Borrowing Authority                                                                   0                                 0
              Contract Authority                                                               27,346                            74,617
           Spending Authority from offsetting collections:
              Earned
                Collected                                                                   1,756,460                         1,827,635
                Change in receivable from Federal sources                                      (1,882)                           (3,231)
              Change in unfilled customer orders
                Advance received                                                            (115,624)                            11,734
                Without advance from Federal sources                                        (238,536)                           105,136
              Anticipated for the rest of year, without advances                                    0                                 0
              Previously unavailable                                                                0                                 0
              Expenditure transfers from trust funds                                                0                                 0
             Subtotal                                              $                        1,427,764 $                       2,015,891
           Nonexpenditure transfers, net, anticipated and actual                                    0                                23
           Temporarily not available pursuant to Public Law                                         0                                 0
           Permanently not available                                                                0                                 0
           Total Budgetary Resources                               $                        2,005,119 $                       2,858,375

         Status of Budgetary Resources:
           Obligations Incurred:
              Direct                                               $                                0 $                               0
              Reimbursable                                                                  1,935,302                         1,484,089
              Subtotal                                             $                        1,935,302 $                       1,484,089
           Unobligated balance:
              Apportioned                                          $                           94,818 $                       1,374,286
              Exempt from apportionment                                                      (25,000)                                 0
              Subtotal                                                                         69,818                         1,374,286
           Unobligated Balances Not Available                                                      (1)                                0
           Total status of budgetary resources                     $                        2,005,119 $                       2,858,375




228
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)



                                                                 Ordnance
                                                                    Depot Maintenance,
                                                                                 Transportation
                                                                                       Shipyards          Depot
                                                                                                           Base Support
                                                                                                                Maintenance, Aviation

   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
     Unobligated balance, brought forward, October 1         $        35,172 $             193,421 $
                                                                                          577,355                313,041       842,461
     Recoveries of prior year unpaid obligations                           0                    00                     0             0
     Budget Authority:
        Appropriations Received                                            0                    00                35,400              0
        Borrowing Authority                                                0                    00                     0              0
        Contract Authority                                                 0                16,019
                                                                                           27,346                 18,400         74,617
     Spending Authority from offsetting collections:
        Earned
          Collected                                                       65               2,459,145
                                                                                         1,756,460             2,047,656      1,827,635
          Change in receivable from Federal sources                     (65)                  20,070
                                                                                            (1,882)               (8,924)        (3,231)
        Change in unfilled customer orders
          Advance received                                                  0            (115,624) 0              (5,423)        11,734
          Without advance from Federal sources                              0              (229,781)
                                                                                         (238,536)             (228,490)        105,136
        Anticipated for the rest of year, without advances                  0                     00                    0             0
        Previously unavailable                                              0                     00                    0             0
        Expenditure transfers from trust funds                              0                     00                    0             0
       Subtotal                                              $              0 $            2,265,453 $
                                                                                         1,427,764             1,858,619      2,015,891
     Nonexpenditure transfers, net, anticipated and actual           (32,107)                     00                   70            23
     Temporarily not available pursuant to Public Law                       0                     00                    0             0
     Permanently not available                                        (3,043)              (205,126)
                                                                                                  0                     0             0
     Total Budgetary Resources                               $   $         22 $            2,253,748$ $
                                                                                         2,005,119             2,171,730      2,858,375

   Status of Budgetary Resources:
     Obligations Incurred:
        Direct                                               $             0 $                    00 $            35,400              0
        Reimbursable                                                      22               2,172,132
                                                                                         1,935,302             2,214,423      1,484,089
        Subtotal                                             $            22 $             2,172,132 $
                                                                                         1,935,302             2,249,823      1,484,089
     Unobligated balance:
        Apportioned                                          $             0 $               131,616 $
                                                                                            94,818               178,386      1,374,286
        Exempt from apportionment                                          0                (50,000)
                                                                                          (25,000)             (256,479)              0
        Subtotal                                                           0                  81,616
                                                                                            69,818              (78,093)      1,374,286
     Unobligated Balances Not Available                                    0                    (1) 0                  0              0
     Total status of budgetary resources                     $   $        22 $             2,253,748$ $
                                                                                         2,005,119             2,171,730      2,858,375




                                                                                                                                           229
                                                                                                               Navy Working Capital Fund
                                                                                                                         Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)



                                                                          Depot&Maintenance,
                                                                       Research DevelopmentShipyards    Depot Maintenance,
                                                                                                Supply Management          AviationLevel
                                                                                                                      Component

         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources:
           Unobligated balance, brought forward, October 1         $                  1,368,048 $577,355             601,538 $      842,461
                                                                                                                                     (1,342,076)
           Recoveries of prior year unpaid obligations                                        0        0                   0              0    0
           Budget Authority:
              Appropriations Received                                                         0           0           83,067               0    0
              Borrowing Authority                                                             0           0                0               0    0
              Contract Authority                                                        140,894      27,346        4,609,892          74,617    0
           Spending Authority from offsetting collections:
              Earned
                Collected                                                            10,103,375 1,756,460          5,241,004       1,827,635 10
                Change in receivable from Federal sources                                (8,384) (1,882)              85,136          (3,231)8,670
              Change in unfilled customer orders
                Advance received                                                       (52,127)    (115,624)            1,643         11,734    0
                Without advance from Federal sources                                    188,040    (238,536)           43,751        105,136    0
              Anticipated for the rest of year, without advances                              0            0                0              0    0
              Previously unavailable                                                          0            0                0              0    0
              Expenditure transfers from trust funds                                          0            0                0              0    0
             Subtotal                                              $                 10,371,798    1,427,764
                                                                                                   $               10,064,493 $    2,015,8918,680
           Nonexpenditure transfers, net, anticipated and actual                       (15,128)            0              243             23 802
           Temporarily not available pursuant to Public Law                                   0            0                0              0    0
           Permanently not available                                                      3,043            0      (5,731,805)              0    0
           Total Budgetary Resources                               $    $            11,727,761    2,005,119
                                                                                                   $         $      4,934,469 $    2,858,375
                                                                                                                                      (1,332,594)

         Status of Budgetary Resources:
           Obligations Incurred:
              Direct                                               $                      4,585 $       0                  0 $             0    0
              Reimbursable                                                            9,705,252 1,935,302          4,609,892       1,484,089
                                                                                                                                           86,953
              Subtotal                                             $                  9,709,837 1,935,302
                                                                                                $                  4,609,892 $     1,484,089
                                                                                                                                           86,953
           Unobligated balance:
              Apportioned                                          $                  2,132,326    $ 94,818          132,256 $     1,374,286
                                                                                                                                      (1,424,217)
              Exempt from apportionment                                               (114,401)     (25,000)               0               04,669
              Subtotal                                                                2,017,925       69,818         132,256       1,374,286
                                                                                                                                      (1,419,548)
           Unobligated Balances Not Available                                                (1)          (1)        192,321               0    1
           Total status of budgetary resources                     $    $            11,727,761    2,005,119
                                                                                                   $          $    4,934,469 $     2,858,375
                                                                                                                                      (1,332,594)




230
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)



                                                                 Depot Maintenance,
                                                                    Marine          Shipyards 2006 Depot
                                                                           Corps - NWCF                  Maintenance,
                                                                                                   Combined           Aviation
                                                                                                                2005 Combined

   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
     Unobligated balance, brought forward, October 1              $                    577,355
                                                                                   227,700 $        2,816,660 $       842,461
                                                                                                                      2,749,720
     Recoveries of prior year unpaid obligations                                         0 0                0                00
     Budget Authority:
        Appropriations Received                                                          0 0          118,467                0
                                                                                                                        298,000
        Borrowing Authority                                                              0 0                0                00
        Contract Authority                                                              27,346
                                                                                    16,540          4,903,708           74,617
                                                                                                                        865,296
     Spending Authority from offsetting collections:
        Earned
          Collected                                                                  1,756,460
                                                                                   621,225         24,056,575        1,827,635
                                                                                                                     23,151,268
          Change in receivable from Federal sources                                     (1,882)
                                                                                    17,585            108,975           (3,231)
                                                                                                                       (233,655)
        Change in unfilled customer orders
          Advance received                                                             (115,624)
                                                                                      (110)          (159,907)          11,734
                                                                                                                           8,239
          Without advance from Federal sources                                         (238,536)
                                                                                   (11,164)          (371,044)         105,136
                                                                                                                         249,980
        Anticipated for the rest of year, without advances                                0 0                0                00
        Previously unavailable                                                            0 0                0                00
        Expenditure transfers from trust funds                                            0 0                0                00
       Subtotal                                                   $                   1,427,764
                                                                                    644,076 $       28,656,774 $     2,015,891
                                                                                                                     24,339,128
     Nonexpenditure transfers, net, anticipated and actual                                0 0         (46,097)              23
                                                                                                                        (88,365)
     Temporarily not available pursuant to Public Law                                     0 0                0                00
     Permanently not available                                                            0 0      (5,936,931)                0
                                                                                                                       (247,828)
     Total Budgetary Resources                               $    $                 871,776 $ $
                                                                                      2,005,119     25,490,406 $     2,858,375
                                                                                                                     26,752,655

   Status of Budgetary Resources:
     Obligations Incurred:
        Direct                                                    $                      0 $0          39,985 $              00
        Reimbursable                                                                 1,935,302
                                                                                   694,405         22,902,470        1,484,089
                                                                                                                     23,935,997
        Subtotal                                                  $                  1,935,302
                                                                                   694,405 $       22,942,455 $      1,484,089
                                                                                                                     23,935,997
     Unobligated balance:
        Apportioned                                               $                      94,818
                                                                                   177,371  $       2,796,842 $      1,374,286
                                                                                                                       2,768,052
        Exempt from apportionment                                                      (25,000)
                                                                                          0         (441,211)                 0
                                                                                                                       (143,714)
        Subtotal                                                                         69,818
                                                                                   177,371          2,355,631        1,374,286
                                                                                                                       2,624,338
     Unobligated Balances Not Available                                                   0 (1)       192,320                 0
                                                                                                                         192,320
     Total status of budgetary resources                     $    $                871,776 $ $
                                                                                     2,005,119     25,490,406 $      2,858,375
                                                                                                                     26,752,655




                                                                                                                                   231
                                                                                                       Navy Working Capital Fund
                                                                                                                   Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                          Depot Maintenance,       Depot Maintenance,
                                                                              Shipyards                 Aviation
         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
         Change in obligated balance:
          Obligated Balance, net
             Unpaid obligations, brought forward, October 1           $               703,958 $                 904,864
             Less: Uncollected customer payments from                               (654,380)                 (653,986)
                Federal sources, brought forward, October 1
             Total unpaid obligated balance                           $                 49,578 $                250,878
          Obligations incurred, net (+/-)                             $              1,935,302 $              1,484,089
          Less: Gross outlays                                                      (1,705,838)              (1,831,176)
          Obligated balance transferred, net
             Actual transfers, unpaid obligations (+/-)                                    0                            0
             Actual transfers, uncollected customer                                        0                            0
                payments from Federal sources (+/-)
             Total Unpaid obligated balance transferred, net                                0                         0
          Less: Recoveries of prior year unpaid obligations, actual                         0                         0
          Change in uncollected customer                                              240,417                 (101,904)
             payments from Federal sources (+/-)
          Obligated balance, net, end of period
             Unpaid obligations                                                       933,421                   557,777
             Less: Uncollected customer payments from                               (413,963)                 (755,890)
                Federal sources
             Total, unpaid obligated balance, net, end of period                      519,458                 (198,113)

         Net Outlays:
          Net Outlays:
             Gross Outlays                                                           1,705,838                1,831,176
             Less: Offsetting collections                                          (1,640,836)              (1,839,370)
             Less: Distributed Offsetting receipts                                           0                         0
          Net Outlays                                                 $                 65,002 $                 (8,194)




232
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                      Depot Main
                                                                      Ordnance        Transportation         Base Support
                                                                          Shipy
   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
   Change in obligated balance:
    Obligated Balance, net
       Unpaid obligations, brought forward, October 1           $             551 $              706,018 $         420,405
       Less: Uncollected customer payments from                              (33)              (475,319)         (346,036)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                           $             518 $              230,699 $           74,369
    Obligations incurred, net (+/-)                             $              22 $            2,172,132 $        2,249,823
    Less: Gross outlays                                                      (46)            (2,137,676)        (2,015,016)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                           (526)                      0          (32,968)
       Actual transfers, uncollected customer                                (33)                      0               497
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                      (559)                     0           (32,471)
    Less: Recoveries of prior year unpaid obligations, actual                   0                     0                  0
    Change in uncollected customer                                             65               209,711            237,413
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                                      0                 740,474           622,244
       Less: Uncollected customer payments from                                0               (265,609)         (108,125)
          Federal sources
       Total, unpaid obligated balance, net, end of period                     0                474,865            514,119

   Net Outlays:
    Net Outlays:
       Gross Outlays                                                           46              2,137,676          2,015,016
       Less: Offsetting collections                                          (65)            (2,459,145)        (2,042,233)
       Less: Distributed Offsetting receipts                                    0                      0                  0
    Net Outlays                                                 $ $          (19) $            (321,469) $         (27,217)




                                                                                                                                       233
                                                                                                           Navy Working Capital Fund
                                                                                                                       Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      COMBINING STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                Depot Main
                                                                        Research & Development        Supply Management        Component Level
                                                                                    Shipy
         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
         Change in obligated balance:
          Obligated Balance, net
             Unpaid obligations, brought forward, October 1         $                   4,962,336 $             4,768,956 $             (92,493)
             Less: Uncollected customer payments from                                 (4,645,513)               (538,066)                  8,654
                Federal sources, brought forward, October 1
             Total unpaid obligated balance                         $                     316,823 $              4,230,890 $            (83,839)
          Obligations incurred, net (+/-)                           $                   9,709,836 $              4,609,892 $              86,953
          Less: Gross outlays                                                        (10,063,636)              (5,083,238)               (7,209)
          Obligated balance transferred, net
             Actual transfers, unpaid obligations (+/-)                                          0                     0                 33,494
             Actual transfers, uncollected customer                                              0                     0                  (465)
                payments from Federal sources (+/-)
             Total Unpaid obligated balance transferred, net                                   0                        0                33,029
          Less: Recoveries of prior year unpaid obligations, actual                            0                        0                      0
          Change in uncollected customer                                               (179,656)                (128,887)                (8,670)
             payments from Federal sources (+/-)
          Obligated balance, net, end of period
             Unpaid obligations                                                         4,608,537               4,295,609                20,745
             Less: Uncollected customer payments from                                 (4,825,169)               (666,952)                 (481)
                Federal sources
             Total, unpaid obligated balance, net, end of period                       (216,632)                3,628,657                20,264

         Net Outlays:
          Net Outlays:
             Gross Outlays                                                             10,063,636                5,083,238                7,209
             Less: Offsetting collections                                            (10,051,247)              (5,242,648)                   (9)
             Less: Distributed Offsetting receipts                                              0                        0                     0
          Net Outlays                                              $         $             12,389 $              (159,410) $              7,200




234
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
COMBINING STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                      Depot Main
                                                                    Marine Corps
                                                                           Shipy- NWCF        2006 Combined        2005 Combined

   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
   Change in obligated balance:
    Obligated Balance, net
       Unpaid obligations, brought forward, October 1           $                 292,725 $         12,667,320 $         11,860,610
       Less: Uncollected customer payments from                                 (333,650)          (7,638,329)          (7,621,902)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                           $                (40,925) $          5,028,991 $          4,238,708
    Obligations incurred, net (+/-)                             $                 694,405 $         22,942,454 $         23,935,997
    Less: Gross outlays                                                         (653,431)         (23,497,266)         (23,129,284)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                        0                   0                   0
       Actual transfers, uncollected customer                                            0                 (1)                   0
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                                  0                  (1)                    0
    Less: Recoveries of prior year unpaid obligations, actual                           0                    0                    0
    Change in uncollected customer                                                (6,421)             262,068              (16,325)
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                                         333,699           12,112,506           12,667,320
       Less: Uncollected customer payments from                                 (340,071)          (7,376,260)          (7,638,229)
          Federal sources
       Total, unpaid obligated balance, net, end of period                        (6,372)           4,736,246            5,029,091

   Net Outlays:
    Net Outlays:
       Gross Outlays                                                              653,431           23,497,266           23,129,284
       Less: Offsetting collections                                             (621,115)         (23,896,668)         (23,159,505)
       Less: Distributed Offsetting receipts                                            0                    0                    0
    Net Outlays                                                 $   $              32,316 $          (399,402) $           (30,221)




                                                                                                                                       235
                                                                                                           Navy Working Capital Fund
                                                                                                                                Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING STATEMENT OF FINANCING
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)



                                                                                             Depot Maintenance, Shipyards      Depot Maintenance, Aviation

         Resources Used to Finance Activities:
         Budgetary Resources Obligated
           Obligations incurred                                                          $                       1,935,302 $                       1,484,089
           Less: Spending authority from offsetting collections and recoveries (-)                             (1,400,419)                       (1,941,274)
           Obligations net of offsetting collections and recoveries                                                534,883                         (457,185)
           Less: Offsetting receipts (-)                                                                                 0                                 0
           Net obligations                                                                                         534,883                         (457,185)
         Other Resources
           Donations and forfeitures of property                                                                         0                                 0
           Transfers in/out without reimbursement (+/-)                                                           (37,210)                         (124,774)
           Imputed financing from costs absorbed by others                                                               0                                 0
           Other (+/-)                                                                                                   0                                 0
           Net other resources used to finance activities                                                         (37,210)                         (124,774)
           Total resources used to finance activities                                    $                        497,673 $                        (581,959)

         Resources Used to Finance Items not Part of the Net Cost of Operations:
           Change in budgetary resources obligated for goods, services and benefits
             ordered but not yet provided
              Undelivered orders (-)                                                     $                       (179,769)                          174,539
              Unfilled Customer Orders                                                                           (354,160)                          116,870
           Resources that fund expenses recognized in prior periods                                                      0                                0
           Budgetary offsetting collections and receipts that do not affect net                                          0                                0
             cost of operations
           Resources that finance the acquisition of assets                                                        (7,381)                          158,633
           Other resources or adjustments to net obligated resources that do not
             affect net cost of operations
              Less: Trust or Special Fund Receipts Related to Exchange in the Entity's                                  0                                 0
                Budget (-)
              Other (+/-)                                                                                          37,210                           124,774
           Total resources used to finance items not part of the net
             cost of operations                                                          $                       (504,100) $                        574,816
           Total resources used to finance the net cost of operations                    $                         (6,427) $                         (7,143)


         Components of the Net Cost of Operations that will not Require
           or Generate Resources in the Current Period:
         Components Requiring or Generating Resources in Future Periods:                 $                               0 $                              0
           Increase in annual leave liability
                                                                                                                         0                                0
           Increase in environmental and disposal liability
                                                                                                                         0                                0
           Upward/Downward reestimates of credit subsidy expense
                                                                                                                         0                                0
           Increase in exchange revenue receivable from the public (-)
                                                                                                                         0                                0
           Other (+/-)
           Total components of Net Cost of Operations that will require or
                                                                                         $                               0 $                              0
             generate resources in future periods

         Components not Requiring or Generating Resources:
                                                                                         $                         20,311 $                          38,141
           Depreciation and amortization
                                                                                                                        0                                 0
           Revaluation of assets and liabilities (+/-)
           Other (+/-)
                                                                                                                        0                                 0
               Trust Fund Exchange Revenue
                                                                                                                   32,745                          (23,442)
               Cost of Goods Sold
                                                                                                                        0                                 0
               Operating Material & Supplies Used
                                                                                                                        0                                 0
               Other
           Total components of Net Cost of Operations that will not require
                                                                                         $                         53,056 $                          14,699
             or generate resources
           Total components of net cost of operations that will                          $                         53,056 $                          14,699
             not require or generate resources in the current period
                                                                                         $                         46,629 $                           7,556
           Net cost of operations




236
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                                                                                                     Research &
                                                                                      Ordnance          Transportation           Base Support
                                                                                                                                                    Development

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
     Obligations incurred                                                    $                   22 $             2,172,132 $         2,249,823 $          9,709,836
     Less: Spending authority from offsetting collections and recoveries (-)                      0             (2,249,435)         (1,804,819)         (10,230,903)
     Obligations net of offsetting collections and recoveries                                    22                (77,303)             445,004            (521,067)
     Less: Offsetting receipts (-)                                                                0                       0                   0                    0
     Net obligations                                                                             22                (77,303)             445,004            (521,067)
   Other Resources
     Donations and forfeitures of property                                                       0                       0                    0                   0
     Transfers in/out without reimbursement (+/-)                                        (129,618)                 203,738             102,781               29,808
     Imputed financing from costs absorbed by others                                             0                       0                    0                   0
     Other (+/-)                                                                            18,995                       0              (3,190)               6,184
     Net other resources used to finance activities                                      (110,623)                 203,738              99,591               35,992
     Total resources used to finance activities                              $           (110,601) $               126,435 $           544,595 $          (485,075)

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
       ordered but not yet provided
        Undelivered orders (-)                                                                   0                   2,774           (145,934)              395,824
        Unfilled Customer Orders                                                                 0               (229,781)           (233,913)              135,913
     Resources that fund expenses recognized in prior periods                                    0                       0                   0                    0
     Budgetary offsetting collections and receipts that do not affect net                        0                       0                   0                    0
       cost of operations
     Resources that finance the acquisition of assets                                            0                 185,200              11,584              (74,639)
     Other resources or adjustments to net obligated resources that do not
       affect net cost of operations
        Less: Trust or Special Fund Receipts Related to Exchange in the Entity's                 0                       0                  0                      0
          Budget (-)
        Other (+/-)                                                                       110,623                (203,738)            (99,591)              (35,992)
     Total resources used to finance items not part of the net
       cost of operations                                                   $             110,623 $              (245,545) $         (467,854) $            421,106
      Total resources used to finance the net cost of operations                  $            22 $              (119,110) $            76,741 $            (63,969)



   Components    of notes
   The accompanying the Net    Cost
                          are an      of Operations
                                 integral                 that will not Require
                                          part of these statements.
     or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:                $               0 $                    0   $               0 $                  0
     Increase in annual leave liability
                                                                                                  0                      0                   0                    0
     Increase in environmental and disposal liability
                                                                                                  0                      0                   0                    0
     Upward/Downward reestimates of credit subsidy expense
                                                                                                  0                      0                   0                    0
     Increase in exchange revenue receivable from the public (-)
                                                                                                  0                      0                   0                    0
     Other (+/-)
     Total components of Net Cost of Operations that will require or
                                                                                  $               0 $                    0   $               0 $                  0
        generate resources in future periods

   Components not Requiring or Generating Resources:
                                                                                  $               0 $               18,196   $          17,041 $            113,808
     Depreciation and amortization
                                                                                                  0                      0                 112               (6,832)
     Revaluation of assets and liabilities (+/-)
     Other (+/-)
                                                                                                  0                      0                   0                    0
         Trust Fund Exchange Revenue
                                                                                                  0                      0                   0              (9,770)
         Cost of Goods Sold
                                                                                                  0                      0                   0                    0
         Operating Material & Supplies Used
                                                                                                  0                      0                   0                    0
         Other
     Total components of Net Cost of Operations that will not require
                                                                                  $               0 $               18,196   $          17,153 $             97,206
       or generate resources
     Total components of net cost of operations that will                         $
       not require or generate resources in the current period                                    0 $               18,196   $          17,153 $             97,206
     Net cost of operations                                                       $              22 $            (100,914)   $          93,894 $             33,237




                                                                                                                                                                       237
                                                                                                                                      Navy Working Capital Fund
                                                                                                                                            Department of the Navy



      Department of Defense
      Navy Working Capital Fund
      CONSOLIDATING STATEMENT OF FINANCING
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                             Supply                                 Marine Corps -        Combined
                                                                                                               Component Level
                                                                                           Management                                  NWCF                 Total

         Resources Used to Finance Activities:
         Budgetary Resources Obligated
           Obligations incurred                                                    $             4,609,892 $            86,953 $              694,405 $      22,942,454
           Less: Spending authority from offsetting collections and recoveries (-)             (5,371,534)              (8,680)             (627,536)      (23,634,600)
           Obligations net of offsetting collections and recoveries                              (761,642)              78,273                 66,869         (692,146)
           Less: Offsetting receipts (-)                                                                 0                    0                     0                 0
           Net obligations                                                                       (761,642)              78,273                 66,869         (692,146)
         Other Resources
           Donations and forfeitures of property                                                        0                     0                     0                0
           Transfers in/out without reimbursement (+/-)                                          (43,672)                 (210)              (90,240)         (89,397)
           Imputed financing from costs absorbed by others                                              0               546,970                12,327          559,297
           Other (+/-)                                                                           741,944              (196,557)                     0          567,376
           Net other resources used to finance activities                                        698,272                350,203              (77,913)        1,037,276
           Total resources used to finance activities                              $             (63,370) $             428,476 $            (11,044) $        345,130

         Resources Used to Finance Items not Part of the Net Cost of Operations:
           Change in budgetary resources obligated for goods, services and benefits
             ordered but not yet provided
              Undelivered orders (-)                                                            (333,175)                     0              (27,627)        (113,368)
              Unfilled Customer Orders                                                             45,394                     0              (11,274)        (530,951)
           Resources that fund expenses recognized in prior periods                                     0              (10,441)                     0         (10,441)
           Budgetary offsetting collections and receipts that do not affect net                         0                     0                     0                0
             cost of operations
           Resources that finance the acquisition of assets                                    (3,160,771)             (90,102)             (177,220)       (3,154,696)
           Other resources or adjustments to net obligated resources that do not
             affect net cost of operations
              Less: Trust or Special Fund Receipts Related to Exchange in the Entity's                  0                    0                       0               0
                Budget (-)
              Other (+/-)                                                                       (698,272)               196,767               90,240         (477,979)
           Total resources used to finance items not part of the net
             cost of operations                                                  $             (4,146,824) $             96,224 $           (125,881) $     (4,287,435)
            Total resources used to finance the net cost of operations            $            (4,210,194) $            524,700 $           (136,925) $     (3,942,305)

        Components of the Net Cost of Operations that will not Require
          or Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future Periods:
          Increase in annual leave liability                                           $                     0 $              0 $                   0 $              0
          Increase in environmental and disposal liability                                                   0                0                     0                0
          Upward/Downward reestimates of credit subsidy expense                                              0                0                     0                0
          Increase in exchange revenue receivable from the public (-)                                        0                0                     0                0
          Other (+/-)                                                                                        0                0                 2,928            2,928
          Total components of Net Cost of Operations that will require or
            generate resources in future periods                                       $                     0 $              0 $               2,928 $          2,928

        Components not Requiring or Generating Resources:
          Depreciation and amortization                                                $             10,823 $                 0 $               3,560 $        221,880
          Revaluation of assets and liabilities (+/-)                                             1,629,241                   0              (38,835)        1,583,686
          Other (+/-)
              Trust Fund Exchange Revenue                                                                 0                   0                     0                0
              Cost of Goods Sold                                                                  3,667,498                   0               191,173        3,858,204
              Operating Material & Supplies Used                                                          0                   0                     0                0
              Other                                                                                     194                   2                     0              196
          Total components of Net Cost of Operations that will not require
            or generate resources                                                      $          5,307,756 $                 2 $             155,898 $      5,663,966
          Total components of net cost of operations that will
            not require or generate resources in the current period                    $          5,307,756 $                 2 $             158,826 $      5,666,894
          Net cost of operations                                                       $          1,097,562 $           524,702 $              21,901 $      1,724,589




238
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund
CONSOLIDATING STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)



                                                                                           Eliminations             2006 Consolidated        2005 Consolidated

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
     Obligations incurred                                                          $                      0 $                 22,942,454 $             23,935,997
     Less: Spending authority from offsetting collections and recoveries (-)                              0                 (23,634,600)             (23,175,830)
     Obligations net of offsetting collections and recoveries                                             0                    (692,146)                  760,167
     Less: Offsetting receipts (-)                                                                        0                            0                        0
     Net obligations                                                                                      0                    (692,146)                  760,167
   Other Resources
     Donations and forfeitures of property                                                                0                           0                        0
     Transfers in/out without reimbursement (+/-)                                                         0                    (89,397)                        0
     Imputed financing from costs absorbed by others                                                      0                     559,297                  552,597
     Other (+/-)                                                                                          0                     567,376                (653,626)
     Net other resources used to finance activities                                                       0                   1,037,276                (101,029)
     Total resources used to finance activities                                    $                      0 $                   345,130 $                659,138

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
       ordered but not yet provided
        Undelivered orders (-)                                                                            0                   (113,368)                (684,742)
        Unfilled Customer Orders                                                                          0                   (530,951)                  258,220
     Resources that fund expenses recognized in prior periods                                             0                    (10,441)                        0
     Budgetary offsetting collections and receipts that do not affect net                                 0                           0                        0
       cost of operations
     Resources that finance the acquisition of assets                                                     0                  (3,154,696)              (4,342,345)
     Other resources or adjustments to net obligated resources that do not
       affect net cost of operations
        Less: Trust or Special Fund Receipts Related to Exchange in the Entity's                          0                             0                        0
          Budget (-)
        Other (+/-)                                                                                       0                   (477,979)                  653,626
     Total resources used to finance items not part of the net
       cost of operations                                                          $                      0 $                (4,287,435) $            (4,115,241)
     Total resources used to finance the net cost of operations                    $                      0 $                (3,942,305) $            (3,456,103)


   Components of the Net Cost of Operations that will not Require
     or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Periods:                     $                      0 $                      0 $                     0
     Increase in annual leave liability                                                                       0                        0                       0
     Increase in environmental and disposal liability                                                         0                        0                       0
     Upward/Downward reestimates of credit subsidy expense                                                    0                        0                       0
     Increase in exchange revenue receivable from the public (-)                                              0                    2,928                  24,326
     Other (+/-)
     Total components of Net Cost of Operations that will require or               $                          0 $                  2,928 $                24,326
       generate resources in future periods

   Components not Requiring or Generating Resources:                               $                          0 $                221,880 $               205,205
     Depreciation and amortization                                                                            0                1,583,686               1,236,002
     Revaluation of assets and liabilities (+/-)
     Other (+/-)                                                                                              0                        0                       0
         Trust Fund Exchange Revenue                                                                          0                3,858,204               4,574,426
         Cost of Goods Sold                                                                                   0                        0                       0
         Operating Material & Supplies Used                                                                   0                      196                      99
         Other
     Total components of Net Cost of Operations that will not require              $                          0 $              5,663,966 $             6,015,732
       or generate resources
     Total components of net cost of operations that will                              $                      0 $              5,666,894 $             6,040,058
       not require or generate resources in the current period
                                                                                       $                      0 $              1,724,589 $             2,583,955
     Net cost of operations




                                                                                                                                                                     239
                                                                                                                                   Navy Working Capital Fund
      Department of the Navy




240
                                           Department of the Navy

                             Navy Working Capital Fund


                              2006
                    Required Supplementary Information




                                                                          Navy Working Capital Fund Required Supplementary Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                    241
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                            Department of the Navy



                       Navy Working Capital Fund General Property, Plant, and Equipment
                       Real Property Deferred Annual Sustainment and Restoration Tables
                                            As of September 30, 2006
                                                  ($ in Millions)

      Annual Sustainment FY 2006
                                             Required          Actual         Diﬀerence
      Navy                                     1,748             266            1,482
      Marine Corps                               8                5               3
      Building, Structures, and Utilities      1,756             271            1,485


      Annual Deferred Sustainment Trend
                                              FY 2003         FY 2004          FY 2005            FY 2006
      Navy                                       -                -                -                1,482
      Marine Corps                               -                -                -                  3
      Building, Structures, and Utilities        -                -                -                1,485


      Restoration and Modernization Requirements
                                            End FY 2005     End FY 2006        Change
      Navy                                       -               136             136
      Marine Corps                               -                8               8
      Building, Structures, and Utilities        -               144             144

      Narrative Statement:
      Fiscal Year 2006 represents the ﬁĞh year the Facility Sustainment Model (FSM) was utilized for the
      Navy Working Capital Fund (NWCF). Sustainment is deﬁned as the maintenance and repair activities
      necessary to keep a typical facility in good working order over its service life. It includes regularly
      scheduled adjustments and inspections (such as for ﬁre sprinkler heads and HVAC systems), regulatory
      inspections (of elevators, bridges, and the like), emergency and routine preventive maintenance tasks, and
      major repair or replacement of facility components, such as roof replacement, reﬁnishing wall surfaces,
      repairing and replacing electrical, heating, and cooling systems, and replacing tile and carpeting. In FY
      2006, FSM Version 7.2 was used for programming and budgeting for facilities sustainment. Deferred
      amounts were calculated in accordance with the methodology provided by DoD Financial Management
      Regulation, Volume 6B, Chapter 12. Since sustainment execution is tied to the NWCF rate structure, the
      full requirement cannot be budgeted in a single year because the rate structure would not be aﬀordable to
      NWCF customers.

      Restoration and Modernization is currently not modeled. Restoration includes repair and replacement
      work to restore facilities damaged by inadequate sustainment, excessive age, disaster, accident, or other
      causes. Modernization includes alteration of facilities solely to implement new or higher standards and
      regulatory changes, to accommodate new functions including base realignment and closure (BRAC), or
      to renew building components that typically last more than 50 years, such as foundations and structural
      members. Requirements listed on the table are actual expenditures for restoration and modernization by
      year. The requirements include restoration and modernization that is part of minor construction projects.

      The NWCF has no material amounts of deferred sustainment for the General Property, Plant, and
      Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.

242
2006 Annual Financial Report



Schedule, Part A DoD Intragovernmental Asset
                                                      Treasury     Fund Balance     Accounts        Loans
Balances                                                                                                        Investments   Other
                                                       Index:      with Treasury   Receivable     Receivable
($ Amounts in Thousands)
Executive Office of the President                        11                                   0
Department of Agriculture                                12                                 (3)
Department of Commerce                                   13                                525
Department of the Interior                               14                                206
Department of Justice                                    15                                378
Navy General Fund                                        17                            301,721
United States Postal Service                             18                                 16
Department of State                                      19                                 17
Department of the Treasury                               20            1,244,509            54
Army General Fund                                        21                             23,849
Office of Personnel Management                           24                                 54
Federal Communications Commission                        27                                   3
Nuclear Regulatory Commission                            31                                   2
Department of Veterans Affairs                           36                                194
Pennsylvania Avenue Development Corp                     42                                 21
General Service Administration                           47                                202
National Science Foundation                              49                                117
General Accounting Office                                 5                              1,317
Advisory Commission on Intergovernmental Relations       55                                 13
Air Force General Fund                                   57                             22,079
Consumer Product Safety Commission                       61                                 30
Tennessee Valley Authority                               64                                   8
Environmental Protection Agency                          68                                303
Department of Transportation                             69                              2,825
Homeland Security                                        70                              7,993
Department of Health and Human Services                  75                                 63
Independent Agencies                                     76                                   0
Farm Credit                                              78                                   2
National Aeronautics and Space Administration            80                              6,394
National Archives and Records Administration             88                                 33
Department of Energy                                     89                              1,854
Independent Agencies                                     95                                 47
US Army Corps of Engineers                               96                                338
Other Defense Organizations General Funds                97                             49,280
Other Defense Organizations Working Capital Funds      97-4930                          17,568                                    1,941
Army Working Capital Fund                            97-4930.001                         4,607
Air Force Working Capital Fund                       97-4930.003                         2,135
Architect of the Capitol                                                                      4
Totals might not match the Principal Statements        Totals         $1,244,509      $444,249             $0            $0      $1,941




                                                                                                                                            243
                                                                                                                Navy Working Capital Fund
                                                                                                                    Department of the Navy



      Schedule, Part B DoD Intragovernmental Entity                                             Debts/Borrowings
      Liabilities                                         Treasury Index:   Accounts Payable      From Other            Other
      ($ Amounts in Thousands)                                                                     Agencies
      Executive Office of the President                         11                                                                  23
      Department of Agriculture                                 12                          8             (2,638)                  205
      Department of Commerce                                    13                         25                                      224
      Department of the Interior                                14                       (41)                                    1,105
      Department of Justice                                     15                         11                                   55,320
      Department of Labor                                       16                                                                 248
      Navy General Fund                                         17                     32,128                                   11,393
      United States Postal Service                              18                      2,631
      Department of State                                       19                                                               9,757
      Department of the Treasury                                20                                        175,862                1,508
      Army General Fund                                         21                      6,572
      Office of Personnel Management                            24                                             0                36,940
      National Credit Union Administration                      25                                                                 181
      Federal Communications Commission                         27                      5,215                                        2
      Library of Congress                                        3                          0                                    6,933
      Nuclear Regulatory Commission                             31                                                               1,437
      John F. Kennedy Center                                    33                                                                   2
      Department of Veterans Affairs                            36                         21                                    (119)
      General Service Administration                            47                      7,765                                       40
      National Science Foundation                               49                        410                                   14,984
      Air Force General Fund                                    57                      1,219                                        3
      Environmental Protection Agency                           68                                                                 178
      Department of Transportation                              69                       809                                     1,512
      Homeland Security                                         70                       (52)                                   80,168
      Agency for International Development                      72                                                                 191
      Department of Health and Human Services                   75                       600                                     2,155
      Independent Agencies                                      76                                                                   0
      National Aeronautics and Space Administration             80                        579                                      260
      Department of Energy                                      89                         47                                    2,498
      Other Defense Organizations General Funds                 97                      2,179                                      214
      Other Defense Organizations Working Capital Funds       97-4930                  77,854
      Army Working Capital Fund                             97-4930.001                 2,474
      Air Force Working Capital Fund                        97-4930.003                 3,269
      The General Fund of the Treasury                          99                                                               2,826
      Architect of the Capitol                                                                                                       0
      Totals might not match the Principal Statements         Totals                 $143,723            $173,224          $230,188




244
2006 Annual Financial Report



Schedule, Part C DoD Intragovernmental Revenue and Related Costs
                                                                   Treasury Index:     Earned Revenue
($ Amounts in Thousands)
Executive Office of the President                                        11                           15
Department of Agriculture                                                12                          991
Department of Commerce                                                   13                       10,238
Department of the Interior                                               14                        6,037
Department of Justice                                                    15                      136,363
Department of Labor                                                      16                          447
Navy General Fund                                                        17                   18,736,169
United States Postal Service                                             18                           34
Department of State                                                      19                        8,039
Department of the Treasury                                               20                        5,742
Army General Fund                                                        21                      260,829
Resolution Trust Corporation                                             22                            5
Office of Personnel Management                                           24                           84
National Credit Union Administration                                     25                          260
Federal Retirement Thrift Investment Board                               26                            6
Federal Communications Commission                                        27                           30
Library of Congress                                                       3                        4,191
Nuclear Regulatory Commission                                            31                        1,050
John F. Kennedy Center                                                   33                        1,175
Department of Veterans Affairs                                           36                        1,244
Pennsylvania Avenue Development Corp                                     42                          672
General Service Administration                                           47                          682
National Science Foundation                                              49                       13,457
General Accounting Office                                                 5                        3,574
Advisory Commission on Intergovernmental Relations                       55                           91
Air Force General Fund                                                   57                      367,740
National Foundation on the Arts and Humanities                           59                       18,412
Consumer Product Safety Commission                                       61                          132
Tennessee Valley Authority                                               64                           33
Environmental Protection Agency                                          68                        4,706
Department of Transportation                                             69                       12,202
Homeland Security                                                        70                      172,122
Agency for International Development                                     72                        (117)
Department of Health and Human Services                                  75                        2,466
Independent Agencies                                                     76                          231
Congressional Budget Office                                               8                            1
National Aeronautics and Space Administration                            80                       52,119
National Archives and Records Administration                             88                          249
Department of Energy                                                     89                       33,135
Selective Service System                                                 90                           12
Independent Agencies                                                     95                           27
US Army Corps of Engineers                                               96                        5,032
Other Defense Organizations General Funds                                97                    1,055,939
Other Defense Organizations Working Capital Funds                      97-4930                    96,529
Army Working Capital Fund                                            97-4930.001                       0
Air Force Working Capital Fund                                       97-4930.003                 284,020
Architect of the Capitol                                                                              38
Totals might not match the Principal Statements                        Totals                $21,296,453




                                                                                                               245
                                                                                   Navy Working Capital Fund
                                                                                                      Department of the Navy



      Schedule, Part E DoD Intragovernmental Non-exchange Revenues
                                                                     Treasury Index:   Transfers In     Transfers Out
      ($ Amounts in Thousands)
      Navy General Fund                                                    17                   1,251          141,492
      Other Defense Organizations General Funds                            97                   3,903
      Other Defense Organizations Working Capital Funds                  97-4930                  842
      Totals might not match the Principal Statements                    Totals                $5,996         $141,492




246
                                           Department of the Navy

                             Navy Working Capital Fund


                             2006
                       Other Accompanying Information




                                                                          Navy Working Capital Fund Other Accompanying Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                    247
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                            Department of the Navy



      Appropriations, Funds, and Accounts Included in the Financial
      Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title:
          97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title:
          97X4930.NA1*      Depot Maintenance-Shipyards
          97X4930.NA2*      Depot Maintenance-Aviation
          97X4930.NA4A* Depot Maintenance- Other, Marine Corps
          97X4930.NA3*      Ordnance
          97X4930.ND*       Transportation
          97X4930.NE*       Base Support
          97X4930.NH*       Research and Development
          97X4930.NC*       Supply Management
          97X4930.NC2A* Supply Management, Marine Corps

      Notes
      * - The “*” represents alpha or numeric characters which identify an activity or reporting segment of the
      activity group.

      a - The Ordnance activity group became a part of the DON General Fund in FY 2000. The Ordnance
      information included in this report represents residual NWCF accounting for this group.




248
                              Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                                2006  Principal Statements




                                                                                             USMC General Fund Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       249
2006 Annual Financial Report 2006 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been prepared
      to report the ﬁnancial position and results of
      operations of the entity, pursuant to the requirements
      of 31 U.S.C. 3515 (b). While the statements have been
      prepared from the books and records of the entity in
      accordance with GAAP for Federal entities and the
      formats prescribed by OMB, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




250
2006 Annual Financial Report




In Fiscal Year (FY) 2006, the Oﬃce of the Under Secretary of Defense (Comptroller), with support
from the Department of the Navy, designated the U.S. Marine Corps a ﬁnancial reporting entity. This
designation allowed the Marine Corps to prepare comprehensive subsidiary ﬁnancial statements and
related notes beginning in FY 2006.

The Marine Corps shares appropriations with the Department of the Navy and in addition maintains
accountability for its own appropriations. The Marine Corps has speciﬁc funds and budget execution
unto itself that are managed by Marine Corps program sponsors. Given this ﬁduciary responsibility, the
Marine Corps is able to fully comply with Statement of Federal Financial Accounting Concepts Number
2, Entity and Display.


Principal Statements
The FY 2006 U.S. Marine Corps General Fund Principal Statements and related notes are subsidiary
ﬁnancial statements and related notes of the Department of the Navy General Fund, and are presented
in the format prescribed by the Department of Defense Financial Management Regulation 7000.14,
Volume 6B. The statements and related notes summarize ﬁnancial information for individual funds and
accounts within the U.S. Marine Corps General Fund for the ﬁscal year ending September 30, 2006.

The following statements comprise the U.S. Marine Corps General Fund Principal Statements:

      •    Consolidated Balance Sheet

      •    Consolidated Statement of Net Cost

      •    Consolidated Statement of Changes in Net Position

      •    Combined Statement Budgetary Resources

      •    Combined Statement of Financing

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                                 251
                                                                       United States Marine Corps General Fund
                                                                                                         Department of the Navy



      Department of Defense
      Marine Corps - Marine Corps GF
      CONSOLIDATED BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Consolidated            2005 Restated
         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                                      $           12,774,224   $              8,231,880
                Non-entity Seized Iraqi Cash                                                     0                          0
                Non-entity - Other                                                         118,017                          0
           Investments (Note 4)                                                                  0                          0
           Accounts Receivable (Note 5)                                                     37,837                     62,428
           Other Assets (Note 6)                                                             5,774                     11,214
                Total Intragovernmental Assets                              $           12,935,852   $              8,305,522
          Cash and Other Monetary Assets (Note 7)                                           59,649                    196,180
          Accounts Receivable, net (Note 5)                                                 21,282                     16,108
          Loans Receivable (Note 8)                                                              0                          0
          Inventory and Related Property, net (Note 9)                                   5,121,038                    470,506
          General Property, Plant and Equipment, net (Note 10)                           8,497,885                  6,965,708
          Investments (Note 4)                                                                   0                          0
          Other Assets (Note 6)                                                            519,651                    293,375
         TOTAL ASSETS                                                       $           27,155,357   $             16,247,399

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                                      $              111,464   $                168,814
            Debt (Note 13)                                                                       0                          0
            Other Liabilities (Note 15 & Note 16)                                          243,876                    278,663
                 Total Intragovernmental Liabilities                        $              355,340   $                447,477
           Accounts Payable (Note 12)                                                      520,609                    505,949
           Military Retirement Benefits and Other Employment-                              214,433                    210,850
             Related Actuarial Liabilities (Note 17)
           Environmental and Disposal Liabilities (Note 14)                                226,470                           0
           Loan Guarantee Liability (Note 8)                                                     0                           0
           Other Liabilities (Note 15 and Note 16)                                         938,012                     676,705
         TOTAL LIABILITIES                                                  $            2,254,864   $               1,840,981

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23)             $                    0   $                      0
          Unexpended Appropriations - Other Funds                                       12,443,304                  7,801,648
          Cumulative Results of Operations - Earmarked Funds                                   383                          0
          Cumulative Results of Operations - Other Funds                                12,456,806                  6,604,770
         TOTAL NET POSITION                                                 $           24,900,493   $             14,406,418

         TOTAL LIABILITIES AND NET POSITION                                 $           27,155,357   $             16,247,399


         The accompanying notes are an integral part of these statements.




252
2006 Annual Financial Report



Department of Defense
Marine Corps - Marine Corps GF
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Consolidated          2005 Consolidated
   Program Costs
      Gross Costs                                                     $            20,496,639    $            20,160,841
      (Less: Earned Revenue)                                                         (414,698)                (1,066,992)
      Net Costs                                                       $            20,081,941    $            19,093,849
   Costs Not Assigned to Programs                                                           0                          0
   (Less: Earned Revenue Not Attributable to Programs)                                      0                          0
   Net Cost of Operations                                             $            20,081,941    $            19,093,849




   The accompanying notes are an integral part of these statements.




                                                                                                                               253
                                                                                     United States Marine Corps General Fund
                                                                                                            Department of the Navy



      Department of Defense
      Marine Corps - Marine Corps GF
      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                              Earmarked Funds           Other Funds

         CUMULATIVE RESULTS OF OPERATIONS
          Beginning Balances                                              $                240      $         7,758,322
          Prior period adjustments (+/-)
             Changes in accounting principles (+/-)                                          0                        0
             Correction of errors (+/-)                                                      0                3,158,868
          Beginning balances, as adjusted                                 $                240      $        10,917,190
          Budgetary Financing Sources:
           Appropriations received                                        $                  0      $                 0
           Appropriations transferred in/out (+/-)                                           0                        0
           Other adjustments (rescissions, etc) (+/-)                                        0                        0
           Appropriations used                                                               0               21,463,922
           Nonexchange revenue                                                               0                        0
           Donations and forfeitures of cash and cash equivalents                            0                        0
           Transfers in/out without reimbursement (+/-)                                    158                        0
           Other budgetary financing sources (+/-)                                           0                        0
          Other Financing Sources:
           Donations and forfeitures of property                                             0                        0
           Transfers in/out without reimbursement (+/-)                                      0                   90,379
           Imputed financing from costs absorbed by others                                   0                   67,241
           Other (+/-)                                                                       0                        0
          Total Financing Sources                                         $                158      $        21,621,542
          Net Cost of Operations (+/-)                                                      15               20,081,926
          Net Change                                                                       143                1,539,616
          Ending Balances                                                 $                383      $        12,456,806
         UNEXPENDED APPROPRIATIONS
          Beginning Balances                                              $                     0   $         8,857,933
          Prior period adjustments (+/-)
             Changes in accounting principles (+/-)                                             0                     0
             Correction of errors (+/-)                                                         0                     0
          Beginning balances, as adjusted                                 $                     0   $         8,857,933
          Budgetary Financing Sources:
           Appropriations received                                        $                     0   $         25,417,616
           Appropriations transferred in/out (+/-)                                              0               (106,906)
           Other adjustments (rescissions, etc) (+/-)                                           0               (261,417)
           Appropriations used                                                                  0            (21,463,922)
           Nonexchange revenue                                                                  0                      0
           Donations and forfeitures of cash and cash equivalents                               0                      0
           Transfers in/out without reimbursement (+/-)                                         0                      0
           Other budgetary financing sources (+/-)                                              0                      0
          Other Financing Sources:
           Donations and forfeitures of property                                                0                     0
           Transfers in/out without reimbursement (+/-)                                         0                     0
           Imputed financing from costs absorbed by others                                      0                     0
           Other (+/-)                                                                          0                     0
          Total Financing Sources                                         $                     0   $         3,585,371
          Net Cost of Operations (+/-)                                                          0                     0
          Net Change                                                                            0             3,585,371
          Ending Balances                                                 $                     0   $        12,443,304



         The accompanying notes are an integral part of the statements.

254
2006 Annual Financial Report



Department of Defense
Marine Corps - Marine Corps GF
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                     2006 Consolidated         2005 Restated

CUMULATIVE RESULTS OF OPERATIONS
 Beginning Balances                                              $             7,758,562   $           3,060,673
 Prior period adjustments (+/-)
    Changes in accounting principles (+/-)                                            0                        0
    Correction of errors (+/-)                                                3,158,868                3,158,867
 Beginning balances, as adjusted                                 $           10,917,430    $           6,219,540
 Budgetary Financing Sources:
  Appropriations received                                        $                    0    $                   0
  Appropriations transferred in/out (+/-)                                             0                        0
  Other adjustments (rescissions, etc) (+/-)                                          0                        0
  Appropriations used                                                        21,463,922               19,415,135
  Nonexchange revenue                                                                 0                        0
  Donations and forfeitures of cash and cash equivalents                              0                        0
  Transfers in/out without reimbursement (+/-)                                      158                        0
  Other budgetary financing sources (+/-)                                             0                        0
 Other Financing Sources:
  Donations and forfeitures of property                                               0                        0
  Transfers in/out without reimbursement (+/-)                                   90,379                       21
  Imputed financing from costs absorbed by others                                67,241                   63,923
  Other (+/-)                                                                         0                        0
 Total Financing Sources                                         $           21,621,700    $          19,479,079
 Net Cost of Operations (+/-)                                                20,081,941               19,093,849
 Net Change                                                                   1,539,759                  385,230
 Ending Balances                                                 $           12,457,189    $           6,604,770
UNEXPENDED APPROPRIATIONS
 Beginning Balances                                              $            8,857,933    $          6,534,483
 Prior period adjustments (+/-)
    Changes in accounting principles (+/-)                                            0                       0
    Correction of errors (+/-)                                                        0                       0
 Beginning balances, as adjusted                                 $            8,857,933    $          6,534,483
 Budgetary Financing Sources:
  Appropriations received                                        $           25,417,616 $            21,089,769
  Appropriations transferred in/out (+/-)                                      (106,906)               (244,582)
  Other adjustments (rescissions, etc) (+/-)                                   (261,417)               (162,886)
  Appropriations used                                                       (21,463,922)            (19,415,135)
  Nonexchange revenue                                                                 0                       0
  Donations and forfeitures of cash and cash equivalents                              0                       0
  Transfers in/out without reimbursement (+/-)                                        0                       0
  Other budgetary financing sources (+/-)                                             0                       0
 Other Financing Sources:
  Donations and forfeitures of property                                               0                       0
  Transfers in/out without reimbursement (+/-)                                        0                       0
  Imputed financing from costs absorbed by others                                     0                       0
  Other (+/-)                                                                         0                       0
 Total Financing Sources                                         $            3,585,371    $          1,267,166
 Net Cost of Operations (+/-)                                                         0                       0
 Net Change                                                                   3,585,371               1,267,166
 Ending Balances                                                 $           12,443,304    $          7,801,649



The accompanying notes are an integral part of the statements.

                                                                                                                                          255
                                                                                                United States Marine Corps General Fund
                                                                                                        Department of the Navy



      Department of Defense
      Marine Corps - Marine Corps GF
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Combined           2005 Combined
         BUDGETARY FINANCING ACCOUNTS
         Budgetary Resources:
           Unobligated balance, brought forward, October 1                  $           2,111,332   $            2,460,325
           Recoveries of prior year unpaid obligations                                  1,569,189                4,770,516
           Budget Authority:
              Appropriations received                                                  25,417,774               21,089,769
              Borrowing authority                                                               0                        0
              Contract authority                                                                0                        0
           Spending authority from offsetting collections:
              Earned
                Collected                                                                580,388                 2,106,013
                Change in receivables from Federal sources                               (61,287)                   18,751
              Change in unfilled customer orders
                Advances received                                                               0                        0
                Without advance from Federal sources                                      (47,838)                  70,421
              Anticipated for rest of year, without advances                                    0                        0
              Previously unavailable                                                            0                        0
              Expenditure Transfers from trust funds                                            0                        0
             Subtotal                                                       $          25,889,037 $             23,284,954
           Nonexpenditure Transfers, net, anticipated and actual                         (106,906)                (244,582)
           Temporarily not available pursuant to Public Law                                     0                        0
           Permanently not available                                                     (261,418)                (162,886)
           Total Budgetary Resources                                        $          29,201,234 $             30,108,327

         Status of Budgetary Resources:
           Obligations incurred:
              Direct                                                        $          25,801,864   $           25,721,916
              Reimbursable                                                                817,242                2,371,654
              Subtotal                                                      $          26,619,106   $           28,093,570
           Unobligated balance:
              Apportioned                                                   $           2,298,754   $            1,816,603
              Exempt from apportionment                                                         0                        0
              Subtotal                                                                  2,298,754                1,816,603
           Unobligated balances not available                                             283,374                  198,154
           Total status of budgetary resources                              $          29,201,234   $           30,108,327




         The accompanying notes are an integral part of these statements.




256
2006 Annual Financial Report



Department of Defense
Marine Corps - Marine Corps GF
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Combined         2005 Combined
   RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
   Change in Obligated Balance:
    Obligated balance, net
       Unpaid obligations, brought forward, October 1                 $          7,499,117 $             4,594,921
       Less: Uncollected customer payments from                                   (316,775)               (227,791)
          Federal sources, brought forward, October 1
       Total unpaid obligated balance                                             7,182,342              4,367,130
    Obligations incurred, net (+/-)                                   $          26,619,106 $           28,093,570
    Less: Gross outlays                                                         (22,130,495)           (21,383,890)
    Obligated balance transferred, net
       Actual transfers, unpaid obligations (+/-)                                         0                      0
       Actual transfers, uncollected customer                                             0                      0
          payments from Federal sources (+/-)
       Total Unpaid obligated balance transferred, net                                    0                      0
    Less: Recoveries of prior year unpaid obligations, actual                    (1,569,189)            (4,770,516)
    Change in uncollected customer                                                  109,126                (89,171)
       payments from Federal sources (+/-)
    Obligated balance, net, end of period
       Unpaid obligations                                                       10,418,539               6,534,084
       Less: Uncollected customer payments from                                   (207,650)               (316,962)
          Federal sources
       Total Unpaid obligated balance, net, end of period                       10,210,889               6,217,122

   Net Outlays:
    Net Outlays:
       Gross Outlays                                                            22,130,495              21,383,890
       Less: Offsetting collections                                               (580,388)             (2,106,014)
       Less: Distributed Offsetting receipts                                         3,296                       0
    Net Outlays                                                       $         21,553,403 $            19,277,876




   The accompanying notes are an integral part of these statements.




                                                                                                                         257
                                                                               United States Marine Corps General Fund
                                                                                                                      Department of the Navy



      Department of Defense
      Marine Corps - Marine Corps GF
      CONSOLIDATED STATEMENT OF FINANCING
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                          2006 Consolidated          2005 Consolidated

         Resources Used to Finance Activities:
         Budgetary Resources Obligated
           Obligations Incurred                                                       $            26,619,106 $               28,093,570
           Less: Spending authority from offsetting collections and recoveries (-)                 (2,040,452)                (6,965,701)
           Obligations net of offsetting collections and recoveries                                24,578,654                 21,127,869
           Less: Offsetting receipts (-)                                                                3,296                          0
           Net obligations                                                                         24,581,950                 21,127,869
         Other Resources
           Donations and forfeitures of property                                                            0                          0
           Transfers in/out without reimbursement (+/-)                                                90,379                         21
           Imputed financing from costs absorbed by others                                             67,241                     63,923
           Other (+/-)                                                                                      0                          0
           Net other resources used to finance activities                                             157,620                     63,944
           Total resources used to finance activities                                 $            24,739,570    $            21,191,813

         Resources Used to Finance Items not Part of the Net Cost of Operations:
           Change in budgetary resources obligated for goods, services and benefits
            benefits ordered but not yet provided
              Undelivered orders (-)                                                  $            (3,066,878) $              (1,783,153)
              Unfilled Customer Orders                                                                (47,838)                     70,421
           Resources that fund expenses recognized in prior periods                                       (27)                   (14,138)
           Budgetary offsetting collections and receipts that do not affect Net
             Cost of Operations                                                                        (3,296)                           0
           Resources that finance the acquisition of assets                                        (2,875,425)                           0
           Other resources or adjustments to net obligated resources that do not
             affect Net Cost of Operations
              Less: Trust or Special Fund Receipts related to exchange in the
              entity's budget (-)                                                                           0                          0
              Other (+/-)                                                                             (90,379)                       (21)
           Total resources used to finance items not part of the Net
             Cost of Operations                                                       $            (6,083,843) $              (1,726,891)
           Total resources used to finance the Net Cost of Operations                 $            18,655,727 $               19,464,922




         The accompanying notes are an integral part of these statements.




258
2006 Annual Financial Report



Department of Defense
Marine Corps - Marine Corps GF
CONSOLIDATED STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                            2006 Consolidated          2005 Consolidated

   Components of the Net Cost of Operations that will not Require
     or Generate Resources in the Current Period:
   Components Requiring or Generating Resources in Future Period:
     Increase in annual leave liability                                 $                    0     $                    0
     Increase in environmental and disposal liability                                  226,470                          0
     Upward/Downward reestimates of credit subsidy expense (+/-)                             0                          0
     Increase in exchange revenue receivable from the public (-)                             0                          0
     Other (+/-)                                                                       106,134                     21,458
     Total components of Net Cost of Operations that will require or
       generate resources in future periods                             $              332,604     $               21,458

   Components not Requiring or Generating Resources:
     Depreciation and amortization                                      $             1,458,802 $                  184,822
     Revaluation of assets and liabilities (+/-)                                        (25,176)                  (578,725)
     Other (+/-)
         Trust Fund Exchange Revenue                                                          0                          0
         Cost of Goods Sold                                                                   0                          0
         Operating Material & Supplies Used                                            (338,188)                     7,483
         Other                                                                           (1,828)                    (6,111)
     Total components of Net Cost of Operations that will not require
       or generate resources                                            $             1,093,610    $              (392,531)
     Total components of Net Cost of Operations that will
      not require or generate resources in the current period           $             1,426,214    $              (371,073)
     Net Cost of Operations                                             $            20,081,941    $            19,093,849




   The accompanying notes are an integral part of these statements.




                                                                                                                                     259
                                                                                           United States Marine Corps General Fund
      Department of the Navy




260
                              Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                                2006
                         Notes to the Principal Statements




                                                                                             USMC General Fund Notes to the Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       261
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                            Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      The United States Marine Corps (USMC), a component of the Department of the Navy (DON), prepared
      these ﬁnancial statements to report the ﬁnancial position and results of operations, as required by the
      “Chief Financial Oﬃcers (CFO) Act of 1990,” expanded by the “Government Management Reform Act
      of 1994,” and other appropriate legislation. First Quarter, Fiscal Year 2006 was the ﬁrst time USMC
      produced General Fund ﬁnancial statements as a stand alone entity. Though reporting as a stand alone
      entity, USMC ﬁnancial statements are a subsidiary of DON ﬁnancial statements and reporting process.
      The ﬁnancial statements have been prepared from the books and records of USMC in accordance with
      the “Department of Defense (DoD) Financial Management Regulation,” the Oﬃce of Management and
      Budget (OMB) Circular No. A 136, “Financial Reporting Requirements,” and to the extent possible,
      Generally Accepted Accounting Principles (GAAP). The accompanying ﬁnancial statements account
      for all resources for which USMC is responsible. Information relative to classiﬁed assets, programs, and
      operations is aggregated and reported in such a manner that it is not discernable. In addition to the
      ﬁnancial statements, and pursuant to OMB directives, USMC also prepares ﬁnancial reports that are used
      to monitor and control the use of budgetary resources.

      The USMC is unable to fully implement all elements of GAAP and OMB Circular No. A-136, due to
      limitations of its ﬁnancial management processes and systems and nonﬁnancial systems and processes
      that feed into the ﬁnancial statements. The USMC derives its reported values and information for major
      asset and liability categories, largely from nonﬁnancial systems, such as inventory systems and logistic
      systems. These systems were designed to support reporting requirements for maintaining accountability
      over assets and reporting the status of federal appropriations rather than preparing ﬁnancial statements
      in accordance with GAAP. The USMC continues to implement process and system improvements
      addressing the limitations, many of which are detailed below. As a ﬁrst time ﬁnancial statements
      preparer, USMC has no auditor identiﬁed ﬁnancial statements material weaknesses, other than as part of
      DON ﬁnancial statements. The DoD currently has 11 auditor identiﬁed ﬁnancial statement weaknesses:
      (1) Financial Management Systems, (2) Intragovernmental Eliminations, (3) Accounting Entries, (4) Fund
      Balance with Treasury, (5) Environmental Liabilities, (6) General Property, Plant and Equipment, (7)
      Government Property and Material in Possession of Contractors, (8) Inventory, (9) Operating Materials
      and Supplies, (10) Statement of Net Cost, and (11) Statement of Financing.

      1.B.    Mission of the Reporting Entity
      The USMC was created on November 10, 1775 by an act of the 2nd Continental Congress. The overall
      mission of USMC is to provide trained and equipped forces to Combatant Commanders in support of the
      President’s National Security Strategy. As set forth in the National Security Act of 1947, USMC missions
      are: to seize and defend advanced naval bases and to conduct such land operations as may be essential
      to the prosecution of a naval campaign; to provide detachments and organizations for service in armed
      vessels of the U.S. Navy or for protection of naval property on naval stations and bases; to develop,
      with the other Armed Forces, the tactics, techniques, and equipment employed by landing forces in
      amphibious operations; to train and equip, as required, Marine forces for airborne operations; to develop,
      with the other Armed Forces, doctrine, procedures, and equipment of interest to USMC for airborne
      operations which are not provided for by the U.S. Army; and to be able to expand from a peacetime
      posture to meet the needs of war in accordance with mobilization plans.

      1.C.    Appropriations and Funds
      The USMC receives appropriations and funds as general, special (earmarked), and deposit funds. These
      appropriations and funds may be either provided solely to USMC or shared with the U.S. Navy. The
      USMC uses these appropriations and funds to execute their missions and report on resource usage.


262
2006 Annual Financial Report



General funds are used for ﬁnancial transactions funded by congressional appropriations, including
military personnel, operation and maintenance, research and development, and procurement.

Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Certain special and trust funds may be designated as earmarked funds. Earmarked funds are ﬁnanced
by speciﬁcally identiﬁed revenues, required by statute to be used for designated activities, beneﬁts or
purposes, and remain available over time. Earmarked funds also have a requirement to account for and
report on the receipt, use and retention of revenues and other ﬁnancing sources that distinguish them
from general revenues.

Deposit funds generally are used to record amounts held temporarily until paid to the appropriate
government or public entity. The USMC is acting as an agent or a custodian for funds awaiting
distribution, for example payroll taxes.

The asset accounts used to prepare the statements are categorized as either entity or nonentity. Entity
accounts consist of resources that the agency has the authority to use, or where management is legally
obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity
but are not available for use in the operations of the entity.

Entity Accounts:
General Accounts
       17 0703      Family Housing, Navy and Marine Corps
       17 0735      Family Housing Operation and Maintenance, Navy and Marine Corps
       17 1105      Military Personnel, Marine Corps
       17 1106      Operation and Maintenance, Marine Corps
       17 1107      Operation and Maintenance, Marine Corps Reserve
       17 1108      Reserve Personnel, Marine Corps
       17 1109      Procurement, Marine Corps
       17 1319      Research and Development, Test and Evaluation, Navy
       17 1508      Procurement of Ammunition, Navy and Marine Corps

Special Funds
        17X5095     Wildlife Conservation

Non-Entity Accounts:
Deposit Funds
      17 3XXX       Receipt Accounts
     17X6XXX        Deposit Funds

1. D. Basis of Accounting
The USMC operates a single general fund accounting system – the Standard Accounting, Budgeting, and
Reporting System (SABRS). Through this system USMC records the majority of the ﬁnancial transactions
reﬂected in these ﬁnancial statements. The SABRS is a transaction driven general ledger accounting
system that utilizes standardized transactions for processing. General ledger postings are derived from
centralized posting logic maintained in a table within the accounting system and applied against detail
transactions. The posting logic in this table is maintained in accordance with all applicable guidance and
aĴempts to meet the standards of GAAP. Both budgetary and proprietary general ledgers are maintained
and utilized for reporting. Transactions are either entered manually into the accounting system or
generated via interfaces with ﬁnancial feeder systems.



                                                                                                                    263
                                                                          United States Marine Corps General Fund
                                                                                            Department of the Navy



      For FY 2006, USMC’s ﬁnancial management systems are unable to meet all requirements for full accrual
      accounting. Many of USMC’s ﬁnancial and nonﬁnancial feeder systems and processes were designed and
      implemented prior to the issuance of GAAP for federal agencies. These systems were not designed to
      collect and record ﬁnancial information on the full accrual accounting basis as required by GAAP. Most
      of USMC’s legacy systems were designed to record information on a budgetary basis. The USMC has
      undertaken eﬀorts to determine the actions required to bring ﬁnancial and nonﬁnancial feeder systems
      and processes into compliance with all elements of GAAP. The USMC accounting system, SABRS is
      US Standard General Ledger (USSGL) and Standard Financial Information Structure (Phase 1) compliant.

      The DoD has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and nonﬁnancial
      feeder systems and processes into compliance with GAAP. One such action is the current revision of
      its accounting systems to record transactions based on the USSGL. Until all of USMC’s ﬁnancial and
      nonﬁnancial feeder systems and processes are updated to collect and report ﬁnancial information
      as required by GAAP, USMC’s ﬁnancial data will be based on budgetary transactions (obligations,
      disbursements, and collections), transactions from nonﬁnancial feeder systems, and adjustments for
      known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

      In addition, DoD identiﬁes program costs based upon major appropriation groups provided by Congress.
      Current processes and systems do not capture and report accumulated costs for major programs
      based upon the performance measures as required by the Government and Performance and Results
      Act. The DoD is in the process of reviewing available data and aĴempting to develop a cost reporting
      methodology that balances the need for cost information required by the Statement of Federal Accounting
      Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
      Government,” with the need to keep the ﬁnancial statements from being overly voluminous.

      1. E.   Revenues and Other Financing Sources
      The USMC receives congressional appropriations as ﬁnancing sources for general funds on either an
      annual or a multiyear basis. When authorized by legislation, revenues generated by sales of goods or
      services supplement these appropriations. The USMC recognizes revenue as a result of costs incurred
      or services provided to Federal agencies and the public. Full cost pricing is USMC’s standard policy for
      services provided as required by OMB Circular A 25, “User Charges.” The USMC recognizes revenue
      when earned within the constraints of current system capabilities. In other instances, revenue is
      recognized when bills are issued.

      The USMC does not include nonmonetary support provided by U.S. allies for common defense and
      mutual security in the Statement of Net Cost and the Statement of Financing. The U.S. has cost sharing
      agreements with other countries that include both direct and indirect sharing of costs that each country
      incurs in support of the same general purpose. Examples include countries where there is a mutual or
      reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. ﬂeet is in port.

      1.F.    Recognition of Expenses
      For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the
      period incurred. However, because USMC ﬁnancial and nonﬁnancial feeder systems were not designed
      to collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments are
      made for major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled
      revenue. The USMC’s expenditures for capital and other long term assets are recognized as operating
      expenses based on depreciation. In the case of Operating Materials and Supplies (OM&S), operating
      expenses are generally recognized when the items are purchased. Eﬀorts are underway to migrate
      toward consumption method for recognizing OM&S expenses. Net increases or decreases in unexpended
      appropriations are recognized as a change in the net position. Certain expenses, such as annual and
      military leave earned but not taken, are ﬁnanced in the period in which payment is made.


264
2006 Annual Financial Report



1.G.    Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
entities within DoD or between two or more federal agencies. However, USMC cannot accurately
identify most of its intragovernmental transactions by customer because USMC’s systems do not
track buyer and seller data needed to match related transactions. Seller entities within DoD provided
summary seller side balances for revenue, accounts receivable, and unearned revenue to the buyer side
internal DoD accounting oﬃces. In most cases, the buyer side records are adjusted to agree with DoD
seller side balances. IntraDoD intragovernmental balances are then eliminated. The USMC properly
eliminates the revenue results from intraDoD sales of capitalized assets. The DoD is developing long
term system improvements that will include suﬃcient up front edits and controls to eliminate the need
for aĞer the fact reconciliations. The volume of intragovernmental transactions is so large that aĞer the
fact reconciliation cannot be accomplished eﬀectively with existing or foreseeable resources.

The USMC, as an agency of the federal government, interacts with and is dependent upon the ﬁnancial
activities of the federal government as a whole. Therefore, these ﬁnancial statements do not reﬂect the
results of all ﬁnancial decisions applicable to USMC as though the agency was a stand alone entity.

The USMC civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal
Employees Retirement System (FERS), while military personnel are covered by the Military Retirement
System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying
coverage under Social Security. The USMC funds a portion of the civilian and military pensions.
Reporting civilian pension liabilities under CSRS and FERS is the responsibility of the Oﬃce of Personnel
Management (OPM). The USMC recognizes an imputed expense for the portion of civilian employee
pensions and other retirement beneﬁts that was funded by OPM in the Statement of Net Cost; and
recognizes corresponding imputed revenue from the civilian employee pensions and other retirement
beneﬁts in the Statement of Changes in Net Position.

To prepare reliable ﬁnancial statements, transactions occurring between components or activities within
USMC must be eliminated. However, USMC, as well as the majority of the federal government, cannot
consistently and accurately identify all intragovernmental transactions by customer. The Defense Finance
and Accounting Service (DFAS) is responsible for eliminating transactions between components or
activities of USMC. Since FY 1999, seller entities within DoD provide summary seller-side balances for
revenue, accounts receivable, and unearned revenue to the buyer side internal DoD accounting oﬃces.
In most cases, the buyer-side records have been adjusted to recognize unrecorded costs and accounts
payable. IntraDoD intragovernmental balances were then eliminated.

The Department of the Treasury, Financial Management Services (FMS) is responsible for eliminating
transactions between DoD and other federal agencies. The Treasury Financial Manual, Part 2 Chapter
4700, “Agency Reporting Requirements for the Financial Report of the United States Government” and
the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance
for reporting and reconciling intragovernmental transactions balances. While USMC is unable to fully
reconcile intragovernmental transactions with all federal partners, USMC is able to reconcile balances
pertaining to investments in federal securities, borrowing from the U.S. Treasury and the Federal
Financing Bank, Federal Employees’ Compensation Act transactions with Department of Labor (DOL)
and beneﬁt program transactions with OPM. The DoD’s proportionate share of public debt and related
expenses of the federal government are not included. The federal government does not apportion debt
and its related costs to federal agencies. The DoD’s ﬁnancial statements, therefore, do not report any
portion of the public debt or interest thereon, nor do the statements report the source of public ﬁnancing
whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have not

                                                                                                                    265
                                                                          United States Marine Corps General Fund
                                                                                             Department of the Navy



      been capitalized since the Department of Treasury does not allocate such interest costs to the beneﬁting
      agencies.

      1. H. Transactions with Foreign Governments and International Organizations
      Each year, USMC sells defense articles and services to foreign governments and international
      organizations, under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
      this Act, DoD has authority to sell defense articles and services to foreign countries and international
      organizations, generally at no proﬁt or loss to the U.S. Government. Customers are required to make
      payment in advance.

      1. I.   Funds with the U.S. Treasury
      The USMC’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
      oﬃces of DFAS, the Military Services, the U.S. Army Corps of Engineers (USACE) and the Department
      of State’s ﬁnancial service centers process the majority of USMC’s cash collections, disbursements, and
      adjustments worldwide. Each disbursing station prepares monthly reports, which provide information to
      the U.S. Treasury on check issues, electronic fund transfers, interagency transfers and deposits.

      In addition, DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, by
      appropriation, on interagency transfers, collections received, and disbursements issued. The Department
      of the Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account.
      Diﬀerences between USMC/DON’s recorded balance in the FBWT accounts and Treasury’s FBWT
      accounts sometimes result and are subsequently reconciled.

      1. J.   Foreign Currency
      Cash is the total of cash resources under the control of DoD, which includes coin, paper currency,
      negotiable instruments, and amounts held for deposits in banks and other ﬁnancial institutions. Foreign
      currency consists of the total U.S. dollar equivalent of both purchased and nonpurchased foreign
      currencies held in foreign currency fund accounts. The majority of cash and all foreign currency is
      classiﬁed as nonentity and, therefore, is restricted. Amounts reported consist primarily of cash and
      foreign currency held by disbursing oﬃcers to carry out their paying, collecting, and foreign currency
      accommodation exchange missions. Cash seized during Operation Iraqi Freedom is restricted for use to
      assist the Iraqi people and support the restoration of Iraq.

      The USMC conducts a signiﬁcant portion of its operations overseas. The Congress established a
      special account to handle the gains and losses from foreign currency transactions for ﬁve general fund
      appropriations (Operations and Maintenance, Military Personnel, Military Construction, Family Housing
      Operations and Maintenance, and Family Housing Construction). The gains and losses are computed as
      the variance between the exchange rate current at the date of payment and a budget rate established at
      the beginning of each ﬁscal year. Foreign currency ﬂuctuations related to other appropriations require
      adjustment to the original obligation amount at the time of payment. For those accounts, USMC does not
      separately identify currency ﬂuctuations.

      1. K.   Accounts Receivable
      As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
      from other federal entities or from the public. Allowances for uncollectible accounts due from the public
      are based upon analysis of collection experience by fund type. The DoD does not recognize an allowance
      for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
      are to be resolved between the agencies (per Code of Federal Regulations 4 CFR 101).

      The USMC bases the estimate of uncollectible accounts receivable from the public on extensive analysis
      of historical Treasury Report on Receivables data. Undistributed collections are initially allocated to

266
2006 Annual Financial Report



federal accounts receivable as that greater than 93% of all reimbursable receivables are federal. In an
undistributed state, it is impossible to determine an appropriate breakdown for the collections. Due
to the relatively small value of undistributed collections, the ﬁnancial statements are still materially
accurate.

1. L.   Loans Receivable
Not applicable.

1. M. Inventories and Related Property
Most of USMC’s inventories are currently reported at an approximation of historical cost using latest
acquisition cost adjusted for holding gains and losses. The USMC uses the latest acquisition cost method
as its inventory systems were designed for materiel management rather than accounting. Although
these systems provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property.”
Additionally, these systems cannot produce ﬁnancial transactions using USSGL, as required by the
Federal Financial Management Improvement Act of 1996 (P.L. 104 208). By utilizing new systems
development processes, USMC plans to transition its inventory to the moving average cost method.
The USMC’s inventory value is now being reported from systems that have not transitioned to moving
average cost functionality.

The SFFAS No. 3 distinguishes between “inventory held for sale” and “inventory held in reserve for
future sale.” There is no management or valuation diﬀerence between the two USSGL accounts. Further,
USMC manages only military or government speciﬁc materiel under normal conditions. Items commonly
used in and available from the commercial sector are not managed in USMC materiel management
activities. Operational cycles are irregular, and the military risks associated with stock-out positions have
no commercial parallel. The USMC holds materiel based on military need and support for contingencies.
Therefore, DoD does not aĴempt to account separately for “inventory held for sale” and “inventory held
in reserve for future sale” based on SFFAS No. 3 deﬁnitions.

Related property includes OM&S and stockpile materials. The OM&S, including munitions not held
for sale, are valued at standard purchase price. The DoD uses both the consumption method and
the purchase method of accounting for OM&S. Items that are centrally managed and stored, such as
ammunition and engines, are generally recorded using the consumption method and are reported on the
Balance sheet as OM&S. When current systems cannot fully support the consumption method, USMC
uses the purchase method. Under this method materiel and supplies are expensed when purchased.
During FY 2006, USMC expensed signiﬁcant amounts using the purchase method either because the
systems could not support the consumption method or because management deemed that the item is
in the hands of the end user. The USMC determined that the recurring high value of OM&S in need of
repair is material to the ﬁnancial statements and requires a separate reporting category. Many high dollar
items, (e.g. engines) are categorized as OM&S rather than military equipment.

The DoD implemented new policy in FY 2002 to account for condemned materiel (only) as “Excess,
Obsolete, and Unserviceable.” The USMC recognizes condemned material as “Excess, Obsolete, and
Unserviceable.” The cost of disposal is greater than the potential scrap value; therefore, the net value
of condemned material is zero. Potentially redistributed material, presented in previous years as
“Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair” categories
according to its condition.

1. N.    Investment and U.S. Treasury Securities
Not Applicable.



                                                                                                                     267
                                                                           United States Marine Corps General Fund
                                                                                               Department of the Navy



      1. O. General Property, Plant and Equipment
      The DoD is moving away from a standard capitalization threshold for all categories (e.g., real property,
      military equipment, etc.) of General PP&E to one that is speciﬁc for each individual category. The DoD
      revised the capitalization threshold from $100,000 to $20,000 for real property. The current $100,000
      capitalization threshold remains unchanged for the remaining General PP&E categories. Although,
      DoD revised the capitalization threshold from $100,000 to $20,000 for real property, USMC capitalization
      threshold for real property currently remains $100,000. General PP&E, exclusive of military equipment,
      is capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life
      of two or more years, and when the acquisition cost equals or exceeds DoD capitalization threshold. The
      DoD also requires capitalization of improvement costs over DoD capitalization threshold for General
      PP&E. The DoD depreciates all General P&E, other than land, on a straight-line basis. Land is not
      depreciated.

      Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and
      $50,000 for ﬁscal years 1993, 1994, and 1995, respectively, and an estimate useful life of two or more years.
      General PP&E previously capitalized at amounts below $100,000 were wriĴen oﬀ in the FY 1998.

      When it is in the best interest of the government, USMC provides government property to contractors to
      complete contracted work. The USMC either owns or leases such property, or the contractor purchases
      it for the government based on the contract terms. When the value of contractor procured General
      PP&E exceeds DoD capitalization threshold, it must be reported on USMC’s Balance Sheet. The DoD is
      developing new policies and a contractor reporting process that will provide appropriate General PP&E
      information for future ﬁnancial statement reporting purposes. Accordingly, USMC currently reports only
      government property in the possession of contractors that is maintained in USMC’s property systems.
      DoD has issued new property accountability and reporting requirements that require USMC components
      to maintain, in their property systems, information on all property furnished to contractors. This action
      and other DoD proposed actions are structured to capture and report the information necessary for
      compliance with federal accounting standards.

      The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
      established Generally Accepted Accounting Principles for valuing and reporting military equipment
      (e.g., ships, aircraĞ, combat vehicles, weapons) in federal ﬁnancial statements. The Standard provided
      for the use of estimated historical cost for valuing military equipment if obtaining actual historical cost
      information is not practical. The DoD used Bureau of Economic Analysis (BEA) to calculate the value of
      the military equipment for reporting periods from October 1, 2002 through March 31, 2006.

      Eﬀective with 3rd Quarter, FY 2006, DoD replaced the BEA estimation methodology with an estimation
      methodology for military equipment based on DoD internal records. The DoD initially identiﬁed the
      universe of military equipment by accumulating information relating to program funding and associated
      military equipment, equipment useful life, program acquisitions and disposals to create a baseline.
      The military equipment baseline is updated using expenditure information, and information related to
      acquisition and disposals.

      1. P.   Advances and Prepayments
      The USMC records payments in advance of the receipt of goods and services as advances or prepayments
      and reports them as assets on the Balance Sheet. The USMC recognizes advances and prepayments as
      expenses when the related goods and services are received.

      1. Q. Leases
      Generally, lease payments are for the rental of equipment and operating facilities and are classiﬁed as
      either capital or operating leases. When a lease is essentially equivalent to an installment purchase of

268
2006 Annual Financial Report



property (a capital lease), USMC should records the applicable asset and liability if the value equals or
exceeds the current DoD capitalization threshold. The USMC deems the use of estimates for these costs
as adequate and appropriate due to the relatively low dollar value of capital leases. The USMC as the
lessee receives the use and possession of leased property, for example real estate or equipment, from a
lessor in exchange for a payment of funds. An operating lease does not substantially transfer all beneﬁts
and risk of ownership. Payments for operating leases are charged to expense over the lease term as it
becomes payable.

Oﬃce space and leases entered into by USMC in support of contingency operations are the largest
component operating leases. These costs were gathered from existing leases, General Service
Administration (GSA) bills, and Inter-service Support Agreements. Future year projections use the
Consumer Price Index (CPI), rather than DoD inﬂation factor. The CPI impacts increases to the leases,
especially those at commercial lease sites. Equipment leases have a variety of lease terms which are
not expected to be renewed upon expiration. Other operating leases are generally one-year leases. The
USMC expects to continue to reduce the level of owned assets while increasing the number of leased
assets. The USMC will strive to displace commercial leases with more economical GSA leases.

1. R.   Other Assets
The USMC conducts business with commercial contractors under two primary types of contracts: ﬁxed
price and cost reimbursement. To alleviate the potential ﬁnancial burden on the contractor that long-term
contracts can cause, USMC provides ﬁnancing payments. The USMC does not make ﬁnancing payments
for real property construction; USMC construction projects are managed by U.S. Navy and reported in
the DON Balance Sheet and in the related notes.

Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and contract ﬁnancing payments, that are not reported elsewhere on DoD’s Balance Sheet.

Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as
authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the
Government. These payments are designed to alleviate the potential ﬁnancial burden on contractors
performing on certain long-term contracts and facilitate competition for defense contracts. Contract
ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include
advance payments, performance-based payments, commercial advance and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental
payments, or progress payments based on a percentage or stage of completion, which the Defense Federal
Acquisitions Regulations Supplement authorizes only for construction of real property, shipbuilding, and
ship conversion, alteration, or repair.

In addition, based on FAR, USMC makes ﬁnancing payments under ﬁxed price contracts that are not
based on a percentage of completion. The USMC reports these ﬁnancing payments as “Other Assets.”
The USMC treats these payments as advances or prepayment because USMC becomes liable only aĞer
the contractor delivers the goods in conformance with the contract terms. If the contractor does not
deliver a satisfactory product, USMC is not obligated to reimburse the contractor for its costs and the
contractor is liable to repay USMC for the full amount of the advance.

1.S.    Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by the SFFAS
No. 12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an
existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain
or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The
USMC/DON recognizes a liability when a past event or exchange transaction has occurred, a future loss
                                                                                                                   269
                                                                         United States Marine Corps General Fund
                                                                                                 Department of the Navy



      is probable and the amount of loss can be reasonably estimated. Financial statement reporting is limited
      to disclosure when conditions for liability recognition do not exist but there is at least a reasonable
      possibility that a loss or additional loss will be incurred. Examples of loss contingencies include the
      collectibility of receivables, pending or threatened litigation, possible claims and assessments. The
      USMC/DON loss contingencies arising as a result of pending or threatened litigation or claims and
      assessments occur due to events such as aircraĞ, ship and vehicle accidents; medical malpractice;
      property or environmental damages; and contract disputes. The USMC contingent liabilities related to
      legal claims are reported at DON entity level.

      Other liabilities arise as a result of anticipated disposal costs for USMC’s assets. This type of liability has
      two components—nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting
      for Property, Plant, and Equipment,” recognition of an anticipated environmental disposal liability
      begins when the asset is placed into service. Based upon the policies and consistent with SFFAS
      No. 5 “Accounting for Liabilities of Federal Government,” a nonenvironmental disposal liability is
      recognized for an asset when management makes a decision to dispose of the asset. The DoD recognizes
      nonenvironmental disposal liability for nuclear powered assets when the asset is placed in service.
      Such amounts are developed in conjunction with, and are not easily identiﬁable separately from,
      environmental disposal costs.

      1. T.   Accrued Leave
      The USMC reports as liabilities military leave and civilian earned leave, except sick leave that has been
      accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported
      at the end of the accounting period reﬂects the current pay rates.

      1. U. Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended
      appropriations represent the amounts of authority that are unobligated and have not been rescinded or
      withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for
      payments have not yet been incurred. Cumulative results of operations represent the net diﬀerence, since
      inception of an activity, between expenses and losses and ﬁnancing sources (including appropriations,
      revenue, and gains). Beginning with FY 1998, the cumulative results also included donations and transfer
      in and out of assets without reimbursement.

      1. V.   Treaties for Use of Foreign Bases
      The USMC has the use of land, buildings, and other facilities, which are located overseas and have
      been obtained through various international treaties and agreements negotiated by the Department of
      State. The USMC purchases capital assets overseas with appropriated funds; however, the host country
      retains the title to land and improvements. Generally, treaty terms allow USMC continued use of these
      properties until the treaties expire. In the event treaties or other agreements are terminated, whereby use
      of the foreign bases prohibited, losses are recorded for the value of any nonretrievable capital assets. This
      takes place aĞer negotiations between the U.S. and the host country have determined the amount to be
      paid for such capital investments.

      1. W. Comparative Data
      Financial statement ﬂuctuations greater than two percent of the total assets on the Balance Sheet or ten
      percent from the previous period presented are explained within the notes to the ﬁnancial statements.

      It should be noted that when using these ﬁnancial statements and notes, the prior year FY 2005
      comparative column in some cases may not allow for an accurate comparison because the shared
      appropriations were not included. First Quarter, FY 2006 was the ﬁrst time USMC produced General
      Fund ﬁnancial statements as a stand-alone entity. Though reporting as a stand alone entity, USMC

270
2006 Annual Financial Report



General Fund ﬁnancial statements are a subsidiary of DON ﬁnancial statements and reporting process.
The USMC General Fund ﬁnancial statements include those appropriations speciﬁcally designated as
USMC and the applicable portion of those DON level appropriations where USMC and Navy receive
allocations for program execution, referred to as shared appropriations (i.e., Family Housing Operation
and Maintenance, Navy and Marine Corps; Procurement of Ammunition, Navy and Marine Corps; and
Research and Development, Test and Evaluation, Navy). Prior to FY 2006, shared appropriations were
only reported on DON level statements.

1. X.   Unexpended Obligations
The USMC obligates funds to provide goods and services for outstanding orders not yet delivered. The
ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered.

1. Y.   Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the diﬀerence between disbursements and
collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts should agree with
the undistributed amounts reported on the departmental accounting reports. In transit payments are
those payments that have been made to other agencies or entities that have not been recorded in the
accounting records. These payments are applied to the entities’ outstanding accounts payable balance. In
transit collections are those collections from other agencies or entities that have not been recorded in the
accounting records. These collections are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and
nonfederal categories based on the percentage of federal and nonfederal accounts payable and accounts
receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
undistributed collections are recorded in other liabilities. The USMC follows this procedure.

1. Z.   Data Collection Approach
The USMC ﬁnancial statements include information from both ﬁnancial systems and feeder systems.
The DFAS collects the ﬁnancial information and incorporates it into the ﬁnancial statements. The
USMC, in coordination with DON, collects ﬁnancial information from feeder systems through a data
call process and submits it to DFAS for incorporation into the ﬁnancial statements. The USMC utilizes
a DON web-based data collection instrument and the Defense Departmental Reporting System-Data
Collection Module to collect required ﬁnancial information from feeder systems. The USMC identiﬁes
the information requirements to the source provider, provides an audit trail, and integrates these steps
into the ﬁnancial statement preparation process.




                                                                                                                    271
                                                                          United States Marine Corps General Fund
                                                                                             Department of the Navy



      Note 2.         Nonentity Assets
       As of September 30                                         2006                        2005
       (Amounts in thousands)

       1. Intragovernmental Assets
          A. Fund Balance with Treasury                    $               118,017       $                   0
          B. Accounts Receivable                                                 0                           0
          C. Total Intragovernmental Assets                $               118,017       $                   0

       2. Nonfederal Assets
          A. Cash and Other Monetary Assets                $                59,649       $             196,180
          B. Accounts Receivable                                               199                         152
          C. Other Assets                                                        0                           0
          D. Total Nonfederal Assets                       $                59,848       $             196,332

       3. Total Nonentity Assets                           $               177,865       $             196,332

       4. Total Entity Assets                              $             26,977,492      $           16,051,067


       5. Total Assets                                     $             27,155,357      $           16,247,399


      Fluctuation and Abnormalities
      There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
      percent of total assets to explain for this reporting period.

      Other Information
      The Nonentity Fund Balance with Treasury represents amounts in the United States Marine Corps
      (USMC) deposit fund accounts. The deposit fund accounts contain various withholdings from Marines’
      pay such as taxes, allotments, and garnishments held until the appropriate disbursement date. The
      USMC maintains stewardship accountability and reporting responsibility for these assets, but the assets
      are not available for use in operations.

      Nonentity cash and other monetary assets represent disbursing oﬃcers’ cash and foreign currency as
      reported on the Statement of Accountability. These assets are held by USMC disbursing oﬃcers, as agents
      of the United States Treasury, and are not available for use in USMC’s operations.

      The nonentity nonfederal accounts receivable represents interest, ﬁnes and penalties receivable on aged
      debt. Once collected, nonentity receivables go to the Department of Treasury as miscellaneous receipts.




272
2006 Annual Financial Report



Note 3.          Fund Balance with Treasury
 As of September 30                                                  2006                    2005
 (Amounts in thousands)


 1. Fund Balances
    A.   Appropriated Funds                                     $      12,773,794     $        8,231,880
    B.   Revolving Funds                                                        0                      0
    C.   Trust Funds                                                            0                      0
    D.   Special Funds                                                        430                      0
    E.   Other Fund Types                                                 118,017                      0
    F.   Total Fund Balances                                    $      12,892,241     $        8,231,880



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                                $      11,573,192     $        8,339,576
    B. Fund Balance per (United States Marine Corps
       (USMC))                                                         12,892,241              8,231,880

 3. Reconciling Amount                                          $     (1,319,049)     $          107,696


Fluctuation and Abnormalities
There are no abnormalities to disclose for this reporting period.

Entity fund balance with treasury increased $4.5 billion, 55%. The inclusion of the United States Marine
Corps (USMC) portion of Department of Navy (DON) appropriations caused an increase of $1.4 billion.
Prior to FY 2006, these appropriations were reported only on DON level statements. The remaining increase
is aĴributable to an increase in appropriated funds in FY 2006 for the Global War on Terror (GWOT). This
increase in funding was to acquire enhanced weapons, armored vehicles, and protective gear for ﬁghting
the GWOT.

Nonentity fund balance with treasury increased $118.0 million due to USMC portion of nonentity
treasury deposit accounts being reported only on DON level statements prior to 1st Quarter, FY 2006.
The majority of this amount is the Pay of the Marine Corps Deposit Fund. This fund is comprised of
such items as taxes withheld, payroll savings allotments, and garnishments prior to disbursement to the
designated recipient.

Explanation of Reconciliation Amount:
(In thousands)
Shared Appropriations per USMC*                        $1,419,282
Suspense and Deposit Accounts per USMC**                  (19,152)
Canceling Year Appropriations***                          (81,080)
  Total Reconciling Amount                             $1,319,050

*This amount is the fund balance with treasury for USMC portion of appropriations shared with DON:
Research and Development, Test and Evaluation; Procurement of Ammunition; Wildlife Conservation on

                                                                                                                  273
                                                                        United States Marine Corps General Fund
                                                                                                Department of the Navy



      Military Reservations, Navy; and Family Housing Operation and Maintenance, Navy and Marine Corps.
      The Department of Treasury does not separately identify USMC portion of fund balance with treasury for
      the shared appropriations.

      **This amount is the Fund Balance with Treasury for suspense and deposit accounts shared with DON:
      Disbursing Oﬃcer Suspense Account; Lost or Cancelled Treasury Checks Suspense Account; Interfund/
      Intergovernmental Payment and Collection (IPAC) Suspense Account; and Small Escrow Amounts
      Deposit Account. The Department of Treasury does not separately identify the USMC portion of fund
      balance with treasury for the shared suspense and deposit accounts.

      ***This amount is the total of fund balance with treasury of the appropriations that are canceling in
      FY 2006. This amount is not included in the ﬁnal reports per applicable guidance.


      Status of Fund Balance with Treasury
       As of September 30                                               2006                       2005
       (Amounts in thousands)
       1. Unobligated Balance
          A. Available                                        $                2,298,754   $              1,816,603
          B. Unavailable                                                         283,374                    198,154

       2. Obligated Balance not yet Disbursed                 $             10,418,539     $              6,534,084

       3. Nonbudgetary FBWT                                   $                  99,224    $                     0

       4. NonFBWT Budgetary Accounts                          $                (207,650)   $              (316,961)

       5. Total                                               $             12,892,241     $              8,231,880


      Fluctuations and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      Total Status of Fund Balance with Treasury increased $4.7 billion, 57% from 4th Quarter, FY 2005 to
      4th Quarter, FY2006. This is primarily aĴributable to the increase in Obligated Balance not yet Disbursed
      due to the following:

            1.    $1.3 billion increase for addition of the USMC portion of appropriations shared with DON.
                  Prior to FY 2006, shared appropriations were reported only on DON level statements.

            2.    $1.8 billion increase in obligated balances not disbursed is a direct reﬂection of the increase in
                  funding for Procurement, Marine Corps appropriation in FY 2006 in support of the GWOT.

            3.    $207.6 million increase due to the required removal of unﬁlled customer orders without
                  advance and reimbursements and other income earned receivable from this line item. These
                  amounts previously reduced the total of this line.




274
2006 Annual Financial Report



Other Information
The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances
reﬂect the budgetary authority remaining for disbursements against current or future obligations. In
addition, the status includes various accounts that aﬀect either budgetary reporting or fund balance with
treasury, but not both.

Unobligated balance represents the cumulative amount of budgetary authority that has not been set
aside to cover outstanding obligations. Unobligated balance is classiﬁed as available or unavailable and
is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
adjustments until the account is closed.

Obligated balance not yet disbursed represents funds that have been obligated for goods that have not
been received or services that have not been performed.

Non-Budgetary Fund Balance with Treasury (FBWT) includes entity and nonentity FBWT accounts,
which do not have budgetary authority, such as unavailable receipt accounts or clearing accounts.

Non-FBWT Budgetary Accounts include budgetary accounts that do not aﬀect FBWT, such as contract
authority, borrowing authority, and investment accounts. This category reduces the Status of Fund
Balance with Treasury.

Unobligated Balances are segregated to show available and unavailable amounts in the note schedule.
Certain unobligated balances may be restricted to future use and are not apportioned for current use.
The USMC has no restrictions on unavailable balances at this time.


Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                          (Decrease)/
 As of September 30                2004             2005                2006           Increase from FY
                                                                                          2005 - 2006
 (Amounts in thousands)

 Account
  F3845 – Personal Property
  Proceeds                     $            0 $                0    $              0      $                0
  F3875 – Disbursing
  Officer Suspense                          0           (15,167)            (18,771)                (3,604)
  F3880 – Lost or Cancelled
  Treasury Checks                           0               (43)                (32)                     11
  F3882 – Uniformed
  Services Thrift Savings
  Plan Suspense                             0                  0                   0                       0
  F3885 – Interfund/IPAC
  Suspense                                  0              (287)                   9                    296
  F3886 – Thrift Savings
  Plan Suspense                             0                  0                   0                       0

 Total                         $            0 $         (15,497)    $       (18,794)      $         (3,297)


                                                                                                                  275
                                                                        United States Marine Corps General Fund
                                                                                             Department of the Navy



      Fluctuations and/or Abnormalities
      The Suspense and Clearing account balance increased $3.2 million, 17%, primarily due to the increase
      in the Disbursing Oﬃcers Suspense account related to the revenues of two unfunded reimbursable
      programs operating at USMC bases. Both the unfunded reimbursable forestry and unfunded recyclable
      materials programs posted increases in revenue. The increases in the forestry and recyclable materials
      programs occurred incrementally over the past ﬁscal year with revenues (collections) exceeding
      expenditures (disbursements) in the current ﬁscal year.

      Other Information
      The F3875 suspense clearing represents the Disbursing Oﬃcer’s (DO) suspense. Account F3885,
      represents the Interfund/IPAC suspense. These suspense accounts temporarily hold collections or
      disbursements until they can be assigned or identiﬁed to a valid appropriation.

      The F3880 suspense account represents the balance of treasury checks that (1) have either been lost by the
      payee and need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the
      Treasury and need to be transferred to the original appropriation.


      Disclosures Related to Problem Disbursements and In-Transit
      Disbursements
                                                                                             (Decrease)/
       As of September 30                   2004           2005           2006            Increase from FY
                                                                                            2005 to 2006
       (Amounts in thousands)

       1. Total Problem
          Disbursements, Absolute
          Value
          A. Unmatched
             Disbursements (UMDs)       $           0 $       36,589 $         34,640 $                  (1,949)
          B. Negative Unliquidated
             Obligations (NULO)                     0             5,633          2,905                   (2,728)

       2. Total In-transit
          Disbursements, Net            $           0 $      443,285 $        310,005 $                (133,280)

      Fluctuations and Abnormalities
      Negative Unliquidated Obligations (NULO) decreased $2.7 million, 48%, primarily due to correction
      of standard document number diﬀerences between public vendor contracts in the vendor pay system
      and the accounting system. Beginning 1st Quarter, FY 2006, we are correcting these diﬀerences prior
      to processing transactions. This results in a reduction of transactions posting to incorrect standard
      document numbers and creating NULOs in the accounting system.

      In-transit disbursements decreased $133.3 million, 30%, primarily due to the processing of detail
      transactions into the accounting system through September 30, 2006. In 4th Quarter, FY 2005 daily input
      of transactions into SABRS was stopped on September 28, 2005. This additional interface of transactions
      into the accounting system signiﬁcantly reduced the overall in-transit disbursements.




276
2006 Annual Financial Report



Other Information
An UMD occurs when a payment is not matched to a corresponding obligation in the accounting system.
Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign
(plus or minus).

A NULO occurs when a payment is made against a valid obligation, but the payment is greater than the
amount of the obligation recorded in the oﬃcial accounting system. These payments have been made
using available funds and are based on valid receiving reports for goods and services delivered under
valid contracts.

The In-transits represent the net value of disbursements and collections made by a DoD disbursing
activity on behalf of an accountable activity and have not been posted to the accounting system.

The problem disbursement and in-transit disbursement metrics furnished to DFAS Arlington included
Treasury Index 97 appropriations that will not be reported on USMC ﬁnancial statements. Amounts will
be reported on the appropriate Treasury Index 97 ﬁnancial statements.


Note 4.         Investments and Related Interest
The Marine Corps General Fund does not have investments and related interest.



Note 5.         Accounts Receivable
                                                       2006                                        2005

 As of September 30                               Allowance For
                               Gross Amount                               Accounts            Accounts
                                                   Estimated
                                   Due                                 Receivable, Net     Receivable, Net
                                                  Uncollectibles
 (Amounts in thousands)
 1. Intragovernmental
    Receivables                  $      37,837                 N/A      $         37,837     $         62,428
 2. Nonfederal
    Receivables (From
    the Public)                  $      22,168    $           (886)     $         21,282     $         16,108

 3. Total Accounts
    Receivable                   $      60,005    $           ( 886)    $         59,119     $         78,536


Fluctuation and Abnormalities
There are no abnormalities to disclose for this reporting period.

The United States Marine Corps (USMC) reported a decrease of $24.6 million, 39%, in intragovernmental
receivables. Of the decrease, $14.6 million is the result of a collection received in 1st Quarter, FY 2006.
The collection oﬀset a receivable established in 4th Quarter, FY 2005 for the sale of vehicles through the
Foreign Military Sales (FMS) program. Additional decreases are primarily the result of concentrated
eﬀorts to process bills and collections in a timely manner. These improvements included a reduction of
$21.7 million reported from the Army General Fund and $8.7 million from the Navy Working Capital
Fund, which occurred incrementally throughout the past ﬁscal year. These decreases were oﬀset by an
increase of $18.7 million in USMC to USMC elimination entries during 4th Quarter, FY 2005 as a result of

                                                                                                                      277
                                                                            United States Marine Corps General Fund
                                                                                               Department of the Navy



      incorrect coding of intragovernmental receivables. The incorrect coding was corrected as of 2nd Quarter,
      FY 2006.

      Nonfederal accounts receivable increased $5.2 million, 32%. An increase of approximately $2.5 million
      is a direct result of the privatization of family housing at USMC installations which originated during
      1st Quarter, FY 2006. An additional $2.0 million is aĴributable to an increase in unbilled revenues. The
      increase was a result of ﬂuctuations in the billing cycle at the end of 4th Quarter, FY 2006.

      Other Information
      Allocation of Undistributed Collections.
      Undistributed collections are allocated to federal accounts receivable based on management
      determination and the fact that historically, greater than 93% of all reimbursable receivables are federal.
      In an undistributed state, it is impossible to determine an appropriate breakdown for the collections.
      This approach does not materially impact statement accuracy. For 4th Quarter, FY 2006, $2.1 million in
      supported undistributed collections was allocated to federal accounts receivable.

      Trading Partners Adjustments.
      Intrafund transactions are eliminated based upon trading partner information obtained from the
      Standard Accounting, Budgeting, and Reporting System (SABRS). The Reimbursable Module of SABRS
      captures the data necessary to perform these eliminations. That data includes seller appropriation,
      grantor (buyer) appropriation, grantor subhead, grantor code, reimbursable source code, accounts
      receivable, revenue, unearned revenue, and amount collected. However, other Department of Defense
      (DoD) accounting systems do not consistently capture trading partner data at the transaction level
      in a manner that facilitates trading partner aggregations. Therefore, USMC was unable to reconcile
      intragovernmental accounts receivable balances with its trading partners. Through the Business
      Transformation Agency, DoD intends to develop long-term systems improvements that will capture the
      data necessary to perform reconciliations.

      Trading Partner Process
      The USMC records adjustments to bring intragovernmental accounts receivable into agreement with the
      intragovernmental accounts payable of those trading partners that have obtained a waiver. This is in
      accordance with the DoD Financial Management Regulation, Volume 6B, Chapter 13.




278
2006 Annual Financial Report



Aged Accounts Receivable
                                                  2006                                 2005
As of September 30
                                     Intragovernmental     Nonfederal    Intragovernmental     Nonfederal
(Amounts in thousands)
CATEGORY
Nondelinquent
   Current                            $          46,286    $    12,684     $        149,884     $     4,522
   Noncurrent                                         0              0                    0               0
Delinquent
   1 to 30 days                       $             743    $     2,034     $               0    $         0
   31 to 60 days                                      8            537                     0              0
   61 to 90 days                                    135          1,659                20,673          1,153
   91 to 180 days                                    85          1,574                   445          3,085
   181 days to 1 year                                22          2,096                 4,117          1,436
   Greater than 1 year and less
   than or equal to 2 years                          35           798                   401             846
   Greater than 2 years and less
   than or equal to 6 years                           0           691                    (0)            475
   Greater than 6 years and less
   than or equal to 10 years                          0            59                      0            110
   Greater than 10 years                              0            36                      0             55
Subtotal                              $          47,314    $    22,168     $        175,520     $    11,682
   Less Supported Undistributed
   Collections                                   (2,130)            0               (89,221)              0
   Less Eliminations                             (7,347)            0               (47,420)              0
   Less Other                                          0            0                 23,549          5,477
Total                                 $          37,837    $    22,168     $         62,428     $    17,159


Information Related to Aged Accounts Receivable
The USMC currently has no nondelinquent accounts receivable over 30 days old.

Approximately $4.5 million of the total delinquent balance is a result of outstanding receivables in the
USMC reimbursable program. Unbilled revenues account for $2 million and will be billed in the
1st Quarter, FY 2007 of the remaining balance, $1.4 million has been submiĴed for write-oﬀ with
anticipation that the remaining $1.1 million will be submiĴed for write-oﬀ during the 1st Quarter,
FY 2007.

Approximately $6 million of the current balance is a result of refund receivables and is being managed by
the Debt Management Oﬃces (DMO) in Columbus and Denver. The DMOs have referred $5.1 million to
the U.S. Treasury for collection and are working the remaining amounts for oﬀ-set or due process.

The “Less Other” amount reported in the FY 2005 column is an adjustment to bring the Balance Sheet
amounts into agreement with the aged receivables as reported on the Monthly Receivables Report. As of
2nd Quarter, FY 2006, amounts are reconciled prior to reporting.




                                                                                                                    279
                                                                          United States Marine Corps General Fund
                                                                                               Department of the Navy



      Note 6.         Other Assets
       As of September 30                                                 2006                    2005
       (Amounts in thousands)

       1. Intragovernmental Other Assets
          A. Advances and Prepayments                            $                 5,774   $              11,214
          B. Other Assets                                                              0                       0
          C. Total Intragovernmental Other Assets                $                 5,774   $              11,214

       2. Nonfederal Other Assets
          A. Outstanding Contract Financing Payments             $               505,172   $             274,754
          B. Other Assets (With the Public)                                       14,479                  18,621
          C. Total Nonfederal Other Assets                       $               519,651   $             293,375



       3. Total Other Assets                                     $               525,425   $             304,589


      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      Intragovernmental other assets decreased $5.4 million, 49%, primarily due to a decrease in advances paid
      to the Defense Information Systems Agency (DISA). In 4th Quarter, FY 2005, the United States Marine
      Corps (USMC) paid DISA $9.8 million in advances for services requested from the Information Processing
      Center. During the 1st Quarter, FY 2006, DISA delivered a signiﬁcant portion of services requested
      decreasing the amount of the advance reported by $4.1 million.

      Nonfederal other assets increased $226.3 million, (77%). This is partially aĴributable to a $101.0 million
      increase in outstanding contract ﬁnancing payments in the Procurement, Marine Corps appropriation.
      This increase is due to increased procurement funding to acquire enhanced weapons, armored vehicles,
      and protective gear for the Global War on Terror. The majority funding was received during 1st Quarter
      and 3rd Quarter, FY 2006, for the amounts, $98.2 million and $127.2 million, respectively. The remaining
      increase in nonfederal other assets is aĴributable to the ﬁrst time recording of an estimated value of
      future outstanding contract payments that will be paid to the contractor upon delivery and government
      acceptance of a satisfactory product. As a result of the implementation of new Department of Defense
      (DoD) procedures in 4th Quarter, FY 2006, USMC recorded $108.8 million in estimated assets for unpaid
      future outstanding contract payments.

      Other Information
      Other assets (with the public) is composed of travel advances made to Marines and civilian personnel.

      Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to
      DoD that protect the contract work from state or local taxation, liens or aĴachment by the contractor’s
      creditors, transfer of property, or disposition in bankruptcy; however, these rights should not be
      misconstrued to mean that ownership of the contractor’s work has transferred to the government. The
      government does not have the right to take the work, except as provided in contract clauses related to
      termination or acceptance, and DoD is not obligated to make payment to the contractor until delivery and
      acceptance of a satisfactory product.

      The Contract Financing Payment balance of $505.2 million is comprised of $396.4 million in contract

280
2006 Annual Financial Report



ﬁnancing payments and an additional $108.8 million in estimated future funded payments that will be
paid to the contractor upon future delivery and government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities).


Note 7.         Cash and Other Monetary Assets
 As of September 30                                                 2006                      2005
 (Amounts in thousands)

 1. Cash                                              $                    59,639   $                 93,077
 2. Foreign Currency                                                           10                    103,103

 3. Total Cash, Foreign Currency, & Other
    Monetary Assets                                   $                    59,649   $                196,180


Fluctuation and Abnormalities
There are no abnormalities to disclose for this reporting period.

Cash and other monetary assets decreased by $136.5 million, 70%. This is primarily aĴributable to
a $103.1 million decrease in foreign currency held in the Marine Corps Expeditionary Forces, Camp
Lejeune, Limited Depositary Account (LDA) for use in Iraq. The decrease in foreign currency is due to
an increase in expenditures for contract payments and service member pay support during deployment
in Iraq. Upon completion of the disbursing oﬃcer’s deployment that LDA was closed, the remaining
amounts were withdrawn and subsequently deposited back into the U.S. Treasury during 2nd Quarter,
FY 2006.

Other Disclosures
Cash and foreign currency are nonentity assets and, as such, are considered restricted assets that are held
by the United States Marine Corps (USMC) but not available to use in its operations. Cash of
$59.6 million and foreign currency of $10.0 thousand are restricted. These assets are held by USMC
disbursing oﬃcers as agents of the Treasury.

The amounts reported as cash and foreign currency consist primarily of cash held by disbursing oﬃcers
to carry out their payment, collection, and foreign currency accommodation exchange mission. The
primary source of the amounts reported is the Statement of Accountability, a Department of Defense
disbursing oﬃcer’s report.

The amount of foreign currency reported was valued using the Department of the Treasury’s prevailing
rate of exchange, the most favorable rate available to the U.S. Government when acquiring foreign
currency. Foreign currency is used to make oﬃcial disbursements and to provide foreign currency for the
exchange of U.S. dollars for military personnel.


Note 8.         Direct Loan and/or Loan Guarantee Programs
The Marine Corps General Fund does not have Direct Loan and/or Loan Guarantee Programs.




                                                                                                                     281
                                                                           United States Marine Corps General Fund
                                                                                                               Department of the Navy



      Note 9.            Inventory and Related Property
       As of September 30                                                          2006                             2005
       (Amounts in thousands)

       1. Inventory, Net                                             $                            0   $                          0
       2. Operating Materials & Supplies, Net                                             5,121,038                        470,506
       3. Stockpile Materials, Net                                                                0                              0

       4. Total                                                      $                    5,121,038   $                    470,506



      Inventory, Net
      Not applicable.


      Operating Materials and Supplies, Net
                                                                 2006                                  2005
       As of September 30                   OM&S            Revaluation                                               Valuation
                                                                               OM&S, Net           OM&S, Net
                                          Gross Value       Allowance                                                  Method
       (Amounts in thousands)

       1. OM&S Categories
          A. Held for Use                $    4,553,141     $             0    $    4,553,141     $       412,926      SP, LAC
          B. Held for Repair                    567,897                   0           567,897              57,580      SP, LAC
          C. Excess, Obsolete,
             and Unserviceable                   14,375           (14,375)                    0                 0          NRV

           D. Total                      $    5,135,413     $     (14,375)     $    5,121,038     $       470,506

       Legend for Valuation Methods:
       Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses        NRV = Net Realizable Value
       SP = Standard Price                                                                  O = Other
       AC = Actual Cost


      Fluctuation and Abnormalities
      Operating Materials and Supplies (OM&S), Net
      There are no abnormalities to disclose for this reporting period.

      The United States Marine Corps (USMC) reported an increase of $4.7 billion, 988%, in 4th Quarter,
      FY 2006. This increase is aĴributed to reporting the Procurement of Ammunition, Navy and Marine
      Corps shared appropriation. Prior to 1st Quarter, FY 2006, shared appropriations were only reported at
      DON level; USMC did not prepare standalone statements.




282
2006 Annual Financial Report



Information Related to Operating Material and Supplies, Net
General Composition of Operating Materials and Supplies
The OM&S includes (1) ammunition and munitions that consists of spare and repair parts and
conventional missiles, and (2) Appropriation Purchase Account (APA) Secondary Inventory that consists
of spare and repair parts, fuel, clothing and textiles, medical and dental supplies.

Balances
In addition to the account balances, the Statement of Federal Financial Accounting Standards No. 3,
“Accounting for Inventory and Related Property” requires disclosure of the amount of OM&S held for
“Future Use.” This information is not captured by current OM&S systems which were designed for
material management rather than accounting purposes.

Decision Criteria for Identifying the Category to Which Operating Materials and Supplies Are Assigned
In order to standardize reporting of the categories Held for Use, Held for Repair, and Excess, Obsolete,
Unserviceable, USMC implemented the Under Secretary of Defense (Comptroller) (USD(C)) condition
code crosswalk as deﬁned in the memorandum “Accounting for Excess, Unserviceable, and Obsolete
Inventory and Operating Materials and Supplies” dated August 12, 2002. In addition, the condition
code crosswalk was amended to include code “V” in the Excess, Obsolete, Unserviceable category in
September 2002. The OM&S was reported as follows:

OM&S Category                       C Condition Codes
Held for Use                        A, B, C, D
Held for Repair                     E, F, G, J, K, L, M, N, R
Excess, Obsolete, Unserviceable     P, H, S, V

Valuation Method for OM&S
On July 6, 2001, USD(C) issued a memo requiring Moving Average Cost (MAC) as the approved valuation
method for Inventory Held for Sale and Operating Materials and Supplies. “Each Military Department
and Defense Agency responsible for material amounts of inventory or operating materials and supplies
shall implement the valuation method as systems are enhanced or replaced.” The USMC is participating
in DoD Business Transformation Agency (BTA) eﬀorts to bring legacy and target systems into compliance
with the Business Enterprise Architecture (BEA). The BEA provides for a master plan that includes
guidance on transition plan strategy concepts, considerations, processes, and principles. The MAC will
be implemented as systems are enhanced or replaced. Until then, USMC continues to value OM&S Held
for Use or Held for Repair using the standard purchase price. The USMC does not include a revaluation
allowance for OM&S Held for Use or Held for Repair, but transfers items from these categories to Excess,
Obsolete, and Unserviceable where the revaluation allowance is reported. Ammunition and Munitions
are valued using the Latest Acquisition Cost.

Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
Generally, the value of USMC GFM and CAM in the hands of contractors is not included in OM&S values
reported above. The DoD is presently reviewing its process for reporting these amounts in an eﬀort
to determine the appropriate accounting treatment and the best method to annually collect and report
required information without duplicating information already in other existing logistics systems.

Restrictions on Operating Materials and Supplies
There are no restrictions on the use of OM&S.




                                                                                                                   283
                                                                         United States Marine Corps General Fund
                                                                                             Department of the Navy



      Other Disclosures
      Ammunition and Munitions
      Ammunition and Munitions are maintained and valued in the Marine Ammunition and Reporting
      System Two. The USMC anticipates migrating to solutions, as identiﬁed in BTA’s transition plan in
      accordance with its current policy of adopting, implementing, and migrating from current legacy systems
      to approved systems.

      APA Secondary Inventory
      APA Secondary Inventory includes OM&S items such as, spare and repair parts, fuel, clothing and
      textiles, medical and dental supplies. These items are of such importance that central inventory control is
      required. They normally possess one of the following characteristics: (a) essential for combat or training,
      (b) high dollar value, (c) diﬃcult to procure or produce, or (d) critical basic materials or components.

      Sponsor Owned Material (SOM)
      The SOM is deﬁned as programmatic material required in support mission requirements for production,
      life cycle maintenance, and installation of systems and equipment consistent with the mission charter.
      Material usage may involve, but is not limited to: item fabrication, assembly, testing, manufacture,
      development, repair, or research and development.

      Real-time Reutilization Asset Management (RRAM)
      Material maintained and valued in RRAM is considered excess to the owner, but may not be excess to
      DON. Standard price is used to value all stock-numbered items. Part-numbered items are valued by best
      available information.

      Other Operating Materials & Supplies
      Not Applicable to USMC General Fund.


      Stockpile Materials, Net
      Not applicable.




284
2006 Annual Financial Report



Note 10. General PP&E, Net
                                                                2006                                           2005
 As of September 30          Depreciation/                               (Accumulated
                                               Service   Acquisition                        Net Book       Prior FY Net
                             Amortization                                Depreciation/
                                                Life       Value                             Value         Book Value
                               Method                                    Amortization)
 (Amounts in thousands)

 1. Major Asset Classes
    A. Land                       N/A           N/A      $    155,378              N/A $       155,378 $         156,463
    B. Buildings,
       Structures, and                         20 Or
       Facilities                  S/L            40         7,687,028 $     (4,157,596)     3,529,432         3,604,002
    C. Leasehold                                lease
       Improvements                S/L          term                0                 0                0               0
                                               2-5 Or
     D. Software                   S/L            10                0                 0                0               0
     E. General
        Equipment                  S/L         5 or 10        175,980         (141,656)         34,324            46,376
     F. Military
        Equipment                  S/L        Various        6,474,100       (1,695,349)     4,778,751         3,158,867
     G. Assets Under                           lease
        Capital Lease              S/L         term                 0                 0                0               0
     H. Construction-in-
        Progress                  N/A           N/A                 0              N/A                 0               0
     I. Other                                                       0                0                 0               0
     J. Total General
        PP&E                                             $ 14,492,486    $   (5,994,601)   $ 8,497,885     $   6,965,708

 1Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line    N/A = Not Applicable


Fluctuation and Abnormalities
There are no abnormalities to disclose for this reporting period.

In 4th Quarter, FY 2006, General PP&E increased by $1.5 billion, 22%, primarily due to a $1.6 billion
increase in military equipment. The reason for the increase is that prior to FY 2006, military equipment
was only reported by the Department of the Navy (DON) because USMC did not began to prepare
standalone ﬁnancial statements until 1st Quarter, FY 2006.

Restrictions on General Property, Plant, and Equipment (General PP&E), Net
There are no restrictions on the use or convertibility of General PP&E to disclose.

Other Information Related to General PP&E, Net
Heritage Assets
The processes used to deﬁne items as having heritage signiﬁcance vary between categories and type of
assets being evaluated. Subject maĴer experts, including historians and curators, play a signiﬁcant role in
the deﬁnition process in addition to other criteria such as being listed on the National Register of Historic
Places. In all cases, a myriad of federal statutes, service regulations, and other guidelines mandate
heritage signiﬁcance or provide guidance in its determination.

                                                                                                                               285
                                                                                     United States Marine Corps General Fund
                                                                                                Department of the Navy



      The methodology used to report the condition of the heritage assets was a combination of visual
      assessment of the objects, historic value to USMC collection, and general display and storage standards
      for historic collections. The overall condition of the collection objects is good.

      Any additional information regarding heritage assets, multi-use heritage assets and stewardship land is
      reported in Required Supplementary Information.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientiﬁc, historical, or artistic value. The Secretary of the
      Navy Instruction 5755.1A, “Navy Museums,” deﬁnes the scope of the Navy Museum program.

      Stewardship Land
      The USMC follows the Department of Defense (DoD) Financial Management Regulation (DoD FMR)
      deﬁnition of stewardship land to include public domain, land set aside, and donated land. Within the
      deﬁnition of stewardship land, land can be further categorized as improved, semi-improved or in the
      other category of land.

      Military Equipment.
      The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting
      Standards (SFFAS) No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, in
      May 2003. This standard, which is eﬀective for accounting periods beginning aĞer September 30, 2002,
      establishes generally accepted accounting principles for valuing and reporting military equipment (e.g.,
      combat vehicles, weapons) in federal ﬁnancial statements. The standard requires the capitalization and
      depreciation of the cost of military equipment, including the cost of modiﬁcations and upgrades.

      The DoD changed its method of valuing military equipment in 3rd Quarter, FY 2006. Previously, military
      equipment was valued using Bureau of Economic Analysis (BEA) data. Beginning with the 3rd Quarter,
      FY 2006, military equipment is valued based on internal records. This value of military equipment for the
      4th Quarter, FY 2005 was restated from a zero balance to $3.2 billion for comparative purposes using the
      new valuation method.

      For 4th Quarter, FY 2006, military equipment is valued at $4.8 billion based on internal records. Under
      the previously used BEA valuation methodology, this equipment would have been valued at $7.9 billion.

      Property in the Possession of Contractors.
      The value of USMC General PP&E real property in the possession of contractors is included in the
      values reported above for the major asset classes of land and buildings, structures, and facilities. The
      value of General PP&E personal property, major asset classes of soĞware and equipment does not
      include all of the General PP&E above DoD capitalization threshold in the possession of contractors.
      The net book amount of such property is immaterial in relation to the total General PP&E net book
      value. Per DoD FMR Volume 6B Chapter 10, USMC is not supplementing General PP&E information
      with values from the Defense Contract Management Agency’s Contract Property Management System
      database. In accordance with an approved strategy with Oﬃce of Management and Budget, Government
      Accountability Oﬃce, and DoD Inspector General (DoDIG), DoD is developing new policies and a
      contractor reporting process to capture General PP&E information for future reporting purposes for
      compliance with Federal GAAP.

      Other Disclosures
      Preponderant Use.
      Per DoD FMR, Volume 4, Chapter 6, legal ownership is not always the determining factor when
      establishing which DoD Component recognizes a particular General PP&E asset for accounting and

286
2006 Annual Financial Report



reporting purposes. If the following four criteria are met, the preponderant user should report the
property regardless of legal ownership or funding source:

      •    The asset embodies a probable future beneﬁt;

      •    The DoD component that reports the asset obtains the beneﬁt and controls access to the beneﬁt
           inherent in the asset;

      •    The transaction or event giving DoD component the right to, and control over, the beneﬁt has
           already occurred; and

      •    The predominantly used assets, taken as a whole, are material to the component’s ﬁnancial
           statements.

Per the Oﬃce of the Under Secretary of Defense (Comptroller) memo of July 5, 2005, the Military
Departments and DoD activities meeting the criteria of preponderant user are responsible for
reconciliation of preponderant use property. As reconciliation’s are completed and documented, USMC
General Fund will make the adjustments to General PP&E.

Internal Use SoĞware.
The USMC is in the process of establishing procedures to account for internal use soĞware in accordance
with DoD FMR, Volume 4, Chapter 6, “Plant, Property and Equipment,” SFFAS No. 6, “Accounting for
Property, Plant, and Equipment” and SFFAS No. 10, “Accounting for Internal Use SoĞware.” The USMC
anticipates implementation of these procedures during FY 2007. The inventory of soĞware utilized
within USMC is being identiﬁed in ongoing Business Transformation Agency initiatives and will be
leveraged by USMC to identify, validate, value, and account for internal use soĞware assets. The USMC
does not expect that internal use soĞware is of a material amount


Assets Under Capital Lease
Not applicable.




                                                                                                                   287
                                                                         United States Marine Corps General Fund
                                                                                                  Department of the Navy



      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                                 2006                      2005
       (Amounts in thousands)

       1. Intragovernmental Liabilities
          A. Accounts Payable                                    $                    0       $                   0
          B. Debt                                                                     0                           0
          C. Other                                                               79,677                      76,953
          D. Total Intragovernmental Liabilities                 $               79,677       $              76,953

       2. Nonfederal Liabilities
          A. Accounts Payable                                    $                2,186       $                    0
          B. Military Retirement Benefits and
             Other Employment-Related
             Actuarial Liabilities                                            214,433                       210,850
          C. Environmental Liabilities                                        226,470                             0
          D. Other Liabilities                                                651,450                       553,789
          E. Total Nonfederal Liabilities                        $          1,094,539         $             764,639

       3. Total Liabilities Not Covered by Budgetary
          Resources                                              $          1,174,216         $             841,592

       4. Total Liabilities Covered by Budgetary
          Resources                                              $          1,080,648     $                 999,389

       5. Total Liabilities                                      $          2,254,864     $                1,840,981


      Other Information Related to Liabilities Not Covered by Budgetary Resources

      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      The United States Marine Corps (USMC) reported an increase of $332.6 million, 40%, in total liabilities
      not covered by budgetary resources. This was mostly aĴributable to nonfederal liabilities, $226.5 million
      in environmental liabilities, $97.7 million increase in other liabilities and $2.19 million in accounts payable
      from cancelled appropriations.

      Prior to FY 2006, environmental liabilities, accounts payable from canceled appropriations and other
      liabilities related to shared appropriations were reported only on DON ﬁnancial statements because
      USMC did not prepare standalone ﬁnancial statements until 1st Quarter, FY 2006.

      In addition, nonfederal other liabilities grew due to a $58.3 million increase in annual leave liability,
      because of an expansion of the category of reportable leave liability in FY 2006 to update annual leave
      liability at each quarter-end. Leave types that must be accrued are: annual leave restored annual leave,
      restored Base Realignment and Closure leave, compensatory leave, and credit hours earned. Also,
      contributing to this increase was $39.4 million in nonfederal in excess/obsolete structures liabilities. Prior
      to FY 2006, nonfederal excess/obsolete liabilities were only on DON ﬁnancial statements. During this

288
2006 Annual Financial Report



reporting period, 4th Quarter, FY 2006, DON implemented procedures to identify USMC’s excess/obsolete
structures liabilities.

Other Disclosures
Intragovernmental liabilities – other (not covered by budgetary resources) includes Federal Employees
Compensation Act, $50 million, and Unemployment Compensation, $29.3 million

Nonfederal liabilities - other liabilities include civilian and military annual leave liability, $612.1 thousand,
and excess and obsolete structure liability, $39.4 million.

Deﬁnitions
Liabilities covered by budgetary resources are those that are incurred by the reporting entity, which are
covered by realized budgetary resources as of the Balance Sheet date. Budgetary resources encompass
not only new budget authority, but also other resources available to cover liabilities for speciﬁed purposes
in a given year.

Realized budgetary resources include:

      •     New budget authority

      •     Spending authority from oﬀseĴing collections (credited to an appropriation or fund account)

      •     Recoveries of unexpired budget authority through downward adjustments of prior year
            obligations

      •     Unobligated balances of budgetary resources at the beginning of the year or net transfers of
            prior year balances during the year, and

      •     Permanent indeﬁnite appropriations or borrowing authority, which have been enacted and
            signed into law as of the balance sheet date, provided that the resources may be apportioned
            by the Oﬃce of Management and Budget without further action by the Congress or without a
            contingency ﬁrst having to be met.

Conversely, liabilities not covered by budgetary resources are those liabilities which are not considered
covered by realized budgetary resources as of the balance sheet date. Budgetary authority to satisfy these
liabilities is expected to be provided in a future Defense Appropriations Act. When that future budgetary
authority is provided, these respective liabilities will be recorded as covered by budgetary resources with
an associated funded expense. To prevent overstatement on the Balance Sheet and Statement of Net Cost,
the liabilities previously recorded as not covered by budgetary resources and the associated unfunded
expenses are reversed.




                                                                                                                         289
                                                                               United States Marine Corps General Fund
                                                                                                Department of the Navy



      Note 12. Accounts Payable
                                                                 2006                                   2005

       As of September 30                                    Interest, Penalties,
                                      Accounts Payable      and Administrative          Total           Total
                                                                    Fees
       (Amounts in thousands)

       1. Intragovernmental
          Payables                   $            111,464    $          N/A         $    111,464    $     168,814
       2. Nonfederal Payables
          (to the Public)                         520,609                      0         520,609          505,949

       3. Total                      $            632,073    $                 0    $    632,073    $     674,763


      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      Intragovernmental Payables
      In 4th Quarter, FY 2006, the United States Marine Corps (USMC) reported a decrease of $57.4 million, 34%,
      in intragovernmental payables.

      The largest portion of the decrease, $34.3 million, is directly aĴributable to a reduction in the
      intragovernmental payables owed the Navy Working Capital Fund (WCF). This reduction occurred in
      1st Quarter, FY 2006. A change in business practice was implemented that allowed the Navy WCF to
      charge USMC appropriations directly when making contract payments. This change eliminated the need
      for Navy WCF to pay the contract and then collect from USMC via a reimbursable billing process.

      Additionally, a reduction of $12.7 million in intragovernmental payables owed the Defense Logistics
      Agency (DLA) Supply Management Fund occurred in 1st Quarter, FY 2006. This reduction occurred
      when DLA began automatically billing USMC through the interdepartmental billing process. Use of the
      interdepartmental billing process reduces the number of days necessary to liquidate the accounts payable.


      Note 13.         Debt
      The Marine Corps General Fund has no Debt.




290
2006 Annual Financial Report



Note 14. Environmental Liabilities and Disposal Liabilities
                                                                          2006                               2005
 As of September 30                                Current             Noncurrent
                                                                                            Total            Total
                                                   Liability            Liability
 (Amounts in thousands)

 1. Environmental Liabilities--Nonfederal
  A. Accrued Environmental Restoration
     Liabilities
   1. Active Installations—Installation
      Restoration Program (IRP) and Building
      Demolition and Debris Removal
      (BD/DR)                                  $               0   $                0   $            0   $           0
   2. Active Installations—Military
      Munitions Response Program (MMRP)                        0                    0                0               0
   3. Formerly Used Defense Sites—IRP and
      BD/DR                                                    0                    0                0               0
   4. Formerly Used Defense Sites--MMRP                        0                    0                0               0

  B. Other Accrued Environmental
     Liabilities—Active Installations
   1. Environmental Corrective Action                       0                40,637            40,637                0
   2. Environmental Closure Requirements                  289               185,544           185,833                0
   3. Environmental Response at Operational
      Ranges                                                   0                    0                0               0
   4. Other                                                    0                    0                0               0

  C. Base Realignment and Closure (BRAC)
   1. Installation Restoration Program                         0                    0                0               0
   2. Military Munitions Response Program                      0                    0                0               0
   3. Environmental Corrective Action /
      Closure Requirements                                     0                    0                0               0
   4. Other                                                    0                    0                0               0

  D. Environmental Disposal for Weapons
     Systems Programs
   1. Nuclear Powered Aircraft Carriers                        0                    0                0               0
   2. Nuclear Powered Submarines                               0                    0                0               0
   3. Other Nuclear Powered Ships                              0                    0                0               0
   4. Other National Defense Weapons
      Systems                                                  0                    0                0               0
   5. Chemical Weapons Disposal Program                        0                    0                0               0
   6. Other                                                    0                    0                0               0

 2. Total Environmental Liabilities            $          289      $        226,181     $     226,470    $           0




                                                                                                                              291
                                                                                    United States Marine Corps General Fund
                                                                                           Department of the Navy



      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      In 4th Quarter, FY 2006, the United States Marine Corps (USMC) Total Environmental Liabilities reported
      increased $226.5 million, 100%, because prior to FY 2006, NonDefense Environmental Restoration
      Program (NonDERP) liabilities were reported in the DON ﬁnancial statements. First Quarter, FY 2006
      was the ﬁrst time USMC produced ﬁnancial statements as a stand-alone entity.

      Other Category Disclosure
      The USMC does not have any “Other” environmental liabilities to report. As a subsidiary of DON,
      USMC only reports nonDERP environmental liabilities, all remaining environmental liabilities are
      reported at DON level only.

      Current Liability
      The USMC has identiﬁed $289.5 thousand as current liabilities as required by the Department of Defense
      Financial Management Regulation, Volume 6B, Chapter 10

      Environmental Liabilities Nonfederal
      Other Accrued Environmental Liabilities – Active Installations
      In the 4th Quarter, FY 2006, USMC reported $40.6 million in Environmental Corrective Action and
      $185.5 million in Environmental Closure Requirements. This is aĴributed to USMC continuing eﬀorts
      to complete their survey and estimations of USMC environmental liabilities of closure/decommissioning
      requirements for on-going operations.

      Other Information Related to Environmental Liabilities
      Applicable Laws and Regulations of Cleanup Requirements
      The following is a summary of signiﬁcant laws that aﬀect USMC’s conduct of environmental policy
      and regulations. The Resource Conservation and Recovery Act (RCRA) of 1976 as amended by the
      Hazardous and Solid Waste Amendments of 1984, was the ﬁrst comprehensive federal eﬀort to deal with
      safe disposal of all types of hazardous wastes, and provides for “cradle to grave” tracking of hazardous
      wastes. The RCRA addresses and requires permits for solid waste and hazardous waste closure and
      corrective action, including solid waste landﬁll and hazardous waste permiĴed storage facility closures.
      Permits are required for treatment, storage or disposal. Requirements for underground storage tanks are
      also contained in the RCRA.

      The Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA),
      commonly referred to as the Superfund legislation, provided for Federal agencies authority to respond
      to the release or the substantial threat of release of hazardous substances into the environment. The
      CERCLA was amended several times; one of the amendments was the Superfund Amendments and
      Reauthorization Act of 1986. This amendment established procedures to ensure that actual or threatened
      hazardous substance releases have proper responses. The procedures address reporting, investigating,
      remedy selection, and responsive provisions.

      The purpose of the Clean Water Act (CWA) of 1977, Section 405 Disposal of Sewage Sludge, amended the
      Federal Water Pollution Control Act. The purpose of CWA is to restore and maintain the integrity of the
      nation’s waters. Facilities may dispose of sewage sludge on site from the operation of a treatment works.
      The CWA implementing regulations established closure and post closure requirements for sewage sludge
      disposal. To help protect the nation’s drinking water supply, including underground injections through
      a permiĴing scheme implemented by the states is the purpose of the Safe Drinking Water Act (SDWA)
      of 1974 (Well Head Protection Areas). The SDWA regulates the underground disposal of wastes in deep
      wells and establishes a program to protect public water supply wells. One requirement to protect public
      water supply wells addresses closure of Class I injection wells used for industrial hazardous, industrial
      nonhazardous and municipal (nonhazardous) waste.

292
2006 Annual Financial Report



Methodology Used to Estimate NonDERP Environmental Liabilities
The NonDERP environmental liability estimates are based on the following:

      •    Execution/payment amounts,

      •    Historical references (e.g., prior projects, investigations, monitoring),

      •    Current projects of comparable scope (similar sites),

      •    Estimates from vendors/contractors,

      •    Estimates from Military Construction Data Project form,

      •    Program Objectives Memorandum Guidebook, and

      •    Professional experience.

Description of the Types of Environmental Liabilities and Disposal Liabilities
Other Accrued Environmental Costs (NonDERP funds), Cost, Base Realignment and Closure (BRAC),
and Environmental Disposal for Weapons systems Programs
The USMC deﬁnes NonDERP environmental sites/units as those sites/units associated with on-going
operations such as solid waste management unit cleanup, landﬁll closure, permiĴed facilities, removal,
replacement, retro ﬁll, and/or disposal of the PCB (Polychlorinated Biphenyls) transformers, underground
storage tank remedial investigation and closure. The USMC has reported nonDERP environmental
liabilities for USMC installations totaled 225 projects and covered approximately 3,290 sites. The projects
span the following nonDERP reporting categories: (1) closure for units or sites put into service prior
September 30, 1997, (2) closure for units or sites put into service aĞer September 30, 1997, and (3) corrective
actions. There are no projects that fall into nonDERP environmental liability for “response at active
ranges” and other reporting categories. For units or sites put into service aĞer September 30, 1997, the
number of years of service was used to allocate the liability for the current ﬁscal year and the accumulated
liability to date.

Accrued Environmental Restoration (DERP Funded)
The DON centrally manages and executes (Defense Environmental Restoration Program) DERP and
BRAC portion at DON level. Therefore, USMC does not report DERP or BRAC environmental liabilities.
The USMC is in the process of evaluating if there are environmental liabilities associated with disposal of
their weapons systems programs.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inﬂation,
Deﬂation, Technology, or Applicable Laws and Regulations
NonDERP environmental liabilities can change in the future because of changes in laws/regulations and
regulatory agencies agreements, and technology advances.

Description of the Level of Uncertainty Regarding the Accounting Estimates used to Calculate the
Reported Environmental Liabilities
The environmental liabilities for USMC are based on accounting estimates that require certain judgments
and assumptions that we believe are reasonable based upon information available to us at the time
of calculating the estimates. The actual results may vary materially from the accounting estimates if
laws/regulations change requiring a diﬀerent closure method, or if agreements with regulatory agencies
require remediation to a diﬀerent degree than anticipated when calculating the estimates. The liabilities
can be further impacted if further investigation of the environmental sites discloses contamination
diﬀerent than known at the time of the estimates.



                                                                                                                      293
                                                                            United States Marine Corps General Fund
                                                                                             Department of the Navy



      Environmental Disclosures
      Explanations
      A. The DON administers the program and expenditures to remediate legacy wastes. The USMC does not
      have any amounts to disclose.

      B. and C. The USMC reported an estimate for Other Environmental Liabilities (OEL). The USMC is in
      the process of determining what portion of the OEL relates to units put into service aĞer October 1, 1997.
      Therefore, detailed data is not available at this time.

      D. and E. The USMC does not have any changes in the environmental liability estimates due to changes
      in laws, regulations, and technology.




294
2006 Annual Financial Report



Note 15. Other Liabilities
                                                                 2006                                    2005
 As of September 30                      Current                 Noncurrent
                                                                                      Total              Total
                                         Liability                Liability
 (Amounts in thousands)

 1. Intragovernmental
    A. Advances from Others          $                  0    $                0   $            0    $              0
    B. Deposit Funds and Suspense
       Account Liabilities                      99,224                        0           99,224                   0
    C. Disbursing Officer Cash                  59,649                        0           59,649             196,180
    D. Judgment Fund Liabilities
                                                        0                     0                0                   0
    E. FECA Reimbursement to the
       Department of Labor                      20,976                   29,105           50,081              49,635
    F. Other Liabilities                        34,922                        0           34,922              32,848

    G. Total Intragovernmental
       Other Liabilities             $         214,771       $           29,105   $      243,876    $        278,663
 (Amounts in thousands)
 2. Nonfederal
    A. Accrued Funded Payroll and
       Benefits                      $         173,846       $                0   $      173,846    $        122,916
    B. Advances from Others                          0                        0                0                   0
    C. Deferred Credits                              0                        0                0                   0
    D. Deposit Funds and Suspense
       Accounts                                         0                     0                0                   0
    E. Temporary Early Retirement
       Authority                                        0                     0                0                   0
    F. Nonenvironmental Disposal
       Liabilities
        (1) Military Equipment
        (Nonnuclear)                                    0                     0                0                   0
        (2) Excess/Obsolete
        Structures                                   5,282               34,110           39,392                   0
        (3) Conventional Munitions
        Disposal                                        0                     0                0                   0
    G. Accrued Unfunded Annual
       Leave                                   608,058                        0          608,058             553,789
    H. Capital Lease Liability                           0                    0                0                   0
    I. Other Liabilities                             7,950              108,766          116,716                   0

    J. Total Nonfederal Other
       Liabilities                   $         795,136       $          142,876   $      938,012    $        676,705


 3. Total Other Liabilities          $       1,009,907       $          171,981   $    1,181,888   $         955,368




                                                                                                                            295
                                                                                  United States Marine Corps General Fund
                                                                                             Department of the Navy



      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      Intragovernmental other liabilities
      The United States Marine Corps (USMC) reported a decrease of $34.8 million, 12%, in total
      intragovernmental other liabilities.

      AĴributing to the decrease of intragovernmental other liabilities is a decrease of $136.5 million to the
      disbursing oﬃcer cash account, due to the cash and other monetary assets decreasing. This is primarily
      aĴributable to a $103 million decrease in foreign currency held in the Marine Corps Expeditionary Forces,
      Camp Lejeune, Limited Depositary Account (LDA) for use in Iraq. Upon completion of the disbursing
      oﬃcer’s deployment that LDA was closed, the remaining amounts were withdrawn and subsequently
      deposited back into the U.S. Treasury during 2nd Quarter, FY 2006.

      The decrease in the cash and other monetary assets is oﬀset by an increase of $99.2 million in deposit
      funds and suspense account liabilities due to the USMC portion of Treasury suspense accounts only being
      reported at DON level in prior years. The USMC prepared standalone ﬁnancial statements for the ﬁrst
      time in 1st Quarter, FY 2006 as a subsidiary of DON.

      Intragovernmental other liabilities-others includes liabilities to Treasury, unemployment, and employee
      beneﬁts.

      Nonfederal other liabilities.
      The United States Marine Corps (USMC) reported an increased $261.2 million, (39%) in nonfederal other
      liabilities.

      This increase is due to reporting $116.7 million, 100%, increase in contingent liabilities for estimated
      future contract ﬁnancing payments that will be paid to the contractor upon delivery and government
      acceptance of satisfactory product. This is the ﬁrst time reporting due to newly implemented DoD
      procedures. In accordance with contract terms, speciﬁc rights to the contractor work vests with the
      government when a speciﬁc type of contract ﬁnancing payments is made, thereby protect taxpayer’s
      funds in the event of the contract nonperformance. These rights should not be misconstrued as the
      right of ownership. The Department of Defense (DoD) is under no obligation to pay the contractor for
      amounts greater than the amounts authorized in the contract until delivery and government acceptance
      of a satisfactory product. Because it is probable that the contractor will complete its eﬀorts and deliver
      a satisfactory product to the DoD and the amount of potential future payments are estimated; DoD has
      recognized a contingent liability for estimated future payments, which are conditional pending delivery
      and government acceptance of a satisfactory product.

      Also contributing to the increase in nonfederal other liabilities is a $54.3 million increase in accrued
      unfunded annual leave. The accrued unfunded annual leave increase is aĴributable to unused leave for
      Marines who have been deployed and were unable to utilize their current leave. For 4th Quarter, FY 2006
      nearly 22,000 of the 138,000 troops in Iraq were Marines. Additionally, a $50.9 million increase in accrued
      funded payroll and beneﬁts contributed to the increase in nonfederal liabilities. This increase in accrued
      funded payroll and beneﬁts is due to correcting an overstated 3rd Quarter, FY 2005 amount. Prior to
      3rd Quarter, FY 2005, USMC did not separate accrued funded payroll liabilities from accounts payable.
      However, at ﬁrst reporting, 3rd Quarter, FY2005, USMC overstated the accrued funded payroll liabilities.
      The USMC had to reconcile the accounts payable general ledgers to the proper accrued funded payroll
      and beneﬁts ledgers to correct the overstatement. The 4th Quarter, FY 2005 accrued funded payroll and
      beneﬁts was understated due to problems from the manual reporting processes during the reconciliation
      of proprietary accounts payable.


296
2006 Annual Financial Report



The intragovernmental nonenvironmental disposal liabilities/excess/obsolete structures current liability
posted an increase of $39.4 million, as the proprietary general ledgers are being reconciled to account for
these discrepancies with an estimated completion date prior to reporting 4th Quarter, FY 2006.

In response to the Department of Defense, Inspector General audit, “Financial Management: DoD
Process for Reporting Contingent Legal Liabilities,” the Department of the Navy (DON) completed a
methodology during 4th Quarter, FY 2006, that provides an estimate for those cases that are probable
and reasonably possible. The DON is testing the methodology with the objective to begin reporting
2nd Quarter, FY 2007.

Nonfederal other liabilities-other includes contract holdbacks, employer contributions and payroll taxes,
and legal claims.


Capital Lease Liability
Not applicable.


Note 16. Commitments and Contingencies
Legal Contingencies:
The United States Marine Corps (USMC), a sub-entity of the Department of the Navy (DON) is a
party in various administrative proceedings and legal actions, with claims including environmental
damage claims, equal opportunity maĴers, and contractual bid protests which may ultimately result
in seĴlements or decisions adverse to the Federal Government. These proceedings and actions arise
in the normal course of operations and their ultimate disposition is unknown. For USMC cases, DON
has accrued contingent liabilities for legal actions where DON Oﬃce of General Counsel considers an
adverse decision probable and the amount of the loss is measurable. In the event of an adverse judgment
against the Government, some of the liabilities may be payable from the judgment fund. Others may be
payable from DON resources, either directly or by reimbursement to the Judgment Fund. In addition to
DON statements, USMC records judgment fund liabilities in Note 15, “Other Liabilities” and Note 12,
“Accounts Payable.”

The Oﬃce of the Navy General Counsel conducted a review of litigation and claims threatened or
asserted involving the USMC General Fund to which Oﬃce of General Counsel lawyers devoted
substantial aĴention in the form of legal consultation or representation. This review utilizes a threshold
of materiality of $1.2 million applied to individual and aggregate claims, litigation, assessments, or
contingencies arising out of a single event or a series of events.

The USMC has 2 cases that meet the existing materiality threshold. In response to the Department of
Defense, Inspector General audit, “Financial Management: DoD process for Reporting Contingent Legal
Liabilities,” the DON completed a methodology during 4th Quarter, FY 2006 that provides an estimate
for those cases that are probable and reasonable possible. The DON is testing the methodology with the
objective to begin reporting 2nd Quarter FY 2007.

Other Commitments and Contingencies
The USMC contingent liabilities for obligations related to undelivered orders for open contracts citing
canceled appropriations and for contractual arrangements are reported at the DON level. The DON and
USMC have not fully implemented procedures to separate and report USMC’s contingencies.




                                                                                                                    297
                                                                          United States Marine Corps General Fund
                                                                                                   Department of the Navy



      Note 17. Military Retirement and Other Federal Employment
               Beneﬁts
                                                                     2006                                   2005
       As of September 30                                Assumed        (Less: Assets
                                        Present Value                                     Unfunded      Present Value
                                                          Interest     Available to Pay
                                         of Benefits                                       Liability     of Benefits
                                                         Rate (%)         Benefits)
       (Amounts in thousands)

       1. Pension and Health
          Actuarial Benefits
         A. Military Retirement
            Pensions                    $           0                  $             0    $        0    $           0
         B. Military Retirement
            Health Benefits                         0                                0             0                0
         C. Military Medicare-
            Eligible Retiree Benefits               0                                0             0                0
         D. Total Pension and Health
            Actuarial Benefits          $           0                  $             0    $        0    $           0

       2. Other Actuarial Benefits
         A. FECA                        $     214,433                  $             0    $   214,433   $     210,850
         B. Voluntary Separation
            Incentive Programs                      0                                0             0                0
         C. DoD Education Benefits
            Fund                                    0                                0             0                0
         D. Total Other Actuarial
            Benefits                    $     214,433                  $             0    $   214,433   $     210,850

       3. Other Federal
          Employment Benefits           $           0                  $             0    $        0    $           0

       4. Total Military Retirement
          and Other Federal
          Employment Benefits:          $     214,433                  $             0    $   214,433   $     210,850

           Actuarial Cost Method Used:
           Assumptions:
           Market Value of Investments in Market-based and Marketable Securities:

      Actuarial Cost Method Used:
      Assumptions:
      Market Value of Investments in Market-based and Marketable Securities:

      Other Information Related to Military Retirement Beneﬁts and Other Employment-Related Actuarial
      Liabilities

      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.



298
2006 Annual Financial Report



Military Retirement Pensions.
The portion of the military retirement beneﬁts actuarial liability applicable to the United States Marine
Corps (USMC) is reported on the ﬁnancial statements of the Military Retirement Fund.

Military Retirement Health Beneﬁts.
Health beneﬁts are funded centrally at the Department of Defense (DoD) level. As such, the portion of
the health beneﬁts actuarial liability that is applicable to USMC is reported only on DoD Agency-wide
Financial Statements.

Federal Employees Compensation Act (FECA).
Actuarial Cost Method Used and Assumptions: The USMC actuarial liability for workers’ compensation
beneﬁts is developed by Department of Labor and provided to USMC at the end of each ﬁscal year. The
liability for future workers’ compensation beneﬁts includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases, plus a component for incurred but
not reported claims. The liability is determined using a method that utilizes historical beneﬁt payment
paĴerns related to a speciﬁc incurred period to predict the ultimate payments related to that period.
Consistent with past practice, these projected annual beneﬁt payments have been discounted to present
value using the Oﬃce of Management and Budget’s economic assumptions for 10 year Treasury notes and
bonds. Interest rate assumptions utilized for discounting were as follows:

Fiscal Year 2006
5.170% in Year 1
5.313% in Year 2 and thereaĞer

To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensation
beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
(consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
The actual rates for these factors for the charge back year (CBY) 2006 were also used to adjust the
methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years (CBY) were as
follows:

CBY                    COLA                  CPIM
2006                   3.50%                 4.00%
2007                   3.13%                 4.01%
2008                   2.40%                 4.01%
2009                   2.40%                 4.013%
2010+                  2.43%                 4.09%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis
was based on four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison
of the percentage change in the liability amount by agency to the percentage change in the actual
incremental payments, (3) a comparison of the incremental paid loses per case (a measure of case-
severity) in CBY 2006 to the average paĴern observed during the most current three charge back years,
and (4) a comparison of the estimated liability per case in the 2006 projection to the average paĴern for
the projections of the most recent three years.

The estimate was allocated between General Fund and Navy Working Capital Fund, Marine Corps based
on the number of civilian employees taken from the Navy Budget Tracking System.


                                                                                                                    299
                                                                          United States Marine Corps General Fund
                                                                                               Department of the Navy




                                                                                Personnel
      USMC General Fund                                                               15,094
      Navy Working Capital Fund, Marine Corps                                          1,909
        Total                                                                         17,003


      Note 18. General Disclosures Related to the Statement of
               Net Cost
       Intragovernmental Costs and Exchange Revenue

       As of September 30                                       2006                           2005

       (Amounts in thousands)

       1. Intragovernmental Costs                      $                5,829,850      $               6,671,583
       2. Public Costs                                                 14,666,789                     13,489,258
       3. Total Costs                                  $               20,496,639      $              20,160,841



       4. Intragovernmental Earned Revenue             $                  (304,356)    $                (410,525)
       5. Public Earned Revenue                                           (110,342)                     (656,467)
       6. Total Earned Revenue                         $                  (414,698)    $              (1,066,992)

       7. Net Cost of Operations                       $               20,081,941      $              19,093,849


      Fluctuation and Abnormalities
      There are no abnormalities to disclose for this reporting period.

      Total earned revenue decreased $652.3 million, 61%, primarily aĴributable to a gradual decrease in the
      capitalization of land and buildings from FY 2005 to FY 2006 by a total of $554.9 million. This change in
      assets aﬀects earned revenue due to application of proper accounting practices. Assets are accounted for
      on the quarterly ﬁnancial statements, but not accounted for in the accounting system. An expense vice
      an asset is recorded in the accounting system when the asset is received. Therefore, when the asset data
      is received from the asset accountability system for ﬁnancial statement recording, an adjustment must
      be made to reduce expenses and increase assets. Since the expense cannot directly be decreased for the
      amount of the asset due to timing issues, the proper accounting requires an increase to the other gains
      account. This account is included in computation of revenue for the year, and also increases the results of
      operations. The results of operation are not actually aﬀected by this since the amount is “negated” by the
      earlier expensing of the assets.

      The United States Marine Corps (USMC) has partially implemented a direct interface from the property
      accountability system to the accounting system. Full implementation will eliminate the requirement to
      make these accounting adjustments.

      Other Information
      The USMC recorded a prior period adjustment due to a change in the methodology for reporting
      of military equipment. The FY 2005 restatement impacts the value of general property, plant, and

300
2006 Annual Financial Report



equipment and associated accumulated depreciation reported on the balance sheet. The Department
of Defense has determined that developing the prior year value for the depreciation expense is cost-
prohibitive, and thus has elected not to restate the Statement of Net Cost.

Intragovernmental costs and revenues are related to transactions made between two reporting entities
within the federal government.

Public costs and revenues are exchange transactions made between USMC and a nonfederal entity.

The Consolidated Statement of Net Cost in the federal government is unique because its principles are
driven on understanding the net cost of programs and/or organizations that the federal government
supports through appropriations or other means. This statement provides gross and net cost information
that can be related to the amount of output or outcome for a given program and/or organization
administered by USMC.

Currently, USMC is unable to identify its intragovernmental trading partners for costs. An initiative is
currently underway to enhance the accounting system to identify trading partners on each obligating
transaction. Revenue trading partners can be identiﬁed.

The USMC accounting system meets accounting standards and records transactions based on the
US Standard General Ledger. The information presented is not based on budgetary obligations,
disbursements, and collection transactions.

The USMC does not report any amounts for the costs of acquiring, constructing, improving,
reconstructing, or renovating heritage assets (other than multi-use heritage assets), and the cost of
acquiring stewardship land and any costs to prepare stewardship for its intended use.




                                                                                                                     301
                                                                           United States Marine Corps General Fund
                                                                                               Department of the Navy



      Note 19. Disclosures Related to the Statement of Changes in
               Net Position
                                                       2006                                2005

       As of September 30               Cumulative                           Cumulative
                                                         Unexpended                             Unexpended
                                         Results of                           Results of
                                                        Appropriations                         Appropriations
                                        Operations                           Operations
       (Amounts in thousands)

       1. Prior Period Adjustments
          Increases (Decreases) to
          Net Position Beginning
          Balance

          A. Changes in Accounting
             Standards                 $           0    $            0   $                 0    $               0
          B. Errors and Omissions
             in Prior Year
             Accounting Reports            3,158,868                 0           3,158,868                     0

          C. Total Prior Period
             Adjustments               $   3,158,868    $            0   $       3,158,868      $               0

       2. Imputed Financing
          A. Civilian CSRS/FERS
             Retirement                $      23,303    $            0   $          24,235      $               0
          B. Civilian Health                  42,640                 0              39,408                      0
          C. Civilian Life Insurance             141                 0                 129                      0
          D. Judgment Fund                     1,157                 0                 151                      0
          E. IntraEntity                           0                 0                   0                      0

          F. Total Imputed Financing $        67,241    $            0   $          63,923      $               0


      Errors and Omissions in Prior Year Accounting Reports
      In the 4th Quarter, FY 2006, the United States Marine Corps (USMC) recorded a $3.2 billion prior period
      adjustment due to a change in Department of Defense (DoD) methodology for reporting military
      equipment that resulted in a $3.2 billion restatement for FY 2005. The FY 2005 restatement impacts the
      value of general property, plant, and equipment and associated accumulated depreciation reported on
      the Balance Sheet. The DoD has determined that developing the prior year value for the depreciation
      expense is cost-prohibitive, and thus has elected not to restate the Statement of Net Cost.

      In accordance with Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating
      the Category National Defense Property, Plant, and Equipment,” DoD reported military equipment
      values in the ﬁnancial statements beginning in FY 2003. As an interim measure, while DoD worked to
      develop its military equipment baseline from internal records, the military equipment values reported
      were based on information obtained from the Bureau of Economic Analysis (BEA).



302
2006 Annual Financial Report



Eﬀective 3rd Quarter, FY 2006, DoD replaced the BEA estimation methodology with a valuation based
on internal DoD records. During the process of establishing a baseline, we discovered that the BEA
estimates had failed to consider disposals, thresholds, and construction in process. While an estimation
methodology is acceptable per SFFAS 23, due to the nature of the BEA omissions, DoD considers the
method previously used not compliant with Generally Accepted Accounting Principles (GAAP), and thus
have treated the adjustment as correction of a material error.

Other Information
Imputed ﬁnancing is the diﬀerence between the Government’s cost of providing beneﬁts to employees
and contributions made by and for them. The amounts remiĴed to Oﬃce of Personnel Management by
and for employees covered by Civil Service Retirement System, Federal Employee Retirement System,
Federal Employees Health Beneﬁts Program and Federal Employee Group Life Insurance Program do not
fully cover the Government’s cost to provide these beneﬁts.

For the judgment fund, USMC recognizes liabilities and expenses when unfavorable litigation outcomes
are probable and the amounts can be estimated. The Treasury provides the dollar amount of the imputed
ﬁnancing. The Treasury based the imputed ﬁnancing on the amount the judgment fund is expected to
pay for seĴlements

The diﬀerence of $157.7 thousand between appropriations received on the Statement of Budgetary
Resources (SBR) and appropriations received on the Statement of Change of Net Position (SOCNP) is the
amount of US Standard General Ledger 4114, appropriated trust or special receipts, from USMC portion
of the Wildlife Conservation on Military Reservations appropriation. This account is included on the
appropriations received on the SBR, but not on the SOCNP.


Note 20. Disclosures Related to the Statement of Budgetary
         Resources
 As of September 30                                               2006                      2005
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated
    for Undelivered Orders at the End of the Period      $          10,014,842     $             5,988,046

 2. Available Borrowing and Contract Authority at
    the End of the Period                                                     0                           0


Other Information
United States Marine Corps (USMC) Report on Budget Execution accurately reﬂects $19.5 billion direct
obligations in category A, $6.5 billion direct obligations in category B, and $606.4 million reimbursable
obligations in category B. The Statement of Budgetary Resources (SBR) reﬂects a total direct obligations
amount of $25.8 billion and $0.8 billion in reimbursable obligations. Distribution of obligations between
direct and reimbursable on the two reports is diﬀerent, but total obligations are the same.

The discrepancy in amounts reported between direct and reimbursable obligations is due to a change
in business process that occurred with the implementation of Defense Departmental Reporting System
(DDRS)-Budgetary in 1st Quarter, FY 2006. Prior to that time the trial balances were derived from the
Report on Budget Execution which did not distribute amounts between total direct and reimbursable
obligations. Balances that could not be derived from other general ledger accounts were distributed
based on management discretion. Beginning 1st Quarter, FY 2006 we began importing the general
ledgers directly from the accounting system to DDRS Budgetary to DDRS-Audited Financial Statements
(AFS). This allowed proper reimbursable general ledger amounts to ﬂow from the accounting system to
                                                                                                                   303
                                                                         United States Marine Corps General Fund
                                                                                            Department of the Navy



      the ﬁnancial statements. Due to the previous distribution method, the beginning balances in DDRS-AFS
      were not divided correctly between direct and reimbursable obligations. These balances will be corrected
      in 1st Quarter, FY 2007.

      Intraentity transactions have not been eliminated because this statement is presented as combined and
      combining.

      There are no legal arrangements aﬀecting the use of unobligated balances of budget authority. The USMC
      received no capital infusions during the reporting period.


      Note 21. Disclosures Related to the Statement of Financing
      Other Information
      The following Statement of Financing (SOF) lines are presented as combined instead of consolidated due
      to interagency budgetary transactions not being eliminated:

            •    Obligations incurred
            •    Less: spending authority from oﬀseĴing collections and recoveries
            •    Obligations net of oﬀseĴing collections and recoveries
            •    Less: oﬀseĴing receipts
            •    Net obligations
            •    Undelivered orders
            •    Unﬁlled customer orders

      The SOF line “Other Resources or Adjustments to Net Obligated Resources That Do Not Aﬀect Net Cost
      of Operations, Other” is primarily comprised of the transfer-in of general equipment from Navy Working
      Capital Fund, Marine Corps.

      The SOF line “Components Requiring or Generating Resources in Future Period, Other” is comprised of
      unpaid leave that military personnel have earned that will be funded from future year’s appropriations.
      This line also includes the ﬁscal year-to-date change of nonenvironmental disposal liability.
      The SOF line “Components not Requiring or Generating Resources, Other” is comprised of the year-to-
      date change in the back out of expenses for nonfederal refund receivables. The refund receivables and
      abnormal expenses do not require or generate resources in the current period. Additionally, it includes
      the bad debt expense for public accounts receivables.

      Components requiring or generating resources in future periods are costs not funded in the period the
      costs are incurred. The expense and the corresponding liability are recognized in the current period
      but the budgetary resource will not be provided until a subsequent period. The amount of liabilities
      not covered by budgetary resources for 4th Quarter, FY 2006 is $1.2 billion. In general, the changes
      in liabilities not covered by budgetary resources as shown on the Balance Sheet are reﬂected on the
      Statement of Financing. Diﬀerences are a result of custodial liabilities covered by current unobligated
      budgetary resources.


      Note 22. Disclosures Related to the Statement of Custodial
               Activity
      The Marine Corps General Fund has no disclosures related to the statement of custodial activity.

      Note 23. Earmarked Funds
304
2006 Annual Financial Report




 BALANCE SHEET                                                   Other
 As of September 30                         MRF       MERHCF   Earmarked    Eliminations         Total
 (Amounts in thousands)                                          Funds
 ASSETS
 Fund balance with Treasury             $         0   $    0   $     430    $            0   $     430
 Investments                                      0        0           0                 0           0
 Accounts and Interest Receivable                 0        0           0                 0           0
 Other Assets                                     0        0           0                 0           0
 Total Assets                           $         0   $    0   $     430    $            0   $     430


 LIABILITIES and NET POSITION
 As of September 30
 Military Retirement Benefits and
 Other Employment Related
 Actuarial Liabilities                  $         0   $    0   $       0    $           0    $        0
 Other Liabilities                                0        0          47                0            47
 Unexpended Appropriations                        0        0           0                0             0
 Cumulative Results of Operations                 0        0         383                0          383
 Total Liabilities and Net Position     $         0   $    0   $     430    $           0    $     430


 STATEMENT OF NET COST
 As of September 30
 Program Costs                          $         0   $    0   $      15    $           0    $       15
 Less Earned Revenue                              0        0           0                0             0
 Net Program Costs                      $         0   $    0   $      15    $           0    $       15
 Less Earned Revenues Not
 Attributable to Programs                         0        0           0                0             0
 Net Cost of Operations                 $         0   $    0   $      15    $           0    $       15



 STATEMENT OF CHANGES IN NET POSITION
 As of September 30
 Net Position Beginning of the Period   $         0   $    0   $     240    $           0    $     240
 Net Cost of Operations                           0        0          15                0           15
 Other Nonexchange Revenue                        0        0         158                0          158
 Other Financing Sources                          0        0           0                0            0
 Change in Net Position                 $         0   $    0   $     143    $           0    $     143
 Net Position End of Period             $         0   $    0   $     383    $           0    $     383




                                                                                                              305
                                                                    United States Marine Corps General Fund
                                                                                           Department of the Navy



      Wildlife Conservation, Military Reservations, 16 USC 6706
      This fund provides for the development and conservation of ﬁsh and wildlife and recreational facilities
      on military installations. Proceeds from the sale of ﬁshing and hunting permits are used for these
      programs at Navy and Marine Corps installations charging such user fees. These programs are carried
      out through cooperative plans agreed upon by the local representatives of the Secretary of Defense, the
      Secretary of the Interior, and the appropriate agency of the State in which the installation is located.
      During this reporting period or subsequent to 4th Quarter, FY 2006, legislation regarding the purpose and
      use of the Wildlife Conservation, Military Reservation has not changed.

      The amount of intragovernmental activity that is not reported on the note schedule is the diﬀerence
      between the amounts reported in the total column of the note schedule and the amounts reported on the
      face of the Balance Sheet and Statement of Changes in Net Position.

      The Non Exchange Revenue in the amount of $157.7 thousand for 4th Quarter, FY 2006 is from the
      proceeds of the sale of ﬁshing and hunting permits.

      No amount of the Earmarked Funds are removed or eliminated between other Marine Corps funds.


      Note 24. Other Disclosures
      The Marine Corps General Fund has no other disclosures.




306
                              Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                                2006
          Supporting Consolidating/Combining Statements




                                                                                             USMC General Fund Supporting Consolidating/Combining Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       307
2006 Annual Financial Report 2006 Annual Financial Report
                                                             Department of the Navy




      The United States Marine Corps, as a sub-entity of
      the Department of the Navy (DON), does not prepare
      Supporting/Consolidating Statements and therefore is
      included at the DON General Fund level.




308
                              Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                                2006
         Required Supplementary Stewardship Information




                                                                                             USMC General Fund Required Supplementary Stewardship Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       309
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                             Department of the Navy



                                INVESTMENT IN RESEARCH AND DEVELOPMENT
                                  Yearly Investment in Research and Development
                                                 For Fiscal Year 2006
                                                (In Millions of Dollars)

                   (a)                                                                           (b)
                   Categories                                                                  FY06
                   1. Development
                     Advanced Technology Development                                          36,188
                     Advanced Component Development and Prototypes                           302,237
                     System Development and Demonstration                                     12,864
                     Research, Development, Test, and Evaluation                              48,194
                     Management Support
                     Operational Systems Development                                         283,725
                   Total                                                                     683,208

      Narrative Statement
      Investments in Research and Development
      Fiscal Year (FY) 2006 is the ﬁrst year that the United States Marine Corps (USMC) is reporting as a
      separate entity and therefore only is reporting one year for the Investment in Research and Development
      (R&D) schedule. The USMC investments are all Development; no Research Investments. The values
      included in this report are based on Development outlays (expenditures). Outlays are used because
      current USMC systems are unable to fully capture and summarize ﬁnancial data in accordance with
      Federal Accounting Standards Advisory Board (FASAB) standards.

      Development
      Development takes what has been discovered or learned from basic and applied research and uses it to
      establish technological feasibility, assessment of operability, and production capability. Development is
      comprised of ﬁve stages deﬁned below:

            1.   Advanced Technology Development is the systematic use of the knowledge or understanding
                 gained from research directed toward proof of technological feasibility and assessment of
                 operational and production rather than the development of hardware for service use. It
                 employs demonstration activities intended to prove or test a technology or method.

            2.   Advanced Component Development and Prototypes evaluates integrated technologies in as
                 realistic an operating environment as possible to assess the performance or cost reduction
                 potential of advanced technology. Programs in the phase are generally system speciﬁc. Major
                 outputs of Advanced Component Development and Prototypes are hardware and soĞware
                 components or complete weapon systems ready for operational and developmental testing
                 and ﬁeld use.

            3.   System Development and Demonstration concludes the program or project and prepares it for
                 production. It consists primarily of preproduction eﬀorts, such as logistics and repair studies.
                 Major outputs are weapons systems ﬁnalized for complete operational and development
                 testing.

            4.   Research, Development, Test, and Evaluation (RDT&E) Management Support is support for
                 installations and operations for general research and development use. This category includes
                 costs associated with test ranges, military construction maintenance support for laboratories,

310
2006 Annual Financial Report



           operation and maintenance of test aircraĞ and ships, and studies and analyses in support of
           the R&D program.

      5.   Operational Systems Development is concerned with development projects in support of
           programs or upgrades still in engineering and manufacturing development. These projects
           have received approval for production, for which production funds have been budgeted in
           subsequent ﬁscal years.

The following are three representative program examples for the Development category:

1. Plumbing the chemistry of Iraq Improvised Explosive Devices (IEDs)
The Oﬃce of Naval Research (ONR) is sponsoring a research project at the MassachuseĴs Institute of
Technology (MIT) that is analyzing the molecular interaction of explosive materials. The goal of the
three-year program is to study the physics and chemistry of IEDs and ﬁnd techniques to detonate or
short-circuit them before they cause harm.

Two objectives of this project are developing countermeasures and developing safer and more reliable
materials for our own use to defend against the IEDs. The MIT researchers are conducting with research
partners at Washington State University and Michigan Technological University. The funding is part
of a military program called the Multidisciplinary University Research Initiative, which is designed to
support technology advances and academic work in subjects representing exceptional opportunities for
future military applications.

Composed of leĞover Iraqi Army mortars, artillery shells, TNT (trinitrotoluene), and a variety of other
explosives readily available in Iraq, IEDs pose perhaps the most troublesome problem for U.S. troops
on the ground. The bombs, hidden along patrol and convoy routes, are relatively cheap to make, yet
have become increasingly sophisticated, more powerful, and harder for the military to defend against.
Increasingly skilled insurgents have disguised IEDs as rocks or tucked them inside roadside debris and
dead animals.

Other research includes testing diﬀerent ways that explosives can be stimulated or triggered – such as,
through heat, radiation, or mechanics. The goal from this research is to use the knowledge to make IEDs
on the side of the road more vulnerable to preemptive stimuli, thereby disabling the explosive devices
before they cause harm to U.S. service members.

2. The New Breed of Soldier: Robots with Guns
Pentagon testing devices in eﬀort to slash casualties

Spurred by the risks from roadside bombs and terrorist ambushes, the military is aggressively seeking to
replace troops with baĴleﬁeld robots, including new versions armed with machine guns.

Although the Pentagon initially focused on aircraĞs, such as the Predator drone, new ground and sea
based robots are being developed and tested. For example:

      •    The Mobile Detection Assessment Response System is an unmanned vehicle intended to patrol
           around domestic bases.

      •    Self-driving convoy trucks. Some variants follow preplanned routes or the vehicle in front.
           The Defense Advanced Research Projects Agency has held a competition among advanced,
           satellite-guided versions that plan their own routes and maneuver around roadblocks.

      •    Robots that can enter a building, look for an enemy, and send back a map of the interior are
           being tested.


                                                                                                                   311
                                                                         United States Marine Corps General Fund
                                                                                               Department of the Navy



      Already in Iraq and Afghanistan are hundreds of small robots to help bomb squads examine or disarm
      explosives from a safe distance. To beĴer detect and stop IEDs, new sensors are being aĴached to those
      robots. The Pentagon is testing a new version of the Talon robot that carries a remote-control machine gun.

      Much larger and more ambitious robot weapons are in testing, including a tank-like, 1,600-pound vehicle
      called the Gladiator, which can ﬁre a variety of guns, tear gas or almost anything else that ﬁts. It also has
      loudspeakers to “shout” instructions, such as those to calm a mob.

      The goal now is helping troops in the ﬁeld as quickly as possible. In the long term, the Gladiator and
      other robots will be transitional, as the military shiĞs to robotic technologies that will revolutionize
      warfare.

      3. U.S. Military Selects Oshkosh Truck for Joint Light Tactical Vehicle Program
      Oshkosh truck has been selected by the ONR to perform a conceptual design and mockup science and
      technology program for the Joint Light Tactical Vehicle (JLTV) program. The ONR, in concert with the
      U.S. Army and USMC, is supporting the JLTV program to develop a family of light tactical wheeled
      vehicles with superior survivability characteristics and enhanced payload.

      Speciﬁcations deﬁned by the U.S. Army and the USMC for the JLTV family of vehicles address capability
      gaps and increase force protection, survivability, fuel-eﬃciency, capacity, maneuverability and automotive
      safety, balanced with the total cost of ownership. Vehicles also must meet current weight and dimension
      requirements for transportability aboard ships and aircraĞ. The work that Oshkosh truck will perform
      involves a component technology review and the development of modeling and simulation programs, as
      well as conceptual designs of future technologies for the JLTV program.


      NON-FEDERAL PHYSICAL PROPERTY
      The USMC does not maintain any nonfederal physical property.




312
                             Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                               2006
                    Required Supplementary Information




                                                                                            USMC General Fund Required Supplementary Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      313
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                             Department of the Navy



                       United States Marine Corps General Property, Plant, and Equipment
                       Real Property Deferred Annual Sustainment and Restoration Tables
                                            As of September 30, 2006
                                                  ($ in Millions)

      Annual Sustainment FY 2006
                                              Required         Actual         Diﬀerence
      Marine Corps                               561             524              37
      Building, Structures, and Utilities        561             524              37


      Annual Deferred Sustainment Trend
                                               FY 2003         FY 2004         FY 2005            FY 2006
      Marine Corps                                -               24              30                 37
      Building, Structures, and Utilities         -               24              30                 37


      Restoration and Modernization Requirements
                                            End FY 2005      End FY 2006       Change
      Marine Corps                                -              256             256
      Building, Structures, and Utilities         -              256             256

      Narrative Statement:
      Fiscal Year (FY) 2006 is the ﬁrst year the United States Marine Corps (USMC) is reporting as a separate
      entity. Sustainment is deﬁned as the maintenance and repair activities necessary to keep a typical facility
      in good working order over its service life. It includes regularly scheduled adjustments and inspections
      (such as for ﬁre sprinkler heads and Heating Ventilation Air Conditioning (HVAC) systems), regulatory
      inspections (of elevators, bridges, and the like), emergency and routine preventive maintenance tasks, and
      major repair or replacement of facility components, such as roof replacement, reﬁnishing wall surfaces,
      repairing and replacing electrical, heating, and cooling systems, and replacing tile and carpeting. In FY
      2006, FSM Version 7.2 was used for programming and budgeting for facilities sustainment. Deferred
      amounts were calculated in accordance with the methodology provided by DoD Financial Management
      Regulation, Volume 6B, Chapter 12, “Required Supplementary Information.”

      Restoration and Modernization is not currently modeled. Restoration includes repair and replacement
      work to restore facilities damaged by inadequate sustainment, excessive age, disaster, accident, or other
      causes. Modernization includes alteration of facilities solely to implement new or higher standards and
      regulatory changes, to accommodate new functions including base realignment and closure (BRAC), or
      to renew building components that typically last more that 50 years, such as foundations and structural
      members. Requirements listed on the table are actual expenditures for restoration and modernization
      by year. The program growth evident in the funding trend reﬂects the impact of Hurricanes Ivan and
      Katrina, and BRAC.

      The USMC General Fund has no material amounts of deferred sustainment for the General Property,
      Plant, and Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.




314
2006 Annual Financial Report



                                                  Military Equipment
                                            Deferred Maintenance Amounts
                                               As of September 30, 2006
                                                    ($ in Thousands)

                             Major Type                                           Amount
                             Combat Vehicles                                        83,000
                             Total                                                 $83,000

Narrative Statement:
Combat Vehicles
The combat vehicles category refers to deferred vehicle maintenance for the active and reserve Marine
Corps assets. The combat vehicle category consists of weapons systems, such as the M1A1 Tank, the
amphibious assault vehicle, the Hercules Recovery Vehicle, and the light armored vehicle. The total
requirement is the planned quantity of combat vehicles that require depot level maintenance in a year as
determined by program managers and the operating forces with requirements validated by a modeling
process. The deferred maintenance is the diﬀerence between the validated requirements and funding
received for that ﬁscal year.

                                                 HERITAGE ASSETS
                                      For Fiscal Year Ended September 30, 2006

(A)                                         (B)           (C)           (D)             (E)              (F)
                                      Measurement        As of                      Deletions          As of
                                       Quantity       Sep 30, 2005   Additions     Sep 30, 2005     Sep 30, 2005
Museums                                   Each             6             -                -               6
Monuments & Memorials                     Each             0             -                -               -
Cemeteries                                Sites            0             -                -               -
Archeological Sites                       Sites            0             -                -                -
Buildings and Structures                  Each             0             -                -               -
Major Collections                         Each             0             -               -                -
   (See Supplemental Reporting)


Narrative Statement:
Fiscal Year 2006 is the ﬁrst year that USMC is reporting as a separate entity. The USMC is required to
report Heritage Assets in accordance with the following public laws and regulations:

       •       Antiquities Act of 1906
       •       Historic Sites Act of 1935
       •       USC 470 National Historic Preservation Act of 1966
       •       National Environmental Policy Act of 1969
       •       American Indian Religious Freedom Act of 1978
       •       Archaeological Resources Protection Act of 1979
       •       Native American Graves Protection & Repatriation Act of 1990
       •       Presidential Memorandum for Heads of Executive Departments and Agencies: Government
               Relations with Native American Tribal Governments Act of 1994

                                                                                                                        315
                                                                              United States Marine Corps General Fund
                                                                                             Department of the Navy



            •    36 CFR 79 – Curation of Federally Owned and Administered Archaeological Collections
            •    36 CFR 60.4 – National Register of Historic Places
            •    Federal Accounting Standards Advisory Board (FASAB) Standard 29, “Heritage Assets and
                 Stewardship Land”
            •    Executive Order 13237 – Preserve America – of 2003
            •    Executive Order 13327 – Federal Real Property Asset Management – of 2004

      Heritage Assets are items that are unique for one or more of the following reasons: historical or natural
      signiﬁcance; cultural, educational or artistic importance; or signiﬁcant architectural characteristics.
      Monetary values are not required for Heritage Asset reporting; only physical units of measure are
      reported.

      Process used to deﬁne assets as Heritage Assets. The processes used to deﬁne items as having heritage
      signiﬁcance vary between categories and type of assets being evaluated. Subject maĴer experts, including
      historians and curators, play a signiﬁcant role in the deﬁnition process in addition to other criteria, such
      as being listed on the National Register of Historic Places. In all cases, a myriad of federal statutes,
      service regulations, and other guidelines mandate heritage signiﬁcance or provide guidance in its
      determination.

      Multi-Use Heritage Assets. Per DoD Financial Management Regulation (FMR), Volume 6B, “Form and
      Content of the Department of Defense Audited Financial Statements,” Multi-Use Heritage Assets are
      reported both as Heritage Assets on the Required Stewardship Supplementary Information (RSSI) and on
      the Balance Sheet as real property General Property, Plant and Equipment.

      Information Pertaining to the Condition of USMC Heritage Assets. The methodology used to report the
      condition of the heritage assets was a combination of a visual assessment of the objects, historic value
      to USMC collection, and general display and storage standards for historic collections. The overall
      condition of the collection objects is good.

      Museums
      Museums are buildings, places, or institutions devoted to the acquisition, conservation, study, exhibition,
      and educational interpretation of objects having scientiﬁc, historical, or artistic value. Secretary of the
      Navy Instruction 5755.1A, “Navy Museums,” deﬁnes the scope of the Navy Museum program.

      Supplemental Reporting. In addition to the data presented in the table above, the following supplemental
      information was reported as of September 30, 2006:

                                     Measurement          As of                                      As of
      Category                        Quantity          Oct 1, 2005    Additions    Deletions     Sep 30, 2006
      Archeological Artifacts          Cubic Feet               914             1            0               915
      Archival                         Linear Feet           24,980           746            0            25,726
      Artwork                             Item                 8,725          221            0             8,946
      Historical Artifacts                Item               52,007         1,425            0            53,432




316
2006 Annual Financial Report



                                           STEWARDSHIP LAND
                                  For Fiscal Year Ended September 30, 2006
                                              (Acres in Thousands)

                     (a)                                                           (b)
                     Land Use                                      As of Sep 30, 2006
                     1. Mission                                                   680
                     2. Parks & Historic Sites                                       0
                     Totals                                                       680

Narrative Statement
Per the DoD FMR, USMC Stewardship Land includes Public Domain, Land Set Aside, and Donated Land.
Within the deﬁnition of Stewardship Land, land can be further categorized as Improved, Semi-Improved
or Other.




                                                                                                                   317
                                                                         United States Marine Corps General Fund
      Department of the Navy




318
                             Department of the Navy Subsidiary Financial Statements

                  United States Marine Corps General Fund


                               2006
                        Other Accompanying Information




                                                                                            USMC General Fund Other Accompanying Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      319
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                     Department of the Navy



      Appropriations, Funds, and Accounts Included in the Principal
      Statements
      Entity Accounts
      General Accounts
         17 1105      Military Personnel, Marine Corps
         17 1106      Operation and Maintenance, Marine Corps
         17 1107      Operation and Maintenance, Marine Corps Reserve
         17 1108      Reserve Personnel, Marine Corps
         17 1109      Procurement, Marine Corps

      Shared Appropriations (Appropriations from which US Marine Corps receives allocations)
          17 0703     Family Housing, Navy and Marine Corps
          17 1319     Research and Development, Test and Evaluation, Navy
          17 1508     Procurement of Ammunition, Navy and Marine Corps

      Shared Earmarked Funds
          17X5095    Wildlife Conservation

      Non-Entity Accounts
         17X6026      Pay of the Marine Corps, Deposit Fund Receipts

      Shared Non-Entity Accounts
          17 3XXX     Receipt Accounts
          17X6XXX     Deposit Funds




320
                              Department of the Navy Subsidiary Financial Statements

                Navy Working Capital Fund – Marine Corps


                                2006 Principal Statements




                                                                                             Navy Working Capital Fund-MC Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       321
2006 Annual Financial Report 2006 Annual Financial Report
                                                                Department of the Navy




      Limitations to the Financial
      Statements
      The principal ﬁnancial statements have been prepared
      to report the ﬁnancial position and results of
      operations of the entity, pursuant to the requirements
      of 31 U.S.C. 3515 (b). While the statements have been
      prepared from the books and records of the entity in
      accordance with GAAP for Federal entities and the
      formats prescribed by OMB, the statements are in
      addition to the ﬁnancial reports used to monitor and
      control budgetary resources which are prepared from
      the same books and records. The statements should be
      read with the realization that they are for a component
      of the U.S. Government, a sovereign entity.




322
2006 Annual Financial Report




In Fiscal Year (FY) 2006, the Oﬃce of the Under Secretary of Defense (Comptroller), with support
from the Department of the Navy, designated the U.S. Marine Corps a ﬁnancial reporting entity. This
designation allowed the Marine Corps to prepare comprehensive subsidiary ﬁnancial statements and
related notes beginning in Fiscal Year 2006.

The Marine Corps shares appropriations with the Department of the Navy and maintains accountability
for its own appropriations. The Marine Corps has speciﬁc funds and budget execution unto itself that
are managed by Marine Corps program sponsors, maintained in a single core integrated Working
Capital Fund accounting and budgeting reporting system, and supported by Marine Corps managerial
accountants and the Defense Finance and Accounting Service-Kansas City. Given this ﬁduciary
responsibility, the Marine Corps is able to fully comply with Statement of Federal Financial Accounting
Concepts Number 2, Entity and Display.


Principal Statements
The FY 2006 Marine Corps Working Capital Fund Principal Statements and related notes are subsidiary
ﬁnancial statements and related notes of the Navy Working Capital Fund, and are presented in the format
prescribed by the Department of Defense Financial Management Regulation 7000.14, Volume 6B. The
statements and related notes summarize the ﬁnancial information for individual activity groups and
activities within the Marine Corps Working Capital Fund for the ﬁscal year ending September 30, 2006.

The following statements comprise the Marine Corps Working Capital Fund Principal Statements:

      •    Consolidated Balance Sheet

      •    Consolidated Statement of Net Cost

      •    Consolidated Statement of Changes in Net Position

      •    Combined Statement Budgetary Resources

      •    Combined Statement of Financing

The Principal Statements and related notes have been prepared to report ﬁnancial position pursuant to
the requirements of the Chief Financial Oﬃcers Act of 1990, as amended by the Government Management
Reform Act of 1994. The accompanying notes should be considered an integral part of the Principal
Statements.




                                                                                                                 323
                                                                      Navy Working Capital Fund - Marine Corps
                                                                                                         Department of the Navy



      Department of Defense
      Navy Working Capital Fund - Marine Corps
      CONSOLIDATED BALANCE SHEET
      As of September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Consolidated          2005 Consolidated
         ASSETS (Note 2)
          Intragovernmental:
           Fund Balance with Treasury (Note 3)
                Entity                                                      $               30,193   $                 62,510
                Non-entity Seized Iraqi Cash                                                     0                          0
                Non-entity - Other                                                               0                          0
           Investments (Note 4)                                                                  0                          0
           Accounts Receivable (Note 5)                                                     33,906                     17,144
           Other Assets (Note 6)                                                                 0                         70
          Total Intragovernmental Assets                                    $               64,099   $                 79,724
          Cash and Other Monetary Assets (Note 7)                                                0                          0
          Accounts Receivable, net (Note 5)                                                    327                        199
          Loans Receivable (Note 8)                                                              0                          0
          Inventory and Related Property, net (Note 9)                                     558,068                    636,951
          General Property, Plant and Equipment, net (Note 10)                              48,275                     50,524
          Investments (Note 4)                                                                   0                          0
          Other Assets (Note 6)                                                                519                       (416)
         TOTAL ASSETS                                                       $              671,288   $                766,982

         LIABILITIES (Note 11)
           Intragovernmental:
            Accounts Payable (Note 12)                                      $                6,382   $                 41,637
            Debt (Note 13)                                                                       0                          0
            Other Liabilities (Note 15 & Note 16)                                              917                     18,222
                 Total Intragovernmental Liabilities                        $                7,299   $                 59,859
           Accounts Payable (Note 12)                                                       67,846                     30,947
           Military Retirement Benefits and Other Employment-                               29,595                     26,667
             Related Actuarial Liabilities (Note 17)
           Environmental Disposal Liabilities (Note 14)                                          0                          0
           Loan Guarantee Liability (Note 8)                                                     0                          0
           Other Liabilities (Note 15 and Note 16)                                          30,673                     13,819
         TOTAL LIABILITIES                                                  $              135,413   $                131,292

         NET POSITION
          Unexpended Appropriations - Earmarked Funds (Note 23)             $                    0   $                      0
          Unexpended Appropriations - Other Funds                                                0                          0
          Cumulative Results of Operations - Earmarked Funds                                     0                          0
          Cumulative Results of Operations - Other Funds                                   535,875                    635,690
         TOTAL NET POSITION                                                 $              535,875   $                635,690

         TOTAL LIABILITIES AND NET POSITION                                 $              671,288   $                766,982




         The accompanying notes are an integral part of these statements.




324
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund - Marine Corps
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Consolidated         2005 Consolidated
   Program Costs
      Gross Costs                                                     $              730,863    $               659,655
      (Less: Earned Revenue)                                                        (708,962)                  (683,205)
      Net Program Costs                                               $               21,901    $               (23,550)
   Costs Not Assigned to Programs                                                          0                          0
   (Less: Earned Revenue Not Attributable to Programs)                                     0                          0
   Net Cost of Operations                                             $               21,901    $               (23,550)




   The accompanying notes are an integral part of these statements.




                                                                                                                              325
                                                                                   Navy Working Capital Fund - Marine Corps
                                                                                                            Department of the Navy



      Department of Defense
      Navy Working Capital Fund - Marine Corps
      CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Consolidated           2005 Consolidated

         CUMULATIVE RESULTS OF OPERATIONS
          Beginning Balances                                                $              635,690      $              623,953
          Prior period adjustments (+/-)
             Changes in Accounting Principles (+/-)                                              0                           0
             Correction of errors (+/-)                                                          0                           0
          Beginning balances, as adjusted                                   $              635,690      $              623,953
          Budgetary Financing Sources:
           Appropriations received                                          $                       0   $                       0
           Appropriations transferred in/out (+/-)                                                  0                           0
           Other adjustments (rescissions, etc) (+/-)                                               0                           0
           Appropriations used                                                                      0                           0
           Nonexchange revenue                                                                      0                           0
           Donations and forfeitures of cash and cash equivalents                                   0                           0
           Transfers in/out without reimbursement (+/-)                                             0                           0
           Other budgetary financing sources (+/-)                                                  0                           0
          Other Financing Sources:
           Donations and forfeitures of property                                                 0                           0
           Transfers in/out without reimbursement (+/-)                                    (90,240)                    (21,892)
           Imputed financing from costs absorbed by others                                  12,327                      10,079
           Other (+/-)                                                                           0                           0
          Total Financing Sources                                           $              (77,913) $                  (11,813)
          Net Cost of Operations (+/-)                                                      21,901                     (23,550)
          Net Change                                                                       (99,814)                     11,737
          Ending Balances                                                   $              535,876 $                   635,690
         UNEXPENDED APPROPRIATIONS
          Beginning Balances                                                $                       0   $                       0
          Prior period adjustments:
             Changes in Accounting Principles (+/-)                                                 0                           0
             Correction of errors (+/-)                                                             0                           0
          Beginning balances, as adjusted                                   $                       0   $                       0
          Budgetary Financing Sources:
           Appropriations received                                          $                       0   $                       0
           Appropriations transferred in/out (+/-)                                                  0                           0
           Other adjustments (rescissions, etc) (+/-)                                               0                           0
           Appropriations used                                                                      0                           0
           Nonexchange revenue                                                                      0                           0
           Donations and forfeitures of cash and cash equivalents                                   0                           0
           Transfers in/out without reimbursement (+/-)                                             0                           0
           Other budgetary financing sources (+/-)                                                  0                           0
          Other Financing Sources:
           Donations and forfeitures of property                                                    0                           0
           Transfers in/out without reimbursement (+/-)                                             0                           0
           Imputed financing from costs absorbed by others                                          0                           0
           Other (+/-)                                                                              0                           0
          Total Financing Sources                                           $                       0   $                       0
          Net Cost of Operations (+/-)                                                              0                           0
          Net Change                                                                                0                           0
          Ending Balances                                                   $                       0   $                       0

         The accompanying notes are an integral part of these statements.
326
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund - Marine Corps
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                          2006 Combined          2005 Combined
   BUDGETARY FINANCING ACCOUNTS
   Budgetary Resources:
     Unobligated balance, brought forward, October 1                  $            227,700   $              148,373
     Recoveries of prior year unpaid obligations                                         0                        0
     Budget Authority:
        Appropriations received                                                          0                        0
        Borrowing authority                                                              0                        0
        Contract authority                                                          16,540                   22,582
     Spending authority from offsetting collections:
        Earned
          Collected                                                                621,225                  685,552
          Change in receivables from Federal sources                                17,585                   (4,900)
        Change in unfilled customer orders
          Advances received                                                           (110)                    (472)
          Without advance from Federal sources                                     (11,164)                  67,559
        Anticipated for the rest of year, without advances                               0                        0
        Previously unavailable                                                           0                        0
        Expenditure transfers from trust funds                                           0                        0
       Subtotal                                                       $            644,076 $                770,321
     Nonexpenditure transfers, net, anticipated and actual                               0                        0
     Temporarily not available pursuant to Public Law                                    0                        0
     Permanently not available                                                           0                        0
     Total Budgetary Resources                                        $            871,776 $                918,694

   Status of Budgetary Resources:
     Obligations incurred:
        Direct                                                        $                  0   $                    0
        Reimbursable                                                               694,405                  690,994
        Subtotal                                                      $            694,405   $              690,994
     Unobligated balance:
        Apportioned                                                   $            177,371   $              227,700
        Exempt from apportionment                                                        0                        0
        Subtotal                                                                   177,371                  227,700
     Unobligated balances not available                                                  0                        0
     Total status of budgetary resources                              $            871,776   $              918,694




   The accompanying notes are an integral part of these statements.




                                                                                                                           327
                                                                                Navy Working Capital Fund - Marine Corps
                                                                                                     Department of the Navy



      Department of Defense
      Navy Working Capital Fund - Marine Corps
      COMBINED STATEMENT OF BUDGETARY RESOURCES
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                2006 Combined        2005 Combined
         RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
         Change in Obligated Balance:
          Obligated balance, net
             Unpaid obligations, brought forward, October 1                 $            292,725 $              262,375
             Less: Uncollected customer payments from                                   (333,650)              (270,891)
                Federal sources, brought forward, October 1
             Total Unpaid obligated balance                                              (40,925)                (8,516)
          Obligations incurred, net (+/-)                                   $            694,405 $              690,994
          Less: Gross outlays                                                           (653,431)              (660,643)
          Obligated balance transferred, net
             Actual transfers, unpaid obligations (+/-)                                         0                     0
             Actual transfers, uncollected customer                                             0                     0
                payments from Federal sources (+/-)
             Total Unpaid obligated balance transferred, net                                   0                      0
          Less: Recoveries of prior year unpaid obligations, actual                            0                      0
          Change in uncollected customer                                                  (6,421)               (62,659)
             payments from Federal sources (+/-)
          Obligated balance, net, end of period
             Unpaid obligations                                                          333,699                292,725
             Less: Uncollected customer payments from                                   (340,071)              (333,550)
                Federal sources
             Total Unpaid obligated balance, net, end of period                           (6,372)               (40,825)

         Net Outlays:
          Net Outlays:
             Gross Outlays                                                               653,431                660,643
             Less: Offsetting collections                                               (621,115)              (685,079)
             Less: Distributed Offsetting receipts                                             0                      0
          Net Outlays                                                       $             32,316 $              (24,436)




         The accompanying notes are an integral part of these statements.




328
2006 Annual Financial Report



Department of Defense
Navy Working Capital Fund - Marine Corps
CONSOLIDATED STATEMENT OF FINANCING
For the Years Ended September 30, 2006 and 2005
($ in thousands)


                                                                                       2006 Consolidated        2005 Consolidated

   Resources Used to Finance Activities:
   Budgetary Resources Obligated
     Obligations incurred                                                          $               694,405 $                690,994
     Less: Spending authority from offsetting collections and recoveries (-)                      (627,536)                (747,738)
     Obligations net of offsetting collections and recoveries                                      66,869                   (56,744)
     Less: Offsetting receipts (-)                                                                      0                         0
     Net obligations                                                                               66,869                   (56,744)
   Other Resources
     Donations and forfeitures of property                                                               0                        0
     Transfers in/out without reimbursement (+/-)                                                  (90,240)                 (21,892)
     Imputed financing from costs absorbed by others                                                12,327                   10,079
     Other (+/-)                                                                                         0                        0
     Net other resources used to finance activities                                                (77,913)                 (11,813)
     Total resources used to finance activities                                    $               (11,044) $               (68,557)

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in budgetary resources obligated for goods, services and benefits
      ordered but not yet provided
        Undelivered orders (-)                                                     $               (27,627) $                (5,175)
        Unfilled Customer Orders                                                                   (11,274)                   67,088
     Resources that fund expenses recognized in prior periods                                              0                        0
     Budgetary offsetting collections and receipts that do not affect Net
       Cost of Operations                                                                                0                        0
     Resources that finance the acquisition of assets                                             (177,220)                (193,226)
     Other resources or adjustments to net obligated resources that do not
       affect Net Cost of Operations
        Less: Trust or Special Fund Receipts related to exchange in the entity's
        budget (-)                                                                                      0                        0
        Other (+/-)                                                                                90,240                   21,892
     Total resources used to finance items not part of the Net
       Cost of Operations                                                          $              (125,881) $              (109,421)
     Total resources used to finance the Net Cost of Operations                    $              (136,925) $              (177,978)




   The accompanying notes are an integral part of these statements.




                                                                                                                                        329
                                                                                             Navy Working Capital Fund - Marine Corps
                                                                                                                 Department of the Navy



      Department of Defense
      Navy Working Capital Fund - Marine Corps
      CONSOLIDATED STATEMENT OF FINANCING
      For the Years Ended September 30, 2006 and 2005
      ($ in thousands)


                                                                                  2006 Consolidated        2005 Consolidated

         Components of the Net Cost of Operations that will not Require
           or Generate Resources in the Current Period:
         Components Requiring or Generating Resources in Future Period:
           Increase in annual leave liability                                 $                    0   $                    0
           Increase in environmental and disposal liability                                        0                        0
           Upward/Downward reestimates of credit subsidy expense (+/-)                             0                        0
           Increase in exchange revenue receivable from the public (-)                             0                        0
           Other (+/-)                                                                         2,928                    4,302
           Total components of Net Cost of Operations that will require or
             generate resources in future periods                             $                2,928   $                4,302

         Components not Requiring or Generating Resources:
           Depreciation and amortization                                      $                 3,560 $                 3,509
           Revaluation of assets and liabilities (+/-)                                        (38,835)                 41,690
           Other (+/-)
               Trust Fund Exchange Revenue                                                         0                        0
               Cost of Goods Sold                                                            191,173                  104,921
               Operating Materials & Supplies Used                                                 0                        0
               Other                                                                               0                        7
           Total components of Net Cost of Operations that will not require
             or generate resources                                            $              155,898   $              150,127
           Total components of Net Cost of Operations that will
            not require or generate resources in the current period           $              158,826   $              154,429
            Net Cost of Operations                                            $               21,901   $              (23,549)




         The accompanying notes are an integral part of these statements.




330
                              Department of the Navy Subsidiary Financial Statements

                Navy Working Capital Fund – Marine Corps


                                2006
                        Notes to the Principal Statements




                                                                                             Navy Working Capital Fund-MC Notes to the Principal Statements
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                       331
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                           Department of the Navy



      Note 1.         Signiﬁcant Accounting Policies
      1.A.    Basis of Presentation
      These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations
      of the Navy Working Capital Fund, Marine Corps (NWCF, MC), as required by the “Chief Financial
      Oﬃcers (CFO) Act of 1990,” expanded by the “Government Management Reform Act of 1994,” and
      other appropriate legislation. The ﬁnancial statements have been prepared from the books and records
      of NWCF, MC in accordance with the “Department of Defense Financial Management Regulation,” the
      Oﬃce of Management and Budget Circular (OMB) A-136, Financial Reporting Requirements, and to
      the extent possible Generally Accepted Accounting Principles (GAAP). The accompanying ﬁnancial
      statements account for all resources for which NWCF, MC is responsible. Information relative to
      classiﬁed assets, programs, and operations is excluded from the statements or otherwise aggregated and
      reported in such a manner that it is not discernable.

      The NWCF, MC is unable to fully implement all elements of GAAP and the OMB Circular A-136, due to
      limitations of its ﬁnancial management processes and systems and nonﬁnancial systems and processes
      that feed into the ﬁnancial statements. The NWCF, MC derives its reported values and information
      for major asset and liability categories, largely from nonﬁnancial systems, such as inventory systems
      and logistic systems. These systems were designed to support reporting requirements for maintaining
      accountability over assets and reporting the status of Federal appropriations rather than preparing
      ﬁnancial statements in accordance with GAAP. The NWCF, MC continues to implement processes
      and system improvements addressing these limitations. The NWCF, MC currently has eleven auditor
      identiﬁed ﬁnancial statement weaknesses:

      (1) Financial Management Systems, (2) Intragovernmental Eliminations, (3) Accounting Entries, (4) Fund
      Balance with Treasury, (5) Environmental Liabilities, (6) General Property, Plant and Equipment,
      (7) Government Property and Material in Possession of Contractors, (8) Inventory, (9) Operating Materials
      and Supplies, (10) Statement of Net Cost, and (11) Statement of Financing.

      1.B.    Mission of the Reporting Entity
      The United States Marine Corps (USMC) was created on November 10, 1775, as an act of the 2nd
      Continental Congress. The overall mission of USMC is to defend advanced naval bases and to conduct
      such land operations as may be essential to the prosecution of a naval campaign. The NWCF, MC
      provides goods and quality products and responsive maintenance support services required to support
      mobilization, surge and reconstitution requirements to DON, and other Department of Defense (DoD),
      customers to ensure the operating forces are equipped for war in accordance with mobilization plans. In
      addition, NWCF, MC supports other government and nongovernmental customers.

      The NWCF, MC has prepared annual ﬁnancial statements pursuant to CFO Act of 1990, as amended
      for the past fourteen years. The Act requires that ﬁnancial statements be prepared and audited for each
      revolving fund and account that performed substantial commercial functions, such as those performed by
      NWCF, MC.

      1.C.    Appropriations and Funds
      The United States Marine Corps (USMC) receives its appropriations and funds as general, working
      capital (revolving funds), trust, special, and deposit funds. The components use these appropriations and
      funds to execute their missions and report on resource usage.

      The NWCF, MC receive their initial funding through an appropriation or a transfer of resources from
      existing appropriations or funds and use those capital resources to ﬁnance the initial startup. The
      Working Capital Fund entities provide goods and services on a reimbursable basis. Reimbursable
332
2006 Annual Financial Report



receipts fund ongoing operations and are generally available in their entirety for use without further
congressional action.

1.D.    Basis of Accounting
For Fiscal Year (FY) 2006, NWCF, MC ﬁnancial management systems are unable to meet all of the
requirements for full accrual accounting. Many of NWCF, MC’s ﬁnancial and nonﬁnancial feeder systems
and processes were designed and implemented prior to the issuance of GAAP for federal agencies. These
systems were not designed to collect and record ﬁnancial information on the full accrual accounting basis
as required by GAAP. Most of NWCF, MC’s legacy systems were designed to record information on a
budgetary basis.

The DoD has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and nonﬁnancial
feeder systems and processes into compliance with GAAP. One such action is the current revision
of its accounting systems to record transactions based on the United States Standard General Ledger
(USSGL). Until all of NWCF, MC’s ﬁnancial and nonﬁnancial feeder systems and processes are updated
to collect and report ﬁnancial information as required by GAAP, NWCF, MC ﬁnancial data will be based
on budgetary transactions (obligations, disbursements, and collections), transactions from nonﬁnancial
feeder systems, and adjustments for known accruals of major items such as payroll expenses, accounts
payable, and environmental liabilities.

In addition, DoD identiﬁes program costs based upon the major appropriation groups provided by
the Congress. Current processes and systems do not capture and report accumulated costs for major
programs based upon the performance measures as required by the Government and Performance and
Results Act (GPRA). The DoD is in the process of reviewing available data and aĴempting to develop
a cost reporting methodology that balances the need for cost information required by the Statement of
Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” with the need to keep the ﬁnancial statements from being overly
voluminous.

1.E.    Revenues and Other Financing Sources
Depot Maintenance activities recognize revenue according to the percentage of completion method.
Supply Management activities recognize revenue from the sale of inventory items.

The NWCF, MC does not include nonmonetary support provided by US allies for common defense
and mutual security in its list of other ﬁnancing sources that appears in the Statement of Net Cost and
the Statement of Financing. The US has agreements with foreign countries that include either direct or
indirect sharing of costs that each country incurs in support of the same general purpose. Examples
include countries where there is a mutual or reciprocal defense agreement, where US troops are
stationed, or where US ﬂeets are in a port.

1.F.    Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period
incurred. However, because NWCF, MC’s ﬁnancial and nonﬁnancial feeder systems were not designed
to collect and record ﬁnancial information on the full accrual accounting basis, accrual adjustments
are made for major items such as payroll expenses, accounts payable, environmental liabilities, and
unbilled revenue. The NWCF, MC’s expenditures for capital and other long-term assets are recognized
as operating expenses based on depreciation. In the case of operating materials and supplies (OM&S),
operating expenses are generally recognized when the items are purchased. Eﬀorts are underway to
migrate towards the consumption method for recognizing OM&S expenses.




                                                                                                                   333
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      1.G.    Accounting for Intragovernmental Activities
      Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among
      entities within DoD or between two or more federal agencies. However, NWCF, MC cannot accurately
      identify most of its intragovernmental transactions by customer because NWCF, MC’s systems do not
      track buyer and seller data needed to match related transactions.

      Seller entities within DoD provided summary seller-side balances for revenue, accounts receivable, and
      unearned revenue to the buyer-side internal DoD accounting oﬃces.

      In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances. IntraDoD
      intragovernmental balances are then eliminated. Starting in FY 2005, NWCF, MC properly eliminates
      the revenue results from intraDoD sales of capitalized assets. The DoD is developing long-term system
      improvements that will include suﬃcient up-front edits and controls to eliminate the need for aĞer-
      the-fact reconciliations. The volume of intragovernmental transactions is so large that aĞer-the-fact
      reconciliation cannot be accomplished eﬀectively with existing or foreseeable resources.

      The Department of the Treasury Financial Management Service (FMS), is responsible for eliminating
      transactions between DoD and other federal agencies. The Treasury Financial Manual, Part 2 – Chapter
      4700, “Agency Reporting Requirements for the Financial Report of the United States Government” and
      the Treasury’s “Federal Intragovernmental Transactions Accounting Policy Guide,” provide guidance
      for reporting and reconciling intragovernmental balances. While NWCF, MC is unable to fully reconcile
      intragovernmental transactions with all federal partners, NWCF, MC is able to reconcile balances
      pertaining to investments in federal securities, borrowings from the U.S. Treasury and the Federal
      Financing Bank, Federal Employees’ Compensation Act transactions with the Department of Labor
      (DOL), and beneﬁt program transactions with the Oﬃce of Personnel Management (OPM). The DoD’s
      proportionate share of public debt and related expenses of the federal government are not included.
      The Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s
      ﬁnancial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
      statements report the source of public ﬁnancing whether from issuance of debt or tax revenues.

      Financing for the construction of DoD facilities is obtained through appropriations. To the extent this
      ﬁnancing ultimately may have been obtained through the issuance of public debt, interest costs have
      not been capitalized since the Department of the Treasury does not allocate such interest costs to the
      beneﬁting agencies.

      1.H.    Transactions with Foreign Governments and International Organizations
      Each year, NWCF, MC sells defense articles and services to foreign governments and international
      organizations under the provisions of the “Arms Export Control Act of 1976.” Under the provisions of
      the Act, DoD has authority to sell defense articles and services to foreign countries and international
      organizations generally at no proﬁt or loss to US Government. Payment is required in advance.

      1.I.    Funds with the U.S. Treasury
      The NWCF, MC’s monetary ﬁnancial resources are maintained in U.S. Treasury accounts. The disbursing
      oﬃces of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army
      Corps of Engineers (USACE) and the Department of State’s ﬁnancial service centers process the majority
      of NWCF, MC cash collections, disbursements, and adjustments worldwide. Each disbursing station
      prepares monthly reports that provide information to the U.S. Treasury on check issues, electronic fund
      transfers, interagency transfers, and deposits.

      In addition, DFAS sites and USACE Finance Center submit reports to the Department of the Treasury, by
      appropriation, on interagency transfers, collections received, and disbursements issued. The Department
      of the Treasury records this information to the applicable fund balance with treasury (FBWT) account.
      Diﬀerences in NWCF, MC recorded balance in FBWT accounts and Treasury’s FBWT accounts sometimes
      result and are subsequently reconciled.

334
2006 Annual Financial Report



1.J.    Foreign Currency
Not Applicable.

1.K.    Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable
from other federal entities or from the public. Allowances for uncollectible accounts due from the public
are based upon analysis of collection experience by fund type. The DoD does not recognize an allowance
for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies
are to be resolved between the agencies (per Code of Federal Regulations 4CFR 101).

DoD Components use a variety of techniques for estimating the allowance for uncollectible accounts
receivable from the public. The NWCF, MC bases the estimate of uncollectible accounts receivable on a
percentage of the total that was billed aĞer the total project cost has been adjusted to reﬂect the advance
deposit. The NWCF, MC requires an advance deposit from all public entities prior to the commencement
of work. Therefore, an assumption is made that the amount of uncollectible accounts should be
negligible.

1.L.    Direct Loans and Loan Guarantees
Not Applicable.

1.M.    Inventories and Related Property
Most of NWCF, MC inventories are currently reported at an approximate historical cost using Latest
Acquisition Cost (LAC) adjusted for holding gains and losses. The remaining inventory is valued at
Moving (Weighted) Average Cost (MAC). The LAC method is used because legacy inventory systems
were designed for material management rather than accounting. Although these systems provide
visibility and accountability over inventory items, they do not maintain historical cost data necessary
to comply with the SFFAS No. 3, “Accounting for Inventory and Related Property.” Additionally,
these systems cannot produce ﬁnancial transactions using USSGL, as required by the Federal Financial
Management Improvement Act of 1996 (P.L. 104-208). The NWCF, MC plans to utilize new systems
development processes to transition the inventory to the moving average cost method.

SFFAS No. 3 requires separate accounting for “inventory held for sale” and “inventory held in reserve
for future sale.” The NWCF, MC manages only military or government speciﬁc materiel under normal
conditions. Therefore, there is no management or valuation diﬀerence between the two USSGL accounts.
Items commonly used in and available from the commercial sector are not managed in NWCF, MC
material management activities.

Related property includes operating materials and supplies (OM&S) and stockpile materials. The
OM&S, including munitions not held for sale, are valued at standard purchase price. The DoD uses both
the consumption method and the purchase method of accounting for OM&S. Items that are centrally
managed and stored, such as ammunition and engines, are generally recorded using the consumption
method and are reported on the Balance Sheet as OM&S. When current systems cannot fully support
the consumption method, NWCF, MC uses the purchase method. Under this method, materials and
supplies are expensed when purchased. During FY 2006, NWCF, MC expensed signiﬁcant amounts using
the purchase method because the systems could not support the consumption method or management
deemed that the item was in the hands of the end user.

The NWCF, MC recognizes condemned material as “Excess, Obsolete, and Unserviceable.” The cost of
disposal is greater than the potential scrap value; therefore, the net value of condemned material is zero.
Potentially redistributed material, presented in previous years as “Excess, Obsolete, and Unserviceable,”
is included in the “Held for Use” or “Held for Repair” categories according to its condition.

                                                                                                                   335
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      Past audits identiﬁed uncertainties about completeness and existence of reported values of inventory.
      Inventory available and purchased for resale includes consumable spares, repair parts, and repairable
      items owned and managed by NWCF, MC. This inventory is retained to support military or national
      contingencies. Inventory held for repair is damaged inventory that requires repair to make suitable
      for sale. It is more economical to repair than to procure these inventory items. Because NWCF, MC
      oĞen relies on weapon systems and machinery no longer in production, NWCF, MC supports a process
      that encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining
      a ready, mobile, and armed military force. Work in process balances include costs related to the
      production or servicing of items, including direct material, direct labor, applied overhead and other direct
      costs. Work in process also includes the value of ﬁnished products or completed services pending the
      submission of bills to the customer. The work in process designation may also be used to accumulate
      the amount paid to a contractor under cost reimbursable contracts, including amounts withheld from
      payment to ensure performance, and amounts paid to other government plants for accrued costs of end
      items of material ordered but not delivered. Work in process includes munitions in production and
      depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery of
      maintenance services.

      1.N.    Investments in U.S. Treasury Securities
      Not Applicable.

      1.O.    General Property, Plant and Equipment
      The DoD is moving away from a standard capitalization threshold for all categories (e.g. real property,
      military equipment, etc.) of General Property Plant and Equipment (PP&E) to one that is speciﬁc for each
      individual category.

      The capitalization threshold was revised from $100,000 to $20,000 for real property. The current $100,000
      capitalization threshold remains unchanged for the remaining General PP&E categories. Although,
      DoD revised the capitalization threshold from $100,000 to $20,000 for real property, USMC capitalization
      threshold for real property currently remains $100,000, except for Minor Construction threshold for
      NWCF, which is at $20,000.

      General Property, Plant and Equipment (PP&E) assets are capitalized at historical acquisition cost plus
      capitalized improvements when an asset has a useful life of two or more years and the acquisition
      cost equals or exceeds DoD capitalization threshold of $100,000. The DoD also requires capitalization
      of improvement costs over the DoD capitalization threshold of $100,000 for General PP&E. The DoD
      depreciates all General PP&E, other than land, on a straight-line basis.

      Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and
      $50,000 for ﬁscal years 1993, 1994, and 1995, respectively, and an estimated useful life of two or more
      years. General PP&E previously capitalized at amounts below $100,000 were wriĴen oﬀ General Fund
      ﬁnancial statements in FY 1998. No adjustment was made for NWCF, MC assets. These assets remain
      capitalized and reported on NWCF, MC ﬁnancial statements.

      The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,”
      establishes generally accepted accounting principles for valuing and reporting military equipment (e.g.,
      ships, aircraĞ, combat vehicles, weapons) in federal ﬁnancial statements. The Standard provided for
      the use of estimated historical cost for valuing military equipment if obtaining actual historical cost
      information is not practical. The DoD used Bureau of Economic Analysis (BEA) to calculate the value of
      the military equipment for reporting periods from October 1, 2002 through March 31, 2006.

      Eﬀective with 3rd Quarter, FY 2006, the DDoD replaced the BEA estimation methodology with an
      estimation methodology for military equipment based on DoD internal records. The DoD initially
336
2006 Annual Financial Report



identiﬁed the universe of military equipment by accumulating information relating to program funding
and associated military equipment, equipment useful life, program acquisitions and disposals to create
a baseline. The military equipment baseline is updated using expenditure information, and information
related to acquisition and disposals.

1.P.    Advances and Prepayments
The NWCF, MC records payments in advance of the receipt of goods and services as advances or
prepayments and reports them as assets on the Balance Sheet. The NWCF, MC recognizes advances and
prepayments as expenses when it receives the related goods and services.

1.Q.    Leases
Not Applicable.

1.R.    Other Assets
The NWCF, MC conducts business with commercial contractors under two primary types of contracts:
ﬁxed price and cost reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-
term contracts can cause, NWCF, MC provides ﬁnancing payments.

Other assets include those assets, such as military and civil service employee pay advances, travel
advances, and contract ﬁnancing payments, that are not reported elsewhere on the Balance Sheet.

Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations (FAR), Part 32, as
authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the
Government. These payments are designed to alleviate the potential ﬁnancial burden on contractors
performing on certain long-term contracts and facilitate competition for defense contracts. Contract
ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include
advance payments, performance-based payments, commercial advance and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement contracts. Contract
ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental
payments, or progress payments based on a percentage or stage of completion, which the Defense
Federal Acquisitions Regulations Supplement (DFARS) authorizes only for construction of real property,
shipbuilding, and ship conversion, alteration, or repair.

1.S.    Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No.
12, “Recognition of Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing
condition, situation, or set of circumstances that involves an uncertainty as to possible gain or loss.
The uncertainty will be resolved when one or more future events occur or fail to occur. The NWCF,
MC recognizes contingent liabilities when past events or exchange transactions occur, a future loss is
probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not
exist but there is at least a reasonable possibility of incurring a loss or additional losses. Examples of
loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible
claims and assessments. The NWCF, MC loss contingencies arise as a result of pending or threatened
litigation or claims and assessments occur due to events such as aircraĞ, ship and vehicle accidents,
medical malpractice, property or environmental damages, and contract disputes. Such amounts are
developed in conjunction with, and not easily identiﬁable separately from, environmental disposal costs.



                                                                                                                    337
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                                Department of the Navy



      1.T.    Accrued Leave
      The NWCF, MC reports as liabilities military leave and civilian earned leave except sick leave that has
      been accrued and not used as of the Balance Sheet date. Sick leave is expensed as taken. The liability
      reported at the end of the accounting period reﬂects the current pay rates.

      1.U.    Net Position
      Net Position consists of unexpended appropriations and cumulative results of operations (CRO).
      Unexpended appropriations represent the amounts of authority that are unobligated and have not been
      rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal
      liabilities for payments have not been incurred.

      The CRO represents the net diﬀerence, since inception of an activity, between expenses and losses
      and ﬁnancing sources (including appropriations, revenue, and gains). Beginning, with FY 1998, the
      cumulative results also include donations and transfer in and out of assets without reimbursement.

      1.V.    Treaties for Use of Foreign Bases
      Not Applicable.

      1.W.    Comparative Data
      Financial statement ﬂuctuations greater than two percent of total assets on the Balance Sheet or ten
      percent from the previous period presented are explained within the notes to the ﬁnancial statements.

      1.X.    Unexpended Obligations
      The NWCF, MC obligates funds to provide goods and services for outstanding orders not yet delivered.
      The ﬁnancial statements do not reﬂect this liability for payment for goods and services not yet delivered.

      1.Y.    Undistributed Disbursements and Collections
      Undistributed disbursements and collections represent the diﬀerence between disbursements and
      collections matched at the transaction level to a speciﬁc obligation, payable, or receivable in the activity
      ﬁeld records as opposed to those reported by the U.S. Treasury. These amounts should agree with
      the undistributed amounts reported on the departmental accounting reports. In-transit payments are
      those payments that have been made to other agencies or entities that have not been recorded in their
      accounting records. These payments are applied to the entities’ outstanding accounts payable balance.
      In-transit collections are those collections from other agencies or entities that have not been recorded in
      the accounting records. These collections are also applied to the entities’ accounts receivable balance.

      The DoD policy is to allocate supported undistributed disbursements and collections between federal and
      nonfederal categories based on the percentage of federal and nonfederal accounts payable and accounts
      receivable. Unsupported undistributed disbursements are recorded in accounts payable. Unsupported
      undistributed collections are recorded in other liabilities. The NWCF, MC does not follow this procedure.
      Collections are allocated to federal accounts receivable and disbursements to nonfederal accounts
      payable.




338
2006 Annual Financial Report



Note 2.         Nonentity Assets
 As of September 30                                     2006                         2005
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury               $                    0         $                    0
    B. Accounts Receivable                                           0                              0
    C. Total Intragovernmental Assets           $                    0         $                    0

 2. Nonfederal Assets
    A. Cash and Other Monetary Assets           $                    0         $                    0
    B. Accounts Receivable                                           0                              0
    C. Other Assets                                                  0                              0
    D. Total Nonfederal Assets                  $                    0         $                    0

 3. Total Nonentity Assets                      $                    0         $                    0

 4. Total Entity Assets                         $              671,288         $             766,982


 5. Total Assets                                $              671,288         $             766,982


6. Information Related to Nonentity and Entity Assets

Fluctuations and Abnormalities
The Navy Working Capital Fund, Marine Corps (NWCF, MC) does not have nonentity assets.

Composition of Nonentity Assets
Not Applicable.

Other Disclosures Related to Nonentity Assets
No disclosures required.




                                                                                                             339
                                                                  Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      Note 3.         Fund Balance with Treasury
       As of September 30                                         2006                         2005
       (Amounts in thousands)


       1. Fund Balances
          A. Appropriated Funds                        $                          0   $                      0
          B. Revolving Funds                                                 30,193                     62,510
          C. Trust Funds                                                          0                          0
          D. Special Funds                                                        0                          0
          E. Other Fund Types                                                     0                          0
          F. Total Fund Balances                       $                     30,193   $                 62,510



       2. Fund Balances Per Treasury Versus
          Agency
          A. Fund Balance per Treasury                 $                     30,193   $               (10,870)
          B. Fund Balance per United States
             Marine Corps (USMC)                                             30,193                     62,510

       3. Reconciling Amount                           $                         0    $               (73,380)


      4. Explanation of Reconciliation Amount:

      Fund Balance per Treasury, negative $10.9 million, was incorrectly stated in Fiscal Year (FY) 2005. The
      correct amount should have been $62.5 million.

      5. Information Related to Fund Balance with Treasury:

      Fluctuations and Abnormalities
      In FY 2006, fund balance with treasury (FBWT) decreased $32.3 million 52%, due to a decrease of
      $29.1 million for Depot Maintenance and $3.2 million for Supply Management, as compared to FY 2005.
      The primary drivers of the decrease in FBWT are explained as follows:

      Depot Maintenance Activity Group (DMAG)
      The FBWT decreased $29.1 million in FY 2006, as compared to FY 2005. This is the result of increased
      disbursements to pay for operating material and supplies, purchased by the Maintenance Centers to
      support customer workload related to the Global War on Terror (GWOT). The majority of the material
      was purchased in 1st Quarter, FY 2006, billed and liquidated in 2nd through 4th Quarters, FY 2006. The
      increase in the material being purchased is due to the severely damaged warﬁghting weapon systems that
      require above average repair parts to complete restoration to a ready for issue warﬁghting condition. In
      addition, for workload related to the armor plating project, the Maintenance Centers purchased material
      in bulk due to the following reasons:

            •    ensure the material was delivered in a timely manner,
            •    to support the production schedule,
            •    to take advantage of opportunities for beĴer pricing and,
            •    to ensure available vendor market from reliable resources
340
2006 Annual Financial Report



It is anticipated that as the workload is completed and customers are billed, revenue will be earned and
fund balance with treasury will increase.

In contrast, DMAG collections were signiﬁcantly increased during the 4th Quarter, FY 2006. The
previously discussed armor project, where customers due to GWOT engagements, required the workload
to be completed by the Maintenance Centers on an accelerated rate thus increasing billings to and
collection/payment from customers. The accelerated eﬀort increased DMAG activity and led to an
increase to FBWT through collections on reimbursable orders.

Supply Management, Marine Corps (SMAG)
FBWT decreased $3.2 million in FY 2006, as compared to FY 2005. This is a direct result of overall
customer orders decreasing due to the following:

During the 3rd Quarter, FY 2005, Twenty Nine Palms Marine Corps Organization awarded a contract
to General Services Administration (GSA) to provide vendor owned, vendor managed consumable
operational supplies and material to its customers who were previously making purchases via the
Direct Support Stock Center (Retail Activity) where NWCF received obligation authority to procure and
sell to its customers. Camp Butler Marine Corps Organization awarded the same type of contract in the
1st Quarter, FY 2006. Supply Management WCF considers this a permanent reduction to sales targets.

In addition, FBWT decreased as a result of retail organizations at Albany, Georgia and Barstow, California
who procured packing supplies, in 3rd Quarter, FY 2006 to support their customers (Maintenance Centers
(DMAG)) in shipping completed workload related to producing armor kits for DMAG customers. The
packing supplies were anticipated to be received and sold to DMAG during 4th Quarter, but was not
received and sold until October, FY 2007.

Composition of Fund Balance with Treasury
FBWT of $30.2 million reﬂects FY 2005 ending balance of $62.5 million plus current FY 2006 collections,
disbursements, and other cash transactions recorded in the Navy Working Capital Fund, Marine Corps
(NWCF, MC) Treasury sub-limit 97X4930.002. The following table details the amounts recorded as of
September 30, 2006.

(Amounts in thousands)
Collections                                           $ 621,115
Disbursements                                         $ (653,431)

Intragovernmental Payment and Collection (IPAC)
The IPAC diﬀerences are reconcilable diﬀerences that represent amounts recorded by Treasury but
not reported by the organization. The IPAC diﬀerences for the U.S. Marine Corps (USMC) cannot be
diﬀerentiated between NWCF, MC and General Funds; therefore no IPAC diﬀerences are being reported
for NWCF, MC. All amounts, if applicable, will be reported on the USMC General Fund statement.




                                                                                                                  341
                                                                       Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      Status of Fund Balance with Treasury
       As of September 30                                             2006                      2005
       (Amounts in thousands)
       1. Unobligated Balance
          A. Available                                      $                177,371    $              227,700
          B. Unavailable                                                           0                         0

       2. Obligated Balance not yet Disbursed               $                333,699    $              292,725

       3. Nonbudgetary FBWT                                 $                      0    $                     0

       4. NonFBWT Budgetary Accounts                        $             (1,572,615)   $           (1,549,554)

       5. Total                                             $             (1,061,545)   $           (1,029,129)


      Fluctuations and Abnormalities
      There are no abnormalities to disclose and no variances equal to or greater than ten percent to explain for
      FY 2006.

      Deﬁnitions
      The Status of Fund Balance with Treasury consists of unobligated and obligated balances. These balances
      reﬂect the budgetary authority remaining for disbursements against current or future obligations. In
      addition, the Status of Funds Balance with Treasury includes various accounts that aﬀect either budgetary
      reporting or fund balance with treasury, but not both.

      Unobligated Balance represents the cumulative amount of budgetary authority that has not been set
      aside to cover outstanding obligations. Unobligated Balance is classiﬁed as available or unavailable and
      is associated with appropriations expiring at ﬁscal year end that remain available only for obligation
      adjustments until the account is closed.

      Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have been
      received or services that have not been performed.

      Non-Budgetary Fund Balance with Treasury (FBWT) includes entity and nonentity Fund Balance with
      Treasury accounts, which do not have budgetary authority, such as unavailable receipt accounts or
      clearing accounts.

      Non-FBWT Budgetary Accounts include budgetary accounts that do not aﬀect Fund Balance with
      Treasury, such as contract authority, borrowing authority and investment accounts. This category reduces
      the Status of Fund Balance with Treasury.

      The diﬀerence between total fund balance on the FBWT schedule and total of the status of funds schedule
      is primarily due to the $1.6 billion nonbudgetary FBWT. This is being addressed by DFAS in which it
      is believed to be related to Navy’s distribution of Contract Authority/Cash sometime around 1995. The
      Navy is researching this issue. In addition, this diﬀerence is cumulative of various problems, as well as,
      an internal weakness of creating budgetary accounts from proprietary accounts in footnotes. The DFAS
      is working with Department of Navy (DON) in the Financial Improvement Plan and in the Cash Initiative
      to standardize cash forecasting methods; standardize cash reconciliation processes; perform a cash
      rebuild for DON; and, populate budgetary accounts at the ﬁeld activity level. The accumulation of these
342
2006 Annual Financial Report



eﬀorts will correct this diﬀerence. It is anticipated that the Marine Corps will be provided an explanation
of this issue when the review is completed.


Disclosures Related to Suspense/Budget Clearing Accounts
Information Related to Suspense/Budget Clearing Accounts:
NWCF, MC Suspense/Budget Clearing Accounts are being reported under Marine Corps General Funds.


Disclosures Related to Problem Disbursements and In-Transit
Disbursements
                                                                                         (Decrease)/
 As of September 30                             2004        2005        2006            Increase from
                                                                                       FY 2005 to 2006
 (Amounts in thousands)

1. Total Problem Disbursements,
   Absolute Value
   A. Unmatched Disbursements
      (UMDs)                                $          0$      5,719    $    4,088         $         (1,631)
   B. Negative Unliquidated
      Obligations (NULO)                               0           0             2                         2

2. Total In-transit
   Disbursements, Net                       $          0$    (6,565)    $    6,346         $          12,911

Information Related to Disclosures Related to Problem Disbursements and In-Transit Disbursements

Fluctuations and Abnormalities
In FY 2006, Total Unmatched Disbursements, decreased $1.6 million, 29%, as compared to FY 2005.
This is due to elements of operations and processes, incorporated by the Marine Corps Depots, to work
credit card payments for material that was placed on order. Diﬃculties exist in being able to utilize the
current ﬁnancial management system (Defense Industrial Financial Management System) and the various
inventory management systems to identify, at the document level, credit cards as the source of payment.
In FY 2004, an interim process was worked out to mitigate this problem. Beginning in late 1st Quarter,
FY 2006, due to DFAS problems described above, delays in completing actions outlined to work and
clear unmatched disbursements from credit card sources, was experienced. This caused the unmatched
disbursement to increase substantially beginning in 2nd Quarter, FY 2006. The level of unmatched
disbursements by the end of 4th Quarter, FY 2006 decreased drastically due to the collaborative and
concentrated eﬀorts of both the Marine Corps and DFAS.

In FY 2006, Negative Unliquidated Obligations increased $2.4 thousand, 100%, and In-Transit
Disbursements, Net increased $12.9 million, 195%, as compared to FY 2005. This is due to an intensive
analysis performed by DFAS in 1st Quarter, FY 2006 that resulted in the identiﬁcation of the causes and
systems creating increased numbers of undistributed disbursements. The intensive analysis also allowed
DFAS to identify the undistributed values by the proper categories such as supported and unsupported,
in–transit or problem disbursements and to complete processes necessary to clear the unmatched/
undistributed in a timelier manner. In addition, process improvements were implemented to avoid
future signiﬁcant increases in this category.
                                                                                                                   343
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                                 Department of the Navy



      Unmatched Disbursements (UMDs)
      An unmatched disbursement (UMD) occurs when a payment is not matched to a corresponding
      obligation in the accounting system. Absolute value is the sum of positive values of debit and credit
      transactions without regard to the sign (plus or minus).

      Negative Unliquidated Obligations (NULOs)
      A negative unliquidated obligation (NULO) occurs when a payment is made against a valid obligation.
      However, the payment is greater than the amount of the obligation recorded in the accounting system.
      These payments have been made using available funds and are based on valid receiving reports for goods
      and services delivered under valid contracts.

      In-transit Disbursements
      In-transit disbursements represent the net value of disbursements and collections made by a Department
      of Defense disbursing activity on behalf of an accountable activity and have not yet been recorded in the
      accounting system.

      Other Disclosures
      The NWCF, MC problem disbursements reported have no amounts related to Foreign Military Sales.
      The problem disbursement and in-transit disbursement metrics furnished to DFAS Arlington included
      Treasury Index 97 (TI97) appropriations that will not be reported on Marine Corps’ ﬁnancial statements.
      Amounts will be reported on the appropriate TI97 ﬁnancial statements.


      Note 4.         Investments and Related Interest
      The Navy Working Capital Fund, Marine Corps (NWCF, MC) does not have investments and related
      interest.


      Note 5.         Accounts Receivable
                                                          2006                                         2005
       As of September 30                           Allowance For
                                 Gross Amount                               Accounts            Accounts
                                                     Estimated
                                     Due                                 Receivable, Net     Receivable, Net
                                                    Uncollectibles
       (Amounts in thousands)
       1. Intragovernmental
          Receivables            $        33,906              N/A    $              33,906   $                17,144

       2. Nonfederal
          Receivables
          (From the Public)      $           327   $             0   $                 327   $                  199

       3. Total Accounts
          Receivable             $        34,233   $             0   $              34,233   $                17,343


      4. Other Information Related to Accounts Receivable:

      Fluctuations and Abnormalities
      Intragovernmental accounts receivable increased $16.8 million, 98%, in Fiscal Year (FY) 2006 as compared
      to FY 2005. The primary driver of the increase is due to Depot Maintenance Activity Group (DMAG)
344
2006 Annual Financial Report



receiving and billing additional workload in FY 2006. The DMAG intragovernmental accounts receivable
increased $20.3 million, 204%, due to increased operating tempo resulting from the additional workload
completed and revenue billed in order to meet customer required delivery timeframes for repair and
return of equipment engaged in the Global War on Terror (GWOT). Although bills processed during
FY 2006 were collected in order to relieve the intragovernmental accounts receivable, the majority of the
increase occurred in September 2006. Some of the bills to customers that were processed the last week of
FY 2006 were not collected to relieve the accounts receivable until 1st Quarter, FY 2007. The additional
workload was received from Procurement, Marine Corps, Operation and Maintenance, Marine Corps/
Marine Corps Reserve, and the Army customers. The average revenue bill in FY 2006 increased from
$7.4 million in FY 2005 to $19.4 million in FY 2006.

Nonfederal accounts receivable increased $128.3 thousand, 65%, in FY 2006. The primary driver of the
increase is aĴributed to DMAG. Nonfederal accounts receivable increased due to unplanned workload
associated with repair and return of Amphibious Assault Vehicles and machine guns owned by foreign
military sales customers. This occurred at the end of 3rd Quarter, FY 2006 as a result of the workload
being completed and revenue billed. Collections from the billings will not be received until 1st Quarter,
FY 2007.

Allowance Method
The Statement of Federal Financial Accounting Standards No. 1, “Accounting for Selected Assets and
Liabilities,” and Department of Defense (DoD) Financial Management Regulation require that federal
agencies establish an allowance for uncollectible accounts receivable nonfederal. This account has been
established within Navy Working Capital Fund, Marine Corps (NWCF, MC). This amount is low, as
NWCF requires an advance deposit from all nonfederal entities prior to the commencement of work.
Therefore, an assumption is made that the amount of uncollectible accounts should be negligible. The
allowance amount represents a percentage of the total that was billed aĞer the total project cost has
been adjusted to reﬂect the advance deposit. Based on the assumption of negligible risk of loss for
uncollectible accounts, there is no reserve for uncollectible accounts presented in the accompanying
ﬁnancial statements.

Allocation of Undistributed Collections
DoD policy is to allocate supported undistributed collections between federal and nonfederal categories
based on the percentage of federal and nonfederal accounts receivable. Unsupported undistributed
collections should be recorded in United States Standard General Ledger account 2400, liability for
deposit funds, clearing accounts, and undeposited collections. NWCF, MC does not follow this allocation
procedure. Collections are allocated to federal accounts receivable. This is required because of the
potential that some of the unsupported undistributed collections do not belong to NWCF and will have to
be transferred to the appropriate fund holder.

Trading Partner Data
NWCF, MC’s accounting systems do not capture speciﬁc trading partner data at the transaction
level in a manner that facilitates trading partner aggregations. Therefore, NWCF, MC is unable to
reconcile intragovernmental accounts receivable balances with most trading partners. Through an
ongoing Business Management Modernization Program, DoD intends to develop long-term systems
improvements that will capture the data necessary to perform reconciliations. The Department of the
Navy (DON) is also working on short-term solutions to gather the required information as outlined in
DON Financial Improvement Plan.




                                                                                                                  345
                                                                       Navy Working Capital Fund - Marine Corps
                                                                                           Department of the Navy



      Aged Accounts Receivable
                                                    2006                                 2005
       As of September 30
                                      Intragovernmental     Nonfederal     Intragovernmental     Nonfederal
       (Amounts in thousands)
       CATEGORY
       Nondelinquent
          Current                    $             33,633   $       320    $            16,968   $        193
          Noncurrent                                    0             0                      0              0
       Delinquent
          1 to 30 days               $                  9   $          0   $                2    $           0
          31 to 60 days                               322            (0)                   40                2
          61 to 90 days                               254              0                   15                0
          91 to 180 days                              131              2                   91                4
          181 days to 1 year                           89              2                   51                0
          Greater than 1 year and
          less than or equal to
          2 years                                     163             3                      0               0
          Greater than 2 years
          and less
          than or equal to 6 years                      0             0                      0               0
          Greater than 6 years
          and less than or equal
          to 10 years                                   0             0                      0               0
          Greater than 10 years                         0             0                      0               0
       Subtotal                      $             34,601   $       327    $            17,167   $        199
          Less Supported
          Undistributed
          Collections                                   0             0                   (23)               0
          Less Eliminations                         (695)             0                      0               0
          Less Other                                    0             0                      0               0
       Total                         $             33,906   $       327    $            17,144   $        199


      Current systems do not allow for the identiﬁcation of the aging of the undistributed amounts. Aging
      information is not automatically generated and readily available in all feeder ﬁnancial systems and
      therefore must be manually reported.

      The Monthly Receivables Report is manually maintained by DFAS and NWCF, MC organizations. The
      boĴom portion of this chart is derived from the accounting adjustments required in the preparation of the
      ﬁnancial statements. In order to prepare this chart, NWCF, MC must make adjustments to the “other”
      line on this chart in order to reconcile the two portions. The DFAS is working with the ﬁeld sites to
      eliminate the diﬀerences between these two areas.

      The eliminations line in this chart is the amount of internal NWCF, MC eliminations as reported in the
      ﬁnancial statements. The $695.6 thousand represents the amounts aĴributable to other NWCF activities.



346
2006 Annual Financial Report



The amount of delinquent intragovernmental receivables greater than 30 days old totaled is $958.4
thousand. The amount represents the dollar amount expected from customers, which is generated from
the sale of excess material and goods and services.

The amount of nonfederal accounts receivable over 30 days is $6.8 thousand. The amount represents the
dollar amount expected from customers and generated from the sale of goods and services to foreign
military sales and nonfederal customers.

DFAS Kansas City and the Marine Corps continue to research and contact bill payers in an eﬀort to
resolve the delinquent aged receivables over 30 days.

Nonfederal Refunds Receivable
The total amount of nonfederal refunds receivables does not exceed 10% of the nonfederal accounts
receivable, net amount on the Balance Sheet.

Other Disclosures Related to Accounts Receivable
No further disclosures required.


Note 6.         Other Assets
 As of September 30                                              2006                        2005
 (Amounts in thousands)

 1. Intragovernmental Other Assets
    A. Advances and Prepayments                        $                       0   $                      70
    B. Other Assets                                                            0                           0
    C. Total Intragovernmental Other Assets            $                       0   $                      70

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments         $                    501    $                        0
    B. Other Assets (With the Public)                                        18                         (416)
    C. Total Nonfederal Other Assets                   $                    519    $                   ( 416)



 3. Total Other Assets                                 $                    519    $                   ( 346)


Fluctuations and Abnormalities
Intragovernmental Other Assets, Advances and Prepayments decreased $70.4 thousand, 100%, in
FY 2006. During 4th Quarter, FY 2005, $70.4 thousand in travel advances supporting Depot Maintenance
Activity Group (DMAG) civilian employees were erroneously posted as intragovernmental other assets.
These costs were reclassiﬁed and correctly posted as nonfederal other assets with the public beginning in
the 1st Quarter, FY 2006 reducing intragovernmental assets to zero. The error was identiﬁed as a result of
functions required to separate U.S. Marine Corps (USMC) ﬁnancial records from the Navy beginning in
the 1st Quarter, FY 2006.

Total Nonfederal Other Assets increased $935.4 thousand, 225%, in 4th Quarter, FY 2006 as compared to
FY 2005. The primary driver for this increase is Supply Management Activity Group (SMAG). SMAG
increased $917.4 thousand. During FY 2005, $416.2 thousand for expected material returns from the
sale of excess material was erroneously recorded as nonfederal other assets. As a result of a review
                                                                                                                   347
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      of accounts conducted by Defense Finance and Accounting Service and USMC during 1st Quarter, FY
      2006 a posting error was identiﬁed and corrected, decreasing nonfederal other assets and reclassiﬁed as
      an increase to refund receivables. Due to a manual process implemented to correctly identify material
      credits, the refund receivable was not cleared until 2nd Quarter, FY 2006. Also in September 2006, $501.2
      thousand was recorded for anticipated future contract ﬁnancing payments.

      Composition of Other Assets (With the Public)
      Other Assets (With the Public) includes amounts paid to DMAG civilian employees for the
      reimbursement of meals, incidental expenses, mileage, and other expenses while in and oﬃcial
      government travel status. Other assets with the public also include all authorized expenses related to
      expenses incurrent by employees to relocate from one duty station to another.

      Other Disclosures
      Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights
      to the Department of Defense (DoD) that protect the contract work from state or local taxation, liens or
      aĴachment by the contractor’s creditors, transfer of property, or disposition in bankruptcy; however, these
      rights should not be misconstrued to mean that ownership of the contractor’s work has transferred to
      the Government. The government does not have the right to take work, except as provided in contract
      clauses related to termination or acceptance, and DoD is not obligated to make payment to the contractor
      until delivery and acceptance of a satisfactory product.

      The Contract Financing Payment balance of $501.2 thousand is comprised of estimated future funded
      payments that will be paid to the contractor upon future delivery and government acceptance of a
      satisfactory product. (See additional discussion in Note 15, Other Liabilities).


      Note 7.           Cash and Other Monetary Assets
      Not Applicable.


      Note 8.           Direct Loan and/or Loan Guarantee Programs
      Not Applicable.


      Note 9.           Inventory and Related Property
       As of September 30                                       2006                           2005
       (Amounts in thousands)

       1. Inventory, Net                             $                    431,512   $                   541,020
       2. Operating Materials & Supplies, Net                             126,556                        95,932
       3. Stockpile Materials, Net                                              0                             0

       4. Total                                      $                    558,068   $                   636,952

      Fluctuations and Abnormalities
      Total Inventory and Related Property decreased $78.9 million, 12%, from Fiscal Year (FY) 2005 to FY 2006.
      The majority of this decrease is aĴributable to Net Inventory and Operating Material & Supplies, primarily
      in the area of Navy Working Capital Fund, Marine Corps (NWCF, MC), Supply Management Activity
      Group (SMAG). These decreases are described in the follow-on explanations of this note.

348
2006 Annual Financial Report



Inventory, Net
                                                      2006                        2005
 As of September 30                 Inventory,     Revaluation    Inventory,   Inventory,      Valuation
                                   Gross Value     Allowance         Net          Net           Method
 (Amounts in thousands)

 1. Inventory Categories
    A. Available and Purchased
       for Resale                  $    325,731    $   (89,478)      236,253   $   327,928     LAC, MAC
    B. Held for Repair                  194,387               0      194,387       212,258     LAC, MAC
    C. Excess, Obsolete, and
       Unserviceable                           0             0             0              0      NRV
                                                                                                MAC, SP,
     D. Raw Materials                         0              0            0               0      LAC
     E. Work in Process                     872              0          872             834       AC

     F. Total                      $    520,990    $   (89,478)      431,512   $   541,020
 L      df V l     ti   M th d
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost
MAC = Moving Average Cost

2. Information Related to Inventory, Net:

Fluctuations and/or Abnormalities
Total Inventory, Net decreased by $109.5 million, 20%, from FY 2005 to FY 2006. The explanations for the
majority of this variance are addressed below.

Inventory category: Available and Purchased for Resale: From FY 2005 to FY 2006, decreased $91.7
million, 28%.

The inventory allowance account increased $86.4 million from FY 2005 to FY 2006. This is due to posting
corrective actions resulting from a review, conducted in the 4th Quarter, FY 2005, by the Defense Finance
and Accounting Service (DFAS) for all prior period inventory transactions. The result of this review
was the creation and posting of two journal vouchers (JV) totaling $91.1 million, which decreased the
book value of the inventory ﬁnancial line account. These two journal vouchers were recorded to adjust
inventory values, which had previously been erroneously recorded as prior period adjustments during
the previous inventory revaluations. The prior period adjustment transactions resulting from the
inventory revaluation had not accounted for the decrease in inventory values.

Inventory Held for Repair: decreased $17.9 million, 8%, from FY 2005 to FY 2006. This decrease is due to
the completion and receipt of spare parts, which were sent to the Marine Corps’ Maintenance Centers for
repair and return. Upon return of these items, an adjustment is made to reﬂect the transfer of inventory
from repair status and increase inventory available for resale. The majority of these adjustments were
done in 1st Quarter, FY 2006, $6.0 million and 4th Quarter, FY 200, $10.0 million.

                                                                                                                  349
                                                                       Navy Working Capital Fund - Marine Corps
                                                                                               Department of the Navy



      Restrictions of Inventory Use, Sale, or Disposition
      Generally, there are no restrictions with regard to the use, sale, or disposition of inventory to applicable
      Department of Defense (DoD) activities and personnel. Other than speciﬁed safety and war reserve
      levels, established as a result of DoD and Marine Corps regulatory operations, inventory may be sold to
      foreign countries, state and local governments, private parties and contractors in accordance with DoD
      and Marine Corps policies and guidance or at the direction of the President.

      Composition of Inventory
      Except for the work in process, all inventory categories shown in the table above apply to the Supply
      Management Activities.

      Inventory Categories. Inventory represents property that is held for (a) sale to customers, (b) in the
      process of supporting production for eventual sale to customers (c) to be consumed in the production of
      goods for sale or (d) in the provision of providing services for a fee.

      Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable
      items owned and managed by NWCF, MC as well as consumable and repairable items are managed by
      other Military Services, such as the Defense Logistics Agency or the General Services Administration
      where NWCF, MC has permission to stock, store and sale. Material available and purchased for resale
      includes material held, due to various managerial decisions to support military or national contingencies.

      Included in “Inventory Available and Purchased for Resale,” is an amount of $39.1 million for War
      Reserve Material for Supply Management, Marine Corps.

      Federal Accounting Standards requires disclosure of the amount of Inventory Held for “Future Sale.”
      The NWCF, MC currently has no Inventory included in this reporting period, which is being held
      for future sale. All inventory, included in Inventory Net through 4th Quarter, FY 2006 is currently
      planned for sale to customers in FY 2007 or retained for military or national contingencies. There is no
      management or valuation diﬀerence between the two categories.

      Inventory Held for Repair is inventory that is in less than “ready for issue/sale” condition and requires
      repair to make suitable for sale. Some of the inventory items are more economical to repair than to
      procure. The Marine Corps, for it’s warﬁghting readiness, relies upon weapon systems and machinery
      that are no longer in commercial production. The NWCF, MC supports its customers’ requests for certain
      items by repairing or rebuilding these items vice new acquisitions. This repair/rebuild process is an
      essential part of the Marine Corps’ commitment as a “Force in Readiness” as well as supporting our other
      DoD customers in maintaining a ready, mobile, and armed military force.

      Work in Process balances include costs related to the production or servicing of items, including direct
      material, direct labor, applied overhead and other direct costs. Work in Process also includes the value
      of ﬁnished products or completed services pending billing to the customer. Work in Process designation
      may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts,
      including the amount withheld from payment to ensure performance, and the amount paid to other
      Government plants for accrued costs of end items of material ordered but not delivered.

      Inventory Work in Process
      Work in Process at Depot Maintenance activities is $872.1 thousand and is included as inventory. This
      amount represents work that has been completed, expenses incurred, and waiting to be billed to the
      customer.




350
2006 Annual Financial Report



Operating Materials and Supplies, Net
                                                      2006                            2005
 As of September 30                 OM&S           Revaluation                                    Valuation
                                                                   OM&S, Net      OM&S, Net
                                  Gross Value      Allowance                                       Method
 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use               $     126,556    $            0   $   126,556    $     95,932     SP, LAC
   B. Held for Repair                        0                 0             0               0     SP, LAC
   C. Excess, Obsolete, and
      Unserviceable                           0                0              0              0       NRV

   D. Total                      $     126,556    $            0   $   126,556    $     95,932


Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses
NRV = Net Realizable Value
SP = Standard Price
O = Other
AC = Actual Cost

2. Information Related to Operating Materials and Supplies (OM&S), Net:

Fluctuations and Abnormalities
The OM&S Held for Use increased $30.6 million, 32%, in FY 2006. The increase is aĴributable to Depot
Maintenance Activity Group, Marine Corps. The increase in Operating Material and Supplies, Held for
Use is aĴributable to an increase in material and supplies purchased for repairing/rebuilding baĴled
damaged equipment returning from war. Some of the equipment returning from war is very material
intensive due to missing or heavily damaged major component parts, requiring replacing or complete
rebuild of some assets. In addition, the Armor Plating project has caused OM&S to increase substantially
because of the materials required to build the Armor Kits to be installed on weapons systems. As a result
of the diminishing supply of steel, the depots had to order the material in bulk to ensure the material was
delivered in a timely manner to support the production schedule for armor. The most notable increases
occurred in the 1st Quarter, FY 2006, $14.0 million, 16.6% and the 2nd Quarter, FY 2006, $23.5 million, 27.8%.

Restrictions on OM&S
Generally, there are no restrictions with regard to the use, sale, or disposition of OM&S applicable to the
Department of Defense (DoD) activities.

Composition of OM&S
OM&S Held for Use represents property that is consumed during normal operations and includes
consumable spare and repair parts for use on customer work by various activities. The items are
recorded using diﬀerent methodologies including actual, weighted-average and historical cost. Federal
Accounting Standards requires disclosure of the amount of OM&S Held for “Future Use.” The NWCF,
MC reports that $126.6 million of OM&S is categorized as Held for Future Use. All Inventory categories
shown in the table above apply to the Depot Maintenance Activity Group, Marine Corps only.




                                                                                                                    351
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                                    Department of the Navy



      Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
      Generally, the values of the NWCF, MC’s GFM and CAM in the hands of contractors are not included
      in the OM&S values reported above. The DoD is presently reviewing its process for reporting these
      amounts in an eﬀort to determine the appropriate accounting treatment and the best method to annually
      collect and report required information without duplicating information already in other existing logistics
      systems in accordance with Volume 6B, Chapter 10 of DoD Financial Management Regulation.

      Other Disclosures Related to OM&S
      No further disclosures required.


      Stockpile Materials, Net
      Not applicable.


      Note 10. General PP&E, Net
                                                                  2006                                         2005
          As of September 30       Depreciation/                           (Accumulated
                                                   Service   Acquisition                    Net Book       Prior FY Net
                                   Amortization                            Depreciation/
                                                    Life       Value                         Value         Book Value
                                     Method                                Amortization)
          (Amounts in thousands)

          1. Major Asset Classes
             A. Land                   N/A          N/A      $         0            N/A     $          0   $       0
             B. Buildings,
                Structures, and                    20 Or
                Facilities                            40          70,872 $       (39,340)       31,532            29,519
             C. Leasehold                           lease
                Improvements           S/L          term               0               0               0                  0
                                                   2-5 Or
            D. Software                S/L            10               0               0               0                  0
            E. General
               Equipment               S/L         5 or 10        66,235         (55,089)       11,146            12,569
            F. Military
               Equipment               S/L         Various             0               0               0                  0
            G. Assets Under                         lease
               Capital Lease           S/L          term               0               0               0                  0
            H. Construction-in-
               Progress                N/A          N/A            5,597            N/A          5,597                8,436
            I. Other                                                   0              0              0                    0
            J. Total General
               PP&E                                          $   142,704   $     (94,429)   $   48,275     $      50,524

      1
       Note 15 for additional information on Capital Leases
      Legend for Valuation Methods:
      S/L = Straight Line
      N/A = Not Applicable




352
2006 Annual Financial Report



2. Information Related to General Property, Plant and Equipment (GPP&E):

Fluctuations and Abnormalities
There are no abnormalities to disclose and no variances equal to or greater than ten percent and or two
percent of total assets to explain for FY 2006.

Military Equipment
Military equipment is reported on the ﬁnancial statements of the United States Marine Corps (USMC)
General Fund.

Heritage Assets and Stewardship Land
Heritage assets and stewardship land are reported on the ﬁnancial statements of USMC General Fund.

Other Disclosures
Generally, with the Navy Working Capital Fund, Marine Corps, there are no restrictions on General
PP&E.


Assets Under Capital Lease
Information Related to Assets Under Capital Lease:
The Navy Working Capital Fund, Marine Corps has no assets under capital lease.

Other Disclosures Related to Assets under Capital Lease
No further disclosures required.




                                                                                                                  353
                                                                       Navy Working Capital Fund - Marine Corps
                                                                                          Department of the Navy



      Note 11. Liabilities Not Covered by Budgetary Resources
       As of September 30                                         2006                      2005
       (Amounts in thousands)

       1. Intragovernmental Liabilities
          A. Accounts Payable                            $                    0    $                        0
          B. Debt                                                             0                             0
          C. Other                                                            0                             0
          D. Total Intragovernmental Liabilities         $                    0    $                        0

       2. Nonfederal Liabilities
          A. Accounts Payable                            $                    0    $                        0
          B. Military Retirement Benefits and
             Other Employment-Related Actuarial
             Liabilities                                                  29,595                      26,667
          C. Environmental Liabilities                                         0                           0
          D. Other Liabilities                                                 0                           0
          E. Total Nonfederal Liabilities                $                29,595   $                  26,667

       3. Total Liabilities Not Covered by Budgetary
          Resources                                      $                29,595   $                  26,667

       4. Total Liabilities Covered by Budgetary
          Resources                                      $               105,818   $                 104,625

       5. Total Liabilities                              $               135,413   $                 131,292

      6. Information Related to Liabilities Not Covered and Covered by Budgetary Resources:

      Fluctuations and Abnormalities
      Nonfederal Liabilities, Military Retirement Beneﬁts and Other Employment-Related Actuarial Liabilities
      increased $2.9 million, 11%. This increase is aĴributable to liabilities supporting the Navy Working
      Capital Fund, Depot Maintenance Activity Group (DMAG) in which 319 additional personnel were
      reported by Department of Labor (DOL) from FY 2005 to FY 2006. This account is adjusted at the end of
      each ﬁscal year based on DOL reported endstrength levels. While the actuarial liabilities are properly
      recorded, based on policy; the actual endstrength levels for DMAG contrasts with DOL data. The United
      Marine Corps (USMC) data reﬂects an FY 2006 decrease of 121 personnel.

      Deﬁnitions
      Liabilities Not Covered by Budgetary Resources are unfunded liabilities, which are not considered
      covered by budgetary resources. Unfunded liabilities are those in which budget authority has not been
      received and congressional action is needed before budgetary resources can be provided.

      Other Disclosures Related to Liabilities Not Covered by Budgetary Resources
      The $29.6 million included in Military Retirement Beneﬁts and Other Employment-Related Actuarial
      Liabilities represents Federal Employees’ Compensation Act liabilities.


354
2006 Annual Financial Report



Note 12. Accounts Payable
                                                       2006                                       2005

 As of September 30                              Interest, Penalties,
                                   Accounts
                                                and Administrative           Total                Total
                                   Payable
                                                        Fees
 (Amounts in thousands)

 1. Intragovernmental
     Payables                  $        6,382   $        N/A            $        6,382    $               41,637
 2. Nonfederal Payables
     (to the Public)                   67,846                      0            67,846                    30,947

 3. Total                      $       74,228   $                  0    $       74,228    $               72,584


4. Information Related to Accounts Payable:

Fluctuations and Abnormalities
Intragovernmental accounts payable decreased $35.3 million, 85%, from FY 2005 to FY 2006. The decrease
is primarily due to Defense Finance and Accounting Service (DFAS) recording a journal voucher to
adjust intragovernmental accounts payables. For the period beginning in the 1st Quarter, FY 2006 and
continuing through 4th Quarter, FY 2006, a DFAS originated Journal Voucher (JV) was recorded that
reduced the United States Marine Corps (USMC) intragovernmental accounts payables to match the
balances identiﬁed and reported by trading partners as intragovernmental liabilities. These entries
assume that the reported accounts payables, prior to the entry, are misclassiﬁed between federal and non
federal and are cumulative in the resulting inception to date accounts payable balances. The JV, recorded
in the 4th Quarter, FY 2006 in the amount of $41.5 million, reduced intragovernmental accounts payables
for USMC and increased nonfederal accounts payable by the same amount.

Similar JVs were not processed in FY 2005 due to the fact that trading partner adjustments was being
performed at the Navy Defense Working Capital Fund (DWCF) level not at the lower USMC level.
If the $41.5 million journal voucher had not occurred, the intragovernmental accounts payable would
have increased $6.2 million primarily due to Depot Maintenance Activity Group (DMAG) operations as
explained below:

The DMAG intragovermental accounts payable increased $5.4 million from FY 2005 to FY 2006. This
is primarily due to procuring increased levels of required material that supports Global War on Terror
(GWOT) operations, related to the USMC Maintenance Centers performing repair workload on baĴle
damaged equipment and requiring increased replacement of spare parts or material to complete the
rebuild/repair. The majority of the material was ordered in the 1st Quarter, FY 2006 for the repair and
return of major warﬁghting weapon systems and such as tanks, trucks, trailers and machine guns. These
procurements to support GWOT continued throughout FY 2006 resulting in increased levels of accounts
payable at the end of the FY.

Nonfederal accounts payable increased $36.9 million, 119%, in FY 2006. This increase is primarily due
to the DFAS journal voucher discussed above. The journal voucher processed in the 4th Quarter, FY
2006 for nonfederal accounts payable of $41.5 million for trading partners is the major contributor of this
increase. The trading partner journal vouchers were not processed in FY 2005 because trading partner
and eliminating entries information were being performed at the Navy DWCF level not at the lower
USMC level.
                                                                                                                       355
                                                                            Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      If the $41.5 million journal vouchers had not occurred, nonfederal accounts payable would have increased
      $2.0 million for Supply Management Activity Group (SMAG) and decreased $5.9 million for DMAG as
      explained below:

      The SMAG increased $2.0 million from FY 2005 to FY 2006. This is due to receiving, primarily in the 4th
      Quarter, FY 2006, inventory purchased from commercial vendors for which an accounts payable liability
      was unliquidated as of the end of FY 2006. The inventory was purchased on government issued contracts
      to commercial sources to rebuild/repair spare parts such as radios and hydraulic steering units. The
      contracts were issued due to diminishing available inventory in SMAG accounts that were depleted due
      to high sales demand from customers requesting to purchase these items from SMAG to support the
      repair of weapons systems needed by the warﬁghters engaged in GWOT.

      The DMAG decreased $5.9 million from 4th Quarter, FY 2005 to 4th Quarter, FY 2006. This is due to
      disbursements made between 2nd and 4th Quarters, FY 2006, to complete receipt and payment of billings
      from vendors, thus relieving the accounts payable. The accounts payable was established, for the most
      part, in the 4th Quarter, FY 2005 when USMC Maintenance Centers purchased material and supplies
      to support GWOT established production line to produce for various customers multiple variations of
      armor plating for major warﬁghting weapon systems.

      In summary, overall account payable increased $1.6 million.

      Undistributed Disbursements
      Undistributed disbursements are the diﬀerence between disbursements/collections recorded at the
      transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to
      those reported by the U.S. Treasury. The total undistributed disbursement amounts displayed in this note
      should agree with the undistributed amounts reported on the accounting reports. In-transit payments
      are payments that have been made for other agencies or entities that have not been recorded in their
      accounting records. These payments are applied to each entity’s outstanding accounts payable balance at
      year-end.

      Allocation of Undistributed Disbursements
      The Department of Defense (DoD) policy is to allocate supported undistributed disbursements between
      federal and nonfederal categories based on the percentage of federal and nonfederal accounts payable.
      Unsupported undistributed disbursements are recorded in United States Standard General Ledger
      account 2120, disbursements in transit. The Navy Working Capital Fund, Marine Corps (NWCF, MC)
      does not follow this allocation policy. NWCF, MC allocates undistributed disbursements to nonfederal
      accounts payable.

      Trading Partner Data
      For the majority of intra-agency sales, NWCF, MC accounting systems does not capture speciﬁc trading
      partner data at the transaction level in a manner that facilitates trading partner aggregations. Therefore,
      NWCF, MC is unable to reconcile the majority of its intragovernmental accounts payable to the related
      intragovernmental accounts receivable that generated the payable. Through an ongoing Business
      Management Modernization Program, DoD intends to develop long-term systems improvements that
      will capture the data necessary to perform the required reconciliations. The USMC has outlined speciﬁc
      processes for review and implementation in DON Financial Improvement Plan that should provide some
      near-term solutions for this process.

      Eliminating Adjustments
      The DoD summary level seller accounts receivables were compared to NWCF, MC’s accounts payable.
      An adjustment was posted to NWCF, MC’s accounts payable based on the comparison with the accounts
      receivable of DoD Components providing goods and services to NWCF, MC. As required, adjustments
      were made to reclassify accounts payable from federal to nonfederal.

356
2006 Annual Financial Report



Other Disclosures Related to Accounts Payable
No further disclosures required.


Note 13.          Debt
Not Applicable.


Note 14. Environmental Liabilities and Disposal Liabilities
This is not applicable to the Marine Corps Navy Working Capital Fund. Environmental Liabilities are
captured under the United States Marine Corps General Fund.


Environmental Disclosures
Not Applicable.




                                                                                                                357
                                                                     Navy Working Capital Fund - Marine Corps
                                                                                                 Department of the Navy



      Note 15. Other Liabilities
                                                                  2006                                   2005
       As of September 30                     Current         Noncurrent
                                                                                   Total                 Total
                                              Liability        Liability
       (Amounts in thousands)

       1. Intragovernmental
          A. Advances from Others         $               0   $            0   $             0     $            11,945
          B. Deposit Funds and Suspense
              Account Liabilities                         0               0                 0                       0
          C. Disbursing Officer Cash                      0               0                 0                       0
          D. Judgment Fund Liabilities                    0               0                 0                       0
          E. FECA Reimbursement to the
              Department of Labor                       0                  0                 0                       0
          F.Other Liabilities                         917                  0               917                   6,277

          G. Total Intragovernmental
              Other Liabilities           $           917     $            0   $           917     $            18,222
       (Amounts in thousands)
       2. Nonfederal
          A. Accrued Funded Payroll and
              Benefits                    $        10,236     $           0    $       10,236      $            13,811
          B. Advances from Others                      35                 0                35                        0
          C. Deferred Credits                           0                 0                 0                        0
          D. Deposit Funds and Suspense
              Accounts                                    0                0                0                       0
          E. Temporary Early Retirement
              Authority                                   0                0                0                       0
          F.Nonenvironmental Disposal
              Liabilities
             (1) Military Equipment
             (Nonnuclear)                                 0                0                 0                      0
             (2) Excess/Obsolete
             Structures                                   0                0                0                       0
             (3) Conventional Munitions
             Disposal                                     0               0                 0                       0
          G. Accrued Unfunded Annual
              Leave                                       0               0                 0                       0
          H. Capital Lease Liability                    0                  0                0                       0
          I. Other Liabilities                     19,894                508           20,402                       7

          J.   Total Nonfederal Other
               Liabilities                $        30,165     $          508   $       30,673      $            13,818

       3. Total Other Liabilities         $        31,082     $          508   $       31,590      $            32,040




358
2006 Annual Financial Report



4. Information Related to Other Liabilities:

Fluctuations and Abnormalities
Intragovernmental
Total intragovernmental other liabilities had an overall decrease of $17.3 million, 95%, in ﬁscal year
(FY) 2006 due to the following:

Intragovernmental other liabilities for advances from others decreased $11.9 million (100%), in FY 2006.
This is due to instructions, provided by the Oﬃce of Secretary of the Defense (OSD), to correct the posting
of advance payments for War Reserve Materials (WRM). The instructions provided that a
FY 2005 posting of $11.8 million advance payment for WRM was incorrectly posted and should be moved
from intragovernmental advances to other gains and losses thus not aﬀecting liabilities. The journal
voucher (JV) to complete this action was completed in the 4th Quarter, FY 2006 as a part of the Supply
Management Activity Group (SMAG) operations.

In addition, intragovernmental other liabilities for advances from others decreased due to corrective
actions, taken in the 2nd Quarter, FY 2006 to properly post advances of $145.1 thousand, collected for
Depot Maintenance Activity Group (DMAG) operations from private industry to perform electronic
repair work on radars as nonfederal advances from others.

Intragovernmental other liabilities decreased $5.4 million, 85%, in FY 2006. This is primarily due to
corrective actions taken, beginning in 1st Quarter, FY 2006, to reclassify $5.2 million in accrued liabilities
for commercial contracts, base support, and travel advances from intragovernmental other liabilities to
nonfederal other liabilities. This was in support of DMAG operations.

Nonfederal
Total nonfederal other liabilities had an overall increase of a net $16.9 million, 122 %, in FY 2006. The
net change is aĴributable to increases in operations of $16.8 million for DMAG and $501.2 thousand for
SMAG due to the following reasons:

Nonfederal other liabilities for accrued funded payroll and beneﬁts decreased $3.6 million, 25% in FY 2006.
This is primarily due to a personnel decrease of 46 temporary civilian employees beginning in June 2006
thus reducing accrued beneﬁts by $3.2 million. The employees chose to seek permanent positions outside of
DMAG.

Nonfederal advances from others increased $34.6 thousand, 100%, in FY 2006. This is due to a
combination of the following:

      a.   Collection and billing, in FY 2006, advances from private industry for DMAG operations to
           perform various workload.

      b.   Posting actions to correct a FY 2005 advance from private industry that was erroneously
           posted as intragovernmental vice nonfederal other liabilities: advances from others.

As of September 30, 2005, a balance of $145.1 thousand remained from an advance collection from an
advance collection provided for DMAG to perform work as explained above. The corrective action to
properly post this advance increased nonfederal advances from others.

In addition, during the 1st and 3rd Quarters, FY 2006, advances totaling $276.5 thousand were received
from private industriy. The major portion of these advances was for DMAG operations to perform repair
work on transmissions.



                                                                                                                      359
                                                                           Navy Working Capital Fund - Marine Corps
                                                                                               Department of the Navy



      Billings, during FY 2006 that decreased nonfederal advances, totaled $387 thousand. The majority of the
      billings occurred during the 1st and 4th Quarters, FY 2006.

      The net amount of the corrective action, advance collections and billings resulted in a September 30, 2006
      advance collection balance of $32.6 thousand.

      Nonfederal other liabilities increased $20.4 million, 285%, in FY 2006. This is due to the accrual of
      $19.9 million for commercial contracts, host base support and travel advances. The increase began in
      3rd Quarter, FY 2005, in order to support the increased workload related to Global War of Terror (GWOT).

      For Supply Management, nonfederal other liabilities increased in FY 2006, $501.2 thousand, 100%, due to
      the recording of anticipated future contract ﬁnancing payments per OSD direction in September 2006.

      In summary, total other liabilities decreased by $451.4 thousand, 1.4%, due to explanations provided
      above.

      Composition of Other Liabilities
      Intragovernmental other liabilities represent liabilities for health and life insurance, retirement and other
      beneﬁts and entitlements representing government contributions.

      Nonfederal other liabilities include amounts that are signiﬁcant portions of the total liabilities presented
      in the Navy Working Capital Fund, Marine Corps (NWCF, MC) Balance Sheet. A breakout of the major
      components of nonfederal other liabilities are as follows:

      Other liabilities consists of accrued cost for travel advances, base support, and contracts for work
      performed by civilian personnel, contractors and other agencies in which a request for payment has not
      been received.

      Per the Department of the Defense, Inspector General (DoDIG) Audit: “Financial Management: Report
      on Recording and accounting for DoD Contract Financing Payment, of May 10, 2005 and the Oﬃce of
      the Under Secretary of Defense (Comptroller) OUSD(C) direction, a contingent liability for outstanding
      contract ﬁnancing payments based on cost in excess of progress payments was recognized for the
      ﬁrst time in 4th Quarter, FY 2006. The recognized liability was derived from an OUSD(C) query of
      the Mechanization of Contract Administration System (MOCAS). The NWCF, MC ﬁeld level account
      data does not reconcile with the MOCAS data, therefore the NWCF, MC cannot support this OUSD(C)
      directed adjustment. Also, current business processes and contract clauses do not support this OUSD(C)
      directed adjustment.

      The remaining other liabilities consists of liabilities for progress payments, which are maintained to show
      the balance of payments taken for accrued costs charged to work in process. It was reclassiﬁed from
      contra-assets account to nonfederal other liabilities.

      Intragovernmental Reconciliation for Fiduciary Transactions with Department of Labor (DOL)
      With respect to the major ﬁduciary balances, NWCF, MC was able to reconcile with DOL.

      For FY 2006, the Department of the Navy does not have any delinquent amounts due to the DOL for the
      FECA bill. The FY 2007 FECA bill is due to DOL 30 days aĞer the appropriation bill is passed and signed.


      Capital Lease Liability
      Not Applicable.


360
2006 Annual Financial Report



Note 16. Commitments and Contingencies
Information Related to Commitments and Contingencies:

Legal Contingencies:
The Navy Working Capital Fund - Marine Corps (NWCF, MC), a sub-entity of the Navy Working
Capital Fund, is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity maĴers, and contractual bid protests which may
ultimately result in seĴlements or decisions adverse to the Federal Government. These proceedings and
actions arise in the normal course of operations and their ultimate disposition is unknown. For NWCF, MC
cases, the Department of the Navy (DON) will accrue contingent liabilities for legal actions where DON
Oﬃce of General Counsel considers an adverse decision probable and the amount of the loss is measurable.
In the event of an adverse judgment against the Government, some of the liabilities may be payable from
the judgment fund. Others may be payable from DON resources, either directly or by reimbursement to the
Judgment Fund. In addition to DON statements, NWCF, MC records judgment fund liabilities in Note 15,
“Other Liabilities” and Note 12, “Accounts Payable.”

The Oﬃce of the Navy General Counsel conducted a review of litigation and claims threatened or
asserted involving the NWCF, MC to which Oﬃce of General Counsel aĴorneys devoted substantial
aĴention in the form of legal consultation or representation. This review utilizes a threshold of
materiality of $170.0 thousand applied to individual and aggregate claims, litigation, assessments, or
contingencies arising out of a single event or a series of events.

The NWCF, MC has no cases that meet the existing materiality threshold. Therefore, no contingent
liabilities were recorded nor is any disclosure of estimated contingencies required. This declaration
is fully supported by the Preliminary and Final Legal Representation leĴers and the subsidiary
management summary schedule.

In response to the Department of Defense, Inspector General audit, “Financial Management: DoD process
for Reporting Contingent Legal Liabilities,” the DON completed a methodology during FY 2006 that
provides an estimate for those cases that are considered probable or reasonably possible to be seĴled
against the government. The DON is testing the methodology with the objective to begin reporting
2nd Quarter FY 2007.

Other Commitments and Contingencies
The NWCF, MC does not have obligations related to cancelled appropriations for which the reporting
entity has a contractual commitment for payment.

The NWCF, MC has contractual arrangements which may require future ﬁnancial obligations (i.e.
undelivered orders). These undelivered orders are estimated at $333.6 million as of September 30, 2006.
Included in this total is $501.2 thousand, posted in the 4th Quarter, FY 2006 as a Defense Finance and
Accounting Service (DFAS) Journal Voucher (JV) directed by the Oﬃce of the Under Secretary of Defense
(OUSD) for Financial Management. This amount, which is included in the balance for nonfederal other
liabilities is in support of contracting and related ﬁnancing payments. As directed by the OUSD, no
budgetary adjustments were considered to record the JV which adjusted contingent liabilities. The
NWCF, MC has an internal weakness of creating budgetary accounts from proprietary accounts.
The DFAS is currently working with the Department of Navy, as a part of its Financial Management
Improvement Plan, to correct this weakness.




                                                                                                                   361
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                                 Department of the Navy



      Note 17. Military Retirement and Other Federal Employment
               Beneﬁts
                                                                   2006                                       2005

      As of September 30                Present        Assumed       (Less: Assets                        Present
                                                                                         Unfunded
                                        Value of        Interest     Available to                         Value of
                                                                                          Liability
                                        Benefits       Rate (%)      Pay Benefits)                        Benefits
      (Amounts in thousands)

      1. Pension and Health
         Actuarial Benefits
        A. Military Retirement
           Pensions                 $              0                $                0   $        0       $          0
        B. Military Retirement
           Health Benefits                         0                                 0            0                  0
        C. Military Medicare-
           Eligible Retiree
           Benefits                                0                                 0            0                  0
        D. Total Pension and
           Health Actuarial
           Benefits                 $              0                $                0   $        0       $          0

      2. Other Actuarial Benefits
        A. FECA                     $      29,595                   $                0   $   29,595       $     26,667
        B. Voluntary Separation
           Incentive Programs                      0                                 0            0                  0
        C. DoD Education
           Benefits Fund                           0                                 0            0                  0
        D. Total Other Actuarial
           Benefits                 $      29,595                   $                0   $   29,595       $     26,667

      3. Other Federal
         Employment Benefits        $              0                $                0   $        0       $          0

      4. Total Military
         Retirement and Other
         Federal Employment
         Benefits:                  $      29,595                   $                0   $   29,595   $         26,667


      Actuarial Cost Method Used:
      Assumptions:
      Market Value of Investments in Market-based and Marketable Securities:

      5. Information Related to Military Retirement Beneﬁts and Other Employment-Related Actuarial
         Liabilities:


362
2006 Annual Financial Report



Fluctuations and/or Abnormalities:
Military retirement beneﬁts and other employment-related actuarial liabilities increased $2.9 million,
11%. This increase is aĴributable to liabilities supporting the Navy Working Capital Fund, Depot
Maintenance Activity Group (DMAG) in which 319 additional personnel were reported by Department
of Labor (DOL) from FY 2005 to FY 2006. This account is adjusted at the end of each ﬁscal year based on
DOL reported endstrength levels. While the actuarial liabilities are properly recorded, in accordance with
policy, the actual endstrength levels for DMAG contrasts with DOL data. The United States Marine Corps
data reﬂects a FY 2006 decrease of 121 personnel.

Actuarial Cost Method Used
The Department of the Navy (DON) actuarial liability for workers’ compensation beneﬁts is developed by
the Department of Labor and provided to DON at the end of each ﬁscal year. The liability is distributed
between the Navy Working Capital Fund, Marine Corps and DON General Fund based upon the number
of civilian employees funded in each entity as reported in the Navy Budget Tracking System. The
liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases. The liability is determined using a method that utilizes historical beneﬁt payment
paĴerns to predict the ultimate payments.

Assumptions
The projected annual beneﬁt payments are discounted to the present value using Oﬃce of Management
and Budget’s economic assumptions for ten year U.S. Treasury notes and bonds. Cost-of-living
adjustments and medical inﬂation factors are also applied to the calculation of projected future beneﬁts.
The interest rate assumptions used in the discount calculations are as follows for September 30, 2006:

2006
5.170% in Year 1
5.313% in Year 2 and thereaĞer

To provide more speciﬁcally for the eﬀects of inﬂation on the liability for future workers’ compensations
beneﬁts, wage inﬂation factors (cost of living adjustments or COLAs) and medical inﬂation factors
(consumer price index medical or CPIMs) were applied to the calculation of projected future beneﬁts.
The actual rates for these factors for the charge back year (CBY) 2006 were also used to adjust the
methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years were as
follows:

CBY                     COLA                  CPIM
2006                    3.50%                 4.00%
2007                    3.13%                 4.01%
2008                    2.40%                 4.01%
2009                    2.40%                 4.013%
2010+                   2.43%                 4.09%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis
was based on four tests:

       (1)   a sensitivity analysis of the model to economic assumptions,

       (2)   a comparison of the percentage change in the liability amount by agency to the percentage
             change in the actual incremental payments,

                                                                                                                    363
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                               Department of the Navy



            (3)   a comparison of the incremental paid loses per case (a measure of case-severity) in CBY 2006
                  to the average paĴern observed during the most current three charge back years,

            (4)   a comparison of the estimated liability per case in the 2006 projection to the average paĴern
                  for the projections of the most recent three years.


      Market Value of Investments in Market-based and Marketable Securities
      Not Applicable.

      Changes in Actuarial Liability
      There have been no changes in the calculation of actuarial liability since last reporting period.

      Other Employment – Related Actuarial Liabilities
      Other employment – related actuarial liabilities did not have any abnormalities to disclose and no
      variances equal to or greater than ten percent and or two percent of Actuarial Liabilities to explain for
      this reporting period. The balance of other employment-related actuarial liabilities is $29.6 million, all of
      which is aĴributable to Federal Employees Compensation Act.


      Note 18. General Disclosures Related to the Statement of
               Net Cost
       Intragovernmental Costs and Exchange Revenue

       As of September 30                                         2006                           2005

       (Amounts in thousands)

       1. Intragovernmental Costs                          $              255,735    $                     523,005
       2. Public Costs                                                    475,129                          136,650
       3. Total Costs                                      $              730,864    $                     659,655



       4. Intragovernmental Earned Revenue                 $             (617,997)   $                    (684,468)
       5. Public Earned Revenue                                           (90,965)                            1,263
       6. Total Earned Revenue                             $             (708,962)   $                    (683,205)

       7. Net Cost of Operations                           $                21,902   $                     (23,550)


      8. Information Related to the Statement of Net Cost:

      Fluctuations and Abnormalities
      Net Cost of Operations increased $45.5 million, 193%, in FY 2006. This increase is aĴributable to total
      costs increasing by $71.2 million and total earned revenue increasing by $25.7 million in FY 2006 when
      compared with FY 2005. The primary drivers for the $71.2 million, 11%, increase in total costs are
      explained below:

            •     Depot Maintenance Activity Group (DMAG) experienced an increase of $30.6 million in
                  Operating Material and Supplies (OM&S) purchased for repairing/rebuilding baĴled damaged
                  equipment returning from war. Some of the equipment returning from war is very material
364
2006 Annual Financial Report



           intensive due to missing or heavily damaged major component parts, requiring replacing or
           complete rebuild of some assets. In addition, the Armor Plating project has caused OM&S to
           increase substantially because of the materials required to build the Armor Kits to be installed
           on weapons systems. The most notable increases occurred in the 1st Quarter, FY 2006, $14.0
           million and the 2nd Quarter, FY 2006, $23.5 million.

      •    Due to the high demand during 3rd Quarter, FY 2005 from the Supply Management Activity
           Group (SMAG) customers to purchase inventory to support their engagement in the Global
           War on Terror (GWOT). This caused inventory levels, available for sale, to signiﬁcantly
           deplete. As a result, SMAG obligated funds totaling $22.2 million during the month of
           September 2006 to purchase inventory in order to replenish its inventory levels thus ensuring
           suﬃcient inventory availability in time to meet its customers’ needs.

      •    During 3rd Quarter, FY 2006, the United States Marine Corps made a conscious decision to
           purchase, in bulk, chemical biological warﬁghting protective gear (gas masks) in anticipation
           of increased demand from customers of the SMAG. As a result, $4.7 million was obligated to
           make a bulk purchase which took advantage of both cost and risk reduction strategies. The
           anticipated increase in demand was based on the anticipated change in enemy warﬁghting
           tactics from ground ﬁghting to chemical airfare as well as identiﬁed concern based on limited
           available sources of supply for this type of gear.

The primary drivers for the $25.7 million, 4%, which is over 2% of total assets, increase in total earned
revenue are explained below:

      •    The Depot Maintenance Activity Group (DMAG) experienced an increase of $5.2 million in
           total earned revenue due to billing additional direct labor hours an material cost associated
           with completion of workload as result of additional personnel hired to support the GWOT
           surge in customers orders. This resulted in an increase of $27.6 million in FY 2006, as
           compared to FY 2005. The most notable increases occurred in the 4th Quarter, FY 2006,
           in which $187.4 million in revenue was gained. In addition, a decrease adjustment for
           elimination entries of $22.4 million occurred in the 4th Quarter, FY 2006 to reconcile the trial
           balance to USMC trading partner data. This was reported at the Department of the Navy level
           vice USMC Corp level prior to FY 2006.

      •    The Supply Management Activity Group (SMAG) experienced an increase of $20.5 million
           in total earned revenue due to an inventory adjustment in the 4th Quarter, FY 2006 to correct
           the posting of advance payment for war reserves material in accordance to Oﬃce of Secretary
           of the Defense guidance. The instructions provided that a FY 2005 posting of $11.8 million
           advance payment for War Reserve Material was incorrectly posted and should be moved
           from intragovernmental advances to other gains and losses thus not aﬀecting liabilities. The
           remaining balance of $8.7 million is primarily due to the net adjustment for elimination entries
           to reconcile the trial balance to USMC trading partner data in the 4th Quarter, FY 2006.

Composition of Statement of Net Cost
The NWCF, MC generally records transactions on an accrual basis as required by federal Generally
Accepted Accounting Principles (GAAP). Information presented on the statement of net cost represents
the net result of post-closing adjustments and eliminating entries made in compiling and consolidating
NWCF, MC ﬁnancial statements. These entries signiﬁcantly aﬀected the reported amounts of
intragovernmental program cost, program cost with the public, earned revenue and net program cost. The
post-closing adjustments were made in order to increase or decrease certain NWCF, MC account balances
reported as of September 30, 2006 to ensure agreement with related balances reported by other Department
of Defense (DoD) and other federal reporting entities. Eliminating entries are required adjustments made
as part of the ﬁnancial process. This process enables the matching o trading partner data recorded at each
ﬁnancial statement consolidation level: NWCF, DoD, and Federal Government levels.
                                                                                                                    365
                                                                         Navy Working Capital Fund - Marine Corps
                                                                                             Department of the Navy



      Other Disclosures Related to the Statement of Net Cost
      This statement is unique because its principles are driven by an understanding of net cost of programs
      and or organizations that the Federal Government supports through appropriations. This statement
      provides gross and net cost information that can relate to the amount of output for a given program and
      or organization administered by a responsible reporting entity.

      Intragovernmental costs and revenues are related to transactions made between two reporting entities
      within the Federal Government.

      Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal
      entity.

      Although NWCF, MC is able to compare its intragovernmental costs and revenues with corresponding
      balances of its intragovernmental trading partners, it is unable to validate these balances. There were no
      material diﬀerences identiﬁed during FY 2006.

      The NWCF, MC does not report any heritage assets or stewardship land, as these entities are reported on
      the ﬁnancial statements of the Department of the Navy General Fund.

      For FY 2006, NWCF, MC’s ﬁnancial management systems are unable to meet all of the requirements for
      full accrual accounting. Many of NWCF, MC’s ﬁnancial and nonﬁnancial feeder systems and processes
      were designed and implemented prior to the issuance of GAAP for federal agencies. These systems were
      not designed to collect and record ﬁnancial information on the full accrual accounting basis as required
      by GAAP. The NWCF has undertaken eﬀorts to determine the actions required to bring its ﬁnancial and
      nonﬁnancial feeder systems and processes into compliance with GAAP. One such action is the current
      revision of its accounting systems to record transactions based on the US Standard General Ledger.
      Until all of NWCF, MC’s ﬁnancial and nonﬁnancial feeder systems and processes are updated to collect
      and report ﬁnancial information as required by GAAP, NWCF, MC’s ﬁnancial data will be based on
      transactions from nonﬁnancial feeder systems, and adjustments for known accruals of major items such
      as payroll expenses, accounts payable, and environmental liabilities.

      In addition, NWCF, MC identiﬁes program costs based upon business areas. Current processes and
      systems do not capture and report accumulated costs for major programs based upon the performance
      measures as required by the Government Performance and Results Act. The NWCF, MC is in the process
      of reviewing available data and aĴempting to develop a cost reporting methodology that balances the
      need for cost information, as required by the Statement of Federal Financial Accounting Standards
      No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with the need
      to keep the ﬁnancial statements from being overly voluminous.




366
2006 Annual Financial Report



Note 19. Disclosures Related to the Statement of Changes in
         Net Position
 As of September 30                                 2006                                  2005
                                      Cumulative                          Cumulative
                                                       Unexpended                           Unexpended
                                       Results of                          Results of
                                                      Appropriations                       Appropriations
                                      Operations                          Operations
 (Amounts in thousands)

1. Prior Period Adjustments
   Increases (Decreases) to Net
   Position Beginning Balance

    A. Changes in Accounting
       Standards                     $            0   $             0     $           0    $               0
    B. Errors and Omissions in
       Prior Year Accounting
       Reports                                    0                 0                 0                    0

    C. Total Prior Period
       Adjustments                   $            0   $             0     $           0    $               0

 2. Imputed Financing
    A. Civilian CSRS/FERS
       Retirement                    $        3,426   $             0     $       3,116    $               0
    B. Civilian Health                        8,879                 0             6,945                    0
    C. Civilian Life Insurance                   22                 0                18                    0
    D. Judgment Fund                              0                 0                 0                    0
    E. IntraEntity                                0                 0                 0                    0

    F. Total Imputed Financing       $       12,327   $             0     $     10,079     $               0



3. Information Related to the Statement of Changes in Net Position:

Fluctuations and Abnormalities
Total Imputed Financing increased $2.2 million, 22%, in Fiscal Year (FY) 2006. The variance is due to the
increased government estimated cost/allocation process related to the civilian employee entitlements for
retirement and insurance and any increase or decrease in the estimated cost/allocation factors and the
actual amounts provided by Oﬃce of Personnel Management (OPM) on a quarterly basis. The estimated
and actual cost variance is primarily driven by the increase in personnel within the Marine Corps’ Depot
Maintenance Activity Group beginning in 2nd Quarter, FY 2005 and has progressively increased through
4th Quarter, FY 2006. The additional employees are primarily temporary and term employees who were
hired to complete workload requested by the customers supporting Global War on Terror (GWOT).

Imputed Financing
The amounts remiĴed to OPM by and for employees covered by the Civil Service Retirement System,
Federal Employee Retirement System, Federal Employee Health Beneﬁts Program and the Federal
                                                                                                                   367
                                                                        Navy Working Capital Fund - Marine Corps
                                                                                               Department of the Navy



      Employee Group Life Insurance Program do not fully cover the Government’s cost to provide these
      beneﬁts. An imputed cost is recognized as the diﬀerence between the Government’s cost of providing
      these beneﬁts to the employees and contributions made by and for them. The OPM provides the cost
      factors to the Defense Finance and Accounting Service (DFAS) for computation of imputed ﬁnancing
      cost. The DFAS provides the costs to Oﬃce of the Under Secretary of Defense (Personnel and Readiness)
      for validation. Approved imputed costs are provided to the reporting components for inclusion in their
      ﬁnancial statements.


      Note 20. Disclosures Related to the Statement of Budgetary
               Resources
       As of September 30                                                 2006                      2005
       (Amounts in thousands)

       1. Net Amount of Budgetary Resources Obligated
          for Undelivered Orders at the End of the Period        $               227,740   $               200,113

       2. Available Borrowing and Contract Authority at
          the End of the Period                                               1,232,543                 1,216,003

      3. Information Related to the Statement of Budgetary Resources:

      The Statement of Budgetary Resources (SBR) is an image of the monthly Report on Budget Execution.
      These reports should be produced using budgetary accounts. However, Navy Working Capital Fund,
      Marine Corps (NWCF, MC) uses proprietary accounts because its ﬁnancial accounting systems were not
      initially designed to produce budgetary accounting data. The United States Marine Corps (USMC) and
      Defense Finance and Accounting Service (DFAS) continue with the implementation of new accounting
      systems designed to produce both proprietary and budgetary reports and use the US Standard General
      Ledger (USSGL).

      Change in Receivables from Federal Sources includes USSGL 4251 account, reimbursements and other
      income earned. The amount presented on this line is the ending balance less the beginning balance for
      the current ﬁscal year. In this case the ending balance is less than the beginning balance, which nets
      to a negative value change for this ﬁscal year. The net negative value change is a reﬂection of USMCs’
      aggressive eﬀorts to collect on reimbursable operations; the fuel business transferred to Defense Logistics
      Agency; collections of aged outstanding fuel receivables and the continuing eﬀorts between DFAS
      partnering with USMC to reduce accounts receivable.

      For SBR, Supply Management’s revenue is deﬁned as gross sales less credit returns. For the balance sheet,
      revenue does not include credit returns because the inventory valuation model considers credit returns as
      inventory allowances. The diﬀerence in “meanings” causes variances in the reports.

      As of September 30, 2006, the diﬀerences between U.S. Treasury and NWCF, MC activity ledgers have
      been minimal. The principal cause of the diﬀerence is related to timing issues or type of transactions.
      The diﬀerences are recorded as undistributed disbursements and collections on the departmental reports.
      While there may be no impact upon U.S. Treasury balance, the above diﬀerences have created distortions
      in the accounts receivable and accounts payable on SBR. Accounting and accounting relationship issues
      involving the treatment of undistributed collections and disbursements have created abnormal balances
      for accounts receivable and accounts payable on SBR.


368
2006 Annual Financial Report



Intra-entity Transactions
The SBR does include intra-entity transactions, which have not been eliminated because the statements
are presented as combined and combining.

Apportionment Categories
The Oﬃce of Management and Budget Circular A-136 requires disclosure of the amount of direct and
reimbursable obligations incurred against amounts apportioned under categories A, B and exempt from
apportionment. These amounts are as follows:

(Amounts in thousands)
Obligations Incurred – Direct                               $0
Obligations Incurred – Reimbursable                   $694,405
Exempt from apportionment                                   $0

Undelivered Orders
Undelivered Orders presented in SBR includes undelivered orders-unpaid for both direct and
reimbursable funds.

Spending Authority from OﬀseĴing Collections
Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are
permanently not available, are not included in the Spending Authority from OﬀseĴing Collections and
Adjustments line on SBR or the Spending Authority for OﬀseĴing Collections and Adjustments line on
the Statement of Financing.




                                                                                                                369
                                                                     Navy Working Capital Fund - Marine Corps
                                                                                              Department of the Navy



      Other Disclosures Related to the Statement of Budgetary Resources
      The information contained in this note represents a subset of the information portrayed in, “Unpaid
      Obligations” and “Gross Outlays” of the Statement of Budgetary Resources and is reconcilable back to the
      applicable general ledger accounts.

      The NWCF, MC does not have any legal arrangements aﬀecting the use of unobligated balances of budget
      authority such as time limits, purpose, and obligation limitations.

      The NWCF, MC did not receive any capital infusion during the reporting period including the amount,
      the source, and the reason for these additional funds.


      Note 21. Disclosures Related to the Statement of Financing
      Information Related to the Statement of Financing:
      The Statement of Financing is designed to provide information about the total resources used by an entity,
      to explain how those resources were used to ﬁnance orders for goods and services not yet delivered, to
      acquire assets and liabilities, and to fund the entity’s net cost of operations. It is designed to report the
      diﬀerences and facilitate the reconciliation of accrual based amounts used in the Statement of Net Cost
      and obligation-based amounts used in the Statement of Budgetary Resources (SBR). The computations
      and presentation of items in the Statement of Financing demonstrate that the budgetary and proprietary
      information in an entity’s ﬁnancial management system are in agreement.

      Due to the ﬁnancial system limitations, budgetary data is not in agreement with proprietary expenses and
      assets capitalized. The diﬀerence between budgetary and proprietary data has been previously identiﬁed
      as a system deﬁciency. To bring the Statement of Financing into balance with the Statement of Net Cost,
      the following adjustments (absolute value) were made:

      Resources That Finance the Acquisition of Assets:          $177.2 million

      The following Statement of Financing lines are presented as combined instead of consolidated due to
      intra-agency budgetary transactions not being eliminated:

            •    Obligations Incurred

            •    Less: Spending Authority from OﬀseĴing Collections and Recoveries

            •    Obligations Net of OﬀseĴing Collections and Recoveries

            •    Net Obligations

            •    Undelivered Orders

            •    Unﬁlled Orders.

      Resources That Finance the Acquisition of Assets:
      For Navy Working Fund, Capital Marine Corps (NWCF, MC), the various automated and manual
      ﬁnancial management and feeder systems do not record transfers of material purchases to the various
      ﬁxed asset categories at the time of receipt. The current ﬁnancial process produces the proprietary
      general ledger account transactions that result in amounts equating to the value of inventory received,
      recorded as a asset prior to being expensed and thereaĞer, during the month, applied to cost of goods
      sold depending on time of sale and ﬁnancial system updates..




370
2006 Annual Financial Report



Composition of Other Lines
There are four “Other” lines on the Consolidated Statement of Financing during FY 2006. The
compositions of those lines are described below:

Resources Used to Finance Items not Part of the Net Cost of Operations
The amount reported as “Other” is related to inventories, included in Supply Management Activity
Group (SMAG), that are the United States Marine Corps (USMC) pecial project inventory which is
not owned nor purchased by SMAG. This inventory is replenishment and repair parts supporting the
Fleet Marine Forces warﬁghting weapon systems that were received at the USMCs’ Intermediate Level
Supply Warehouse as an interim storage for special projects and other management decisions of supply
management. These items are included in SMAG as it is the single source for the USMC to comply with
the Department of Defense regulations for total asset visibility requirements are not a part of SMAG
operations and separately identiﬁed in the supply management system by project codes. At the end
of each month, this inventory is decapitalized in order to reduce the inventory value to the amount
purchased and owned by SMAG.

Resources Used to Finance Items not Part of the Net Cost of Operations, Other
The amount reported as other resources is transfers of assets out of NWCF, MC inventory.

Components Not Requiring or Generating Resources in Future Period, Other
The amount reported is the NWCF, MC actuarial liabilities for military retirement beneﬁts.

Components Not Requiring or Generating Resources from Cost of Goods Sold
The amount reported as other consists of the NWCF, MC cost of goods sold.

Other Disclosures
There were no allocation transfers and abnormal balances to disclose.

Liabilities not covered by budgetary resources consist of nonentity assets (interest, penalties, ﬁnes and
administrative fees) and Military Retirement Beneﬁts and Other Employment Actuarial Liabilities for the
Navy Working Capital Fund, Marine Corps (NWCF, MC). There are no amounts for resources in future
periods for the Navy Working Capital Fund, as revenues are generated to cover liabilities during current
years. Therefore, amounts reported as requiring resources in future periods do not have a relationship to
liabilities not covered by budgetary resources.


Note 22. Disclosures Related to the Statement of Custodial
         Activity
Not Applicable.


Note 23. Earmarked Funds
Not Applicable.


Note 24. Other Disclosures
Not Applicable.




                                                                                                                   371
                                                                        Navy Working Capital Fund - Marine Corps
      Department of the Navy




372
                             Department of the Navy Subsidiary Financial Statements




                                                                                            Navy Working Capital Fund-MC Supporting Consolidating/Combining Statements
               Navy Working Capital Fund – Marine Corps


                               2006
          Supporting Consolidating/Combining Statements




2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      373
2006 Annual Financial Report 2006 Annual Financial Report
                                                             Department of the Navy




      The United States Marine Corps, as a sub-entity of
      the Department of the Navy (DON), does not prepare
      Supporting/Consolidating Statements and therefore is
      included at the Navy Working Capital Fund level.




374
                             Department of the Navy Subsidiary Financial Statements

                Navy Working Capital Fund – Marine Corps


                               2006
                    Required Supplementary Information




                                                                                            Navy Working Capital Fund-MC Required Supplementary Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      375
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                             Department of the Navy



                                    Navy Working Capital Fund, Marine Corps
                                      General Property, Plant, and Equipment
                        Real Property Deferred Annual Sustainment and Restoration Tables
                                             As of September 30, 2006
                                                   ($ in Millions)

      Annual Sustainment FY 2006
                                               Required         Actual       Diﬀerence
      Marine Corps                                  8             5              3
      Building, Structures, and Utilities           8             5              3


      Annual Deferred Sustainment Trend
                                                FY 2003        FY 2004        FY 2005           FY 2006
      Marine Corps                                  -              -             -                  3
      Building, Structures, and Utilities           -              -             -                  3


      Restoration and Modernization Requirements
                                              End FY 2005 End FY 2006         Change
      Marine Corps                                  -             8              8
      Building, Structures, and Utilities           -             8              8

      Narrative Statement:
      Fiscal Year (FY) 2006 represents the ﬁĞh year the Facility Sustainment Model (FSM) was utilized for the
      Navy Working Capital Fund (NWCF). However, Fiscal Year 2006 is the ﬁrst year that the United States
      Marine Corps (USMC) is reporting as a separate entity. Sustainment is deﬁned as the maintenance and
      repair activities necessary to keep a facility in good working order over its service life. Sustainment
      includes regularly scheduled adjustments and inspections (such as for ﬁre sprinkler heads and Heat
      Ventilation Air Condition systems), regulatory inspections (of elevators, bridges, and the like), emergency
      and routine preventive maintenance tasks, and major repair or replacement of facility components, such
      as roof replacement, reﬁnishing wall surfaces, repairing and replacing electrical, heating, and cooling
      systems, and replacing tile and carpeting. In FY 2006, FSM Version 7.2 was used for programming
      and budgeting for facilities sustainment. Deferred amounts were calculated in accordance with the
      methodology provided by the Department of Defense (DoD) Financial Management Regulation, Volume
      6B, Chapter 12. Since sustainment execution is tied to the NWCF, Marine Corps (MC) rate structure, the
      full requirement cannot be budgeted in a single year because the rate structure would not be aﬀordable to
      NWCF, MC customers.

      Restoration and Modernization is currently not modeled. Restoration includes repair and replacement
      work to restore facilities damaged by inadequate sustainment, excessive age, disaster, accident, or other
      causes. Modernization includes alteration of facilities solely to implement new or higher standards and
      regulatory changes, to accommodate new functions including base realignment and closure, or to renew
      building components that typically last more that 50 years such as foundations and structural members.
      Requirements listed in the table are actual expenditures for restoration and modernization by year. The
      requirements include restoration and modernization that is part of minor construction projects.

      The NWCF, MC has no material amounts of deferred sustainment for the General Property, Plant, and
      Equipment categories of Personal Property, Heritage Assets, or Stewardship Land.


376
                             Department of the Navy Subsidiary Financial Statements

                Navy Working Capital Fund – Marine Corps


                               2006
                       Other Accompanying Information




                                                                                            Navy Working Capital Fund-MC Other Accompanying Information
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                      377
2006 Annual Financial Report 2006 Annual Financial Report
                                                                                            Department of the Navy



      Appropriations, Funds, and Accounts Included in the Financial
      Statements
      Reporting Entity
      Navy Working Capital Fund (NWCF)

      Fund/Account Treasury Symbol and Title:
          97X4930.002

      Navy Working Capital Fund Activity Group Treasury Symbol and Title:
          97X4930.NA4A* Depot Maintenance- Other, Marine Corps
          97X4930.NC2A* Supply Management, Marine Corps

      Notes
      * - The “*” represents alpha or numeric characters which identify an activity or reporting segment of the
      activity group.




378
                                          Department of the Navy

                                       Audit Opinions


                             2006
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report




                                                                         Audit Opinions
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
                                                                   379
2006 Annual Financial Report 2006 Annual Financial Report
380
381
382
383
384
385
386
387
388
389
390
391
392
393
394
395
      FRONT COVER
      Images from top to boĴom, leĞ to right:

            A:    Washington, D.C. (Sept. 11, 2006) – One Hundred Eighty-Four beams of light projected
                  from the Pentagon courtyard commemorate each life lost at the Pentagon on the ﬁve-year
                  anniversary of the Sept. 11 terrorist aĴacks. U.S. Navy photo by Chief Mass Communication
                  Specialist Johnny Bivera

            B:    Indian Ocean (Aug. 22, 2006) – An F/A-18C Hornet assigned to the “Knighthawks” of Strike
                  Fighter Squadron One Three Six (VFA-136) launches aboard the nuclear-powered aircraĞ
                  carrier USS Enterprise (CVN 65). U.S. Navy photo by Lt. Peter Scheu

            C:    Beirut, Lebanon (July 22, 2006) - Marines from the 24th Marine Expeditionary Unit’s (MEU)
                  Command Element (CE) and the MEU Service Support Group (MSSG) assist the departure of
                  American citizens from an Evacuation Control Center (ECC) in Beirut. U.S. Marine Corps photo
                  by Lance Cpl. Andrew J. Carlson

            D:    Beirut, Lebanon (July 21, 2006) - Sailors assigned to the transport dock ship USS Trenton (LPD
                  14) assist two young American citizens as they arrive aboard the ship from Lebanon. U.S. Navy
                  photo by Lt. Karen Eifert

            E:    Paciﬁc Ocean (July 25, 2006) - USS Key West (SSN 722) sails in formation with a group of 28
                  ships and submarines at the conclusion of Exercise Rim of the Paciﬁc (RIMPAC) 2006, the
                  world’s largest biennial maritime exercise. U.S. Navy photo by Mass Communication Specialist 1st
                  Class M. Jeremie Yoder

            F:    Caribbean Sea (Aug. 26, 2006) - An MH-53E Sea Dragon prepares for take-oﬀ from the ﬂight
                  deck to conduct mine countermeasures. U.S. Navy photo by Mass Communication Specialist
                  Seaman Christopher Newsome


396
      G:    Novorossiysk, Russia (Sept. 7, 2006) - The Sailors aboard the guided missile frigate USS Elrod
            (FFG 55) man the rails as the ship pulls in to Novorossiysk, Russia. U.S. Navy photo by Mass
            Communication Specialist 2nd Class Michael Lavender

      H:    South China Sea (May 8, 2006) - The Nimitz-class aircraĞ carrier USS Abraham Lincoln (CVN
            72) and aircraĞ assigned to Carrier Air Wing Two (CVW-2) perform an aerial demonstration in
            the South China Sea. U.S. Navy photo by Photographer’s Mate 3rd Class Jordon R. Beesley


BACK COVER
Images from top to boĴom, leĞ to right:

      I:    Arabian Sea (Sept. 7, 2006) – The amphibious assault ship USS Iwo Jima (LHD 7) conducts
            ﬂight operations in the Arabian Sea. U.S. Navy photo by Mass Communication Specialist Airman
            Michael Minkler

      J:    Gulf of Aden (Aug. 29, 2006) – The guided-missile destroyer USS Cole (DDG 67) underway
            patrolling the Gulf of Aden as part of the Iwo Jima Expeditionary Strike Group (ESG). U.S.
            Navy Photo By Mass Communication Specialist Seaman Christopher L. Clark

      K:    Beirut, Lebanon (July 21, 2006) - Sailors assigned to the transport dock ship USS Trenton (LPD
            14) assist two young American citizens as they arrive aboard the ship from Lebanon. U.S. Navy
            photo by Lt. Karen Eifert

      L:    Coronado, Calif. (Jan 12, 2006) - Marine Staﬀ Sgt. David Cleaves, an instructor with
            Expeditionary Warfare Training Group Paciﬁc, drives a Combat Inﬂatable CraĞ, (CRIC), with
            soldiers from Japan Ground Self-Defense Force (JGSDF) during Exercise “Iron Fist.” U.S. Navy
            Photo by Photographer 2nd Class Erich J. Ryland

      M:    Fighter Squadron One Zero Two (VFA-102) launches oﬀ the ﬂight deck during ﬂight
            operations aboard USS KiĴy Hawk (CV 63). U.S. Navy photo by Mass Communication Specialist
            Seaman Joshua Wayne LeGrand

      N:    Hat Yao, Thailand (May 15, 2006) - Landing CraĞ Air Cushion Five Eight (LCAC-58) assigned
            to Assault CraĞ Unit Five (ACU-5), arrives on the beach in Thailand as part of the 25th
            anniversary of the annual U.S./Thai exercise Cobra Gold 2006. U.S. Navy photo by Journalist 2nd
            Class Brian P. Biller

      O:    Dili, Timor Leste (Aug. 29, 2006) - The Military SealiĞ Command hospital ship USNS Mercy
            (T-AH 19) sits oﬀ the coast of Dili. U.S. Navy photo by Chief Mass Communication Specialist
            Edward G. Martens

Special thanks to Admiral Gregory Smith, the Chief of Naval Information; Mr. Christopher Madden, the
Director of the Navy Visual News Service; Lieutenant Christopher Bishop, the Deputy Director of the Navy
Visual News Service; and the staﬀ of the Oﬃce of the Chief of Naval Information for providing Department of
the Navy photographs.

Many thanks also to the Financial Operations Team at the Department of the Navy (DON) Oﬃce of Financial
Operations, the extended ﬁnancial community at the DON major commands, and our accounting partners at the
Defense Finance and Accounting Service for their dedicated time and eﬀort in producing the Department of the
Navy Fiscal Year 2006 Annual Financial Report. This FY 2006 Department of the Navy Annual Financial Report
is dedicated to the men and women of our Navy and Marine Corps war-ﬁghting team.




                                                                                                               397
2006 Annual Financial Report     2006
                      Department of       Annual Financial Report
                                    the Navy
                      ANNUAL FINANCIAL REPORT
2006 Annual Financial Report 2006 Annual Financial Report
2006 Annual Financial ReportYEAR
                  FISCAL     2006 Annual
                                  2006 Financial Report
               Global Access,
2006 Annual Financial  Report Global
                                 2006Responsibility
                                        Annual Financial Report
2006 Annual Financial Report 2006 Annual Financial Report
hĴp://www.ﬁnance.hq.navy.mil
